                             UNITED STATES DEPARTMENT OF EDUCATION
                                           OFFICE OF INSPECTOR GENERAL
                                                     INVESTIGATIVE SERVICES
                                                       Washington Field Office
                                                    550 12'h Street SW. Suite 8019
                                                     Washington, DC 20202-1500
                                                        Phone (202) 245-6918
                                                         Fax (202) 245-7087


MEMORANDUM

DATE:                 January 17, 2013

TO:                   File                                                            9


FROM:                 Steven D.      Anderson~~~~
                      Special Agent in Charge

RE:                   Closing Memorandum for File 11-000491

In March 2011, USA Today published an article related to standardized testing statistical
abnormalities in District of Columbia Public Schools (DCPS), focusing on Crosby S. Noyes



~
   ucation Campus (NEC). 1n April2011, the U.S. Department of Education, Office oflnspector
  eneral (ED/OIG), agreed to assist the District of Columbia, Office of Inspector General
   C/OIG), with its investigation of fraud allegations related to standardized testing in DCPS by
  sisting with interviews and other investigative related activities. Our office opened lead 11-
000481 to determine if the reported alleged cheating impacted DCPS 's receipt of federal
education funds.

On May 3, 2011, Adell Cothorne, former Principal (August 2, 2010-July 15, 2011), NEC,
Washington, DC, filed a Federal False Claims Qui Tam lawsuit in United States District Court
for the District of Columbia. Cothorne alleged that DCPS knowingly claimed/submitted
fraudulently inflated District of Columbia Comprehensive Assessment System (DC CAS)
standardized test scores to meet the requirements of the Race to the Top (RTT) and Together
Everyone Achieves More (TEAM) awards programs, and the Blue Ribbon Schools program
(BRS). Our office closed 11-000481 and incorporated its information into a new lead file, 11-
000491, for the purpose of investigating the false claims alleged by Cothorne.

The RTT program recognized states that led the way in implementing plans for achievable and
comprehensive educational reform. RTT award recipients received a monetary award from ED
and were used to set examples for other states as they tried to reform their school systems. The
TEAM awards program was a DCPS program that provided a monetary award to school staff
and national recognition to the specific school itself. TEAM awards were limited to DCPS
schools that achieved dramatic student achievement gains along with other benchmarks and
documented how those gains and benchmarks were achieved. Funding for the TEAM awards
was provided by ED's Teacher Incentive Fund, DCPS, and private donors. The BRS program
only provided recognition by ED to schools whose students performed at a very high level or
schools with over forty percent disadvantaged students that made significant gains in academic
achievement at a state or national leveL National BRS program principal and teacher leaders are
asked to give presentations at state and regional meetings about the practices that made a
difference to the student and faculty. Other educators also visit these schools to learn about
promising leadership and instructional strategies.
 The Department of Education's mission is to promote student achievement and preparation for global competitiveness by fostering educational
                                                   excellence and ensuring equal access.
 File number 11-00491

In 2009, eight DCPS schools received TEAM awards based on their 2008-2009 DC CAS test
gains. In August 2010, DCPS was awarded approximately $75 million under the RTT program.
Since 2003, thirteen DCPS schools have received Blue Ribbon certification, and in 2009 NEC
was the only DCPS school to receive the Blue Ribbon certification.

DCPS used two types of test to measure student achievement The Benchmark Assessment
System (DC BAS) is used to track student progress and is administered four times a year. The
results of the BAS tests are internal and not used in the formula for any federal funding. The DC
CAS test is given once a year and the results are used in the formula for determining federal
funding levels.

On July 28, 2011, OIG Special Agents and the Assistant Counsel to the Inspector General, ED,
met with (b) (7)(C)        , Assistant United States Attorney (AUSA), DC, and (b) (7)(C) , Trial
Attorney, United States Department of Justice, Civil Division, DC, to interview Cothorne and
observe a presentation from Cothorne's counsel. Cothorne stated she had witnessed possible test
improprieties related to the DC BAS test scores, but she did not provide direct knowledge of
improprieties related to the DC CAS test.

The Qui Tam lawsuit was under court seal and it was determined by AUSA (b) (7)(C)and Trial
Attorney (b) (7)(C)that only ED/OIG agents would be involved in the investigation. Consequently,
ED/OIG worked with DC/OIG on interviews, but could not disclose to them information
provided via the Qui Tam. DC/OIG was not aware of the Qui Tam lawsuit until DC/OIG had
completed its investigation and was getting ready to publish a report of investigation. DC/OI G
was briefed on the Qui Tam after the Court issued a partial lift of the seal in May 2012.

On August 17, 2011,(b) (6), (b) (7)(C)                           , CTB/McGraw-Hill (CTB), was
interviewed regarding the DC CAS test. CTB developed the DC CAS questions and selected
them from a test bank armually. In 2008, CTB flagged DCPS classrooms in which wrong to
right erasures deviated from a statistical norm by a set amount. DCPS classrooms were also
flagged in 2009 and 2010. CTB determined which classrooms to flag by utilizing computer
software to determine if the marks on the DC CAS were wrong to right answers, right to wrong
answers, or wrong to wrong answers, based on shading. A mathematical formula was then used
to determine if the wrong to right erasures in a classroom deviated from the norm. If they did
deviate, CTB flagged the schools/classrooms and provided an analysis to the DC Office of the
State Superintendent of Education (OSSE).

On September 6, 2011, ED received documents subpoenaed from (b) (6), (b) (7)(C) ,
Eduneering, Inc. Eduneering was a consultant/analyst DCPS used to provide guidance related to
interpreting the statistical analysis of wrong to right answers provided by OSSE to DCPS in
November 2008. Eduneering also provided consultation related to the DCPS Assessment
                                                                                                (b) (6), (b) (7)(C)
Guidance Document and School Test Plan. A review of the documents showed
reviewed the wrong to right erasure data provided by OSSE to DCPS and provided guidance to
(b) (6), (b) (7)(C)                                                 , DCPS, on composing a response to OSSE.
(b) (6), (b) (7)(C)
                    also encouraged (b) (6), (b) (7)(C) to obtain the raw data possessed by OSSE to allow
Eduneering to potentially conduct its own analysis of possible reasons for the abnormal levels of
wrong to right erasures. The documents provided by Eduneering to ED/OIG did not provide any
evidence of false statements intentionally made by DCPS to ED. The documents did show
DCPS was notified in November 2008, of a high level of wrong to write erasures on the DC CAS
tests for schools they reviewed. The documents did not provide or indicate if a final response
from DCPS to OSSE regarding the level of wrong to right erasures was completed.
                                                                   2
 File number 11-00491

 During the course of the investigation ED/OIG received memorandum of interviews (MOis)
conducted by DC/OIG, and/or ED/OIG interviewed or assisted DC/OIG with interviews of 48
individuals. ED/OIG also received documents related to an independent investigation conducted
by Caveon Test Security, and a Local Education Agency (LEA) Investigative report to OSSE.
DC/DIG also conducted telephonic interviews in a survey format of parents ofNEC students.
No information was obtained or developed during the course of the investigation that
substantiated the allegation of false claims made to the federal government or confirmed
widespread cheating on standardized tests. Only one instance of cheating on the DC CAS was
found during our interviews and reported in the DC OIG's report on its investigation released in
August 2012. A teacher at NEC admitted to improperly aiding students and was subsequently
terminated from employment.

The following individuals were interviewed:

(b) (6), (b) (7)(C)                                            , Office of Special Education, DCPS;
 (b) (6), (b) (7)(C) , Teacher, NEC; (b) (6), (b) (7)(C)                                      , Anacostia High
 School, DCPS; (b) (6), (b) (7)(C)                                    , NEC; (b) (6), (b) (7)(C) , Teacher, NEC;
(b) (6), (b) (7)(C) , Teacher, NEC; (b) (6), (b) (7)(C)                    , Harris Elementary School,
 DCPS; (b) (6), (b) (7)(C)              (former), NEC; (b) (6), (b) (7)(C) , Teacher (former), Davis
 Elementary School, DCPS; (b) (6), (b) (7)(C) , Teacher, NEC; (b) (6), (b) (7)(C)
                                                                                                            (b) (6), (b) (7)(C)
                                 (former), DCPS; (b) (6), (b) (7)(C)                                , NEC;
(b) (6), (b) (7)(C)                                                                                             (b) (6), (b) (7)(C)
         Teacher, NEC; (b) (6), (b) (7)(C) , Teacher, Turner Elementary School, DCPS;
                                             CTB/McGraw Hill; (b) (6), (b) (7)(C)                                    ,
NEC; (b) (6), (b) (7)(C)                                          (former), OSSE, DC; (b) (6), (b) (7)(C) ,
                                                                                                                         (b) (6), (b) (7)(C)
Teacher, NEC; (b) (6), (b) (7)(C) , Custodian, NEC; (b) (6), (b) (7)(C)                           , DCPS;
(b) (6), (b) (7)(C)
        , Teacher (former), NEC; (b) (6), (b) (7)(C) , Teacher, NEC; (b) (6), (b) (7)(C) , Teacher,
NEC; (b) (6), (b) (7)(C)                             (former), NEC; (b) (6), (b) (7)(C)                , NEC;
(b) (6), (b) (7)(C)                                       , NEC; (b) (6), (b) (7)(C)                 Hearst
Elementary School (former), DCPS; (b) (6), (b) (7)(C) , Teacher (former) NEC, (b) (6), (b) (7)(C),
Teacher, NEC; (b) (6), (b) (7)(C)                                  , DCPS; (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C) , OSSE, DC; (b) (6), (b) (7)(C)                     (former), DCPS;(b) (6), (b) (7)(C) ,
Test Monitor (former), NEC; (b) (6), (b) (7)(C) , Teacher, NEC; (b) (6), (b) (7)(C)
(former, NEC; (b) (6), (b) (7)(C)                                    , NEC; (b) (6), (b) (7)(C)
           (former), DCPS;   (b) (6), (b)  (7)(C)  , Custodian, NEC; (b) (6), (b) (7)(C) , DCPS
Consultant, Eduneering, Inc.;     (b) (6), (b) (7)(C)  Test Monitor, NEC; (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)               (former), DCPS; (b) (6), (b) (7)(C) Educational Assistant, NEC;
(b) (6), (b) (7)(C)                                      , DCPS; (b) (6), (b) (7)(C), Parent of Former NEC
Student; (b) (6), (b) (7)(C)                     , DCPS;(b) (6), (b) (7)(C)              , Wilson Elementary
School, DCPS; and (b) (6), (b) (7)(C)                Teacher (former), NEC

(b) (7)(C)     , ED Office of General Counsel, completed a detailed analysis of funding under
Title I, Race to the Top, and Teacher Incentive Fund dated July 26, 2012. The following is
derived from (b) (7)(C) memorandum:

                      (b) (5)


     (b)(5)




                                                              3
File number 11-00491

(b)(5)


         (b)(5)

(b)(5)




(b)(5)




         (b)(5)

(b)(5)




(b)(5)




(b)(5)




CONCLUSION:

Based on the interviews conducted, consultation with ED/OGC and the U.S. Attorney's Office, it
appears likely that DC would have been entitled to ED funds regardless of the DC CAS test
scores. There also is no evidence that DC officials knowingly made false claims to ED to
receive federal funds. No information was obtained or developed during the course of the
investigation that substantiated the allegation of false claims made to the federal government or
confirmed widespread cheating on standardized tests. ED could not determine whether DC's
scores on the DC CAS tests would have placed it out of the funding range for ED funds as a
result of unsubstantiated allegations of widespread cheating at some DCPS schools, nor could the
actual scores be determined at this point.
                                                  4
File number 11-00491



In July 2011, the USAO Civil Division notified the DC USAO Criminal Division of the Qui Tam
filed in relation to the DC test scores. Based on the allegations and information the criminal
division chose not assign a criminal attorney at that time. In September 2012, the U.S.
Attorney's Office Civil Division opined that based on ED/OGC's analysis of the funding
programs at issue, a review of documents and interviews obtained/conducted during the
investigation, and a lack of direct knowledge by anyone interviewed of false statements made to
ED for funding, there was an insufficient basis on which to intervene. The official declination of
intervention was made on September 7, 2012, by AUSA (b) (7)(C) . The file was unsealed based on
a December 20, 2012, court order that was filed on December 26, 2012.




                                               5
                  UNITED STATES DEPARTMENT OF EDUCATION
                                  OFFICE OF INSPECTOR GENERAL
                                     INVESTIGATION SERVICES




DATE INTERVIEWED:                                August 17, 2011
PERSON INTERVIEWED:                              (b) (6), (b) (7)(C)                                           ,
                                                 CTB/McGraw-Hill
                                                 (b) (6), (b) (7)(C)
INTERVIEWED BY:                                                           , Special Agent, U.S. Department of
                                                 Education, Office of Inspector General
                                                 (b) (6), (b) (7)(C)
                                                                             Special Agent, District of Columbia,
                                                 Office of Inspector General (DC/OIG)
LOCATION:                                        District of Columbia, Office of Inspector General
                                                 717 14th Street NW
                                                 Washington, DC 20005
REFERENCE:                                       Noyes Elementary
CASE NUMBER:                                     11-000491

On August 17, 2011, (b) (6), (b) (7)(C)                                   , CTB/McGraw-Hill (CTB), was
interviewed
      (b) (6), (b) (7)(C)
                         regarding the District of Columbia Comprehensive Assessment System (DC CAS)       (b) (6), (b) (7)(C)
test.                     was accompanied by (b) (6), (b) (7)(C)                    CTB.        was
advised of the reporting agents’ identities and stated the following in substance:

The DC CAS was administered annually at District of Columbia Public Schools (DCPS). CTB
developed the DC CAS questions and selected them from a test bank annually. CTB then
printed and bound the materials. The tests were shrink wrapped in packages containing six test
booklets. The shrink wrapped packages were then boxed and shipped via a commercial shipping
company to the test administrator at each DC public school. The test administrator received and
secured the DC CAS until the day the test was administered. The shrink wrap was not to be
opened until the day of the test, and the number of tests sent to each school correlated closely to
the number of students enrolled at each school.

Upon completion of the testing the test administrator boxed all the test booklets and score sheets
and arranged for a commercial shipping company to pick up the boxes. The boxes were shipped
to a designated CTB scoring facility. When the boxes arrived at the CTB facility they were
inventoried and the score sheets imaged. If there were any testing materials missing CTB
                                                               (b) (6), (b) (7)(C)
    Date Prepared: August 18, 2011                          S/A                                    Case No: 11-000491
This report is the property of the Office of Investigation Services and is loaned to your agency; it and its contents may not be
reproduced without written permission. The report is FOR OFFICIAL USE ONLY and its disclosure to unauthorized
persons is prohibited. Public availability to be determined by 5 U.S.C. 552.

OIG-301 (11/06)                                                                                             Page 1 of 2
Person Interviewed: (b) (6), (b) (7)(C)                                                 Case No: 11-000491



contacted the Office of the State Superintendent of Education (OSSE), District of Columbia, and
had them track down the materials and ship them to CTB. In 2010, DCPS had “virtually” a
100% return rate on their testing materials, but OSSE stated a few booklets were destroyed
during shipment.

The machines used by CTB to score the tests were calibrated on a regular basis and detected the
intensity/shade of the marks on the score sheets. The scale used for shading determination
started at 0 (lightest pencil marks) up to 15 (darkest pencil marks). Any marks five or above
were considered an intended response. Marks at the one, two, or three levels were considered
“noise” and disregarded (errant pencil mark). A mark at level four was considered an erased
response. The machines used by CTB did not have the capability to analyze the type of pencil
lead used or determine if the same pencil lead was used on multiple score sheets.

Once the operations department finished with the scanning and responses the information was
turned over to the research department for analysis. The research department utilized computer
software to determine if the marks were wrong to right answers, right to wrong answers, or
wrong to wrong answers. A mathematical formula was used to determine if the wrong to right
erasures in a classroom deviated from the “norm.” Starting in 2008, CTB “flagged” the
schools/classrooms that deviated from the norm by a set amount and provided an analysis to the
OSSE. DCPS were flagged in 2008, 2009, and 2010. In 2008, (b) (6), (b) (7)(C)
                                                               , DCPS, asked CTB for assistance
in how to determine/explain the reason schools/classrooms were flagged. It was at that time
CTB started to supply the analysis related to flagged schools/classrooms.


(b) (6), (b) (7)(C)
CTB/McGraw-Hill
1221 Avenue of the Americas
New York, NY 10020
(b) (6), (b) (7)(C)




    Date Prepared: August 18, 2011               S/A C. Jones                           Case No: 11-000491

This report is the property of the Office of Investigation Services and is loaned to your agency; it and its contents may not be
reproduced without written permission. The report is FOR OFFICIAL USE ONLY and its disclosure to unauthorized
persons is prohibited. Public availability to be determined by 5 U.S.C. 552.

OIG-301 (11/06)                                                                                             Page 2 of 2
                  UNITED STATES DEPARTMENT OF EDUCATION
                                      OFFICE OF INSPECTOR GENERAL
                                         INVESTIGATION SERVICES




DATE INTERVIEWED:                                    March 12, 2012
PERSON INTERVIEWED:                                  (b) (6), (b) (7)(C)

INTERVIEWED BY:                                      (b) (6), (b) (7)(C)                             , Special Agent, U.S.
                                                     Department of Education, Office of Inspector General
LOCATION:                                            (b) (6), (b) (7)(C)


REFERENCE:                                           Noyes Elementary
CASE NUMBER:                                         11-000491

On March 12, 2012, (b) (6), (b) (7)(C)            (former), Hearst Elementary School, District of
Columbia, was interviewed regarding allegations of cheating on the District of Columbia
                                                        (b) (6), (b) (7)(C)
Comprehensive Assessment System (DC CAS) test.                              was advised of the reporting
agents’ identities and stated the following in essence:

(b) (6), (b) (7)(C)




                                                                                      (b) (6), (b) (7)(C)
Prior to (b) (6), (b) (7)(C)                   at HES the DC CAS was administered to the third grade
class that was compromised of approximately twenty-six students. The DC CAS scores showed
that approximately eighty-eight percent of the students were proficient in reading and
                                                                                                     (b) (6), (b) (7)(C)
approximately ninety-two percent of the students were proficient in math. After                                          became
familiar with the HES testing population he believed they were not currently performing at the
eighty-two and ninety-two percent test levels. After (b) (6), (b) (7)(C) at HES the DC CAS test
was administered and the test scores were not above the seventy percent proficient mark in              (b) (6), (b) (7)(C)
                                                              (b) (6), (b) (7)(C)
reading or math. In September or October of 2010
                               (b) (6), (b) (7)(C)
                                                                                  briefly spoke with         at a meeting
                                   (b) (6), (b) (7)(C)
with DCPS principals.        asked                     what he believed caused the DC CAS test scores to

                                                                (b) (6), (b) (7)(C)
    Date Prepared: March 22, 2012                           S/A                                    Case No: 11-000491
This report is the property of the Office of Investigation Services and is loaned to your agency; it and its contents may not be
reproduced without written permission. The report is FOR OFFICIAL USE ONLY and its disclosure to unauthorized
persons is prohibited. Public availability to be determined by 5 U.S.C. 552.

OIG-301 (11/06)                                                                                                     Page 1 of 2
Person Interviewed: (b) (6), (b) (7)(C)                                                           Case No: 11-000491


                      (b) (6), (b) (7)(C)                                                              (b) (6), (b) (7)(C)

drop at HES.           stated he did not believe the initial scores were correct.                                       responded in
effect, that was what she thought.
(b) (6), (b) (7)(C)
       believed HES was on the original list of schools flagged during the erasure analysis, but
                                               (b) (6), (b) (7)(C)
they were subsequently removed from that list.                     also advised HES had received a
Together Everyone Achieves More (TEAM) award approximately two years prior to his arrival.
The award was based on DC CAS test scores for approximately eighteen students and totaled
approximately $168,000.

Contact Information
(b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)




                                                              (b) (6), (b) (7)(C)
        Date Prepared: March 22, 2012                      S/A                                    Case No: 11-000491

This report is the property of the Office of Investigation Services and is loaned to your agency; it and its contents may not be
reproduced without written permission. The report is FOR OFFICIAL USE ONLY and its disclosure to unauthorized
persons is prohibited. Public availability to be determined by 5 U.S.C. 552.

OIG-301 (11/06)                                                                                                    Page 2 of 2
                                    UNITED STATES DEPARTMENT OF EDUCATION
                                          OFFICE OF INSPECTOR GENERAL
                                             INVESTIGATION SERVICES




DATE INTERVIEWED:                                                      October 20, 2011
PERSON INTERVIEWED:                                                    (b) (6), (b) (7)(C)

                                                                       (b) (6), (b) (7)(C)
INTERVIEWED BY:                                                                                , Special Agent, U.S. Department of
                                                                       Education, Office of Inspector General
LOCATION:                                                              Telephonic
                                                                       (b) (6), (b) (7)(C)

REFERENCE:                                                             Noyes Elementary
CASE NUMBER:                                                           11-000491

On October 20, 2011, (b) (6), (b) (7)(C)              ), Noyes Elementary School (NE), DC,
provided a follow-up interview regarding allegations of cheating on the District of Columbia
Comprehensive Assessment System (DC CAS) test. The initial interview took place on July 29,
                  (b) (6), (b) (7)(C)
2011.          was advised of the reporting agent’s identity and stated the following in substance:

(b) (6), (b) (7)(C)

                                                                                                                                                         (b) (6), (b) (7)(C)

                                                                                     The
grade DC BAS test consisted of a test booklet and an answer sheet, and the teachers were not
required to turn in the test booklets after the test.
(b) (6), (b) (7)(C)
         administered the DC BAS and had her students mark their answers on both the answer
                                           (b) (6), (b) (7)(C)                                                                                                (b) (6), (b) (7)(C)

sheet and the test booklet.         kept the test booklets and handed in the answer sheets to
(b) (6), (b) (7)(C)                                   , NE. At a later date, the test scores were
                                                 (b) (6), (b) (7)(C)
provided to the teachers, and          observed some of the students’ test scores appeared to be          (b) (6), (b) (7)(C)
higher than their level of work performed in the classroom.           then compared the answers
in the test booklets against the answers reported from the answer sheets for approximately two to
three students. It appeared these two to three students had more correct answers reported from
the answer sheet scores compared to what their test booklet answers indicated. (b) (6), (b) (7)(C)                              (b) (6), (b) (7)(C)
was one of the students whose answer sheet and test booklet score differed.             also looked
at some of the third grade test scores, and it appeared some of the students had performed better
in third grade compared to fourth grade.

                                                                                    (b) (6), (b) (7)(C)
    Date Prepared: October 21, 2011                         S/A                                    Case No: 11-000491
This report is the property of the Office of Investigation Services and is loaned to your agency; it and its contents may not be
reproduced without written permission. The report is FOR OFFICIAL USE ONLY and its disclosure to unauthorized
persons is prohibited. Public availability to be determined by 5 U.S.C. 552.

OIG-301 (11/06)                                                                                                                                 Page 1 of 2
Person Interviewed: (b) (6), (b) (7)(C)                                                           Case No: 11-000491


(b) (6), (b) (7)(C)
        discussed the irregularities with (b) (6), (b) (7)(C)                                             NE.
(b) (6), (b) (7)(C)
            stated he also observed the same types of irregularities between the test booklets and
                                                    (b) (6), (b) (7)(C)
answer sheet answers in his classroom.                        informed (b) (6), (b) (7)(C)             , NE, about
                    (b) (6), (b) (7)(C)              (b) (6), (b) (7)(C)
the discrepancies.       (b) (6)
                                        acknowledged                     concerns and inferred she would take care
of the problem.                stated she had no other knowledge related to any irregularities in test
scores at NE.


(b) (6), (b) (7)(C)




                                                                          (b) (6), (b) (7)(C)
         Date Prepared: October 21, 2011                         S/A                              Case No: 11-000491

This report is the property of the Office of Investigation Services and is loaned to your agency; it and its contents may not be
reproduced without written permission. The report is FOR OFFICIAL USE ONLY and its disclosure to unauthorized
persons is prohibited. Public availability to be determined by 5 U.S.C. 552.

OIG-301 (11/06)                                                                                             Page 2 of 2
                         Office of The Inspector General
                              Investigations Division

                               Memorandum of Interview



To:    File

From: SA (b) (6), (b) (7)(C)

Date: March 22, 2012

Re:   2011-0318
________________________________________________________________________

Date of Interview:     March 21, 2012

Time Began: 12:35 p.m.                 Time Ended: 1:55 pm

Location of Interview:         DCPS, Office of the Chancellor
                               1200 First St, NE, Washington, DC

Persons Present:       Special Agent (SA) (b) (6), (b) (7)(C)
                       Special Agent (SA) (b) (6), (b) (7)(C)

Person Interviewed: (b) (6), (b) (7)(C)        , DC Public Schools
                    Work Address: 1200 First Street, NE, Washington, D.C.
________________________________________________________________________
                         SUMMARY OF INTERVIEW
________________________________________________________________________

After being apprised of the identity of the interviewing agents and the nature of the
interview, (b) (6), (b) (7)(C) voluntarily provided the following information:

(b) (6), (b) (7)(C)




After the September 20, 2010, Mayoral elections in D.C., there was a period of transition
at DCPS when (b) (6), (b) (7)(C)
                                                                                  .
                                                                                                              2

(b) (6), (b) (7)(C)
               stated that (b) (6), (b) (7)(C)                          at the Office of the State
Superintendent of Education (OSSE) at that time.

In reference to the McGraw-Hill/DC-CAS test controversy, (b) (6), (b) (7)(C) said that
OSSE directed DCPS to start an investigation based on the high level of wrong-to-right
(WTR) erasures found at a number of schools. (b) (6), (b) (7)(C) mentioned that there were
differences and changes in two different lists provided to DCPS by OSSE, and because of
these differences, DCPS never reached a resolution on the 2008 DC CAS scores.
Additionally, (b) (6), (b) (7)(C) said they (DCPS) were not prepared to conduct
investigations and they had no methodology established. (b) (6), (b) (7)(C) said that she did not
see the lists and that she, at the time, was involved only in “human capital.”

(b) (6), (b) (7)(C)
          (b) (6), (b) (7)(C) said that changes occurred and it was the first time they,(b) (6), (b) (7)(C)
and other unnamed DCPS senior officials, started dealing with state assessments.
(b) (6), (b) (7)(C)
               said that she was not directly involved with the erasure issue, and said
“me personally, I didn’t see numbers.” (b) (6), (b) (7)(C) said that (b) (6), (b) (7)(C)
                              , DCPS, was the expert on this.

In reference to the USA Today article, (b) (6), (b) (7)(C) said that a number of people
looked at the statistics and said, “our analytical folks couldn’t see how USA Today folks
made that leap” in reference to the allegations in the article. (b) (6), (b) (7)(C)said that
                                               (b) (6), (b) (7)(C)
after the 2009 results came out,          followed OSSE’s recommendations and
summarily hired Caveon because they were known experts in this field.
(b) (6), (b) (7)(C)
                 said that at that time, OSSE provided them no support and that DCPS
paid for the Caveon investigation themselves. According to (b) (6), (b) (7)(C), Caveon
found no definitive evidence of cheating, but they did recommend stricter protocols for
the testing. In February 2010, (b) (6), (b) (7)(C) said that Caveon provided its final report.
DCPS sent the Caveon report to OSSE about two weeks later.
(b) (6), (b) (7)(C)
               said that they removed people from the testing environment based on the
Caveon report, but no one was fired from his/her job and no definitive evidence of
cheating was uncovered by Caveon.
(b) (6), (b) (7)(C)
                said that people started questioning the Caveon investigation. (b)       (6), (b) (7)
                                                                                     (C)
said that they knew that they (DCPS) couldn’t conduct an investigation for reasons of an
appearance of impropriety in investigating themselves, plus they were not equipped to do
an investigation. (b) (6), (b) (7)(C)said that they spent $100,000 on the Caveon study and then
“we get questioned about the independent study.”
                              (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)
                  said that        recommended Caveon to the Atlanta, Georgia school
district for the test cheating allegations they were experiencing. (b) (6), (b) (7)(C) said that
upon initial review, Caveon recommended a fuller suite of services for their Atlanta
investigation, indicating that Atlanta’s problems seemed to be much worse than D.C.’s.
Unlike D.C., Atlanta was experiencing numerous telephonic complaints from unknown

    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                                                                                 3


sources complaining about cheating taking place on their statewide exams.
(b) (6), (b) (7)(C)
                said that for D.C., Caveon found no evidence of cheating, nor has D.C.
received the anonymous complaints that Atlanta experienced.
(b) (6), (b) (7)(C) recalled a USA Today reporter saying “forget about Caveon….what does
your gut tell you?” alluding to opinions that some felt there had been cheating.
(b) (6), (b) (7)(C) said that she and DCPS did not have the proper tools at their disposal for
deeper analysis, and neither did OSSE. After she was informed of concerns from a
number of sources (unnamed) that the Caveon investigation may have been insufficient,
she decided to refer the matter to the Office of the Inspector General out of an abundance
of caution, even though she had no additional evidence to provide to investigators.
(b) (6), (b) (7)(C) said that it is her hope that regardless of what is found in the final report,
this matter can be put to rest.
(b) (6), (b) (7)(C)
                 said that as a result of the recent investigations, OSSE has re-assumed its
responsibility to look at irregularities in statewide exams. OSSE informs DCPS what
classrooms they have “flagged.” OSSE has retained the services of Alvarez/Marshal to
assist with reviews and establishing protocols. She said OSSE measures have changed
and that they are now looking at irregularities in DC CAS scores over longer periods of
time, plus the incidences of WTR test sheet erasures.
(b) (6), (b) (7)(C) stated that now approximately every 6 weeks mini-exams are given to
students to help prepare them in a lead up to the CAS. (b) (6), (b) (7)(C) said that as OSSE
flags a number of classrooms, DCPS continues to flag classrooms as well. She said
OSSE now also is looking at newer methodologies for better test controls.
(b) (6), (b) (7)(C) said that she felt there still isn’t an acceptable standard for investigations
and/or flagging. She has requested new guidelines and technical assistance from OSSE.
(b) (6), (b) (7)(C) mentioned that approximately seven months after she related her concerns
to OSSE, she received a call saying “you were right….we need to set standards.”

In reference to TEAM Awards, (b) (6), (b) (7)(C) said that before 2007, DCPS and New
Leaders/New Schools issued awards that came from Teachers Incentive Fund (TIF)
grants which came from the U.S. Department of Education (ED). These incentive awards
were only issued to teachers and principals. She mentioned a figure of $25,000 as a
previous award for a principal. (b) (6), (b) (7)(C) stated that DCPS did not want to limit the
awards to just teachers and principals, as they felt that all school employees contributed
to the success of a school. They brought their proposal to expand the award program to
the federal government. She said that the federal authorities liked the idea, but they still
limited the awards using federal money to principals and teachers. That left it up to
DCPS to raise money via private donations to reward non-teaching staff at deserving
schools.




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                                                                                  4


The federal grants for this program were 5-year grants beginning in the 2006/2007 school
year. To qualify for the rewards, a school needs a minimum of a 20 percent gain or
improvement in the measured criteria.
(b) (6), (b) (7)(C) said that in 2007/2008, DCPS personnel became aware of the new TEAM
awards, and the criteria on which the awards were granted. (b) (6), (b) (7)(C) said that she
believed it made people work harder to improve schools, but also admitted that it could
cause some people to cheat, especially with the amount of cash awards. Principals
received $10,000, teachers received $8,000, educational assistants received $4,000-
$6,000, and even custodial staff received $2,000.
(b) (6), (b) (7)(C) said that DCPS had protocols in place to decrease chances of cheating.
She referred back to the situation in Atlanta where she said people were making calls and
reporting instances of cheating there. (b) (6), (b) (7)(C) said the situation in D.C. was
different. No such calls or outside reports of cheating were made here. (b) (6), (b) (7)(C)
related a story of a recent article about an IMPACT teacher who claimed he/she was fired
because of previous cheating. (b) (6), (b) (7)(C) was making a point that she believed D.C.
to be a small town with a culture of “tattle-tales” and if there had been cheating in the
schools, someone would have reported it. She said no such calls or reports happened in
D.C.

When asked about the interviews conducted during the investigation and reports of
“central office” staff present in some of the teacher interviews, (b) (6), (b) (7)(C) said that
she wasn’t involved in the managing of Caveon and was unaware of those statements.
(b) (6), (b) (7)(C) stated that (b) (6), (b) (7)(C)would be the best person to ask about that.


When asked about Blue Ribbon status, (b) (6), (b) (7)(C) said it was just a measure, or a
title, given by the U.S. Department of Education to a school deemed to have an
outstanding program across a wide range of criteria.
(b) (6), (b) (7)(C)    was asked about (b) (6), (b) (7)(C) , teacher, Stanton Elementary School,
the instance of a high number of erasures in his classroom, and the Caveon report that
said he was not as forthcoming as he could have been. (b) (6), (b) (7)(C) recalled that it
was decided that he should be removed from the testing environment, but said that
recommendation did not originate with her, but that (b) (6), (b) (7)(C) had recommended it
   (b) (6), (b) (7)(C)

to            . (b) (6), (b) (7)(C) said that there was nothing conclusive determined about
(b) (6), (b) (7)(C) behavior, but they decided to pull him out of the testing process. When
asked about the instance where three proctors were assigned to (b) (6), (b) (7)(C) testing
room, in addition to a substitute teacher, (b) (6), (b) (7)(C) said that was not standard and
that she did not think that DCPS would issue that directive. (b) (6), (b) (7)(C) said that she
did not know that three proctors ended up in one room and questioned the reasoning for
that staffing level. She also questioned the principal’s thought process in allowing
(b) (6), (b) (7)(C)
                    to serve as one of the proctor’s in his own classroom, even though he did
not handle any testing materials.



    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                                                                                                                  5


After the 2010 testing was over, (b) (6), (b) (7)(C) said that she knows that (b) (6), (b) (7)(C)
was terminated. She said that (b) (6), (b) (7)(C) had been investigated and charged with
“corporal punishment” and was fired due to that issue, and not with anything dealing with
the DC CAS administration.
                                           (b) (6), (b) (7)(C)
When asked about Stanton’s                                     at the time, (b) (6), (b) (7)(C), (b) (6), (b) (7)(C)
said that he was “non-reappointed” and that she knew for sure that there were significant
concerns regarding Stanton’s yearly progress. (b) (6), (b) (7)(C) called Stanton a “horrible
little elementary school” and said that (b) (6), (b) (7)(C) was hired to turn that school
around. When things at Stanton declined, getting worse instead of better, the(b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)
                    fired him. (b) (6), (b) (7)(C) said that they re-constituted the school, meaning they
released the entire teaching staff at the school. She said that when a school is re-
constituted, only a maximum of 20 percent of the original personnel from that school
would be allowed to return to positions at Stanton after re-applying. The other 80% can
apply for other open positions within DCPS, or else they are removed from the payroll.
                                                         (b) (6), (b) (7)(C)

When asked about                                             grade Teacher, Burrville Elementary School,
(b) (6), (b) (7)(C) said that she (b) (6), (b) (7)(C) was cleared by Caveon. (b) (6), (b) (7)(C) said she
didn’t know for sure, but thought that it was OSSE that invalidated the test scores for
(b) (6), (b) (7)(C)                                  (b) (6), (b) (7)(C)
                    classroom in 2009, based on                          testimony to Caveon that she (MOSES)
thought it was the teacher’s responsibility to clean up stray marks on the DC CAS answer
                                                                               (b) (6), (b) (7)(C)
sheets. (b) (6), (b) (7)(C) said that she didn’t know about                                        actions during the DC
                                                                                                               (b) (6), (b) (7)(C)
CAS the following year, and she isn’t aware of any adverse action regarding                                                        .
(b) (6), (b) (7)(C)
                 mentioned that the person who was principal of Burrville in 2009 is no
longer there and that Burrville has a new principal, although she was unable to provide
either of their names.

In reference to J.O. Wilson Elementary School (JOW) and the newspaper reports that
80% of its classrooms had been flagged in 2009 for a high amount of WTR erasures,
(b) (6), (b) (7)(C) said that they didn’t discuss individual schools. (b) (6), (b) (7)(C) did say
that she knows JOW personally and said that if you walked into the school you would see
the kind of teaching there you would be thrilled about.(b) (6), (b) (7)(C) said walking into
JOW, you would see quality, engagement, and rigor. (b) (6), (b) (7)(C) described it as “a
great school.” In fact, when the new OSSE Superintendent moved to D.C., she called
(b) (6), (b) (7)(C) and asked what public school would be best for her child to attend.
(b) (6), (b) (7)(C) immediately replied JOW, based on her personal knowledge of the
quality of education at JOW.

In reference to an unnamed news reporter’s comments about JOW and (b) (6), (b) (7)(C)
offer to take that reporter to see the school firsthand, she said the reporter repl(b) (6), (b) (7)(C)
have time to go over to JOW.” (b) (6), (b) (7)(C) was a bit frustrated over the reporter’s
attitude. (b) (6), (b) (7)(C) said that she was unaware of the 80% erasure analysis received
by JOW, but did not believe it was due to any cheating on the DC CAS by JOW staff.



    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                                                                                 6


In conclusion, (b) (6), (b) (7)(C) said that OSSE has picked up on their responsibility since
2010. She said there were more things that could be done on the front end, but there are
still resource constraints. The challenge, she said, is that people are not confident that
they (DCPS) had mitigated enough. She mentioned that testing is one of the few
objective measures they have at their disposal, and she knows that they need to
demonstrate progress. (b) (6), (b) (7)(C) said tightening up investigations on the back end
is another goal. (b) (6), (b) (7)(C) finished up by saying that “this is new for us.” She said
she sent out letters to teachers, parents, and others asking them to cooperate with the
process and to just come in and tell the truth if they have any evidence of cheating or
fraud.
(b) (6), (b) (7)(C)
             is not aware of any other allegations of cheating or fraud related to the
DC CAS at any DCPS facility.




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                  UNITED STATES DEPARTMENT OF EDUCATION
                                  OFFICE OF INSPECTOR GENERAL
                                     INVESTIGATION SERVICES




DATE INTERVIEWED:                                August 31, 2011
PERSON INTERVIEWED:                              (b) (6), (b) (7)(C)                      ,(b) (6), (b) (7)(C)
                                                 Department of Elementary and Secondary Education
INTERVIEWED BY:                                  (b) (6), (b) (7)(C)                      , Special Agents, U.S.
                                                 Department of Education, Office of Inspector General
LOCATION:                                        (b) (6), (b) (7)(C)
                                                 (b) (6), (b) (7)(C)
REFERENCE:                                       Noyes Elementary
CASE NUMBER:                                     11-000491

On August 31, 2011, (b) (6), (b) (7)(C)                                              Office of
State Superintendent of Education (OSSE), District of Columbia, was interviewed regarding
allegations of cheating on the District of Columbia Comprehensive Assessment System test (DC
CAS). (b) (6), (b) (7)(C)         (b) (6), (b) (7)(C)                                     ,
                                                                                         (b) (6), (b) (7)(C)

(b) (6), (b) (7)(C)                                                    was advised of the
reporting agents’ identities.     stated the following in substance:

(b) (6), (b) (7)(C)




(b) (6), (b) (7)(C)
                    In fall 2008, OSSE staff observed some of the DCPS had a “high” increase in
test scores on their spring 2008 DC CAS. The OSSE staff was concerned due to the fact there
had not been a recent dynamic leadership change in the DC school system. During that time,
OSSE asked questions related to how the DC CAS was administered. OSSE also asked McGraw
Hill/CTB (CTB), the manufacturer of the DC CAS test, to conduct an erasure analysis. The DC
CAS erasure analysis showed “many” schools were outside of the statistical norm for wrong to
right erasures.
                                                               (b) (6), (b) (7)(C)
    Date Prepared: September 1, 2011                        S/A                                    Case No: 11-000491
This report is the property of the Office of Investigation Services and is loaned to your agency; it and its contents may not be
reproduced without written permission. The report is FOR OFFICIAL USE ONLY and its disclosure to unauthorized
persons is prohibited. Public availability to be determined by 5 U.S.C. 552.

OIG-301 (11/06)                                                                                                Page 1 of 2
Person Interviewed: (b) (6), (b) (7)(C)                                                                              Case No: 11-000491


                                          (b) (6), (b) (7)(C)

In approximately October 2008,       contacted (b) (6), (b) (7)(C)       DCPS, regarding the
                                                                 (b) (6), (b) (7)(C)   (b) (6), (b) (7)(C)

large amount of wrong to right erasures.     informed       the OSSE was going to ask for an
investigation. There was no response from the Chancellor’s Office. A follow-up contact by the
OSSE to the Chancellor’s Office also yielded no response.

In November 2008, a letter was sent to the DCPS Chancellor’s Office asking for a response
regarding the erasure analysis. The Chancellor’s Office asked questions regarding how the
wrong to right erasures were statistically tabulated and then asked for the analysis to be tabulated
in a different statistical manner. In approximately January 2009, the Chancellor’s Office sent an                             (b) (6), (b) (7)(C)

official letter asking for an extension on their response, which the OSSE granted.        stated it
“appeared” the Chancellor’s Office was “stalling” and may have wanted to find a way to show
the data process used to determine the high number of wrong to right erasures was inaccurate.
(b) (6), (b) (7)(C)                   were staff members at OSSE that conducted some of the
conversations with the Chancellor’s Office. (b) (6), (b) (7)(C)
                                                  .


(b) (6), (b) (7)(C)




                                                                (b) (6), (b) (7)(C)
    Date Prepared: September 1, 2011                    S/A                                                  Case No: 11-000491

This report is the property of the Office of Investigation Services and is loaned to your agency; it and its contents may not be
reproduced without written permission. The report is FOR OFFICIAL USE ONLY and its disclosure to unauthorized
persons is prohibited. Public availability to be determined by 5 U.S.C. 552.

OIG-301 (11/06)                                                                                                               Page 2 of 2
                  UNITED STATES DEPARTMENT OF EDUCATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                       INVESTIGATION SERVICES




DATE INTERVIEWED:                                                          August 12, 2011
                                                                           (b) (6), (b) (7)(C)
PERSON INTERVIEWED:
                                                                           (b) (6), (b) (7)(C)
INTERVIEWED BY:                                                                                                           , Special Agent, U.S. Department of
                                                                           Education, Office of Inspector General
                                                                           (b) (6), (b) (7)(C)
                                                                                                                         , Special Agent, District of Columbia,
                                                                           Office of Inspector General (DC/OIG)
LOCATION:                                                                  District of Columbia, Office of Inspector General
                                                                           717 14th Street NW
                                                                           Washington, DC 20005
REFERENCE:                                                                 Noyes Elementary
CASE NUMBER:                                                               11-000491

On August 12, 2011, (b) (6), (b) (7)(C)                   Noyes Elementary School, DC, was
interviewed regarding allegations of cheating on the District of Columbia Comprehensive
                                                                          (b) (6), (b) (7)(C)                                                                 (b) (6), (b) (7)(C)
Assessment System (DC CAS) test.                  was accompanied by her union representative   (b) (6), (b) (7)(C)
         (b) (6), (b) (7)(C)
      of                     and Associates, P.C.       was provided a Garrity warning by DC/OIG            (b) (6), (b) (7)(C)

and advised of the reporting agents’ identities.           stated the following in substance:

(b) (6), (b) (7)(C)



(b) (6), (b) (7)(C)                                                 (b) (6), (b) (7)(C)


                    (b) (6), (b) (7)(C)
                                           was also a member of Noyes’ management team that
                                          (b) (6), (b) (7)(C)

was created by        .       recalled the first management team may have started in 2007 and
consisted of the following Noyes staff: (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C). The job of the management team was to report to the principal what was
                                              (b) (6), (b) (7)(C)

going on in the school.         would coordinate the dates of the school programs and any
clothing or financial needs related to the school programs.

                                                                                                               (b) (6), (b) (7)(C)
    Date Prepared: August 18, 2011                          S/A                                    Case No: 11-000491
This report is the property of the Office of Investigation Services and is loaned to your agency; it and its contents may not be
reproduced without written permission. The report is FOR OFFICIAL USE ONLY and its disclosure to unauthorized
persons is prohibited. Public availability to be determined by 5 U.S.C. 552.

OIG-301 (11/06)                                                                                                                                      Page 1 of 2
Person Interviewed: (b) (6), (b) (7)(C)                                                                        Case No: 11-000491


(b) (6), (b) (7)(C)   (b) (6), (b) (7)(C)
      was a          for the DC CAS test at Noyes in 2001, 2002, and possibly 2008. In 2001,
the Noyes testing took place at the Hamilton School due to renovations in the Noyes building.
                                              (b) (6), (b) (7)(C)

For the past three years,       was a hall monitor during the DC CAS. There were also monitors                   (b) (6), (b) (7)(C)

from outside of Noyes present during the administration of the tests.       was not aware of any                                                             (b) (6), (b) (7)(C)

teachers instructing students or providing answers while the DC CAS was taking place.
also was not aware of any staff altering answers on the DC CAS.
(b) (6), (b) (7)(C)

      did not know Noyes received a monetary TEAM (Together Everyone Achieves More)
award from the District of Columbia for the 2006-2007 school year until (b) (6),
                                                                        (b) (7)
                                                                                 announced it at a
Christmas program. Under the TEAM award every staff member of the school(C)       receives a pre-
determined monetary award for improved DC CAS test scores and increased student attendance.
(b) (6), (b) (7)(C)

      received approximately $8000 in TEAM award money for the 2006-2007 school year.                                                  (b) (6), (b) (7)(C)

Noyes was awarded another TEAM award for the 2008-2009 school year, and                also
received approximately $8000.

In 2009-2010, Noyes’ DC CAS scores dropped “significantly” from previous years test scores.
(b) (6), (b) (7)(C)

      was unaware of any drop in test scores and stated Noyes’ students always did well on tests.
(b) (6), (b) (7)(C)

      stated the lower test scores were not discussed during any management team meetings,
where she was present, but she missed some meetings due to having to teach music classes.

In spring 2010, (b) (6), (b) (7)(C)                                        at Noyes and was (b) (6), (b) (7)(C)                                                           (C)
(b) (6), (b) (7)(C) at DCPS. In summer 2010,                     (b) (6), (b) (7)(C)

stated (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)
                                                                                                                      .
                                                          (b) (6), (b)
        did not elaborate further. Under (7)(C)                           the management team met a couple of more
                                                                                                , (b) (7)(C)

times and then(b)       (6), (b)
                    (7)(C)
                                     disbanded        the  team.               was not aware of the management team
                                                                     (b) (6), (b) (7)(C)

discussing not to work with(b)               (6), (b)
                                          7)(C)
                                                        .            did   not  recall attending any meeting with the
                                 (b) (6),
management staff and (b) (7) in January 2011.
                                            (C)

(b) (6), (b) (7)(C)




                                                                          (b) (6), (b) (7)(C)
          Date Prepared: August 18, 2011                            S/A                                        Case No: 11-000491

This report is the property of the Office of Investigation Services and is loaned to your agency; it and its contents may not be
reproduced without written permission. The report is FOR OFFICIAL USE ONLY and its disclosure to unauthorized
persons is prohibited. Public availability to be determined by 5 U.S.C. 552.

OIG-301 (11/06)                                                                                                                                   Page 2 of 2
                         UNITED STATES DEPARTMENT OF EDUCATION
                                     OFFICE OF INSPECTOR GENERAL
                                        INVESTIGATION SERVICES




DATE INTERVIEWED:                                March 9, 2012
                                                 (b) (6), (b) (7)(C)
PERSON INTERVIEWED:
INTERVIEWED BY:                                  (b) (6), (b) (7)(C)                                                     , Special Agents,
                                                 U.S. Department of Education, Office of Inspector
                                                 General
LOCATION:                                        (b) (6), (b) (7)(C)
                                                       (b) (6), (b) (7)(C)




                                                                                                   (b) (6), (b) (7)(C)
                                                 Washington, DC
REFERENCE:                                       Noyes Elementary
CASE NUMBER:                                     11-000491

On March 9, 2012, (b) (6), (b) (7)(C)                              of Office of School Innovation (former),
District of Columbia Public Schools (DCPS), was interviewed regarding allegations of cheating
on the District of Columbia Comprehensive Assessment System (DC CAS) test. Also present at
the meeting was Assistant United States Attorney (b) (7)(C) , Civil Division, Washington,
     (b) (6), (b) (7)(C)
DC.                      was advised of the reporting agents’ identities and stated the following in essence:

(b) (6), (b) (7)(C)



               (b) (6), (b) (7)(C)
During                     employment at DCPS his supervisors were: (b) (6), (b) (7)(C)
                                                                                           (b) (6), (b) (7)(C)
                                                    , DCPS. Starting in July 2010,
                                                                             (b) (6), (b) (7)(C)
                                                                                                               reported to
(b) (6), (b)    (7)(C)
           (b) (6), (b) (7)(C)
                                                  , DCPS.          reported to (b) (6), (b) (7)(C)
                                                                       (b) (6), (b) (7)(C)
                                                                                                                           ,
                                                                (b) (6), (b) (7)(C)
DCPS, and                      also had interactions with     .                     position was responsible for
overseeing the implementation of various educational learning models within District of
Columbia schools.
(b) (6), (b) (7)(C)
          was unable to recall the date when he first became aware of the DCPS cheating
                                                            (b) (6), (b) (7)(C)
allegations, but he believes it was through media articles.                     was not involved in any
meetings related to the cheating allegations and did not have any direct knowledge of the
                                                                         (b) (6), (b) (7)(C)
    Date Prepared: March 23, 2012                           S/A                                    Case No: 11-000491
This report is the property of the Office of Investigation Services and is loaned to your agency; it and its contents may not be
reproduced without written permission. The report is FOR OFFICIAL USE ONLY and its disclosure to unauthorized
persons is prohibited. Public availability to be determined by 5 U.S.C. 552.

OIG-301 (11/06)                                                                                                                 Page 1 of 2
Person Interviewed: (b) (6), (b) (7)(C)                                                                      Case No: 11-000491


                                          (b) (6), (b) (7)(C)
cheating allegations. All of              information regarding the DCPS cheating allegations was
                                     (b) (6), (b) (7)(C)
acquired from public media outlets.                      position did not require him to be involved in
any discussions involving these allegations.
(b) (6), (b) (7)(C)
                    spoke with (b) (6), (b) (7)(C) (former), Noyes Elementary School (NES),
regarding the application of educational models, but they never discussed the cheating
allegations. In (b) (6), (b) (7)(C)                                                                            , DCPS, and oversaw
                                                                                                                  (b) (6), (b) (7)(C)
Noyes as one of his schools. In August 2010, (b) (6), (b) (7)(C) was hired as                                                         of NES.
(b) (6), (b) (7)(C)                                                  (b) (6), (b) (7)(C)
                    stated he did have a conversation with                                where she informed him she was
concerned about meeting testing expectations at NES. This was based on the performance level
                      (b) (6), (b) (7)(C)                                         (b) (6), (b) (7)(C)
of students                               had observed in the classrooms.                             also discussed difficulties she
was having related to managing a school where the instructional superintendent was the previous
                     (b) (6), (b) (7)(C)
principal.                               did not know (b) (6), (b) (7)(C)
                            , NES.
(b) (6), (b) (7)(C)
          was not involved in reviews for the Together Everyone Achieves More (TEAM)
                                                                                                       (b) (6), (b) (7)(C)
awards, but he was involved with the Race to the Top Award program at DCPS.                                                            (b) (6), (b) (7)(C)

work on the Race to the Top Program consisted of reading award section drafts and assisting
                                                                                                                 (b) (6), (b) (7)(C)
                                     , with drafting sections related to school turn around.                                 (
                                                                           (b) (6), (b) (7)(C)
was not involved in collecting performance data for the schools, but                            was the
manger and (b) (6), (b) (7)(C) was the point person for DCPS and Race to the Top. OSSE was also
                                                                                          (b) (6), (b) (7)(C)
actively involved with overseeing the Race to the Top Award program, but                                      could not
provide any names.
                                                       (b) (6), (b) (7)(C)
The employees/cabinet members in                                             office were:

(b) (6), (b) (7)(C)




Contact Information
(b) (6), (b) (7)(C)




                                                                                    (b) (6), (b) (7)(C)
       Date Prepared: March 23, 2012                                          S/A                            Case No: 11-000491

This report is the property of the Office of Investigation Services and is loaned to your agency; it and its contents may not be
reproduced without written permission. The report is FOR OFFICIAL USE ONLY and its disclosure to unauthorized
persons is prohibited. Public availability to be determined by 5 U.S.C. 552.

OIG-301 (11/06)                                                                                                        Page 2 of 2
                            Office of The Inspector General
                                 Investigations Division

                                  Memorandum of Interview



To:           File

From: (b) (6), (b) (7)(C), Special Agent

Date: April 3, 2012

Re:   2011-0318
________________________________________________________________________

Date of Interview:       March 29, 2012

Time Began: 3:40 pm                                Time Ended: 4:15 pm

Location of Interview:            (b) (6), (b) (7)(C)
Persons Present:         Special Agent (b) (6), (b) (7)(C)
                         Special Agent (b) (6), (b) (7)(C)

Person Interviewed: (b) (6), (b) (7)(C) , former Teacher, Davis Elementary School, DCPS

                         Home Address: (b) (6), (b) (7)(C)

                         Cellular Telephone Number:        (b) (6), (b) (7)(C)


________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________

After being advised of the identity of the interview agents, and the nature of the
           (b) (6), (b) (7)(C)
interview,                     voluntarily provided the following information:
(b) (6), (b) (7)(C)
            was hired by DCPS in the (b) (7)(C), (b) (6)
                                    (b) (6), (b) (7)(C)
                                                        taught grade at Davis Elementary School (DES).
            explained that DES was a “re-constituted” school, meaning that at the end of
the previous school year, the entire teaching staff and the principal were laid off, due to
poor school performance. There was one classroom per grade level at DES in
(b) (7)(C), , and (b) (6), (b) (7)(C) had anywhere from 24-28 students in his classroom during the
(b) (6) year.
school
                                                                                                                                            2


Under the IMPACT teacher evaluation system, teachers are rated “ineffective,”
“minimally effective,” “effective,” and “highly effective.” Teachers are rated on real-
time classroom evaluations from three different individuals, which accounts for 50% of
your evaluation, and the other 50% is based on the student’s average DC CAS scores.
(b) (6), (b) (7)(C)
                    stated that he did well on his classroom evaluations, needing only an effective
observation by the end of the year to pass. However, he was notified, via letter, that he
was being terminated at the end of the school year, due to a low IMPACT rating, which
                                                                           (b) (6), (b) (7)(C)
was apparently caused by his student’s low DC CAS scores.                                      stated that he was
terminated before he actually got to see his student’s scores, but was told by the (b)
                                                    of the reason for the termination letter from       (7) the
                                                                                                        (C),
DCPS central office.                       stated that (b) (7)(C), (b) (6)         thought highly(b)     of
(b) (6), (b) (7)(C)
                    and his teaching methods, and attempted to get his termination overruled;           (6)
however, she was unsuccessful.
(b) (6), (b) (7)(C)
            feels that the IMPACT evaluation system was unfair, due to its heavy rating on
test scores, and the pressure it places on first year teachers.
(b) (6), (b) (7)(C)
                      was informed sometime near the beginning of his school year that his students
scored fairly highly during their DC CAS in the previous school year under (b) (6), (b) (7)(C)
                                                                               (b) (6), (b) (7)(C)
                  (b) (6), (b) (7)(C)
(FNU).                                was told by the current    grade teacher that there was “something
                                                                  (b) (6), (b) (7)(C)

fishy” going on with the previous year’s                      grade class from DES that was taught by
(b) (6), (b) (7)(C) (b) (6), (b) (7)(C)
                   .                     class was flagged for a high number of wrong-to-right (WTR)
erasures, and unusually high scores for a school that averaged only 20% proficient on                (b) (6), (b) (7)(C)

reading and math scores. Both of the previous year’s
                      (b) (6), (b) (7)(C)
                                                                            grade classes were merged into
one             grade class in 2010/2011.
(b) (6), (b) (7)(C)                                                                                           (b) (6), (b) (7)(C)
            was informed that the (b) (7)(C), (b) (6) (whom
                                            (b) (6), (b) (7)(C)
                                                                                                              could not identify),
                                                                                                                        (b) (6), (b) (7)(C)
was unhappy with both                 grade teachers and had them terminated. After                                                         saw
his student’s previous year scores, he questioned how some of them scored proficient,
                                                                           (b) (6), (b) (7)(C)
when he noticed they struggled in certain areas.                                               recalled two students who
                                                                          (b) (6), (b) (7)(C)
allegedly scored proficient in reading; however,                                               gauged that they were only
                                                     (b) (6), (b) (7)(C)
reading at a 1st grade reading level.                                    could not recall the name of either of these
           (b) (6), (b) (7)(C)
students.                      stated that it was clear a majority of his students were struggling,
                                                                                                      (b) (6), (b) (7)(C)
even though they scored proficient during the previous year under
(b) (6), (b) (7)(C)
                                                                                                                          or the other
                                          (b) (6), (b) (7)(C)
    grade teacher, whose name                                   could not recall.
(b) (6), (b) (7)(C)
            stated that “red-flagged” classrooms can come back on teachers. Because of
inflated scores, which may or may not have been caused by cheating, teachers whose
student scores drop on the DC CAS can be very damaging. Small fluctuations are
normal; however if the student drops two levels, i.e. from proficient to below basic, then
                                                           (b) (6), (b) (7)(C)
the teacher is penalized, almost always with termination.                      stated teachers are
afraid to talk about this dilemma.
(b) (6), (b) (7)(C)
                     stated that (b) (7)(C), (b) (6)  is working hard to turn DES around, and has
made allowances for veteran teachers. Although (b) (7)(C), (b) (6)                tried to help
(b) (6), (b) (7)(C)
                    , rookie teachers are unable to keep their jobs due to the IMPACT evaluation

      This document contains neither recommendations nor conclusions of the Office of the
   Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
                and its contents are not to be distributed outside your agency.
                                                                                                      3

                           (b) (6), (b) (7)(C)
system. The lesson, as                         feels, is the position teachers are put in, in which DCPS
has created a system where you have to make a moral decision putting a test before
             (b) (6), (b) (7)(C)
family life.                     calls it a slippery slope.
(b) (6), (b) (7)(C)
           could not provide any evidence of cheating during his year at DES. He stated
there was no chance of cheating at DES, due to the fact that the school was on “lock-
down” during the DC CAS exam. He recalled outside monitors constantly roaming the
                                                                                  (b) (6), (b) (7)(C)
hallways and peeking into the classrooms during the testing period. However,
could not provide an answer regarding test security after school hours, or on the weekend
while the test booklets and answer sheets are still physically located at the school.
(b) (6), (b) (7)(C)
                    believed that erasure analysis is a slippery slope, which may or may not be an
indicator of cheating. He felt that all the news articles regarding the erasure analysis
were weak, and stated that there is still no proof of cheating. The children do not like to
take tests, and the parents are unaware of what goes on in their kids’ classroom.
(b) (6), (b) (7)(C)
                    also believed the evaluations that are sent home are difficult for many parents
to understand.
                                                        (b) (6), (b) (7)(C)
In the case of Noyes Education Campus (NEC),                 has heard rumors from various
co-workers about cheating on the DC CAS, and he expressed his concerns with his
principal. He is not aware of what the current situation is at NEC, but admitted that there
are only rumors, and no one has any evidence of cheating.
(b) (6), (b) (7)(C)
            expressed his hopes that there will be a better indicator than the DC CAS to
grade students’ achievement. He wondered whether the “intermittent” tests wouldn’t be
a better standard to use. The accountability for teachers on the DC CAS is putting
                           (b) (6), (b) (7)(C)
teachers in a tough spot.                      is working with a director of a documentary about
the crises in our schools. He feels that school chancellors need to change their goals and
provide a “safe harbor” for teachers, wherein you reach a certain level, and you will be
left alone. Educational measures need to be reviewed on a case-by-case basis, and the
school systems should not use a corporate model.
(b) (6), (b) (7)(C)
             was present at one meeting with (b) (7)(C), (b) (6)                          , DCPS,
and (b) (7)(C), (b) (6)                      , DCPS, wherein (b) (7) and (b) (7)(C), (b)
attempted to defend the IMPACT system. One teacher(C),                     (6) how (b) (7) could
                                                                spoke up about
                                                               (b) (6)
promote a system that she ((b) (7) ) herself probably couldn’t have passed in (C),    her first year
                                                                                      (b) (6)
                                 (C),answered that DCPS didn’t have time to re-evaluate
of teaching. (b) (7) allegedly                                                                the
         (b) (6),(C),            (b) (6)
system.                  reiterated that he felt the current system is unfair to new teachers, and
                 (b) (6)
especially unfair if that teacher’s students had inflated DC-CAS scores during the
previous year for whatever reason.

(b) (6), (b) (7)(C)




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                                                                      4


(b) (6), (b) (7)(C)
        (b) (6), (b) (7)(C)




   This document contains neither recommendations nor conclusions of the Office of the
Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
             and its contents are not to be distributed outside your agency.
                                        Office of The Inspector General
                                             Investigations Division

                                             Memorandum of Interview



To:          File

From: (b) (6), (b) (7)(C) , Special Agent

Date: June 11, 2012

Re:   2011-0318
________________________________________________________________________

Date of Interview:                    June 7, 2012

Time Began: 12:05 pm                                               Time Ended: 12:35 am

Location of Interview:                       C.W. Harris Elementary School, 301 53rd St, SE.,
                                             Washington, DC 20019

Persons Present:                      Special Agent (b) (6), (b) (7)(C)
                                      Special Agent (b) (6), (b) (7)(C)

Person Interviewed: (b) (6), (b) (7)(C)

                                      Work Telephone Number:    (b) (6), (b) (7)(C)




________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________

After being advised of the identity of the interviewing agents, and the nature of the
interview, (b) (6), (b) (7)(C)voluntarily provided the following information:
(b) (6), (b) (7)(C)has            been employed by the D.C. Public School system (DCPS) system
          (b) (6), (b) (7)(C)
since                           . (b) (6), (b) (7)(C)


                                                                                          (b) (6), (b) (7)(C)


(b) (6), (b) (7)(C)
                                                                                                   2


(b) (6), (b) (7)(C)


CWH is currently comprised of 248 students in the Pre-K through 5th grade. Since the
DC CAS is only given to 3rd through 5th grade at CWH, there were only five testing
classrooms in 2011, and four testing classrooms in 2012. (b) (6), (b) (7)(C) became
acclimated with the DC CAS when she served as principal in training at OES, in
April 2010. Instead of spending half a week at WES, and half at OES during the week of
the DC CAS, (b) (6), (b) (7)(C) spent the entire testing week at OES. There were no issues
with the DC CAS at OES in 2010.
(b) (6), (b) (7)(C)                         (b) (6), (b) (7)(C)
                came to CWH during the              school year knowing that CWH had
been flagged for a high number of wrong-to-right (WTR) erasures during the Spring 2010
DC CAS. (b) (6), (b) (7)(C)was unaware of the specifics of the investigation, however, she
stated that nearly every teacher at CWH from the 2009/2010 school year had been
replaced. Some were removed due to IMPACT scores, some were transferred, and others
may have retired.

The former (b) (6), (b) (7)(C), whose name (b) (6), (b) (7)(C) could not recall, (b) (6), (b) (7)(C)
                                 , just prior to the DC CAS. Upon his return to CWH,
(b) (6), (b) (7)(C)
                    reassigned him to a different role. (b) (6), (b) (7)(C) took over as Test
Coordinator, whom (b) (6), (b) (7)(C) described as extremely ethical. The former test
coordinator was released from DCPS at the conclusion of the 2010/2011 school year due
to low IMPACT scores.
(b) (6), (b) (7)(C)
                    was aware of complaints from new teachers at CWH that some students
were not scoring as high on the DC BAS exams as their exam scores indicated from the
prior year’s DC CAS score. (b) (6), (b) (7)(C) was unaware of why these students were
scoring as low as they were, but she had no evidence of cheating on the DC CAS by any
teacher, proctor, or test administrator at CWH or any other D.C. Public School. Since
(b) (6), (b) (7)(C)                   (b) (6), (b) (7)(C)
                    has taken over as                     at CHW, she has instituted tougher exam
security procedures, such as limiting the time the exam booklets are kept outside of their
locked office, and rotating different proctors among the classrooms.
(b) (6), (b) (7)(C)
                  recalled (b) (6), (b) (7)(C) as the (b) (6), (b) (7)(C)                     that
                                                                 (b) (6), (b) (7)(C)
was sent to CWH in the spring of 2011. (b) (6), (b) (7)(C) and                       met with
(b) (6), (b) (7)(C) to go over the school’s test security plan and inform her of the location
of each testing classroom. In addition to the five testing classrooms, there were three
other locations utilized for testing for make-up exams and special education students that
required read-alouds. (b) (6), (b) (7)(C) stated that although most test classrooms kept their
doors closed, there were no rules prohibiting DCPS central office monitors from opening
the classroom doors or entering the classrooms during the test periods.




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                          Office of The Inspector General
                               Investigations Division

                                 Memorandum of Interview



To:         File

From: (b) (6), (b) (7)(C) , Special Agent

Date: August 19, 2011

Re:   2011-0318
________________________________________________________________________

Date of Interview:     July 15, 2011

Time Began: 2:00 pm                                                 Time Ended: 2:25 pm

Location of Interview:           OIG, 717 14th Street, NW, Washington, DC

Persons Present:       Special Agent (b) (6), (b) (7)(C) , DC-OIG
                       Special Agent (b) (6), (b) (7)(C), ED-OIG

Person Interviewed: (b) (6), (b) (7)(C) , Teacher, Noyes EC

                       Home Address: (b) (6), (b) (7)(C)

                       DLN: (b) (6), (b) (7)(C)
                                              (b) (6), (b) (7)(C)
                       Date of Birth:

                       Home Phone:           (b) (6), (b) (7)(C)


                       Cell Phone:      (b) (6), (b) (7)(C)

                       (b) (6), (b) (7)(C)
Also Present:                                , Attorney, Washington Teachers Union


________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________
(b) (6), (b) (7)(C)
           signed an OIG Warning and Assurance Form (attached) and voluntarily
provided the following information:
                                                                                                               2

                                                                                             (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)
                      was hired by DCPS in (b) as an elementary school teacher, teaching
grade at (b) (7)(C), (b) (6)        (7)          . In 2006, she went to a DCPS job fair, where
                                    (C),
she interviewed with a panel of five(b)
                                       or   six    staffers from Noyes Education Campus
(NEC), one of which was the principal,       (b)   (7)(C), (b) . She received a return call from
                                    (6)
(b) (7) soon thereafter, and interviewed(6)    with additional staff at NEC before she was
                                                     (b) (6), (b) (7)(C)
(C), (b)
officially hired to teach    grade.
                                     (b) (6), (b) (7)(C)
                                                         described (b) (7) as firm, caring, and very
(6)
                                                     school year, (C), (b)
                                  (b) (7)(C),                      (       (7)(C)
orderly. At the beginning of the                                                  was switched to
                 (b) (6), (b) (7)(C)
                                                                   (6)
teach a     grade class at NEC. (b) (6)
                               (b) (6), (b) (7)(C)
In(b) (7)(C),              ,participated in her first DC CAS exam, (b) (7)(C), (b) (6)
   (b) (6)                          She was required to attend a test-training meeting with
(b) (6), (b) (7)(C)                                          , NEC, approximately one or
two weeks before the exam. There is no talking with students during the exam except to
give instructions at the beginning of the exam, and to inform students of time left to
finish the exam. During the test times, the teacher and proctor are required to circulate
through the room to make sure students are filling out the answer sheets correctly. They
must also be sure that the students fill out the first ten questions on the answer sheet, or
the whole test will be invalidated by the testing company.

If a student is absent during the test days, they are subsequently sent to (b) (6), (b) (7)(C) for
make-up periods after they return to school.

DCPS follows a Adequate Yearly Progress (AYP) schedule and SAFE Harbor. Every
teacher has standards for their classroom, and each year a certain percentage of students
are expected to score higher than the previous year. DC CAS scores are what everything
                         (b) (6), (b) (7)(C)
is focused on in DCPS.                       stated that (b) (7)(C), (b) (6)        ,
DCPS, would come to NEC and sit in various classrooms to see how teachers performed.
(b) (6), (b) (7)(C)
           received approximately $8,000 for a U.S. Department of Education TEAM
                                      (b) (6), (b) (7)(C)
award during her second year at NEC.                      stated that NEC scored well on the
DC CAS because of extra tutorial classes given to students, and because teachers worked
very hard.
(b) (6), (b) (7)(C)
                blamed the change in curriculums at NEC for the reason for substantially
lower DC CAS scores in 2010 and 2011. She also stated that approximately 50% of
teachers left NEC after her first year at the school. It has been steady the past couple of
       (b) (6), (b) (7)(C)
years.                     did not provide a reason for the high turnover rate in her first year, nor
did she elaborate on the change in curriculums.
(b) (6), (b) (7)(C)
                    stated that (b) (6), (b) (7)(C)        , former Teacher, NEC, was supposedly
terminated for cheating on the DC CAS. (b) (6), (b) (7)(C) administered the test to
(b) (6), (b) (7)(C)
                      class, due to the fact that (b) (6), (b) (7)(C)                              .
(b) (6), (b) (7)(C)
                    was aware that (b) (6), (b) (7)(C) class was flagged for high “wrong-to-right”
erasures, but she stated that she asked him about erasing student answer sheets and he
denied any complicity in the matter.


    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                         Office of The Inspector General
                              Investigations Division

                               Memorandum of Interview



To:         File

From: (b) (6), (b) (7)(C), Special Agent

Date: March 1, 2012

Re:   2011-0318
________________________________________________________________________

Date of Interview:     March 1, 2012

Time Began: 2:35 pm                                           Time Ended: 2:50 pm

Location of Interview:        Noyes Education Campus, Washington, DC

Persons Present:       Special Agent (b) (6), (b) (7)(C) , DC-OIG
                       Special Agent (b) (6), (b) (7)(C) , DC-OIG

Person Interviewed: (b) (6), (b) (7)(C) , Teacher, Noyes EC

                       Home Address: (b) (6), (b) (7)(C)

                       DLN: (b) (6), (b) (7)(C)
                                        (b) (6), (b) (7)(C)
                       Date of Birth:

                       Cell Phone:   (b) (6), (b) (7)(C)




________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________
(b) (6), (b) (7)(C)
            signed an OIG Kalkines Warning Form (attached) and voluntarily provided
the following information:
(b) (6), (b) (7)(C)
            stated her classrooms are situated with 4-6 students clustered in a circle type
arrangement. During the DC BAS practice exams, and the DC CAS exam, she re-
arranges her students into rows according to standard exam policy. She does not seat her
                                                                                                            2


students in any particular order, other than making all the students in one circular group
become row one, all the students at the next circular group become row two, etc. She
does not separate any students by which version of the exam they receive, and admitted
that two students seated next to each other may have the same version of the exam.
(b) (6), (b) (7)(C)
                    denied that students in the “basic proficiency” are seated in any special area
of the classrooms.
(b) (6), (b) (7)(C)
                    denied that any seating charts are requested by, shown to, or approved by
(b) (6), (b) (7)(C)                                            , Noyes Education Campus (NEC).
(b) (6), (b) (7)(C)
                    also denied that (b) (6), (b) (7)(C) has ever discussed any seating charts or special
seating arrangements at any of the pre-test meetings.
(b) (6), (b) (7)(C)
            also denied that she, or any other teacher she knew, ever received an advance
copy of the DC BAS or DC CAS exam booklet, prior to the first day of exam testing.




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                Office of The Inspector General
                                     Investigations Division

                                       Memorandum of Interview



To:                 File

From: (b) (6), (b) (7)(C), Special Agent

Date: September 28, 2011

Re:   2011-0318
________________________________________________________________________

Date of Interview:          September 27, 2011

Time Began: 3:35 pm                                                Time Ended: 4:20 pm

Location of Interview:                Noyes Education Campus, 2725 10th Street, NE

Persons Present:            Special Agent (b) (6), (b) (7)(C)
                            Senior Special Agent (b) (6), (b) (7)(C)

Person Interviewed: (b) (6), (b) (7)(C)                          Noyes EC
                    District of Columbia Public School System (DCPS)

________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________
(b) (6), (b) (7)(C)
          signed an OIG Warning and Assurance Form (attached) and voluntarily
provided the following information:

(b) (6), (b) (7)(C)

                                                                             (b) (6), (b) (7)(C)




(b) (6), (b) (7)(C)
          attended a DCPS job fair in the (b) (7)(C), (b) (6) where he interviewed with
                                                                             (b) (6), (b) (7)(C)
(b) (7)(C), (b) (6)                NEC. Subsequent to the job fair,                                  interviewed
                                                                                        (b) (6), (b) (7)(C)
with a panel of staff members at NEC, and was hired shortly thereafter.                                    ( taught
     (b) (6), (b) (7)(C)                                                                                    (b) (6), (b) (7)(C)

   grade students during his first year, and was a (b) (6), (b) (7)(C)
                                                                       for the                             b grade
                                                                                                           )
teachers at NEC. In his second year, (b) (6), (b) (7)(C)                                                   (
                                                                                                       7
                                                                                                       )
                                                                                                       (
                                                                                                       C
                                                                                                       ),
                                                                                                       (
                                                                                                       b
                                                                                                                             2

(b) (6), (b) (7)(C)
           stated that he was in survival mode in his first year at NEC, due to this being
                                              (b) (6), (b) (7)(C)
his first year teaching at any school.                            got along well with (b) (7) , and stated that
he never had any issues with   (b) (7)       over teaching methods or any (C),                 (b)areas. (b) (7) ’s
                                                                                           other
                               (C),  (b)                                                  (6)            (C), about
                                                                                                              (b)
interests were all about the children, and (b) (7) knew personal information on just
                               (6)                    (C), (b)     , (b) (7)(C)                          (6)
every child at the school. It did not surprise                                  that NEC won a U.S. Department
                                 (b) (6), (b) (7)(C) (6)
of Education TEAM award, as                           stated that NEC had many good teachers, and a
good (b) (7)(C), (b) (6) .
(b) (6), (b) (7)(C)
            could not recall how well his students performed on the DC CAS during his
                                                                                 (b) (6), (b) (7)(C)
first year teaching, but did recall that he had a few very bright students. When                                        (b) (6), (b) (7)(C)




                 .              students were assigned to seats during the DC CAS which
                thought was standard practice. All staff undertook test training given by (b)
(b) (6), (b) (7)(C)
                    , (b) (6), (b) (7)(C)                                                 (7)
                                                            , NEC, prior to the DC CAS, and
(b) (6), (b) (7)(C)                                                                       (C),
                     also reviewed all seat assignments prior to the first exam date.     (b)
                                                                                                             (6)
Test training encompassed making sure every student had a #2 pencil; that the first ten
questions on each answer sheet were filled in; that nothing was left written on the
chalkboards, and that any instructional posters around the classroom were covered.
(b) (6), (b) (7)(C)
           attributed the sharp rise in DC CAS scores to (b) (7) ’s insistence that every
                                                         (C), (b)
teacher in the school with degrees will participate in helping  the students with extra
                                                         (6)
training and test taking skills. There was a strong culture in the school to give personal
attention to the students and keep watch over their progress.
(b) (6), (b) (7)(C)
          attributed the sharp drop in DC CAS scores in 2009 and 2010 to the number of
                                                                           (b) (6), (b) (7)(C)
special education transfer students from other failing schools.                                surmised that the
number of special education students jumped from 10 to 30 students in one school year.
             (b) (6), (b) (7)(C)
In addition,                     felt that the culture at NEC changed with all the new students and
                                                                         (b) (6), (b) (7)(C)
that some of the smarter students left NEC for other schools.                                also felt that
(b) (7)(C), (b) (6)
                                                                                                                  .
(b) (6), (b) (7)(C)                                                                                          (b) (6), (b) (7)(C)
           stated that the proctor for his classroom during the DC CAS was mainly
(b) (6), (b) (7)(C)                              (b) (6), (b) (7)(C)
      (b) (7)(C), (b) (6)            , NEC.                          also recalled that the Office of the State
Superintendent for Education (OSSE) started sending over monitors during the
                           (b) (6), (b) (7)(C)
2008/2009 school year.                         did not think this additional monitoring had anything
to do with the drop in DC CAS scores.
(b) (6), (b) (7)(C)
                could not provide a reason for the high number of wrong-to-right erasures on
NEC’s DC CAS answer sheets in 2008 and 2009. He does not believe that any teacher
would have time to change any answer sheets while the exam is being given, and that
(b) (6), (b) (7)(C)
                    was a stickler when it came to returning the test materials immediately upon
                                   (b) (6), (b) (7)(C)
the conclusion of the test.                            admitted that the test materials were stored at the
school overnight and through the first weekend, but he did not believe that anyone at
                                                                                               (b) (6), (b) (7)(C)
NEC would come in on the evening or weekend to alter the answer sheets.                                            has

      This document contains neither recommendations nor conclusions of the Office of the
   Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
                and its contents are not to be distributed outside your agency.
                                                                                      3


never witnessed or heard of any NEC staff member changing any score sheets, and could
not provide any additional witnesses who might be able to provide additional assistance
in this investigation.




   This document contains neither recommendations nor conclusions of the Office of the
Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
             and its contents are not to be distributed outside your agency.
                              Office of The Inspector General
                                   Investigations Division
   ***                              Memorandum of Interview



To:             File

From: (b) (6), (b) (7)(C) , Special Agent

Date: August 4, 2011

Re:             2011-0318


Date ofInterview:           July 27, 2011

Time Began: 2:00 pm                                               Time Ended: 2:45 pm

Location of Interview:             OIG, 717 14th Street, NW, Washington, DC

Persons Present:            Special Agent (b) (6), (b) (7)(C)
                            Special Agent (b) (6), (b) (7)(C)
                                            (b) (6), (b) (7)(C)

Person Interviewed:                                                 , Noyes EC

                            Horne Address: (b) (6), (b) (7)(C)
                            DLN: (b) (6), (b) (7)(C)
                            Date of Birth: (b) (6), (b) (7)(C)
                            Cellular Telephone Number: (b) (6), (b) (7)(C)


                                  SUMMARY OF INTERVIEW 



(b) (6), (b) (7)(C)
        signed an OIG Warning and Assurance Form (attached) and voluntarily
provided the following information:

(b) (6), (b) (7)(C)

                         met and interviewed with (b) (6), (b) (7)(C)        ,
Noyes Education Campus (NEC), and approximately seven other staff members from
Noyes. (b) (6), (b) (7)(C)
                                                                                                                                             2


(b) (6), (b) (7)(C)


(b) (6), (b) (7)(C)
         was not aware ofNEC's Blue Ribbon status until after he was hired. He was
also unaware that NEC had won a U.S. Department of Education (ED) TEAM award for
the 2008/2009 school year until shortly after being hired.
                      (b) (6), (b) (7)(C)
In (b) (6), (b) (7)(C) ,  had his first experience with the DC CAS exams. He explained
that he, along with all the teaching staff at NEC underwent exam training procedures the
week before the exam. The training was taught by (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)              , NEC. On the day of the exam, each teacher signed in for
each test booklet and answer sheet between 8:15 and 8:45 am. The exams were given
between 9: 15 and 11:30 am. At the conclusion of the test, the exams are returned to
(b) (6), (b) (7)(C) .



During the five days of testing, (b) (6), (b) (7)(C) s class was tested on two math exams and two
English exams, during one week, and one day of science exams the following week.
(b) (6), (b) (7)(C)                                                                                                           (b) (6), (b) (7)(C)
                     explained that (b) (6), (b) (7)(C)                                             NEC, served as
(b) (6), (b) (7)(C)
                    for the April 2010 DC CAS, and that (b) (6), (b) (7)(C)                                          ,
                            (b) (6), (b) (7)(C)                            (b) (6), (b) (7)(C)
NEC, served as                                  for the April 2011 DC CAS.                     also stated that two of his
students were unable to complete the exam during the allotted time period in the
classroom, and were then escorted to the lunchroom to finish their exams. A
representative from the Office of the State Superintendent for Education (OSSE) was also
present in the school, and spoke to each classroom prior to the exam and reminded
students not to cheat on the exam.
(b) (6), (b) (7)(C)                         (b) (6), (b) (7)(C)                                         (b) (6), (b) (7)(C)
          stated that he had   students the first year he taught at Noyes, and      students
this past year. He could not provide a reason for the sudden drop in DC CAS scores
during the last two testing years, other than a possibility that the transfer of new students
from lower performing schools could have reduced the school test average. (b) (6), (b) (7)(C) had
no evidence that any staff member cheated on the DC CAS, and was not aware of any
staff changing answer sheets after school hours, or on weekend days.
(b) (6), (b) (7)(C)
         was aware that (b) (6), (b) (7)(C)                               Noyes, was
terminated from Noyes for suspected fraud on the DC CAS. (b) (6), (b) (7)(C) has occasionally
spoken with (b) (6), (b) (7)(C)                                                      , and will
pass on the message that the DC-OIG would like to speak to (b) (6), (b) (7)(C) concerning
his termination.




     This document contains neither recommendations nor conclusions of the Office of the
   Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
               and its contents are not to be distributed outside your agency.
                             Office of The Inspector General
                                  Investigations Division

                                   Memorandum of Interview



To:      File

From: (b) (6), (b) (7)(C), Special Agent

Date: September 27, 2011

Re:   2011-0318
________________________________________________________________________

Date of Interview:        September 21, 2011

Time Began: 3:45 pm                                        Time Ended: 4:25 pm

Location of Interview:             Noyes Education Campus, 2725 10th Street, NE

Persons Present:          Special Agent (b) (6), (b) (7)(C)
                          Senior Special Agent (b) (6), (b) (7)(C), ED-OIG

Person Interviewed: (b) (6), (b) (7)(C)                                 , Noyes EC


________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________
(b) (7)(C), was orally advised of the voluntary nature of the interview and voluntarily
(b) (6)
provided the following information:

                stated that he was hired by(b) (7)(C), (b) (6)                 , NEC, in (b)
and taught                                                       . The following year, (7)
                                                                                          (C),
                changed positions and became the                                          (b)
                                                                                          (6)




                was a part of the NEC executive management team in (b)           , which included
                                                                          (7)
                                                                          (C),
(b) (6), (b) (7)(C)                         (b) (6), (b) (7)(C)           (b)
                                                                          (6)
                                                                                                                         2


team (EMT) dissolved in the 2010/2011 school year when (b) (7)(C), (b) (6)
                     . (b) (6), (b) (7)(C) stated that EMT met once or twice at the beginning of
the school year, but soon thereafter failed to get together. (b) (6), (b) (7)(C) surmised that
(b) (7)(C), (b) (6)
(
b
)
 (b) (6), (b) (7)(C) became the (b) (6), (b) (7)(C)
((b) (6), (b) (7)(C)
                                                                                              ), and (b) (6), (b) (7)(C)
                                      (b) (6), (b) (7)(C)   (b) (6), (b) (7)(C)
7                    replaced him as                      .                     admitted receiving a $5,000 bonus
)when NEC won a U.S. Department of Education TEAM award in 2008/2009.
 (b) (6), (b) (7)(C)
(                         stated that he missed NEC’s first TEAM award which was presented the
Cyear before he started at NEC.
)
,(b) (6), (b) (7)(C)
                          stated that he served as a hall monitor during the week of the DC CAS
(
bexams               in April of each year. As a hall monitor, it was his job to verify the status of any
                                                                                            (b) (6), (b) (7)(C)
)students found in the hallways during the exam periods. One year                                               had to fill
(in for a special education teacher and was required to act as the teacher giving the DC
6CAS to four or five special education students. These students were allowed special
)accommodations such as having the test questions read aloud to them. (b) (6), (b) (7)(C) could
not recall who was acting as proctor during this exam, and stated that this event happened
the first year that the D.C. Office of the State Superintendent for Education (OSSE) sent
over its own independent monitors to each D.C. public school.
(b) (6), (b) (7)(C)
                    confirmed that (b) (6), (b) (7)(C) gave a briefing to all teaching staff on test
procedures and that (b) (6), (b) (7)(C) was responsible for distributing the test booklets and
answer sheets to each classroom teacher. (b) (6), (b) (7)(C) also stated that he served with a
group of about 5-6 NEC staff, which included (b) (6), (b) (7)(C) whose responsibility was to
gather and box all test booklets and answer sheets in preparation for their delivery to
CTG/McGraw-Hill. This was done the week after the exams were started at NEC.
(b) (6), (b) (7)(C)
                    confirmed that students taking the written composition and the science exam
were usually tested the week after the general reading/math portions of the DC CAS.
(b) (6), (b) (7)(C)
                    denied any knowledge of cheating on the DC CAS, and was not aware of
(b) (6), (b) (7)(C)
                    ever distributing test booklets to NEC staff prior to the first day of exams.
(b) (6), (b) (7)(C)
                    heard that (b) (6), (b) (7)(C)        was terminated from NEC for test
improprieties; however (b) (6), (b) (7)(C) was not aware of the particulars of (b) (6), (b) (7)(C)
termination. (b) (6), (b) (7)(C) had no information that(b) (7) was involved in any cheating,
                                                         (C), (b)
and he could not explain the high number of wrong-to-right           erasures on DC CAS answer
                                                         (6)
sheets.




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                         Office of The Inspector General
                              Investigations Division

                               Memorandum of Interview



To:         File

From: (b) (6), (b) (7)(C), Special Agent

Date: May 7, 2012

Re:   2011-0318
________________________________________________________________________

Date of Interview:     May 7, 2012

Time Began: 12:05 pm                                                Time Ended: 1:00 pm

Location of Interview:         Telephonic (b) (6), (b) (7)(C)

Persons Present:       Special Agent (b) (6), (b) (7)(C)


Person Interviewed: (b) (6), (b) (7)(C)         , (b) (7)(C), (b) (6) ,
                    Anacostia High School, D.C. Public Schools (DCPS)

________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________

(b) (6), (b) (7)(C)                                                                        (b)(b)(6),
                                                                                                   (6),(b)
                                                                                                        (b) (7)(C)
                                                                                                             (7)(C)
                    has been a (b) (6), (b) (7)(C)    for approximately            . She has
spent her last seven years in various positions with DCPS. (b) (7)(C), served as a DCPS
Central Office Monitor during the week of DC CAS exams(b)      for(6)
                                                                   the last three years.
(b) (6), (b) (7)(C)
                    served as the (b) (6), (b) (7)(C)       at Noyes Education Campus
                      (b) (6), (b) (7)(C)
(NEC) during                              .
(b) (6), (b) (7)(C)
            confirmed that she served as a monitor at NEC with (b) (6), (b) (7)(C), who
resigned from DCPS last year.
(b) (6), (b) (7)(C)
            recalled being present at NEC during the morning of the first day of the DC
CAS exams. She could not recall whether the first day of the four days of testing for
                                                                     (b) (6), (b) (7)(C)

reading and math was a Monday or Tuesday. She and           were both present on the first
day and met with (b) (6), (b) (7)(C), (b) (6), (b) (7)(C)
                                              (b) (6), (b) (7)(C)
                                                                                , NEC. No
                                                          (b) (6), (b) (7)(C)
other NEC staff were present when she and        met with                     .
                                                                                                                         2

(b) (6), (b) (7)(C)
              recalled that the test booklets and answer sheet were neatly arranged in piles
in the office space adjoining (b) (6), (b) (7)(C) office when she arrived on the first day.
                                 (b) (6), (b) (7)(C)

Although (b) (6), (b) (7)(C) and      had a binder of policies and procedures to follow that
were issued to them by the Central Office, (b) (6), (b) (7)(C)stated that (b) (6), (b) (7)(C) gave them
a separate binder that included the school’s test plan. The test plan included names of
teacher’s administering the test, where the classrooms were located, and the test schedule
for each classroom. (b) (6), (b) (7)(C) believed that every school administering the DC CAS
exam was required to have this binder.
(b) (6), (b) (7)(C)
             did not recall a written policy that forbade monitors from entering
classrooms, but recalled (b) (6), (b) (7)(C) orally giving instructions that neither monitor was
to enter any classroom that had its door closed. If the door was closed, (b) (6), (b) (7)(C) and
(b) (6), (b) (7)(C)

     were only allowed to peer through the small glass window located in each door.
                                                                                (b) (6), (b) (7)(C)

If the classroom door was open, (b) (6), (b) (7)(C) and              could enter the doorway and
briefly scan the room. They were not allowed to go into the classroom, walk around, or
stand in the back or side of the classroom. (b) (6), (b) (7)(C) recalled that (b) (6), (b) (7)(C) might
have told them that they were not even allowed to stand in the doorway, but after
(b) (6), (b) (7)(C)
                    challenged (b) (6), (b) (7)(C) , he relented somewhat, allowing (b) (6), (b) (7)(C) and
JHA to stand in the doorway for a longer period of time. (b) (6), (b) (7)(C) stated that she
might still have a copy of the NEC test policy binder among her belongings at her home;
however, she recently moved and everything is still boxed up in storage. (b) (6), (b) (7)(C)
stated that it would be mid-June before she would have time to look through her
belongings for the binder.
                                                                                                        (b) (6), (b) (7)(C)

After the orientation with (b) (6), (b) (7)(C), he ((b) (6), (b) (7)(C)) escorted (b) (6), (b) (7)(C) and
across the hallway to the (b) (7)(C), (b) (6)
         l, NEC. (b) (6), (b) (7 stated that she witnessed (b) (7) roaming the hallways once
or twice during exam periods, but other than that, he was            (C),absent
                                                                           (b)  from all testing
            (b) (6), (b) (7)(C)                                      (6)
activities.                     stated that she has noticed other (7)(C), absent from most test
                                                                       (b)
activities at other schools in which she acted as a monitor.           (b) (6)

                                                                           (b) (6), (b) (7)(C)

During the first day of testing,(b) (6), (b) (7)(C) and       separated themselves on the two
floors of testing at NEC. (b) (6), (b) (7)(C) recalled that a majority of testing rooms at NEC
                                                              (b) (6), (b) (7)(C)

were on the second floor. (b) (6), (b) (7)(C) and        rotated once during the first day of            (b) (6), (b) (7)(C)
         (b) (6), (b) (7)(C)
testing.                     covered NEC during the second and fourth day of testing, and
covered the third day. (b) (6), (b) (7)(C) stated that the school was extremely quiet during
testing periods, and there were no noise distractions that she noted the three days she was
there.
(b) (6), (b) (7)(C)
                stated that a majority of the classroom doors were closed while she was at
NEC. More doors were closed on the second floor than on the first floor, although the
noise levels on both floors were equally quiet. At some point during her second day at
NEC, (b) (6), (b) (7)(C) was approached by (b) (7) who informed her ((b) (6), (b) (7)(C) ) that she
was not to enter any classrooms because            (C),he
                                                        (b)(b) (7) ) did not want (b) (6), (b) (7)(C) to disrupt
                                                   (6)
the classroom.       (b) (6), (b) (7)(C)
                                         believed (b) (7) (C),
                                                            made(b) this statement after an unknown
                                                       (C), (b) (6)
                                                       (6)
      This document contains neither recommendations nor conclusions of the Office of the
   Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
                and its contents are not to be distributed outside your agency.
                                                                                                 3


teacher complained to (b) (7) about (b) (6), (b) (7)(C) , an OSSE monitor, who entered a
classroom earlier in the(C),    day(b)for approximately 20 minutes to monitor the teacher and
                              (6)
proctor during a 10-minute break between test sessions. This was the only interaction
(b) (6), (b) (7)(C)
                    had with (b) (7) other than the introduction on the first day.
                       (C), (b)
(b) (6), (b) (7)(C)    (6)
             believed that a majority of the classrooms that she monitored during her
three days at NEC did not have proctors or a second adult present during the DC CAS
testing, although her memory was hazy on this fact. (b) (6), (b) (7)(C) stated this issue is not
a part of her Site Evaluation Report, and was not part of her instructions from central
office to verify at least two adults present in each testing room. For (b) (6), (b) (7)(C)
stated she was told by the central office that if a classroom has less than 10 students, then
a proctor is not needed in the classroom.
(b) (6), (b) (7)(C)
            was questioned if the classrooms that had their door closed might have been
closed due to noise from other non-testing classrooms, or from machinery or other
environmental reasons. (b) (6), (b) (7)(C) reiterated the entire testing areas of the school were
extremely quiet and therefore no reason to have only a portion of the classroom doors
closed.
(b) (6), (b) (7)(C)
            noticed a Hall Monitor on each floor sitting in a chair, which rotated among
various NEC staff members whose sole duty was to maintain a quiet environment and
keep the halls clear.
(b) (6), (b) (7)(C)
            recalled that (b) (6), (b) (7)(C) actively patrolled the hallways during the test
periods, and occasionally she noticed one or two other NEC staff members patrolling the
hallways; however she did not recall the names or gender of these other NEC staff
members.
                                        (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)
             confirmed that she (and           on the first day) arrived in time to witness the
testing paperwork distributed to the staff each morning, and stayed until all test materials
were turned in right before lunch. (b) (6), (b) (7)(C) was unable to notice if any test booklets
or answer sheets appeared to be altered or disturbed on the first day of testing due to the
crowded activities of multiple teachers collecting the materials all at once. (b) (6), (b) (7)(C)
also stated that she was not told by central office to look for any altered test booklets or
answer sheets.
(b) (6), (b) (7)(C)
            complained about her role as monitor, stating that monitors should be given
more instructions on what to look for, and how to handle suspicious activity. She felt that
she had more of a support role, than acting as a monitor to detect suspicious activities.
The DCPS Central Office should place more emphasis on what the monitors are to look
for, and how to report irregularities, even if it includes some sort of anonymous
complaint line. (b) (6), (b) (7)(C) did not know if classrooms were supposed to have proctors,
and there was no field to check off on her evaluation form if the classroom did not have a
proctor.



    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                                                                           4

(b) (6), (b) (7)(C)
             was not aware of the fact that CTB/McGraw Hill recently sealed each of the
exam booklets starting with the Spring 2011 DC CAS exams as part of the on-going
advances in security measures. She stated that DCPS Central Office did not inform her
during the(b) (6), (b) (7)(C) DC CAS orientations to review the test booklets prior to their
distribution on the first day of exams to be sure these seals were unbroken.
(b) (6), (b) (7)(C)
            feels that DCPS needs to change their mode and mentality regarding these
concerns and issue clearer guidelines on what the monitors can and cannot do in their role
overseeing the DC CAS exams, and add many of these issues to the monitor’s checklist.




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                    Office of The Inspector General
                                         Investigations Division

                                           Memorandum of Interview



To:              File

From: (b) (6), (b) (7)(C), Special Agent

Date: October 26, 2011

Re:   2011-0318
________________________________________________________________________

Date of Interview:               October, 25, 2011

Time Began: 11:50 am                                                Time Ended: 12:35 pm

Location of Interview:                     Noyes Education Campus, 2725 10th Street, NE

Persons Present:                 Special Agent (b) (6), (b) (7)(C)
                                 Senior Special Agent (b) (6), (b) (7)(C)

Person Interviewed: (b) (6), (b) (7)(C), Teacher, Noyes EC

                        Home Address: (b) (6), (b) (7)(C)

                        SSN: (b) (6), (b) (7)(C)

                        Contact Phone Number:       (b) (6), (b) (7)(C)




________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________
(b) (6), (b) (7)(C)
        signed an OIG Warning and Assurance Form (attached) and voluntarily
provided the following information:

(b) (6), (b) (7)(C)
                                                                                                                                             2

                                                   (b) (6), (b) (7)(C)




(b) (6), (b) (7)(C)
         was requested to administer the DC CAS exam during her first year at NEC even
                                                                                          (b) (6), (b) (7)(C)
though kindergarten students do not participate in the yearly progress exam.     (b) (6), (b) (7)(C)

stated that she was requested to administer the exam to a                grade class due to her
                                                   (b) (6), (b) (7)(C)
experience with the exam at her previous school.                       stated that there were
approximately 12 students in the class, and that she arranged the seating chart by arrival
time at two-person tables. (b) (6), (b) (7)(C)                          , NEC, served as the proctor
during this exam.
(b) (6), (b) (7)(C)
         was only given 1-2 weeks advance warning that she was going to be
administering this exam to this class, and she stated that she attended a test procedure
training session after school hours just prior to the exam. The training session was taught
by (b) (6), (b) (7)(C)                                         , NEC, and (b) (6), (b) (7)(C)
                 , NEC.
(b) (6), (b) (7)(C)                                                                                                          (b) (6), (b) (7)(C)
          did not recall any unusual comments or requests made by (b) (6), (b) (7)(C) or
during the test procedure meeting, nor did she recall (b) (6), (b) (7)(C) asking to view any
                                                               (b) (6), (b) (7)(C)
seating charts for the students during the DC CAS.                                 had no information that any
cheating took place during the DC CAS; however, she stated that she keeps to herself at
                                                                                    (b) (6), (b) (7)(C)
school, and does not interact or socialize with any NEC staff.                                          did not think that
there would be any time during the school day to manipulate the test answer sheets, but
admitted that someone might have time during the evening hours or weekend hours since
the test booklets and answer sheets are on school property for 7-10 days during the
               (b) (6), (b) (7)(C)
testing period.                    could not provide a reason for the high number of wrong-to-right
erasures on certain tests administered at NEC, but just did not believe that it involved
cheating on the part of the school staff.
(b) (6), (b) (7)(C)        (b) (6), (b) (7)(C)
         described                        as a positive role model for both herself and the students.
                                                                                                 (b) (6), (b) (7)(C)
When asked why the DC CAS scores dropped so dramatically during                                                      final year
         (b) (6), (b) (7)(C)
at NEC,                       explained that it was probably a combination of new transfer students,
                             (b) (6), (b) (7)(C)
and the feeling that                       was getting burned out and tired from his position as
              (b) (6), (b) (7)(C)
principal.                        stated that the 2010/2011 school year DC CAS scores were also               (b) (6), (b) (7)(C)
                                                                       (b) (6), (b) (7)(C)
dramatically lower due to lack of strong leadership by                                     replacement,
                     .
(b) (6), (b) (7)(C)
          denied having any knowledge of cheating on the DC BAS scores, which are the
                                         (b) (6), (b) (7)(C)
practice exams for the DC CAS.                               admitted that she kept the DC BAS test
booklets, as teachers were allowed to do after test completion, in order to use it as a study
guide for her students. She also admitted that she told each student to place their answers
on both the answer sheet and the test booklet, in order to review test work and determine
                             (b) (6), (b) (7)(C)
each student’s weak points.                        never saw any discrepancy between the number of
correct answers on the test booklet, and the number of correct answers published by the
testing firm.


     This document contains neither recommendations nor conclusions of the Office of the
  Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
               and its contents are not to be distributed outside your agency.
                                                                                      3




   This document contains neither recommendations nor conclusions of the Office of the
Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
             and its contents are not to be distributed outside your agency.
                               Office of The Inspector General
                                    Investigations Division

                                      Memorandum of Interview



To:             File

From: (b) (6), (b) (7)(C), Special Agent

Date: May 10, 2012

Re:   2011-0318
________________________________________________________________________

Date of Interview:          May 4, 2012

Time Began: 3:30 pm                                              Time Ended: 4:10 pm

Location of Interview:               Telephonic ((b) (6), (b) (7)(C)

Persons Present:            Special Agent (b) (6), (b) (7)(C)


Person Interviewed: (b) (6), (b) (7)(C)                                                               ,
                    Office of Special Education, DCPS

________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________


(b) (6), (b) (7)(C)



(b) (6), (b) (7)(C)
                stated that she was present at NEC during all four days of testing for the reading
and math portions of the DC CAS. After arriving on the first day and signing in at the
front desk, she was introduced to (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)                                     (b) (6), (b) (7)(C)
                    , NEC. (b) (6), (b) (7)(C) provided                     with a map of the school showing the
general floor plan, and which classrooms would be administering the DC CAS.
                                                                                (b) (6), (b) (7)(C)
After reviewing the special education student accommodations,                           made one
recommendation to (b) (6), (b) (7)(C) regarding the read alouds which he implemented prior to
                                          (b) (6), (b) (7)(C)
the start of exams. During the exam,                          roamed freely throughout the hallways.
                                                                                                                   2

(b) (6), (b) (7)(C)
          thought that approximately 50% of the test classroom doors were open. For the
                               (b) (6), (b) (7)(C)
classrooms with closed doors,                      relied on peering in through the glass windows in
                                                    (b) (6), (b) (7)(C)
the door, rather than opening the doors.                                stated that neither (b) (6), (b) (7)(C) , nor
(b) (6), (b) (7)(C)                , NEC, gave her any instructions forbidding her from
entering any classrooms. She decided on her own not to enter the classrooms with closed
doors, and occasionally entered rooms with open doors for a brief moment just inside the
doorframe.
(b) (6), (b) (7)(C)
          had one concern with a nearby 2nd grade classroom on the first day of testing
that she felt was a little loud. This concern was quickly taken care of by an unknown
                     (b) (6), (b) (7)(C)
NEC staff person.                        described the rest of the test periods as extremely quiet, with
no outside disturbances.
(b) (6), (b) (7)(C)
          did not recall whether proctors were present in each testing room. She stated
that issue was not her concern, and was not listed as one of the items to verify on her DC
                          (b) (6), (b) (7)(C)
CAS Observation Form.                         did not notice anything out of the ordinary during her
review at NEC, and did not recall any indicators of potential cheating on the exam by any
NEC staff.
(b) (6), (b) (7)(C)                 (b) (6), (b) (7)(C)
                    was introduced to          by (b) (6), (b) (7)(C) at the conclusion of the exam period
                                         (b) (6), (b) (7)(C)
on the first day. She recalled                   asking her how things went during her stay at NEC.
                                                          (b) (6), (b) (7)(C)
She had no formal interaction with                       after that meeting, and did not think it was
unusual that the principal was not actively involved during the testing periods at NEC.
(b) (6), (b) (7)(C)
                    could not recall any other information regarding her monitor duties at NEC.




     This document contains neither recommendations nor conclusions of the Office of the
  Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
               and its contents are not to be distributed outside your agency.
                          Office of The Inspector General
                               Investigations Division

                                Memorandum of Interview



To:     File

From: (b) (6), (b) (7)(C), Special Agent

Date: July 13, 2012

Re:   2011-0318
________________________________________________________________________

Date of Interview:     July 13, 2012

Time Began: 11:00 am                                      Time Ended: 11:30 am

Location of Interview:         Telephonic

Persons Present:       Special Agent (b) (6), (b) (7)(C) , DC-OIG


Person Interviewed: (b) (6), (b) (7)(C)                                   , Eduneering, Inc.

                       Office Telephone:    (b) (6), (b) (7)(C)




________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________

After being apprised of the identity of the interview agent, and the nature of the
interview, (b) (6), (b) (7)(C) voluntarily provided the following information:
                                                                  (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)             of Eduneering, Inc, based in            , and acts as an
Independent Consultant to various school districts throughout the United States.
Sometime in 2007, he was hired to assist (b) (6), (b) (7)(C)
              , D.C. Public Schools (DCPS), to help her with assessment services, which
included professional development curriculums for DCPS teachers and administrators.

On or about January 28, 2009, (b) (6), (b) (7)(C) was given a copy of a letter, dated November
21, 2008, from the D.C. Office of the State Superintendent for Education (OSSE) to
(b) (6), (b) (7)(C)              , DCPS, requesting DCPS to investigate a high number
                                                                                                   2


of Wrong-to-Right (WTR) erasures on the 2008 DC CAS exams. (b) (6), (b) (7)(C)
handed the letter to(b) (6), (b) (7)(C) and told him “read this and tell me what you think.”
(b) (6), (b) (7)(C)
                    could not explain why (b) (6), (b) (7)(C) waited over two months before
showing him the letter, nor was he aware of what DCPS officials were doing during that
two month time period.

After reviewing the OSSE letter and researching erasures and cheating on schoolwide
exams given throughout the nation, (b) (6), (b) (7)(C) prepared a Project Brief Sheet, dated
January 30, 2009 (attached), which outlined his analysis of the OSSE letter. (b) (6), (b) (7)(C)
stated that this was the only written memorandum that he authored as part of the DC CAS
investigation. Thereafter, (b) (6), (b) (7)(C) was periodically questioned by (b) (6), (b) (7)(C)
regarding his knowledge and insight into the methodology used by OSSE to come up
with the data used in the erasure analysis. (b) (6), (b) (7)(C) acted as a part-time liaison
between (b) (6), (b) (7)(C) and other staff compiling data, and eventually assisting
(b) (6), (b) (7)(C) and staff in preparing a Test Security Procedure Manual for use in the
2009 DC CAS exams.

The only other staff person that (b) (6), (b) (7)(C) could recall working with at DCPS during
this assignment was (b) (6), (b) (7)(C)                                    , DCPS, and that was in
                     (b) (6), (b) (7)(C)
a limited capacity.                      reiterated that he only worked a few hours here and there
on the OSSE report and test security manual, and did not have any formal meetings with
any other staff, including (b) (6), (b) (7)(C) , with regard to the OSSE letter. (b) (6), (b) (7)(C)
worked a few days a month in the DCPS central offices, and the rest of the time from his
home office in California.
(b) (6), (b) (7)(C)
            characterized his work on the OSSE report as being hired to render an
opinion, and not to conduct any sort of investigation into cheating on the DC CAS exams.
(b) (6), (b) (7)(C)
            vaguely recalled that (b) (6), (b) (7)(C)ceased her investigation into the 2008
DC CAS after it became apparent that any further investigation would conflict with the
administration of the 2009 DC CAS exams. (b) (6), (b) (7)(C) was aware the DCPS eventually
hired CAVEON to investigate irregularities regarding the 2009 DC CAS administration.
(b) (6), (b) (7)(C)
           confirmed that copies of all documents he had in his possession relating to
the DC CAS cheating allegations were sent to (b) (6), (b) (7)(C) , Special Agent, U.S.
Department of Education, Office of Inspector General.




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                             Office of The Inspector General
                                  Investigations Division

                                     Memorandum of Interview



To:             File

From: (b) (6), (b) (7)(C), Special Agent

Date: September 16, 2011

Re:   2011-0318
________________________________________________________________________

Date of Interview:       September 14, 2011

Time Began: 3:35 pm                                           Time Ended: 4:20 pm

Location of Interview:              Noyes Education Campus, 2725 10th Street, NE

Persons Present:         Special Agent (b) (6), (b) (7)(C)
                         Senior Special Agent (b) (6), (b) (7)(C)
                         (b) (6), (b) (7)(C)
Person Interviewed:                            , Teacher, Noyes EC


________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________
(b) (6), (b) (7)(C)
        signed an OIG Warning and Assurance Form (attached) and voluntarily
provided the following information:

(b) (6), (b) (7)(C)




            interviewed with(b)(6), (b)(7)(C)
(b) (6), (b) (7)(C)
                                                                        Noyes Education Campus
                                                (b)(6), (b)(7)(C)                            (b) (6), (b) (7)(C)

(NEC) in August 2010. Along with                                  he was also interviewed by
                                           , NEC, (b) (6), (b) (7)(C) , Teacher, NEC, R
                                                                                      (b) (6), (b) (7)(C)




         , Teacher, NEC and(b) (6), (b) (7)(C)                                                  ,
       (b) (6), (b) (7)(C)
NEC.                       stated that he was hired six weeks into the new school year as a middle
school science teacher after his predecessor resigned suddenly for unknown reasons.
                                                                                                                                                        2

(b) (6), (b) (7)(C)
                    had no training regarding the DC BAS practice exams which are given four
times per year. The BAS exams closely match the formal DC CAS exams which are
given each April. Although the class teacher would normally lead the BAS exams,
(b) (6), (b) (7)(C)                                                          (b) (6), (b) (7)(C)
                    served as the proctor during the practice exams, while                       served as the
class teacher. There were no special seating assignments during the BAS exams, and
(b) (6), (b) (7)(C)
                    had no specific seating chart for any of his students throughout the school year.
                      (b) (6), (b) (7)(C)
Although            would have normally partaken in the DC CAS exam, he stated that he
had to (b) (6), (b) (7)(C)                               , and was subsequently absent from school
                                                               (b) (6), (b) (7)(C)
until after the DC CAS exams were completed.                                       was not aware of who gave the
                           (b) (6), (b) (7)(C)
exams to his students.                         was also absent for any exam training which is normally
administered by (b) (6), (b) (7)(C) 2-3 weeks prior to the CAS exam.
(b) (6), (b) (7)(C)
          agreed that emphasis is placed on those students who are on the cusp of being
proficient on the CAS exam based on their prior years score, and their scores on the four
BAS exams. These students are the ones who can raise the overall success rate for the
entire school, which therefore affects the school’s ranking.
(b) (6), (b) (7)(C)
             was aware of NEC’s blue ribbon status given by the U.S. Department of
Education (ED), and the fact that NEC had won two ED monetary TEAM awards even
                                                                                                       (b) (6), (b) (7)(C)
though these incidents happened prior to his arrival at NEC.                                                                could not provide
a reason of why NEC’s CAS scores dropped considerably in the 2010 and 2011 school
                            knew of (b)(6), (b)(7)(C)
        (b) (6), (b) (7)(C)
years.                                                                                               NEC, and his reputation as a
                                (b)(6), (b)(7)(C)
tough administrator.                               was responsible for a lot of turnover in NEC staff due to his
                                                                    stated that (b)(6), (b)(7)(C) was the opposite of
                                                  ) (6), (b) (7)(C)                                                                      (b)(6), (b)(7)(C)
personality and demeanor.
                                                                                   (b)(6), (b)(7)(C)                               (b) (6
and that issues were much more haphazard under                                                                 supervision.
                                                                                                            (b)(6), (b)(7)(C)
stated that one reason the CAS scores might have dropped under                                                                          year at
                                                                                                                                        (7)(C)
NEC was the high number of teacher absences throughout the school year.
could not expand on the reasons for the absences, but stated that there seemed to be an
unusually high number of teacher absences during the 2010/2011 school year that easily
could have affected student performance.
(b) (6), (b) (7)(C)
          was unaware of any cheating involving the DC CAS exam at NEC. He
explained that he does not converse much with his co-workers and does not get involved
                                                                  (b) (6), (b) (7)(C)                  (b)(6), (b)(7)(C)
with any gossip among his co-workers.                                                 was unaware that                    resigned from
                     (b)(6), (b)(7)(C)                                                                                   b) (7)(C)
his position as                                                           with DCPS in June 2011.                                  was
                  (b)(6), (b)(7)(C)
surprised that                         would quit that position without another job lined up in this
            (b) (6),                           (b)(6), (b)(7)(C)
economy.                          stated that                    would be the only person he could think of whom
the investigators should speak with regarding the cheating allegations at NEC.




     This document contains neither recommendations nor conclusions of the Office of the
  Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
               and its contents are not to be distributed outside your agency.
                         Office of The Inspector General
                              Investigations Division

                               Memorandum of Interview



To:       File

From: (b) (6), (b) (7)(C), Special Agent

Date: February 21, 2012

Re:   2011-0318
________________________________________________________________________

Date of Interview:     February 21, 2012

Time Began: 11:50 am                                  Time Ended: 12:05 pm

Location of Interview:        Telephonic

Persons Present:       Special Agent (b) (6), (b) (7)(C) , DC-OIG


Person Interviewed: (b) (6), (b) (7)(C)          , former Teacher, Noyes EC

                       Home Address: (b) (6), (b) (7)(C)
                              (b) (6), (b) (7)(C)
                       DLN:
                       Date of Birth: (b) (6), (b) (7)(C)
                       Cellular Telephone Number: (b) (6), (b) (7)(C)

________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________

After being apprised of the identity of the interview agent, and the nature of the
interview, (b) (6), (b) (7)(C) voluntarily provided the following information:
(b) (6), (b) (7)(C)
              provided a follow-up interview regarding allegations of cheating on the
District of Columbia Comprehensive Assessment System (DC CAS) exam. The initial
interview took place on August 11, 2011.

            recalled being handed a blank seating chart by (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)

(b) (6), (b) (7)(C) ator, Noyes Education Campus (NEC), D.C. Public Schools
(DCPS), approximately two weeks before the DC CAS was administered in the Spring of
2010. The seating chart diagram was in the normal “row” pattern utilized by most DCPS
                                                                                                       2


classrooms. However, (b) (6), (b) (7)(C) did not follow this seating arrangement during the
normal school year, instead grouping his students in circular clusters throughout the
classroom.
(b) (6), (b) (7)(C)
               recalled filling in the students names randomly on the blank seating chart
and meeting with (b) (6), (b) (7)(C) approximately one week before the exam to go over the
seating arrangement. (b) (6), (b) (7)(C) did not recall any specific questions or directions
made by (b) (6), (b) (7)(C) during his meeting with (b) (6), (b) (7)(C) , and did not understand the
requirement for the seating chart. (b) (6), (b) (7)(C) stated that he did not have any seating
chart requirements at Sousa Middle School where he taught during the previous school
year.
(b) (6), (b) (7)(C)
               did not deny that the reason for the seating chart was for certain students to
be placed in certain areas of the room, so as to minimize their exposure from the closed
door at the front of the classroom, but he could not provide any evidence to support this
statement. (b) (6), (b) (7)(C) reiterated that Hall Monitors were present from the D.C. Office
of the State Superintendent for Education (OSSE), but were forbidden to open the
classroom doors and enter the classrooms by orders of (b)(6), (b)(7)(C)
NEC.
(b) (6), (b) (7)(C)
                  surmised that although he was required to fill out the seating chart, the
               (b) (6), (b) (7)(C)
reason for                     not instructing him to place his students in particular seats was
that he ((b) (6), (b) (7)(C) ) would not assist his students with any cheating on the DC CAS,
and (b) (6), (b) (7)(C) class was mostly below basic students who were not expected to
score well on the exam.
(b) (6), (b) (7)(C)
              confirmed that the DC CAS test booklets and answer sheets were color
coded with two different versions for each exam. However, the student’s names were
pre-recorded on each answer sheet prior to (b) (6), (b) (7)(C) picking up the answer sheets
and test booklets on the morning of the first exam day. (b) (6), (b) (7)(C) was not aware if the
pre-recording was done by (b) (6), (b) (7)(C) or CTB/McGraw-Hill on the DC CAS answer
sheets.

Since the recording was done prior to the first exam date, and because a seating chart was
already pre-approved by (b) (6), (b) (7)(C) approximately one week before the start of the
exam, (b) (6), (b) (7)(C) stated that some students were seated directly next to another student
with the same color test booklet and answer sheet defeating any anti-cheating measures.
(b) (6), (b) (7)(C)
                    did not question the reasoning for this anomaly, nor did he bring this to the
attention of any non NEC DCPS personnel.
(b) (6), (b) (7)(C)
               stated that he had no other knowledge related to any testing irregularities in
test scores at NEC.




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                Office of The Inspector General
                                     Investigations Division

                                      Memorandum of Interview



To:     File
        (b) (6), (b) (7)(C)
From:                           Special Agent

Date: August 12, 2011

Re:   2011-0318
________________________________________________________________________

Date of Interview:            August 11, 2011

Time Began: 10:00 am                                         Time Ended: 11:40 am

Location of Interview:               OIG, 717 14th Street, NW, Washington, DC

Persons Present:              Special Agent (b) (6), (b) (7)(C) , DC-OIG
                              Special Agent (b) (6), (b) (7)(C), DC-OIG

Person Interviewed: (b) (6), (b) (7)(C)                 , former Teacher, Noyes EC

                              Home Address: (b) (6), (b) (7)(C)
                                     (b) (6), (b) (7)(C)
                              DLN:
                              Date of Birth: (b) (6), (b) (7)(C)
                              Cellular Telephone Number: (b) (6), (b) (7)(C)

________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________

After being apprised of the identity of the interview agents, and the nature of the
interview, (b) (6), (b) (7)(C) voluntarily provided the following information:

(b) (6), (b) (7)(C)



                                      In June 2009, (b) (6), (b) (7)(C) attended another
DCPS job fair where he met and interviewed with (b)(6), (b)(7)(C)
Noyes Education Campus (NEC). (b) (6), (b) (7)(C) attended this job fair because he wanted
                                                                                                                     2

                                                         (b) (6), (b) (7)(C)
                                                              (b)(6), (b)(7)
a different experience than Sousa MS. Along with (C)                         also interviewed
with (b) (6), (b) (7)(C)            , NEC, and (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C) , NEC.
 Following the job fair, (b) (6), (b) (7)(C) interviewed with a panel of NEC staffers at the
                                                (b)(6), (b)(7) (b) (6), (b) (7)(C)
 school before he was officially hired by (C)
            (b) (6), (b) (7)(C)
                                                                                    was subsequently hired to
                                                                                                     (b) (6), (b) (7)(C)
                                                                             (b) (6), (b) (7)(C)
 teach                    grade middle school science classes.                                   was also a
(b)(6), (b)
(7)(C)      resource teacher.

Halfway through the 2009/2010 school year, (b) (6), (b) (7)(C)   described a new idea that
                                                            (b)(6), (b)(7)(C)
(b)(6), (b)(7)
(C)    wanted to initiate at NEC that involved grouping                       grade students
together in color coded groups based on their academic abilities. This idea was discussed
among all middle school teachers at NEC, and also approved by (b)(6), (b)(7)(C)
                             at DCPS’ central office who oversaw NEC.

The color codes were gold, silver, grey, and maroon/white, with the gold group
containing the most talented students, and the maroon/white group containing the most
academically challenged group. (b) (6), (b) (7)(C) was given the (b) (6), (b) (7)(C) group to
                                                                               (b)                             (b) (6), (b) (7)(C)

teach. Normally (b) (6), (b) (7)(C) would teach earth science to
                                       (b) (6), (b) (7)(C)
                                                                        graders, life science to
graders, and physical science to          graders; but with this new multi-grade teaching idea,
(b) (6), (b) (7)(C)
                    had to merge all three sciences to teach three different grades of students.
(b) (6), (b) (7)(C)
                    thought this was a ridiculous idea, but was afraid to voice his opinion due to
his lack of seniority as a teacher at NEC. In addition to the logistic problems of teaching
to three different grades, (b) (6), (b) (7)(C) stated that there was also a negative social stigma
attached to the color coded groups. (b) (6), (b) (7)(C) stated that it was well known among
the students that if you were in the grey or maroon/white groups, you were academically
challenged. (b) (6), (b) (7)(C) was unaware if this style of teaching was continued in the
2010/2011 school year.
                                                                                               (b)
(b) (6), (b) (7)(C)
                        was aware of the DC CAS exams which are given each April to (6),
                                                                                             (b)
     grade students.
                 (b)
                              In addition to math and reading, which are given to all grades,(7) the
                                                                                             (C)
students in (6), (b)(7)
                         grade are given  an additional science test.  During   his year at NEC,
(b) (6), (b) (7)(C)
                 (C)
                        and the rest of the school staff took part in a pilot teaching program called
Anet. This set of three or four practice exams taught teaching to the test, or teaching the
topics which are directly related to actual test questions. This exam was in addition to the
four DC BAS practice exams given throughout the year. (b) (6), (b) (7)(C) stated that it
seemed as if the students were taking practice exams every other week throughout the
school year. (b) (6), (b) (7)(C) was required to give the DC AS       (
                                                                          to the maroon/white group,
and he also gave the science portion of the exam to all ( graders.
                                                              b)(
                                                              )6
(b) (6), (b) (7)(C)                          tant, NEC,       (),(b) (6), (b) (7)(C)
Teacher, NEC, and(b) (6), (b) (7)(C)                          6(b
                                                           Teacher,     NEC, all served as
                                                              )
proctors in (b) (6), (b) (7)(C) classroom during the five days,)( of testing which took place
over two weeks.                                               (7)
                                                              b(
                                                              )C
                                                              ()
                                                              7
                                                              )
                                                              (
    This document contains neither recommendations nor conclusions         of the Office of the
 Inspector General (OIG). It is the property of the OIG C      and is loaned to your agency; it
                                                              )
               and its contents are not to be distributed outside        your agency.
                                                                                                                 3


Approximately 2-4 weeks before the exam, (b) (6), (b) (7)(C) met with (b) (6), (b) (7)(C)
                                               , NEC, and other NEC staff who were involved in
administering the DC CAS. There were at least two meetings regarding preparation for
the DC CAS given by (b) (6), (b) (7)(C) . During one meet ng, (b) (6), (b) (7)(C) recalled hearing
                                                                    (b) (6), (b) (7)(C)



(b) (6), (b) (7)(C)
                      state “make sure the kids bubble in their answer sheets lightly.”
(b) (6), (b) (7)(C)
                    N understood this comment to believe that erasures would be made, but he had
no other evidence to prove this allegation.

Although the maroon/white group contained 22 students, approximately seven of these
students were special needs students, who were given special accommodations during the
DC CAS. These accommodations included reading the questions out loud, or helping
with correct grammar. These seven students were taken to a different classroom where
they were administered the tests by special education instructors, (b) (6), (b) (7)(C)
(FNU), and (b) (6), (b) (7)(C)S.
(b) (6), (b) (7)(C)
               stated that the test booklets were issued by (b) (6), (b) (7)(C) prior to exam day
with instructions to go over the test with the students. (b) (6), (b) (7)(C) did not clearly issue a
directive to give the students advance knowledge of the test questions, but (b) (6), (b) (7)(C)
questioned the wisdom of handing out test booklets prior to the actual first exam day.
(b) (6), (b) (7)(C), Teacher – Middle School, NEC also assisted (b) (6), (b) (7)(C) in sorting
and passing out test booklets.
(b) (6), (b) (7)(C)
               provide (one example of what he believed to be fraudulent regarding a
writing test given to () grade students by (b) (6), (b) (7)(C)                    , Teacher, NEC. The
                                                      (b) (6), (b) (7)(C)
students were located in  b(
                            6 the homeroom class of
                          )),
                                                                          , colleague     of (b) (6), (b) (7)(C) ,
who taught social studies ((   to middle school students. On the day prior to the actual
writing exam,   (b) (6), (b)
                          6) (7)(C)
                            b
                                      came into the classroom and gave the students a practice
                          )(7
writing exam with the ,topic)     of writing about “The person I admire the most, and why.”
On the following day, the       students were given the actual writing exam, and the exam
                            (
                          ( C
                          b)                                                               (b) (6), (b) (7)(C)
question was the same )as the practice question given the previous day.                           was able
                                                                                 (b) (6), (b) (7)(C)
to gather four original practice exam papers which she provided to
                          (                                                                          to prove
                          7 (7)(C)
her accusation. (b) (6), (b)
                          )         provided  these four practice     exams    (attached)      which    he
stated are clearly marked with the date of the exam. These could be compared to the
                          (
formal writing exam given C
                          )
                                 the following day. (b) (6), (b) (7)(C) clarified that the essay
portion of the exam does not count towards the Actual Yearly Progress (AYP) and does
not know if the student’s scores are counted towards their DC BAS overall scores.
(b) (6), (b) (7)(C)
                  also recalled one incident in which he was administering the science portion
                              graders when one student, (b) (6), (b) (7)(C) , tried to elicit an
                       (b) (6), (b) (7)(C)

of the DC BAS to
                 (b) (6), (b) (7)(C)
answer from                          during the exam. (b) (6), (b) (7)(C) refused to answer the question,
wherin (b) (6), (b) (7)(C) replied “come on (b) (6), (b) (7)(C), the cool teachers give us the
answers.” (b) (6), (b) (7)(C) could not verify the accuracy of (b) (6), (b) (7)(C) response
regarding any other teachers. (b) (6), (b) (7)(C) stated it was also whispered among certain
                                             (b) (6), (b) (7)(C)

staff that                                 grade teacher, frequently stopped in the middle of
exams and gave answers to his students. (b) (6), (b) (7)(C) could not provide any other


    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                                                                                                                  4


evidence of this accusation, nor provide names of any other teachers who could verify
this information.
(b) (6), (b) (7)(C)                              (b)(6), (b)(7)
                    also found it odd that (C)                     would not allow two monitors for the Office of
the State Superintendent for Education (OSSE) to enter any classrooms during the DC
                    (b)(6), (b)(7)(C)
CAS exams.                            formally instructed both monitors that they were not to enter any
classrooms and could only look through the classroom doors to monitor test activity.
(b) (6), (b) (7)(C)
                     did not know if this policy was approved by OSSE or the DCPS central
           (b) (6), (b) (7)(C)                  (b)(6), (b)(7)
office.                               described (C)            as a tyrant who verbally yelled at him during one
day of testing for playing a game of “hangman” with his students when they had ten
                                                                                                     (b)(6), (b)(7)
minutes of downtime at the end of the exam before the lunch period. (C)                                             yelled at
(b) (6), (b) (7)(C)
                     stating that if he didn’t waste so much time playing games with his
                                                                           (b)(6), (b)(7)                   (b) (6), (b) (7)(C)
students, then maybe they would learn something. (C)                                      also yelled at               in front
of her students for informing the students of the impending color coded classrooms prior
to the principal’s formal announcement to all staff/students.
(b) (6), (b) (7)(C)
              could not provide a reason for the dramatic drop in DC CAS scores in April
                                                     (b)(6),

2010. NEC just added n additional(b
                                               grade class to e school, but (b) (6), (b) (7)(C) stated
                                                     (b)(7)
                                                     (C)
                                                                            (b)(6),

that a majority of the    grade students were previous
                                 )
                                 (6                                grade students at NEC, and not
                                                                            (b)(7)
                                                                            (C)

                                (b) (6), (b) (7)(C)
                                 ),

transfers from other schools.    (b
                                 )
                                 (7
                                                    believed that approximately 30% of his
students DC CAS scores did not match their academic abilities according to his
                                 )
                                 (
                                 C)

observation of their class skills.
(b) (6), (b) (7)(C)
               could not provide a reason for the high number of wrong-to-right erasures
on DC CAS exams at NEC. He believes that the students at NEC are tested so many
times throughout the school year, that the last thing they would want to do is erase and
correct their exam questions.
(b) (6), (b) (7)(C)
              also provided the following names of NEC Staff as belonging to the
principal’s management group: (b) (6), (b) (7)(C)
                                       . (b) (6), (b) (7)(C) stated the
                                                                                      (b) (6), (b) (7)(C)
                                                                                  was late almost every
                                                            (b)(6), (b)(7)(C)
day to school and he couldn’t understand why a                                was on the management
               (b)(6), (b)(7)
team; and why (C)             allowed her to be late to school on so many occasions.




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                         Office of The Inspector General
                              Investigations Division

                               Memorandum of Interview



To:          File

From: (b) (6), (b) (7)(C), Special Agent

Date: September 21, 2011

Re:   2011-0318
________________________________________________________________________

Date of Interview:     September 20, 2011

Time Began: 3:35 pm                                  Time Ended: 4:25 pm

Location of Interview:        Noyes Education Campus, 2725 10th Street, NE

Persons Present:       Special Agent (b) (6), (b) (7)(C)
                       Senior Special Agent (b) (6), (b) (7)(C)

Person Interviewed: (b) (6), (b) (7)(C)                                , Noyes EC


________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________
(b) (6), (b) (7)(C)
           signed an OIG Warning and Assurance Form (attached) and voluntarily
provided the following information:

(b) (6), (b) (7)(C)




Students are placed in special education status after they are evaluated in areas of concern
by school officials in accordance with D.C. law, and the Individuals with Disabilities Act
(IDA). Parents/guardians will provide information regarding the students health,
personnel records, pregnancy, homelife, and other information which will help to
                                                                                                                                                          2


determine if a student is eligible for special education status. A student is also considered
special needs if their academic level is considered to be two grades behind their peers.
(b) (6), (b) (7)(C)
           stated that there are currently about 45 special needs students at NEC, and
there were about 50-55 students the previous school year. This compared to about 40-50
                            (b) (6), (b) (7)(C)
special needs students that                     had at Drew ES each year that she was SEC.
(b) (6), (b) (7)(C)
            served as a proctor during the DC CAS exams each year at Drew ES, and has
                                                    (b) (6), (b) (7)(C)
served in the same role the last two years at NEC.                       recalled a staff meeting
taking place sometime before the actual exam with instructions for all teachers and
                                                         (b) (6), (b) (7)(C)
proctors to follow in the administration of the exam.                        could not recall who led
the meetings or how far in advance they were given prior to the actual first exam day.
           (b) (6), (b) (7)(C)
While              was at Drew ES, she stated that teachers were allowed to read the
instructions and the test questions to the special needs students; however, when she
transferred to NEC, she stated the rules had changed, and that only the test instructions
were allowed to be read to the students. At NEC, (b) (6), (b) (7)(C)
                                                                  (b) (6), (b) (7)(C)
                                                               .                      estimated that there
were approximately 12 to 14 special needs students in these three grades. There was no
special seating assignment in the classroom, and students were grouped two to a table
                            (b) (6), (b) (7)(C)
based on their grade/age.                       stated that she signed out the DC CAS test                                          (b) (6), (b) (7)(C)

booklets/answer sheets last year according to protocol. They were handed out by                                   n
(b) (6), (b) (7)(C)                                            , NEC, at the beginning of each
                                                                                        (b) (6), (b) (7)(C)
school day, and returned immediately at the conclusion of the test.                                         denied
that any test booklets were ever distributed to any teachers prior to the first test day.

The D.C Office of the State Superintendent for Education (OSSE), sent monitors to NEC
during each test day. At least one monitor is with (b) (6), (b) (7)(C) when the exams are
distributed each morning, and when they are returned at the conclusion of the test. OSSE
monitors also patrol the hallways during the exam; however, they are not allowed to enter
                 (b) (6), (b) (7)(C)
the classrooms.                      surmised that (b)(6), (b)(7)(C)             , NEC, did not
allow the monitors to enter the classrooms because he did not want anything to interrupt
the students while they were taking the exams.
(b) (6), (b) (7)(C)               (b)(6), (b)(7)
                   described (C)                as a good leader, and someone who cared about his students
                               (b)             (C)                                      (b)(6), (b)(7)
 more than himself.                                was not aware that (C)                              was portrayed in an ad
                         (b)(6), (b)(7)(C)                                   (b)(6), (b)(7)(C)                  (b) (6), (b) (7)(C)
 campaign during                                           tenure as                                  at DCPS.                         heard that
(b)(6), (b)(7)               (b)(6), (b)(7)(C)
(C)            resigned as                                                            DCPS, in June 2011, and was not aware
                                                                   (b) (6), (b) (7)(C)
 of his current position or whereabouts.                                                  also denied feeling any extra pressure
                         (b)(6), (b)(7)(C)          (b)(6), (b)(7)(C)                                                           (b)(6), (b)
 to perform under                           era as                           although she admitted that as a (7)(C) , she
 was not under the same pressure as classroom teachers. She admitted that teachers might
                                                             (b)(6), (b)
 have felt some added pressure under (7)(C)                                due to the threat of layoffs and terminations.
(b) (6), (b) (7)(C)
            admitted that there is always a push to assist students who are just below the
                                                                                     (b) (6), (b) (7)(C)
“proficient” line on their reading and/or math scores to raise their averages.
                                                    (b) (6), (b) (7)(C)
stated this was normal in the teaching profession.                      was not aware of any

     This document contains neither recommendations nor conclusions of the Office of the
  Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
               and its contents are not to be distributed outside your agency.
                                                                                                                 3


special accomodations given to these students during the DC CAS, such as special
seating assignments. Special needs students also participated in the four DC BAS
practice exams given throughout the year. Because of these exams, all teachers should be
aware of which students are on the cusp of scoring proficient on their math/reading tests.
          (b) (6), (b) (7)(C)
Since            started at NEC in the fall of 2009, she did not receive any monetary
funds from the two TEAM awards which were awarded to NEC by the U.S. Department
of Education. NEC won these awards, in part because of the dramatic increase in DC
                                                (b) (6), (b) (7)(C)
CAS scores from 2005 through 2009.                                  attributed the dramatic decline in DC
CAS scores in 2010 to the number of transfer students who came to NEC from other
                            (b) (6), (b) (7)(C)
lower performing schools.                        estimated that the number of Special needs
students jumped from 25 to as high as 58 students in 2009/2010.

In the spring of 2011, the DC CAS scores dropped again from the previous year.
(b) (6), (b) (7)(C)
               attributed this drop to a lackadaisical attitude among the students, due to the
                                                  (b) (6), (b) (7)(C)
new (b)(6), (b)(7)(C)
                                                                                  (b)(6), (b)(7)(C)
                                                                      stated that                   was not as
                                  (b)(6), (b)(7)
strong of an administrator as (C)                , and that the students DC CAS scores reflected the
change in leadership.
(b) (6), (b) (7)(C)
             was not aware of any cheating on the DC CAS by any staff member at NEC.
She could not provide any reason for the number of wrong-to-right erasures which were
                                                                      (b) (6), (b) (7)(C)
statistically high at NEC in comparison to other schools within DCPS.                     does
not work on the weekends, and therefore was unaware if any NEC staff were present at
the school on the weekend that the DC CAS exams were given.




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                Office of The Inspector General
                                     Investigations Division

                                       Memorandum of Interview



To:                   File

From: (b) (6), (b) (7)(C), Special Agent

Date: June 21, 2011

Re:   2011-0318
________________________________________________________________________

Date of Interview:           June 20, 2011

Time Began: 11:20 am                                               Time Ended: 11:35 pm

Location of Interview:                Noyes Education Campus, 2725 10th St, NE

Persons Present:             Special Agent (b) (6), (b) (7)(C)
                             Special Agent (b) (6), (b) (7)(C)

Person Interviewed: (b) (6), (b) (7)(C)
                    Home Address: (b) (6), (b) (7)(C)
                    Home Telephone Number: (b) (6), (b) (7)(C)
                    Work Location:      Noyes Educational Campus
                                        2725 10th Street, NE, Washington, DC
                    Work Telephone Number: (b) (6), (b) (7)(C)

________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________
(b) (6), (b) (7)(C)
        signed an OIG Warning and Assurance Form and voluntarily provided the
following information:
(b) (6), (b) (7)(C)                                                                                   (b) (6), (b) (7)(C)
         began her career with the D.C. Public School System (DCPS) in 1995.
serves as a(b)(b)    (6), (b) (7)(C) which provides professional development training to teachers
               (6), (b) (7)(C)
at Noyes.                      described her role as “training the trainer,” or providing teachers with
                                                                       (b) (6), (b) (7)(C)
skills that the DCPS central office wants them to know.                                    has served in this role
for the last eight years, of which the last three have been at Noyes.
(b) (6), (b) (7)(C)
       was placed at Noyes by the DCPS central office. She did not interview with
(b) (6), (b) (7)(C)           , Noyes; however, she did know him from the time he
                                                                                                                                                           2

                      (b) (6), (b) (7)(C)                                       (b) (6), (b) (7)(C)                           (b) (6), (b) (7)(C)
served as                    at Bruce Monroe Elementary School.                                       described                                     as a
     (b) (6), (b) (7)(C)
good                     and a good leader.
(b)
(b) (6),
    (6),(b)
         (b)(7)(C)
             (7)(C)
         played a limited role during the DC CAS testing at Noyes. She was assigned as a
hall monitor, making sure students(b) had        valid reasons to be in the hallways if they were
                                      (6), (b) (7)(C)
not in their assigned classrooms.                     stated that her role was different from the hall
monitor sent by the D.C. Office of the State Superintendent                         for Education (OSSE), whose
                                                                  (b) (6), (b) (7)(C)
role was to monitor the testing in each classroom, as                                 does not enter any of the
classrooms during the test.
(b) (6), (b) (7)(C)
         confirmed that she received a $2,000 bonus in 2008 or 2009 from the U.S.
Department of Education, due to the dramatic rise in test scores at Noyes. She was not
eligible for the bonus that Noyes received the previous       year, but was aware that Noyes
                                                    (b) (6), (b) (7)(C)
received bonus awards on two different occasions.                       attributed the dramatic rise in
                                                          (b) (6), (b) (7)(C)
test scores to good teachers, and the mission of              that students in his school
succeed.
(b) (6), (b) (7)(C)
         had no idea about the high number of wrong-to-right erasures which occurred on
a large number of Noyes answer sheets. She had not heard of any rumors or
conversations regarding how they might have happened other than students re-checking
their exam answer sheets.
(b) (6), (b) (7)(C)
         explained that the large drop in exam scores during the final year that (b) (6),
                                                                                 (b) (7)(C)
                                                                                            was
at Noyes was possibly due to a large influx of special education students who were
transferred to Noyes from other schools that were closing.
                                                                                                        (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)
        was not aware of the reason that                             Grade Teacher,
had resigned from Noyes. She recalled an electronic mail message from the principal
wishing him well, but had no other information about his departure.


Attachments




     This document contains neither recommendations nor conclusions of the Office of the
  Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
               and its contents are not to be distributed outside your agency.
                                      Office of The Inspector General
                                           Investigations Division

                                           Memorandum of Interview



To:                   File

From: (b) (6), (b) (7)(C), Special Agent

Date: June 21, 2011

Re:   2011-0318
________________________________________________________________________

Date of Interview:                 June 20, 2011

Time Began: 11:20 am                                              Time Ended: 11:35 pm

Location of Interview:                    Noyes Education Campus, 2725 10th St, NE

Persons Present:                   Special Agent (b) (6), (b) (7)(C)
                                   Special Agent (b) (6), (b) (7)(C)

Person Interviewed: (b) (6), (b) (7)(C)
                    Home Address: (b) (6), (b) (7)(C)
                    Home Telephone Number: (b) (6), (b) (7)(C)
                    Work Location:      Noyes Educational Campus
                                        2725 10th Street, NE, Washington, DC
                    Work Telephone Number: (b) (6), (b) (7)(C)

________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________
(b) (6), (b) (7)(C)
        signed an OIG Warning and Assurance Form and voluntarily provided the
following information:
(b) (6), (b) (7)(C)                                                                          (b) (6), (b) (7)(C)
         began her career with the D.C. Public School System (DCPS) in 1995.
serves as a(b)(b)    (6), (b) (7)(C) which provides professional development training to teachers
               (6), (b) (7)(C)
at Noyes.                      described her role as “training the trainer,” or providing teachers with
                                                                       (b) (6), (b) (7)(C)

skills that the DCPS central office wants them to know.                       S has served in this role
for the last eight years, of which the last three have been at Noyes.
(b) (6), (b) (7)(C)
                      was placed at Noyes by the DCPS central office. She did not interview with
(b)(6), (b)(7)(C)
                                               Noyes; however, she did know him from the time he
                                                                                                                                              2

                      (b)(6), (b)(7)                                    (b) (6), (b) (7)(C)                           (b)(6), (b)(7)
served as                          at Bruce Monroe Elementary School.                         described (C)                            as a
     (b)(6), (b)(7)(C)
good                           and a good leader.
(b) (6), (b) (7)(C)
         played a limited role during the DC CAS testing at Noyes. She was assigned as a
hall monitor, making sure students(b) had        valid reasons to be in the hallways if they were
                                      (6), (b) (7)(C)
not in their assigned classrooms.                     stated that her role was different from the hall
monitor sent by the D.C. Office of the State Superintendent                         for Education (OSSE), whose
                                                                  (b) (6), (b) (7)(C)
role was to monitor the testing in each classroom, as                                 does not enter any of the
classrooms during the test.
(b) (6), (b) (7)(C)
         confirmed that she received a $2,000 bonus in 2008 or 2009 from the U.S.
Department of Education, due to the dramatic rise in test scores at Noyes. She was not
eligible for the bonus that Noyes received the previous             year, but was aware that Noyes
                                                          (b) (6), (b) (7)(C)
received bonus awards on two different occasions.                             attributed the dramatic rise in
                                                 (b)(6), (b)(7)
test scores to good teachers, and the mission of (C)                that students in his school
succeed.
(b) (6), (b) (7)(C)
         had no idea about the high number of wrong-to-right erasures which occurred on
a large number of Noyes answer sheets. She had not heard of any rumors or
conversations regarding how they might have happened other than students re-checking
their exam answer sheets.
(b) (6), (b) (7)(C)                                                                                                       (b)(6), (b)(7)
         explained that the large drop in exam scores during the final year that (C)                                                       was
at Noyes was possibly due to a large influx of special education students who were
transferred to Noyes from other schools that were closing.
                                                                                                (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)                                                                                      (b)(6), (b)
        was not aware of the reason that                            (7)(C)  Teacher,
had resigned from Noyes. She recalled an electronic mail message from the principal
wishing him well, but had no other information about his departure.


Attachments




     This document contains neither recommendations nor conclusions of the Office of the
  Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
               and its contents are not to be distributed outside your agency.
                                     Office of The Inspector General
                                          Investigations Division

                                            Memorandum of Interview



To:        File

From: (b) (6), (b) (7)(C), Special Agent

Date: July 26, 2012

Re:   2011-0318
________________________________________________________________________

Date of Interview:               July 25, 2012

Time Began: 12:00 pm                                                       Time Ended: 12:20 pm

Location of Interview:                     (b) (6), (b) (7)(C)




Persons Present:                 Special Agent (b) (6), (b) (7)(C) , DC-OIG


Person Interviewed: (b) (6), (b) (7)(C)                                   ,
                                                                              (b) (6), (b) (7)(C)




                                 Office Telephone:           (b) (6), (b) (7)(C)




________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________

After being apprised of the identity of the interview agent, and the nature of the
interview, (b) (6), (b) (7)(C) voluntarily provided the following information:
(b) (6), (b) (7)(C)
                      served as (b)(6), (b)(7)(C)          to the D.C. Public School System (DCPS) from
(b) (6),
(b) (7)
         through(b)        .
                        (6),
                    (b) (7)
(C)                 (C)
(b) (6), (b) (7)(C)
               vaguely recalled the November 21, 2008 memorandum from the D.C. Office
of the State Superintendent for Education (OSSE) which identified concerns with the
high number of Wrong-to-Right (WTR) erasures in certain classrooms, and unusual gains
in test scores at a number of schools.
                                                                                                             2

(b) (6), (b) (7)(C)
            reported that (b) (6), (b) (7)(C)                                 ,
DCPS, was the point person within DCPS who handled the OSSE memorandum, and the
subsequent actions which eventually led to the hiring of CAVEON, Inc.
(b) (6), (b) (7)(C)
              described (b) (6), (b) (7)(C) as committed, and who took the OSSE
memorandum seriously and without any undue delays. (b) (6), (b) (7)(C) was unaware of the
assistance given to (b) (6), (b) (7)(C) by (b) (6), (b) (7)(C) , Independent Consultant,
EDUNEERING, Inc. (b) (6), (b) (7)(C) believed that the initial reaction to the OSSE letter by
DCPS was not rushing to judgment and accusing teachers of cheating without proper due
diligence.
(b) (6), (b) (7)(C)
             vaguely recalled the February 23, 2009 memorandum (attached) which was
drafted by (b) (6), (b) (7)(C) and forwarded to (b) (6), (b) (7)(C) .
                                                           (b) (6), (b) (7)(C)
                                                                               described his
role as mainly reviewing documentation for legal sufficiency, especially when it came to
dealing with the Washington Teacher’s Union (WTU).
(b) (6), (b) (7)(C)
              clearly recalled reviewing a draft disclosure agreement prior to the 2009 DC
CAS exams which basically stated that teachers and administrators promised not to cheat
on the DC CAS exams. (b) (6), (b) (7)(C) was incredulous that the (b) (6), (b) (7)(C) WTU
went ballistic after reviewing the agreement and balked at authorizing WTU members to
sign the agreement. (b) (6), (b) (7)(C) stated that this type of agreement was widely used and
accepted in other large jurisdictions that fell under the American Federation of
Government Employees (AFGE) union, and that he did not understand the WTU’s
vehement rejection of this disclosure agreement.
(b) (6), (b) (7)(C)
           could not recall discussions of the OSSE memorandum during the
management meetings with (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)
                                                                   , nor did he recall (b) (6), (b) (7)(C)

     discussing the OSSE report during any of his one-on-one meetings with         .
(b) (6), (b) (7)(C)
                    vaguely recalled that (b) (6), (b) (7)(C)spent time identifying the best
possible company to review the 2009 DC CAS testing irregularities, and that CAVEON
was chosen based on its expertise, and recommendation from other large school districts.
(b) (6), (b) (7)(C)
                    confirmed that investigation into the 2008 DC CAS test results was
probably terminated due to the fact that DCPS was too close to the 2009 DC CAS exams,
                      (b) (6), (b) (7)(C)
and that              and her staff did not want to interrupt the initial preparations for the 2009
exams.




      This document contains neither recommendations nor conclusions of the Office of the
   Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
                and its contents are not to be distributed outside your agency.
                                     Office of The Inspector General
                                          Investigations Division

                                            Memorandum of Interview



To:          File

From: (b) (6), (b) (7)(C), Special Agent

Date: July 19, 2011

Re:   2011-0318
________________________________________________________________________

Date of Interview:                July 15, 2011

Time Began: 10:00 am                                                     Time Ended: 11:10 am

Location of Interview:                      OIG, 717 14th Street, NW, Washington, DC

Persons Present:                  Special Agent (b) (6), (b) (7)(C)
                                  Special Agent (b) (6), (b) (7)(C)

Person Interviewed: (b) (6), (b) (7)(C), Teacher, (b) (6), (b) (7)(C), Noyes EC

                                  Home Address: (b) (6), (b) (7)(C)



Also Present:                     (b) (6), (b) (7)(C)
                                                        , Attorney, (b) (6), (b) (7)(C) & Associates, P.C.

________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________
(b) (6), (b) (7)(C)
           signed an OIG Warning and Assurance Form (attached) and voluntarily
provided the following information:
(b) (6), (b) (7)(C)                                                                          (b) (6), (b) (7)(C)
                      has been with the DCPS system since 2005. He served as a
                           teacher at (b) (6), (b) (7)(C)School (ES) in                     .
                                                                        (b) (6), (b) (7)(C)            (b) (6), (b) (7)(C)



(b) (6), (b) (7)(C)


                                                                                                                        7)
                                                                                                          (C)
                                                                                                                       2

(b)(6), (b)(7)(C)                                                                                (b) (6), (b) (7)(C)
                                  Noyes EC, was not part of the panel interview.                     S did
          (b)(6), (b)(7)                                     (b) (6), (b) (7)(C)
not know (C)             prior to his assignment at NOYES.                       stated the physical
environment of the school sold him on accepting the PE position at Noyes. He was also
given the freedom to design and implement a PE curriculum for Noyes.
(b) (6), (b) (7)(C)
                    was not aware that Noyes received a Blue Ribbon award by the U.S.
Department of Education (USED) when he joined the staff, nor was he aware of any
                                                                                   (b) (6), (b) (7)(C)
financial incentive awarded because of the Blue Ribbon award.                                          was surprised
when Noyes received a second TEAM award from USED in the spring of 2009.
(b) (6), (b) (7)(C)
                    was aware that Noyes won a TEAM award in 2006/2007 school year, as the
staff received their monetary awards approximately one year later in the spring of 2008.
(b) (6), (b) (7)(C)
                    was paid $8,000 in the spring of 2010 for the second TEAM award.
(b) (6), (b) (7)(C)
                    stated that there were no speeches or announcements by the principal
                                                               (b) (6), (b) (7)(C)
concerning the TEAM award or financial payments.                                   did not think that Noyes
was even eligible to receive a second TEAM award because he had never heard of any
school winning a TEAM award twice.
(b) (6), (b) (7)(C)
                    was aware that the TEAM awards were based on the dramatic rise in testing
                                        (b) (6), (b) (7)(C)
scores of the DC CAS exam.                                  based the rise in test scores on collaborative
planning meetings held by school staff in which students on the cusp of being
“proficient” were given extra tutoring to help them increase their overall test scores.
(b) (6), (b) (7)(C)
                    also credited the high scores to increased emphasis on the DC BAS or ANET
practice exams which are given four times a year to allow students to review their
progress and prepare for the real exam. The final DC BAS or ANET exam is usually
given approximately one month before the DC CAS exam. The students are allowed to
see what questions they got wrong on the practice exams, and therefore, can concentrate
on increasing their knowledge in those areas.
(b) (6), (b) (7)(C)
                      could not explain the precipitous drop in DC CAS scores in 2010 or 2011.

The DC CAS District-wide exams are given once a year in April. The test is given over a
multi-day period, and last one and half hours, from 9:30 to 11:00. Both the teacher, and a
                                                           (b) (6), (b) (7)(C)
“proctor” are present in the room during the test.                              served as a proctor in 2009,
2010, and 2011. On the first exam day, the teacher will obtain the test booklets from
(b) (6), (b) (7)(C)                                                            , around 8:15 am. The
proctor is supposed to report to his/her assigned classroom a few minutes before the exam
                 (b) (6), (b) (7)(C)
is set to start.                     was not aware of who made up the room assignments for each
proctor.

The classroom teacher will hand out the test booklets to each student which are pre-
printed with a specific barcode for each student. If there are any new or recently
transferred students in the class, the teacher or proctor is allowed to instruct that student
on how to fill out the identification portion of the answer sheet. Once the exam begins,
there is no talking allowed, and the teacher and proctor are to circulate around the
classroom. The teacher or proctor has to make sure each student answers the first ten
questions on the answer sheet or the test grading company will invalidate the entire test

     This document contains neither recommendations nor conclusions of the Office of the
  Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
               and its contents are not to be distributed outside your agency.
                                                                                                                      3


score. The teacher will put the remaining time of the test on the classroom chalkboard,
and an announcement will be made over the public address system when the exam time
has ended. If there are any students who need extra time to finish the test, they are
escorted to another room, usually the library, and given extra time to finish the exam.
(b) (6), (b) (7)(C)
                     could not recall if any students that he proctored ever needed any extra time.
At the end of the test period, the teacher will collect all the tests and return them to the
test coordinator, (b) (6), (b) (7)(C) , who locks them in a room adjoining his ((b) (6), (b) (7)(C) )
                                   speculated that only (b) (6), (b) (7)(C) the principal, and the custodial staff
               (b) (6), (b) (7)(C)
office.
have keys to access the storage room.

           could not provide an answer for the departure of (b) (6), (b) (7)(C) (FNU), who
(b) (6), (b) (7)(C)


resigned last year. (b) (6), (b) (7)(C) seemed different and withdrawn during his last few
                          (b) (6), (b) (7)(C)
months at the school.                         tries to stay away from rumors and gossip around the
                                           was unaware of why (b) (6), (b) (7)(C)
                      (b) (6), (b) (7)(C)
school. In addition,
(b) (6), (b) (7)(C)
                                                                                           , former
   grade teacher, resigned in April 2011.
(b) (6), (b) (7)(C)
           refused to speculate on the dramatic rise in number of wrong-to-right erasures
                                                      (b) (6), (b) (7)(C)
that were attributed to certain classrooms at Noyes.                      had heard about the
controversy, and stated that many teachers were taken by surprise concerning the number
of erasures.
(b) (6), (b) (7)(C)
           did not believe that there was any undue pressure on teachers or administrators
                             (b)(6), (b)(7)(C)                                         (b) (6), (b) (7)(C)
under the leadership of                                                        DCPS.                       stated
there was more fear of the change in leadership, although he admitted that he did not
                    (b)(6), (b)        (b) (6), (b) (7)(C)
personally care for (7)(C) .                               never heard any conversations from school staff
that they were afraid of losing their jobs unless they increased the DC CAS scores in their
classrooms.
(b) (6), (b) (7)(C)                     (b)(6), (b)(7)                                               (b)(6), (b)(7)
                    recently learned that (C)  had resigned from DCPS. He has seen (C)
                                                                                     (b)(6), (b)(7)
once in the last few months, but does not have a close relationship with (C)
                                                                        as (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)                                      (b)(6), (b)(7)
                    described the management team under (C)
(b) (6), (b) (7)(C) , and (b) (6), (b) (7)(C)                               .
(b) (6), (b) (7)(C)
            claimed that from the outset of the news that OIG would be investigating
teachers at Noyes, no one was at ease. The teacher’s union informed their members of
their rights, and not to believe certain rumors about teachers being arrested.
(b) (6), (b) (7)(C)
         reiterated that he has not seen or heard of any testing improprieties being
committed by any DCPS staff in regard to the DC CAS exam.




      This document contains neither recommendations nor conclusions of the Office of the
   Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
                and its contents are not to be distributed outside your agency.
                            Office of The Inspector General
                                 Investigations Division
   ***                            Memorandum of Interview



To:           File

From: (b) (6), (b) (7)(C) , Special Agent

Date: August 4, 2011

Re:           2011-0318


Date oflnterview:         July 29,2011

Time Began: 10:00 am                                     Time Ended: 11 :25 am

Location of Interview:           OIG, 717 14th Street, NW, Washington, DC

Persons Present:          Special Agent (b) (6), (b) (7)(C) DC-OIG
                          Special Agent (b) (6), (b) (7)(C) , ED-OIG

Person Interviewed: (b) (6), (b) (7)(C) Teacher, Noyes EC

                          Home Address: (b) (6), (b) (7)(C)
                          DLN: (b) (6), (b) (7)(C)
                          Date of Birth: (b) (6), (b) (7)(C)
                          Cellular Telephone Number: (b) (6), (b) (7)(C)


                                SUMMARY OF INTERVIEW 



(b) (6), (b) (7)(C)
          signed an OIG Warning and Assurance Form (attached) and voluntarily
provided the following information:

(b) (6), (b) (7)(C)



(b) (6), (b) (7)(C)
                                                                                 (b) (6), (b) (7)(C)
                                                 met and interviewed with
(b) (6), (b) (7)(C)     , Noyes Education Campus (NEC). (b) (6), (b) (7)(C) was then
interviewed by a panel of approximately eight NEC staff members at the school. She was
                                                                                                                                  2


(b) (6), (b) (7)(C)
      (b) (6), (b) (7)(C)
                          was not aware ofNEC's Blue Ribbon status until after she was hired.
She was also unaware that NEC had won a U.S. Department of Education (ED) TEAM
award for the 2007/2008 school year until shortly after being hired.

NEC won a second ED TEAM award in 200812009, and (b) (6), (b) (7)(C) received an $8,000
bonus. She described her first year as being tough on her mentally, and she questioned
whether or not she would fulfill her duties as Teacher during the entire year. She
explained that she (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)                      . She also stated that (b) (6), was a tough
                                                                (b) (7)(C)
educator who demanded results from his staff.
                                                  (b) (6), (b) (7)(C)




                                                                                      . During her
(b) (6), (b) (7)(C)                  had no part in the annual DC CAS exams given in April of each
school year. (b) (6), (b) (7)(C)   did not serve as a Proctor for any other classroom.

In (b) (6), (b) (7)(C) , (b) (6), (b) (7)(C) had her first experience with the DC CAS exams. She explained
that she, along with all the teaching staff at NEC underwent exam training procedures the
week before the exam. The training was taught by (b) (6), (b) (7)(C) , (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)                                , NEe. During the four days of testing, (b) (6), (b) (7)(C) class
                                                                                                            (b) (6), (b) (7)(C)
was tested on two math exams and two English exams. (b) (6), (b) (7)(C) explained that
(b) (6), (b) (7)(C)
                    , Educational Assistant, NEC, served as class proctor for three of the exam
days and (b) (6), (b) (7)(C)                            , (position unknown), served as proctor for the fourth
day. (b) (6), (b) (7)(C) also stated that two of her students were unable to complete the exam
during the allotted time period in the classroom, and were then escorted to the lunchroom
to finish their exams. (b) (6), (b) (7)(C) believed that (b) (6), (b) (7)(C)             , (b) (6), (b) (7)(C) , and one
other staff person were assigned to watch over the students in the lunchroom.
(b) (6), (b) (7)(C)
                    attributed the rise in DC CAS scores during her first year at the school to better
teacher relationships with the parents of students, and hard work by the school staff.
(b) (6), (b) (7)(C)
                    then explained that the sharp drop in DC CAS scores in 200912010 could have
been attributed to the number of new students who have transferred to NEe. (b) (6), (b) (7)(C)
stated that she experienced a tremendous growth in her classroom size the three years she
taught at NEC.
(b) (6), (b) (7)(C)
          was aware of the scandal surrounding the "erasure" investigation due to the
USA Today news article, and the number of intrusions by journalists and other news
personnel on the campus. (b) (6), (b) (7)(C) stated that cameras were aimed in the windows of
classrooms during the latter part of the school year, as rumors of irregularities of DC
CAS scores were abundant throughout the media. (b) (6), (b) (7)(C) was not aware of any
cheating by NEC personnel and questioned how a teacher could commit the act under so
much supervision during exam periods. When questioned if a teacher or administrator
could have altered the test sheets after hours or on weekends, (b) (6), (b) (7)(C) confirmed that it
was a possibility. (b) (6), (b) (7)(C) believed that the principal and chief custodian had keys to
the school doors.

    This document contains neither recommendations nor conclusions of the Office of the
  Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                                                                                                                3

(b) (6), (b) (7)(C)                                  (b) (6), (b) (7)(C)
          stated that she was an        , and kept mainly to herself at school, and
therefore was not privy to much gossip or conversation regarding the erasure scandal.
(b) (6), (b) (7)(C)                                                              (b) (6), (b) (7)(C)
               explained that (b) (6), (b) (7)(C) was            s right-hand man, and that (b) (6), (b) (7)(C)
                                                     (b) (6), (b) (7)(C)
served as acting principal when                       was absent. (b) (6), (b) (7)(C) also described the NEC
management team as consisting of: (b) (6), (b) (7)(C)                                              ,(b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)
         , (b) (6), (b) (7)(C) , (b) (6), (b) (7)(C) , and (b) (6), (b) (7)(C) , (b) (6), (b) (7)(C)
                                                                                                              (b) (6), (b) (7)(C)
                 . The management team was dissolved early in the fall of 2010, when
(b) (6), (b) (7)(C) took over as principal ofNEC. (b) (6), (b) (7)(C) could not explain the exact
reason for the dissolution of the management team, but speculated that (b) (6), (b) (7)(C) had
                                                           (b) (6), (b) (7)(C)
a different management style than                       .
(b) (6), (b) (7)(C)            (b) (6), (b) (7)(C)
                    believed that         and (b) (6), (b) (7)(C) went on the same cruise around June 26,
2010, because both individuals had mentioned going on a cruise during the same week.
(b) (6), (b) (7)(C)
                    recalled the date, because that is when she and her husband married. (b) (6), (b) (7)(C)
could not recall any other details regarding the cruise.




      This document contains neither recommendations nor conclusions of the Office of the
    Inspector General (OIG). It is the property of the OIG and is loaned to your agency; i t
                and its contents are not to be distributed outside your agency.
                            Office of The Inspector General
                                 Investigations Division

                                  Memorandum of Interview



To:      File

From: (b) (6), (b) (7)(C), Special Agent

Date: June 10, 2011

Re:   2011-0318
________________________________________________________________________

Date of Interview:       June 9, 2011

Time Began: 3:45 pm                                       Time Ended: 4:00 pm

Location of Interview:           Noyes Education Campus, 2725 10th Street, NE

Persons Present:         Special Agent (b) (6), (b) (7)(C)
                         Special Agent (b) (6), (b) (7)(C)

Person Interviewed: (b) (6), (b) (7)(C), Custodian, Noyes EC

                         Home Address: (b) (6), (b) (7)(C)

                         Cellular Telephone Number:       (b) (6), (b) (7)(C)




________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________
(b) (6), (b) (7)(C)
               signed an OIG Warning and Assurance Form (attached) and voluntarily
provided the following information:
(b) (6), (b) (7)(C)       began his career with D.C. Public Schools (DCPS) at Noyes in October
2009. He is currently a Regular Worker (RW) – 3. His shift is from (b) (6), (b) (7)(C)
pm, Monday through Friday. (b) (6), (b) (7)(C) reports to (b) (6), (b) (7)(C)
                    , who works the 6:00 am to 3:00 pm shift. (b) (6), (b) (7)(C) is responsible for
(b) (6), (b) (7)(C)


overall cleaning of the building and other building services. He occasionally receives
overtime hours if there are events held at the school on the weekend. Anytime there is an
event, at least one custodial staffer will be on-site.
                                                                                                                 2

(b) (6), (b) (7)(C)
               is aware of the DC CAS exams which are given to students around the
first week of April; however, because his shift does not begin until 1:00 pm, he is not in
the building while the tests are being administered. (b) (6), (b) (7)(C) denies any
knowledge of cheating taking place on the DC CAS exams. He only heard about the
cheating scandal from news reports. He does not have any relationships with the teachers
and only talks about sports with some of the staff. He is unaware of what goes on in the
classrooms, as his duties are mostly in the common areas.
(b) (6), (b) (7)(C)    was hired by (b)(6), (b)(7)(C) the (b)(6), (b)(7)(C)
                                                                                                   (b)(6), (b)
                                                                               of Noyes. Both (7)(C)
                         interviewed him for the job. (b) (6), (b) (7)(C) stated that (7)(C)
     (b) (6), (b) (7)(C)                                                               (b)(6), (b)
and                                                                                                  performed
his job, and that he         (b) (6), (b) (7)(C) never had any issues with him.    (b) (6),  (b)   (7)(C) was
aware of the bonus money paid to all school staff in 2009; however, since he had just
started at the school, he was not eligible for any bonus money.
(b) (6), (b) (7)(C)     confirmed that the DC CAS exams are kept in a locked room that can only
be opened by the principal, assistant principal, guidance counselor, and custodial staff.
(b) (6), (b) (7)(C)                                                 (b) (6), (b) (7)(C)
                    does not have keys to open the school building.                     is the only
custodial staffer allowed to open the building on the school days and weekends.
(b) (6), (b) (7)(C) does not recall seeing anyone in the locked office with the DC CAS exams
on the weekend that the exams were stored in the office.

              heard that (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)                                                             (b)(6), (b)(7)
                                                          grade (C)       was fired for
some type of cheating incident; however, he does not know the specifics of the incident.




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                    Office of The Inspector General
                                         Investigations Division

                                                 Memorandum of Interview



To:             File

From: (b) (6), (b) (7)(C), Special Agent

Date: May 23, 2011

Re:   2011-0318
________________________________________________________________________

Date of Interview:               May 19, 2011

Time Began: 3:35 pm                                                              Time Ended: 5:30 pm

Location of Interview:                          Noyes Education Campus, 2725 10th Street, NE

Persons Present:                 Special Agent (b) (6), (b) (7)(C)
                                 Special Agent (b) (6), (b) (7)(C)
                                                                         (b) (6), (b) (7)(C)

Person Interviewed: (b) (6), (b) (7)(C), Teacher,                                  Grade, Noyes EC

                                 Home Address: (b) (6), (b) (7)(C)

                                 Home Telephone Number:                    (b) (6), (b) (7)(C)


                                 Personal Cell Phone Number:                        (b) (6), (b) (7)(C)


________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________
(b) (6), (b) (7)(C)
           signed an OIG Warning and Assurance Form (attached) and voluntarily
provided the following information:
                                                                         (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)
                       has been with the DCPS system since                           . He served as a teacher at
(b) (6), (b) (7)(C)                                                               , until he transferred to Noyes.
(
                    transferred to Noyes at the request of (b) (6), (b) (7)(C)                            (b) (6), (b) (7)(C)
                                                                                                                               at
(b) (6), (b) (7)(C)
                 who was(b) (6), (b) (b)(7)(C) (6), (b) (7)(C)
                                                               of Noyes   that same       year.           requested           that
(              )(C)                                                          (b) (6), (b) (7)(C)
                    transfer with him, as                      believed that                     was a quality educator.
(b) (6), (b) (7)(C)                                                                                           (b) (6), (b) (7)(C)
                    stated that (b) (6), (b) (7)(C), Retired Teacher, also transferred with
                                      (b) (6), (b) (7)(C)
                                                                                                                                  M
                                                   (b) (6), (b) (7)(C)
to Noyes at the request of                    .                        retired approximately three years ago,
                                                                                                                                                                                         2

                                        (b) (6), (b) (7)(C)                                                                (b) (6), (b) (7)(C)
and taught pre-K.                       described his relationship with        as strictly
                                                                             (b) (6), (b) (7)(C)                                                 (b) (6), (b) (7)(C)
professional, and did not consider                 a personal friend, even though          got
(b) (6), (b) (7)(C)
                    his current position.

The DC CAS District-wide exams are given once a year in April. The test is given over a
four-day period, and last one and half hours, from 9:30 to 11:00. There are two reading
exams, and two math exams, and the test has a total of approximately 40 questions. Both
the teacher, and a “proctor” are present in the room during the test. The proctor is usually                                                                           (b) (6), (b) (7)(C)

a Teacher’s Aide (TA) from one of the earlier grades, such as Pre-K, or 1st grade.
(b) (6), (b) (7)(C)
                          was the TA who served as proctor in (b) (6), (b) (7)(C) class; however,
(b) (6), (b) (7)(C)
                    stated that he took leave during this year’s exam days. When asked to
               (b) (6), (b) (7)(C)
explain,                           stated that with all the negative publicity regarding Noyes and exams,
     (b) (6), (b) (7)(C)
he                           just did not want to be part of this years exams. (b) (6), (b) (7)(C) ,
                  (b) (6), (b) (7)(C)

Teacher,                   , gave the exam in (b) (6), (b) (7)(C) absence this year.
                                                                                                          (b) (6), (b) (7)(C)
On the first exam day, which is normally Tuesday,                                        will obtain the test
booklets from (b) (6), (b) (7)(C)                                                                     , around 8:15
     (b) (6), (b) (7)(C)
am.                      will sign-out an exact number of test booklets to match the number of
                                            (b) (6), (b) (7)(C)

students in his class ( this year). The test booklet contains the questions for all four
                                                                                                          (b) (6), (b) (7)(C)
exam days. Once the booklets are handed out to the students on the first day,
will make sure that all students identifying information is filled out correctly on the first
page of the exam booklet. This is the only time that the teachers have any interaction
                                                             (b) (6), (b) (7)(C)
with the students and their exam booklets.                                       never speaks to the students
during exam times and will provide a time limit on the chalkboard to notify students how
much time they have left before the 11:00 finish time. If a student has not finished by
11:00, they have the option to be taken to another empty classroom by a proctor to finish
                                        (b) (6), (b) (7)(C)
their final questions; however,                             stated that this has never happened in his class.
                                                                   (b) (6), (b) (7)(C)
At the conclusion of the test,                          will gather all test booklets and return them
directly to (b) (6), (b) (7)(C) . (b) (6), (b) (7)(C) and one other individual (usually the OSSE
Monitor) will confirm that all test booklets are accounted for, and have (b) (6), (b) (7)(C) sign a
release form for that testing day. This process is repeated for the next three testing days.
(b) (6), (b) (7)(C)
                    believed that only the principal, (b) (6), (b) (7)(C), the three school custodians, and
possibly the school security officer had keys to the test storage room.
(b) (6), (b) (7)(C)                          (b) (6), (b) (7)(C)
                    described          as dedicated to staff and students, likeable, and very
                                                                     (b) (6), (b) (7)(C)
personable. He also described                   as very driven and one who challenges teachers
                                                                                    (b) (6), (b) (7)(C)
and students. It was not unusual for                  to stay at the school until evening hours.
(b) (6), (b) (7)(C)
                    was not sure if there were ever any other individuals that would also be at the
school during the evening hours.
    (b) (6), (b) (7)(C)
In                 absence, (b) (6), (b) (7)(C) would probably fill the role as (b) (6), (b) (7)(C). Until
this year, there was never an Assistant or Vice Principal at Noyes.                             described
(b) (6), (b) (7)(C)
                    as warm, nice, and works well with staff.



    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                                                                                                  3

(b) (6), (b) (7)(C)
                    was unaware that Noyes was considered for U.S. Department of Education
TEAM awards in 2008 and 2009. The award money was a surprise to him, as he and all
other teachers received $8,000 each. The principal was awarded $10,000, and even the
                                                             (b) (6), (b) (7)(C)
support staff received cash awards; however,                                     was unaware of the amounts
                                             (b) (6), (b) (7)(C)
given to support or custodial staff.                              credited the award to increased emphasis
on test taking skills given in the afternoons, and professional development classes given
on Thursdays. When asked why the school did not receive the awards prior to 2008,
(b) (6), (b) (7)(C)
                    stated that Noyes was a transitional school at one point, and the students were
scoring extremely low on their standardized tests. It was a gradual process that raised the
test scores, and not one specific event that raised the scores overnight.
(b) (6), (b) (7)(C)
            was then questioned as to why Noyes DC CAS scores dropped dramatically
                                                                            (b) (6), (b) (7)(C)
in 2010 after (b) (6), (b) (7)(C)                                         .
presumed that the scores dropped because of the transfer of new students whose school
performance was dramatically lower than existing students, and low performing students
from the 2nd grade who did not score well during their first year of testing in the 3rd grade.
(b) (6), (b) (7)(C)
            was aware of the controversy surrounding the USA Today news article, and
the high number of right to wrong (RTW) erasures that were identified at Noyes and
                             (b) (6), (b) (7)(C)
some other schools.                               stated that what other teachers or administrators do is
                                                                                                (b) (6), (b) (7)(C)
their business, as he keeps to himself and does not socialize with other staff.
is angry over the dark cloud of suspicion caused by the news article, and has not seen or
heard anything to prove that any staff at Noyes intentionally changed any test scores on
                                        (b) (6), (b) (7)(C)
the student answer sheets.                                  could not understand how anyone could change
any test scores while the exam is being given; however, he admitted that the test booklets
could have been altered during non-school hours with little chance of being seen by any
                                                                                 (b) (6), (b) (7)(C)
            (b) (6), (b) (7)(C)
witnesses.                       identified (b) (6), (b) (7)(C)                 ,a   Grade Teacher, as the
individual who was terminated the previous week for allegedly cheating on the DC CAS
exams. (b) (6), (b) (7)(C) started at Noyes the previous year.
(b) (6), (b) (7)(C)
            admitted that school employees felt additional pressure under (b) (6), (b) (7)(C)
to step up their performance. As the former (b) (6), (b) (7)(C) instituted new standards
                                                                  b) (6), (b) (7)(C)
that caused a number of teachers to lose their jobs. However,                        stated that he
does not live in fear of his job, and just concentrates on doing the best job he can.
                                                                          (b) (6), (b) (7)(C)
All teachers at Noyes utilize a sign-in/sign-out log sheet.                    was not aware if the
principal had to follow this same procedure. The principal probably has copies of these
sheets in her office. There may be security cameras in the common areas of the school,
    (b) (6), (b) (7)(C)
and                     is unaware if tapes are kept of the security camera footage.




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                         Office of The Inspector General
                              Investigations Division

                               Memorandum of Interview



To:    File

From: (b) (6), (b) (7)(C), Special Agent

Date: May 12, 2011

Re:   2011-0318
________________________________________________________________________

Date of Interview:     May 10, 2011

Time Began: 3:40 pm                                   Time Ended: 5:00 pm

Location of Interview:        Noyes Education Campus, 2725 10th Street, NE

Persons Present:       Special Agent (b) (6), (b) (7)(C) , DC-OIG
                       Special Agent (b) (6), (b) (7)(C), FBI

Person Interviewed: (b) (6), (b) (7)(C)

                       Work Telephone Number:      (b) (6), (b) (7)(C)


                       Personal Cell Phone Number:     (b) (6), (b) (7)(C)


________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________

(b) (7)(C) signed an OIG Warning and Assurance Form (attached) and voluntarily
provided the following information:

(b) (6), (b) (7)(C)
                                                          (b) (6), (b) (7)(C)




         She served in this role from (b) (6), (b) (7)(C)                       . She has
also served as a (b) (6), (b) (7)(C)
                                                                                                                         2


(b) (6), (b) (7)(C)
                                .
(b) (7)(C), (b) (6)
           confirmed that the DC CAS standardized exams are given to students in the
third through eighth grades, and that Noyes teaches students                 in pre-K through eighth
                                                                   (b) (6), (b) (7)(C)
                  (b) (7)(C), (b) (6)
grade. Although                       has only been at Noyes since                     , she participated in the
latest round of DC CAS testing which was administered in early April 2011. The tests
are administered over a five-day period (Monday through Friday), and any make-up
portions are given early the following week. There is normally a proctor assigned to each
classroom, along with the teacher of that class. In addition, there is a DCPS Central
Office Monitor who patrols the school during test days.

The teachers and/or proctors are supposed to stand and walk around the classroom the
                                         (b) (7)(C), (b) (6)
entire time the test is given; however,                      could not confirm that this policy is ever
enforced or followed. Once students are finished with their exams, they are collected by
the teacher/proctor, and held until all students finish, usually around 12:00. At this time,
the teacher/proctor delivers the tests, in a folder (unsealed) to the school principal, for
secure storage until the next test day.

Each test sheet has a specific barcode assigned to each registered student; however, there
are times when the barcode is missing or damaged, and the teacher is required to assist
the student in darkening the correct ovals on the test answer sheet to fill in the correct
                                        (b) (7)(C), (b) (6)
identifiers applicable to each student.                     recalled at least one incident in which
she witnessed a teacher filling in the oval circles with a student, and when she questioned
the teacher as to what they were doing, the teacher responded that they were just assisting
the student with the manual identification section of the answer sheet.
(b) (7)(C), (b) (6)
               was questioned regarding the potential for teachers and/or administrators to
                                                            (b) (7)(C), (b) (6)
alter the test answer sheets. Initially,                                         thought it would be very difficult for this
to happen because of the strict protocols involved in the testing procedure. At Noyes, the
tests are collected by the (b) (6), (b) (7)(C)                                          , and/or the Test Coordinator,
(b) (6), (b) (7)(C)
                        , at the conclusion of the testing period each day, and the tests are secured
                                           (b) (7)(C), (b) (6)
in a locked office. As far as                                  knows, only she and the Principal have keys to that
                                                               (b) (7)(C), (b) (6)
particular office at this time; however,                                           was unaware as to how many school
employees might have had access to this particular room prior to her transfer to this
            (b) (6), (b) (7)(C)
school.                         stated that when she was at (b) (6), (b) (7)(C) EC, there was an actual vault
that was used to store the exams during non-test periods; and she was surprised to learn
that Noyes did not have a similar secure storage unit.
                                                                                             (b) (6), (b) (7)(C)
After physically visiting the secure office with the reporting agents,           confirmed
that this was not the ideal location to store exams, as there were two different doors that
had access to the locked office.
(b) (6), (b) (7)(C)
          confirmed that it was possible that a teacher and/or administrator could gain
access to the exams after school hours in the late afternoon/evening, or on the weekend
following the exam dates with little chance of being detected by other individuals.

     This document contains neither recommendations nor conclusions of the Office of the
  Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
               and its contents are not to be distributed outside your agency.
                                                                                                                                                                3


(b) (6), (b) (7)(C)
              was questioned regarding her personal opinion of (b) (6), (b) (7)(C)
                                                               , and as (b) (6), (b) (7)(C)
                                        (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)                   .                     immediately stated that he was “dishonest,” and
then said that (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)
      (b) (6), (b) (7)(C)
    .                     described the dishonesty by relating a recent personal incident involving
(b) (6), (b) (7)(C)



                                                                                                                    (b) (6), (b) (7)(C)

                                                                                  (b) (6), (b) (7)(C)
                                                                   (b) (6), (b) (7)(C)                                                    (b) (6), (b) (7)(C)



(b) (6), (b) (7)(C)




(b) (6), (b) (7)(C)

                      (b) (6), (b) (7)(C)




(b) (6), (b) (7)(C)
                                                         (b) (6), (b) (7)(C)

                                                                                                                                          (b) (6), (b) (7)(C)

                         (b) (6), (b) (7)(C)                                                  (b) (6), (b) (7)(C)




(b) (6), (b) (7)(C)
                                                            (b) (6), (b) (7)(C)



                                            (b) (6), (b) (7)(C)




      This document contains neither recommendations nor conclusions of the Office of the
   Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
                and its contents are not to be distributed outside your agency.
                                    Office of The Inspector General
                                         Investigations Division

                                            Memorandum of Interview



To:           File

From: (b) (6), (b) (7)(C), Special Agent

Date: May 2, 2012

Re:   2011-0318
________________________________________________________________________

Date of Interview:              May 1, 2012

Time Began: 1:50 pm                                                         Time Ended: 2:00 pm

Location of Interview:                     Telephonic ((b) (7)(C), (b) )
                                                             (6)
Persons Present:                Special Agent (b) (6), (b) (7)(C)


                                (b) (6), (b) (7)(C)
Person Interviewed:                                   , D.C. Public Schools (DCPS)


________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________

(b) (6), (b) (7)(C)
           admitted that she served as a DC CAS Test Monitor for OSSE performing spot
checks at various DCPS facilities during the week of the DC CAS exams, which are
typically held in April.
(b) (6), (b) (7)(C)
                    recalled serving as a monitor at Noyes Education Campus (NEC), in the Spring
of 2009. After being apprised of the fact that the reporting agent had a copy of
(b) (6), (b) (7)(C)                                                                 (b) (6), (b) (7)(C)
                      Test Site Observation Report, dated April 23, 2009,                               confirmed that
                                                                   (b) (6), (b) (7)(C)
the report should have been dated on the same date that                                 reported to NEC.
(b) (6), (b) (7)(C)
                    stated that she only visited the school during one day of testing. There was an
                                                                                                     (b) (6), (b) (7)(C)
additional monitor at the school from the DCPS Central Office; however,
                                                                                                                (b) (6), (b) (7)(C)
could not recall the name of this monitor, or be sure if it was a male or female.
believed that the DCPS monitor was on-site during all four days of testing, but, since she
was not present all four days, she could not confirm this statement.
                                                                                                         2

(b) (6), (b) (7)(C)
           stated that most classroom doors that held students that were taking the DC
CAS were closed during the test sessions. She recalled one classroom which contained
3rd grade special education students being individually assisted with “read-alouds,” rather
                            (b) (6), (b) (7)(C)
than a group presentation.                      discussed this with the principal or test coordinator,
and noted this on her report, but did not feel that there was anything suspicious about this
activity.
(b) (6), (b) (7)(C)
                    stated that she was never told by (b) (7) or any other individual to stay out of
the classrooms during testing while she was(C),            (b) at NEC. Most of the time (b) (6), (b) (7)(C)
                                                       present
                                                      (6)
visually checked the classrooms through the windows on the closed classroom doors.
(b) (6), (b) (7)(C)
                    described the atmosphere in the hallways at NEC during test time as extremely
quiet.




     This document contains neither recommendations nor conclusions of the Office of the
  Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
               and its contents are not to be distributed outside your agency.
                                     Office of The Inspector General
                                          Investigations Division

                                           Memorandum of Interview



To:                   File

From: (b) (6), (b) (7)(C), Special Agent

Date: December 15, 2011

Re:   2011-0318
________________________________________________________________________

Date of Interview:                 December 19, 2011

Time Began: 12:40 pm                                                  Time Ended: 1:10 pm

Location of Interview:                     Noyes Education Campus (NEC), 2725 10th Street, NE

Persons Present:                   Special Agent (b) (6), (b) (7)(C)
                                   Special Agent (b) (6), (b) (7)(C)

Person Interviewed: (b) (6), (b) (7)(C), Teacher, (b) (7) Elementary School
                                                                   (C), (b)
                                                                   (6)
                             Home Address: (b) (6), (b) (7)(C)

                             Contact Phone Number:    (b) (6), (b) (7)(C)




________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________
(b) (6), (b) (7)(C)
              signed an OIG Warning and Assurance Form (attached) and voluntarily
provided the following information:
(b) (6), (b) (7)(C)
              has been with DCPS since (b) . She started at NEC where she taught
(b) (6), (b) (7)(C)                        (7) (6), (b) (7)(C)
              in her first year, and then (b)                                           . In
                                                                                             (b) (6), (b) (7)(C)

(b) (6), (b) (7)(C)                        (C),      (b) (6), (b) (7)(C)            (b) (7)
    , she transferred to her current position
                                           (b)
                                                as a                     Teacher at
Elementary School (TES).                                                            (C), (b)
                                           (6)                                         (6)
(b) (6), (b) (7)(C)
                is a graduate of Howard University. She interviewed with a number of
DCPS officials before she was eventually hired by (b) (7)(C), (b) (6)              ,
     (b) (6), (b) (7)(C)              (b) (7)
NEC.                     did not know         prior to her start at NEC.
                                               (C), (b)
                                               (6)
                                                                                                    2

(b) (6), (b) (7)(C)
               believed that NEC won the first of its two U.S. Department of Education
TEAM awards the first year she was hired. She received $8,000 from this award. NEC
won an additional reward two years later, where (b) (6), (b) (7)(C) received an additional
$8,000. (b) (6), (b) (7)(C) and the rest of the teaching staff were unaware that NEC won the
awards until an announcement was made by (b) (7) near the middle of the following
school year.                                       (C), (b)
                                                  (6)

Since (b) (6), (b) (7)(C) taught (b) (6), (b) (7)(C) she was not involved in the annual D-
                                                                                 (b) (6), (b) (7)(C)
CAS exams until (b)             when she was asked to serve as a proctor for
                                            )
                        (7) grade class. Although that was her first year with the exam, all
                        (C),
teaching staff were       required to attend the D-CAS exam preparation meetings given by
                        (b) (6)
(b) (6), (b) (7)(C)                                               , NEC. (b) (6), (b) (7)(C) recalled
(b) (6), (b) (7)(C)
                    going over such rules as making sure all seats were in neat rows, that all
study materials on the walls were covered up, and that students remain quiet while the
exam was taking place. (b) (6), (b) (7)(C) denied that (b) (6), (b) (7)(C) ever gave any instructions
on placing certain students in certain parts of the classroom.
(b) (6), (b) (7)(C)
                 believed that there were approximately 20 students (b) (6), (b) (7)(C)
classroom, and that she and (b) (6), (b) (7)(C) rotated throughout the classroom during the
exam to make sure students were filling out their answer sheets correctly. Neither she
nor (b) (6), (b) (7)(C) were allowed to speak during the exam, and the only overt actions
taking place during the exam were (b) (6), (b) (7)(C) writing on the chalkboard telling
students how much time was left on the exam.
(b) (6), (b) (7)(C)
                denied any knowledge of (b) (6), (b) (7)(C) assisting students during the
exam. Although presented with the knowledge that (b) (6), (b) (7)(C) admitted helping
students during the exam, and subsequently being terminated from DCPS, (b) (6), (b) (7)(C)
stated that she neither saw, nor heard (b) (6), (b) (7)(C) assisting the students in any way
during the exam. (b) (6), (b) (7)(C) acknowledged the fact that her answer contradicted
(b) (6), (b) (7)(C) statements, but she did not alter her statement.

                                                                             (b) (6), (b) (7)(C)
In the following year, (b) (6), (b) (7)(C) filled in as substitute teacher for
                      (b) (6), (b) (7)(C)

                        grade classroom during the D-CAS exams. (b) (6), (b) (7)(C) could not
recall who served as her proctor during this exam. Although (b) (6), (b) (7)(C)was presented
with the statement that (b) (6), (b) (7)(C) class has some of the highest erasures stats from
wrong-to-right on the D-CAS the previous three years, she denied any knowledge that
(b) (6), (b) (7)(C)
                    was complicit in any cheating scenario. (b) (6), (b) (7)(C) also stated that no
                                                             (b) (6), (b) (7)(C)
student in (b) (6), (b) (7)(C) class ever informed her that                      assisted them during
previous D-CAS exams.
(b) (6), (b) (7)(C)
                 stated that she did not feel extra pressure under (b) (7)(C), (b) (6) ’s tenure as
(b) (7)(C), (b) (6) , but admitted that the IMPACT evaluation system placed extra
pressure on DCPS teachers to perform at a higher standard, lest they be terminated for
low IMPACT scores.



    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                          Office of The Inspector General
                               Investigations Division
  ***                             Memorandum of Interview




To:        File

From: (b) (6), (b) (7)(C), Special Agent

Date: July 25, 2011

Re:        2011-0318


Date of Interview:     July 15, 2011

Time Began: 11: 15 am                                         Time Ended: 12:55 pm

Location of Interview:           OIG, 717 14th Street, NW, Washington, DC

Persons Present:       Special Agent (b) (6), (b) (7)(C), DC-OIG
                       Special Agent (b) (6), (b) (7)(C) , ED-OIG

Person Interviewed: (b) (6), (b) (7)(C)                             , Noyes EC

                       Home Address: (b) (6), (b) (7)(C)
                              (b) (6), (b) (7)(C)
                       DLN:
                       Date of Birth: (b) (6), (b) (7)(C)
                       Cellular Telephone Number: (b) (6), (b) (7)(C)

Also Present:          (b) (6), (b) (7)(C) ,   Attorney, (b) (6), (b) (7)(C) & Associates, P.C.


                               SUMMARY OF INTERVIEW 



(b) (6), (b) (7)(C)
             signed an OIG Warning and Assurance Form (attached) and voluntarily
provided the following information:

(b) (6), (b) (7)(C)
                                                                                                    2


(b) (6), (b) (7)(C)

                                                          The DC BAS practice exams are
given four times throughout the school year, with the last exam approximately 2-4 weeks
before the formal DC CAS exam is given. (b) (6), (b) (7)(C)




The exams are shipped to the schools approximately one week before the exam is given.
The boxes come with an index and all the answer sheets are supposed to be pre-printed
with the student's name. (b) (6), (b) (7)(C) is assisted in going through the test materials by
(b) (6), (b) (7)(C) , (b) (7)(C), (b) (6)             , and (b) (6), (b) (7)(C), (b) (7)(C), (b)
          The teacher's names are also attached to each test booklet. (6)

For the DC BAS practice exams, the answer sheets are returned to Discovery Inc in pre­
packaged boxes. The test booklets remain with the school since they contain essay
questions that must be hand-graded by each teacher. (b) (6), (b) (7)(C) is not aware of how the
test booklets are disposed, but stated that the questions are changed on each exam, and
are different from questions given on the DC CAS exam.

The DC CAS student information is gained from STARS, which is an electronic directory
of each student's personal information. There are four subsections of the DC CAS which
are Math, Science, English and Composition. Not all grades are given math and science
tests. During the DC CAS, there are two monitors from the central office or the Office of
the State Superintendent for Education (OSSE) that are present when the exams are
signed out by the teachers. These two individuals also roam the school halls during the
exam seSSIOn.

On the first test day, teachers sign-in for the test materials between 8:15 and 8:45 am.
Shortly thereafter, all teachers attend a group meeting for final instructions. The tests
usually start at 9: 15, and the teachers and proctors are supposed to circulate through the
classroom to make sure that the students are taking the exam correctly. The students
have to fill in an answer for the first ten questions, or the test will be invalidated by CTG
McGRA W/HILL. Teachers are not allowed to collect test booklets and answer sheets
until the exam time is over.

If students do not finish subtest section one, they are allowed to stay in the classroom and
finish the exam while the other students start taking subsection two.

At the conclusion of the test, teachers have 20 minutes to return the test booklets and
answer sheets to (b) (6), (b) (7)(C) office. Once they are all checked in, (b) (6), (b) (7)(C) secures
them in a locked office adjacent to his. Only (b) (6), (b) (7)(C) , the principal and the custodian
have access to the locked office. The exam booklets and answer sheets are sent to
CTG/McGraw-Hill within a week and a half of the completion date.

   This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
             and its contents are not to be distributed outside your agency.
                                                                                                                 3



(b) (6), (b) (7)(C)
             did not feel any additional pressure when (b) (7)(C), (b) (6)
                                                         . (b) (6), (b) (7)(C) stated that Noyes
was making Adequate Yearly Progress (A YP) prior to (b) (7)(C), (b) (6)              , which
requires a certain percentage gain by each grade during each year. Each teacher is aware
of A YP at the beginning of each school year, as is the school principal.

(b) (6), (b) (7)(C)
            is not aware of the standards for the U.S. Department of Education (ED)
TEAM awards, which NOYES won in the 2006/2007 school year, and then again in the
2008/2009 school year. NOYES essentially won the awards for its large gains on the DC
CAS exams during those school years. Each employee of the school won a monetary
award from ED for the TEAM award, which was issued the following year. (b) (6), (b) (7)(C)
was given $4,000 for his TEAM award.

(b) (6), (b) (7)(C)
              credited the TEAM awards to the leadership of (b) (7)(C), (b) (6)
                  , who brought (b) (6), (b) (7)(C) to NOYES in (b)          (b) (6), (b) (7)(C) stated that

the DC CAS scores rose dramatically during (b) (7)(C), (b) (6)        (7)   at Noyes. (b) (6), (b) (7)(C)
                                                                      (C),
credited the rise in scores to good teachers selected by (b) (7) and a skill development
program that was unique to Noyes. (b) (7) also used data         (C), (b)
                                                                       (b) the DC BAS practice
                                                                       from
                                                                 (6)  (6)
exams to create goals for each student  (C),which
                                              (b) (b) (6), (b) (7)(C) felt was a strong learning tool
                                        (6)
which led to higher DC CAS scores.

(b) (6), (b) (7)(C) explained that the DCPS lottery system, and an influx of special education
students led to a dramatic drop in DC CAS scores during (b) (6), (b) last year as (b) (6), (b)
                                                                   (7)(C)              (7)(C)
in(b) (6), (b) (7) . When you have a high performing school in DCPS, there is a lottery
  (C)
system in place to allow other students the chance to enroll in a higher performing school
even though that student does not live in within the boundaries of that particular school.
(b) (6), (b) (7)(C) felt that the recently transferred students brought down the overall school

average, and not because of any security changes instituted for the administration of the
DC CAS exams. (b) (6), (b) (7)(C) also stated that NOYES added a sixth grade class in the
2006/2007 school year; a seventh grade class in 2007/2008 school year; and an eighth
grade class in 2008/2009 school year. These additional classes brought in many new
students from other schools.

(b) (6), (b) (7)(C)
            believed that the high number of erasure marks on recent DC CAS exams
may be due to the DC CAS not being timed during (b) (7) 's tenure. Prior to (b) (7) ,
students were timed, and there was no make-up time(C), (b)
                                                    allowed;                (C), might
                                                             therefore students
                                                  (6)                       (b) (6)
not have had as much time to review their answers and make changes if needed.

(b) (6), (b) (7)(C)
                 described his relationship with (b) (7) as friendly. They have a good
working relationship, and (b) (6), (b) (7)(C) looks(C),   up (b)
                                                              to (b) (7) as an instructional leader.
             (b) (7)(C), (b) (6)                     (b)(6)
                                                          (7)     (C), Noyes
                                                                       (b)
They will                                         .              left         in (b) (7)(C), , due to his
(b) (7)(C), (b) (6)                                  (C),   (b)   (6)      (b) (6),(b)
                                                                                     (b) (6)
                                                                                         (7)(C) was aware that
                                                                         .
(b) (7)(C), (b) (6)                                  (6)
                                                                           . (b) (7)(C),         has spoken
with him, wherein (b) (7)(C), (b) (6)      (b) (6), (b) (7)(C)                (b)   (6)
                                                                that it was time for him (b) (7)         to
move on. (b) (6), (b) (7)(C) was unaware of (b) (7) 's future employment plans.                 (C), (b)
                                                  (C), (b)                                  (6)
                                                  (6)
    This document contains neither recommendations nor conclusions of the Office of the
  Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                                                                                              4


(b) (6), (b) (7)(C)
                      was not enthralled with the change (b) (7)(C), (b) at Noyes when (b) (7)
                                                  There was (6)
                                                             a drastic change in (b) (7)(C), (C),
                                                                                              (b) (6) , and
(b) (6), (b) (7)(C)                                                                          (b) (6)
                      thought (b) (7)(C), (b) (6)
                                                                    r.

(b) (6), (b) (7)(C)
             was unaware of any rumors or ideas on how the high number of wrong-to­
right erasures happened other than his previous statement regarding the timed exam
period.




    This document contains neither recommendations nor conclusions of the Office of the
  Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                          Office of The Inspector General
                               Investigations Division

                                Memorandum of Interview



To:        File

From: (b) (6), (b) (7)(C), Special Agent

Date: March 2, 2012

Re:   2011-0318
________________________________________________________________________

Date of Interview:     March 2, 2012

Time Began: 3:35 pm                                                    Time Ended: 3:50 pm

Location of Interview:         Noyes Education Campus (NEC), NE, Washington, DC

Persons Present:       Special Agent (b) (6), (b) (7)(C) , DC-OIG
                       Special Agent (b) (6), (b) (7)(C), DC-OIG

Person Interviewed: (b) (6), (b) (7)(C)                                       , NEC
                                                 (b) (6), (b) (7)(C)

                       Home Address:
                              (b) (6), (b) (7)(C)
                       DLN:
                       Date of Birth: (b) (6), (b) (7)(C)
                       Cellular Telephone Number:                      (b) (6), (b) (7)(C)


________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________
(b) (6), (b) (7)(C)
             signed an OIG Kalkines Warning Form (attached) and voluntarily provided
the following information:
(b) (6), (b) (7)(C)
               denied that he required any seating charts or special seating arrangements
from any teachers at NEC. Teachers are required to separate their students into neat,
uniformed rows during the DC BAS and DC CAS exams. There were two versions of
the DC CAS in 2008 and 2009, and then four versions starting in 2010. (b) (6), (b) (7)(C) did
not direct his teachers to make sure that students sitting side-by-side had different
versions of the exam, as students are seated far enough apart that it would be very
difficult for a student to cheat off his/her neighbors paper without being easily noticed by
the class teacher or proctor.
                                                                                            2


(b) (6), (b) (7)(C)
              also denied that he instructed any teachers to sit “basic” students in the back
of the classroom to facilitate cheating on the DC CAS.
(b) (6), (b) (7)(C)
           stated that he never provided advance copies of the DC CAS test booklet to
any NEC staff, prior to the first day of exams, to use as a study guide or for any other
purpose.

(Attachment)




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                    Office of The Inspector General
                                         Investigations Division

                                              Memorandum of Interview



To:        File

From: (b) (6), (b) (7)(C), Special Agent

Date: May 15, 2012

Re:   2011-0318
________________________________________________________________________

Date of Interview:              May 14, 2012

Time Began: 4:35 pm                                                                  Time Ended: 5:10 pm

Location of Interview:                        Law Offices of (b) (6), (b) (7)(C) & Associates, P.C.
                                              (b) (6), (b) (7)(C)              , Washington, DC

Persons Present:                Special Agent (b) (6), (b) (7)(C) , DC-OIG
                                Special Agent (b) (6), (b) (7)(C) , DC-OIG

Person Interviewed: (b) (6), (b) (7)(C)                                                     , NEC
                                                               (b) (6), (b) (7)(C)

                                Home Address:
                                       (b) (6), (b) (7)(C)
                                DLN:
                                Date of Birth: (b) (6), (b) (7)(C)
                                Cellular Telephone Number:                           (b) (6), (b) (7)(C)

                      (b) (6), (b) (7)(C)
Also Present:                               , Attorney, (b) (6), (b) (7)(C) & Associates, P.C.

________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________
(b) (6), (b) (7)(C)
             signed an OIG Kalkines Warning Form (attached) and voluntarily provided
the following information:
(b) (6), (b) (7)(C)
             confirmed that monitors are sent by both the DCPS Central Office and the
D.C. Office of the State Superintendent for Education (OSSE) during the DC CAS exams
every spring. The DCPS monitors are usually present for the entire testing period, while
the OSSE monitors usually make spot checks.
                                                                                                                          2

(b) (6), (b) (7)(C)
              met with the monitors upon their arrival at Noyes Education Campus (NEC)
and provided them with the school’s test plan (TP). The TP will include such
information as the names of all teachers who are administering the DC CAS, the number
of students in each of those classrooms, the location of each classroom, and any special
accommodations for special education students.
(b) (6), (b) (7)(C)
              stated that the TP does not include any written rules or policies which forbid
certain actions by the DCPS or OSSE monitors. (b) (6), (b) (7)(C) assumed that all monitors
receive instructions from their respective offices regarding their conduct while they are
present during the DC CAS exams. (b) (6), (b) (7)(C) stated that his only oral instruction to
any monitor over his entire tenure with DCPS was that the monitors did not do anything
which would be a distraction to the students.
(b) (6), (b) (7)(C)
                    denied that he issued written or oral instructions to any monitor that they
were not to enter any classroom in which the door was closed, or that they were only
allowed to briefly scan a room from the doorway of classrooms in which the door was
open. When presented with the fact that two separate monitors from DCPS stated that
(b) (6), (b) (7)(C)
                    gave them oral instructions inhibiting their access to testing classrooms,
(b) (6), (b) (7)(C)
                    denied giving the order and stated he does not know why the monitors
would make that statement. (b) (6), (b) (7)(C) reiterated that his only instruction to any
monitor was not to disrupt the classroom.
(b) (6), (b) (7)(C)
              thought that all classroom doors were closed during the test periods;
however, he stated that a couple of doors might have been open due to inadequate air
ventilation or some similar environmental issue.
(b) (6), (b) (7)(C)
               recalled an incident with (b) (6), (b) (7)(C) , Monitor, OSSE, which took
                                                           (b) (6), (b) (7)(C)
place in April 2010. (b) (6), (b) (7)(C) stated that                           entered a classroom just before
break time and stayed seated in the classroom approximately 15 minutes into the next test
                                                                                                         (b) (6), (b) (7)(C)
session. (b) (6), (b) (7)(C) described (b) (6), (b) (7)(C) behavior as disruptive, stating
stared at the children during the test session with his notepad out, making them extremely
nervous in the presence of a stranger for such a long period of time. (b) (6), (b) (7)(C) recalled
                                                                        (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)                    , NEC, questioning
                      (b) (6), (b) (7)(C)
                                                                                            later that same day, and
recalled that              contacted (b) (6), (b) (7)(C) superiors at OSSE to question (b) (6), (b) (7)(C)
behavior. (b) (6), (b) (7)(C) was not present during this interview or phone call, and therefore
was unable to expand on this issue.
(b) (6), (b) (7)(C)
              stated that all testing classrooms are supposed to have a proctor present in
the classroom during the entire testing period. (b) (6), (b) (7)(C) chooses the proctors based on
availability and personalities. Proctors are present during the four DC BAS exams given
throughout the school year up to the DC CAS, therefore, (b) (6), (b) (7)(C) already knows
whom will be assigned to each testing classroom based on the previous schedule for the
DC BAS.
(b) (6), (b) (7)(C)
            denied testimony by monitors that as many as half of the eleven or so testing
classrooms failed to have a proctor present during the test periods. (b) (6), (b) (7)(C) stated

    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                                                                            3


that it was possible one or two proctors might have been absent on a particular day of
testing due to sick leave or other emergency leave, when (b) (6), (b) (7)(C) did not have
enough staff to cover the missing proctor’s assignment. (b) (6), (b) (7)(C) does not know why
the monitors reported so many missing proctors and believes they were wrong in their
assessment. (b) (6), (b) (7)(C) stated that the monitor might not have been able to see the
proctors through the glass window in the doors, but reiterated that he did not give any
instructions to any monitor that they could not open any closed doors.

(Attachment)




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                           Office of The Inspector General
                                Investigations Division

                                  Memorandum of Interview



To:          File

From: (b) (6), (b) (7)(C), Special Agent

Date: August 19, 2011

Re:   2011-0318
________________________________________________________________________

Date of Interview:      July 15, 2011

Time Began: 2:30 pm                                         Time Ended: 3:00 pm

Location of Interview:            OIG, 717 14th Street, NW, Washington, DC

Persons Present:        Special Agent (b) (6), (b) (7)(C) DC-OIG
                        Special Agent (b) (6), (b) (7)(C), ED-OIG

Person Interviewed: (b) (6), (b) (7)(C), Teacher, Noyes EC

                        Home Address: (b) (6), (b) (7)(C)


                        (b) (6), (b) (7)(C)
Also Present:                                 , Attorney, Washington Teachers Union


________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________
(b) (6), (b) (7)(C)
           signed an OIG Warning and Assurance Form (attached) and voluntarily
provided the following information:

(b) (6), (b) (7)(C)                                                                She was hired
by DCPS in (b) (6), (b) (7)(C) to work at Noyes Education Campus (NEC), after interviewing
with a panel of NEC staff. She met (b) (7)(C), (b) (6)                       , NEC, during a
follow-up visit to the campus. Her interview panel consisted of (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)
                    , NEC, a classroom aide, whom she could not remember, and (b) (6), (b) (7)(C)
                                                                 (b) (6), (b) (7)(C)

                                                , NEC.
                                                                                                                      2

      (b) (6), (b) (7)(C)




                                                                                                (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)
              never served as a proctor for the DC CAS prior to teaching the        grade. She
was instructed on procedures for the DC BAS practice exams by (b) (6), (b) (7)(C) ,
(b) (6), (b) (7)(C), NEC, and received instructions on the DC CAS by (b) (6), (b) (7)(C) . Basic
instructions for the classrooms included keeping the desks straight, having sharpened
pencils, scratch paper, and making sure there was no talking.
(b) (6), (b) (7)(C)
                 had a different proctor serve in her classroom for the last three years; however
she could not recall their names. The test booklets are signed in and out each morning by
the teachers from (b) (6), (b) (7)(C) . They are stored in a locked room adjacent to
(b) (6), (b) (7)(C)           (b) (6), (b) (7)(C)
                    ’ office.                     believes that (b) (6), (b) (7)(C) and the custodian had keys to
the locked office, but was not sure if (b) (7) had a key.
                                              (C), (b)
(b) (6), (b) (7)(C)                           (6)
           was not aware of the U.S. Department of Education TEAM awards until a few
                                                                 (b) (6), (b) (7)(C)
days prior to the cash awards being distributed to school staff.                     was awarded
$8,000 for her role as a teacher.
(b) (6), (b) (7)(C)
           believed that the drop in DC CAS scores in the 2009/2010 school year were
due to an influx of new students from other schools who were not as academically
                                      (b) (6), (b) (7)(C)
talented as long term NEC students.                       was unaware of any cheating that took
place at NEC by any teachers or adminstrators.




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                        Office of The Inspector General
                                             Investigations Division

                                              Memorandum of Interview



To:            File
               (b) (6), (b) (7)(C)
From:                                 , Special Agent

Date: April 25, 2012

Re:   2011-0318
________________________________________________________________________

Date of Interview:                   April 24, 2012

Time Began: 11:45 am                                                     Time Ended: 12:00 pm

Location of Interview:                        Telephonic

Persons Present:                     Special Agent (b) (6), (b) (7)(C)   , DC-OIG


Person Interviewed: (b) (6), (b) (7)(C)                                                 D.C. Office of the
                    State Superintendent of Education (OSSE).

                                     Office Telephone: (b) (6), (b) (7)(C)
                                     Cellular Telephone Number: (b) (6), (b) (7)(C)

________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________

After being apprised of the identity of the interview agent, and the nature of the
           (b) (6), (b)
interview, (7)(C)       voluntarily provided the following information:
(b) (6), (b)
(7)(C)
         contacted the reporting agent in response to a request to answer follow-up
questions to her February 24, 2012, interview.
(b) (6), (b)
(7)(C)
          provided the reporting agent with three CTB/McGRAW HILL (CTB), DC
Office of the State Superintendent for Education (OSSE) Test Chairperson’s Manual’s
for 2008, 2009, and 2010 (attached). (b)  (6), (b)
                                      (7)(C)
                                                   explained that prior to the Spring of 2010,
these were the only DC CAS test security manuals in place and applicable to all DCPS
schools administering the DC CAS exams. The manuals were distributed by CTB, in
conjunction with OSSE and DCPS input.
                                                                                                2



In February 2010, OSSE created the separate District of Columbia State Security
Guidelines for all Local Education Agencies (LEA’s) and schools to be implemented
during the Spring 2010 DC CAS exams. These guidelines, in conjunction with the Test
Chairperson’s Manual provide comprehensive guidance regarding the security measures
that are to be followed before, during, and following the administration of the DC CAS.

The final page of the Test Chairperson’s Manual for 2008 and 2009 contains a form titled
“Confidentiality Agreement for the District of Columbia Comprehensive Assessment
System (DC CAS).” In 2010, this agreement was re-written and the title was changed to
“State Test Security and Non-Disclosure Agreement.” (b)     (6), (b)
                                                        (7)(C)
                                                                     explained that prior to
2011, OSSE and DCPS were unable to ensure compliance with the acknowledgement and
signing of these documents by DCPS personnel due to issues with the Washington
Teacher’s Union (WTU). The WTU allegedly issued a letter to all members with
instructions not to sign the agreements due to concerns with the language contained in the
agreement.

In 2011, OSSE and DCPS re-worded the agreements to placate concerns brought by the
WTU. OSSE noted improved compliance with the agreement in 2011, and also sent out
notices to any campus that failed to meet 100% compliance.

In 2012, OSSE made additional minor edits to the agreement, and (b)    (6), (b)
                                                                   (7)(C)
                                                                                    noted that all
but one test administrator in one school failed to sign the agreement. (b)   (6), (b)
                                                                        (7)(C)
                                                                                       confirmed
that all personnel involved in the administration of the DC CAS are required to sign the
State Test Security and Non-Disclosure Agreement.

The State Test Security and Non-Disclosure Agreement form is contained in both the
CTB-OSSE Test Chairperson’s Manual, and the OSSE State Test Security Guidelines.

(Attachments)




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                        Office of The Inspector General
                                             Investigations Division

                                              Memorandum of Interview



To:            File
               (b) (6), (b) (7)(C)
From:                                 , Special Agent

Date: February 24, 2012

Re:   2011-0318
________________________________________________________________________

Date of Interview:                   February 24, 2012

Time Began: 9:05 am                                                      Time Ended: 9:35 pm

Location of Interview:                        Telephonic

Persons Present:                     Special Agent (b) (6), (b) (7)(C)   , DC-OIG


Person Interviewed: (b) (6), (b) (7)(C)                                                 D.C. Office of the
                    State Superintendent of Education (OSSE).

                                     Office Telephone: (b) (6), (b) (7)(C)
                                     Cellular Telephone Number: (b) (6), (b) (7)(C)

________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________

After being apprised of the identity of the interview agent, and the nature of the
           (b) (6), (b)
interview, (7)(C)       voluntarily provided the following information:
(b) (6), (b) (7)(C)
                                                                             .
(b) (6), (b)
(7)(C)
           stated that prior to the 2010/2011 school year, D.C. Public Schools (DCPS)
utilized two different versions for the D.C. Comprehensive Assessment System (DC
CAS) exams, which are given to 3rd through 8th grades, and the 10th grade. However,
starting in 2011, DCPS starting issuing four different versions of the DC CAS to students,
which utilize different shades of blue to distinguish each form. In addition, the front of
the exam booklets and answer sheets have “Form 1, Form 2, Form 3, or Form 4” pre-
printed on each booklet.
                                                                                               2


There is one exam booklet, and one answer sheet utilized by each student throughout the
four days of testing. This is partly due to cost considerations. There are four sections of
math, and four sections of reading comprehension, which are divided evenly into the four
days of testing. OSSE does not stipulate how the sections are broken up for each day of
testing, allowing each school the flexibility to determine this on their own, i.e. two
reading sections one day, two math sections the next, etc.

Each section is clearly divided on the test booklets and answer sheets with strict
instructions not to go pass a certain point, or go back over previous sections of the test.
Teachers and Proctors also walk around the classroom continuously during the exam
period to verify that students are in the correct sections of their test booklets and answer
sheets.

In addition to the math and reading comprehension exams, there is additional testing of
science skills for students in the 5th and 8th grades, and English composition testing for
students in the 4th, 7th, and 10th grades. There are separate test booklets and answer sheets
for each of these exams, which are given the following week after the reading and math
tests.

Scores for the science exams are reported to the federal government, but do not count
against the schools Adequate Yearly Progress (AYP) reports. Scores for the English
composition are not reported to the federal government, and do not count against AYP.
Both exams are graded by CTB/McGraw-Hill (CTB), and reported back to each
individual school. The science and English composition scores do not count for any
grades, but are reported to the students and their guardians for academic tracking
purposes.

Exam booklets and answer sheets are mailed to each individual school approximately one
week before exam start dates. Along with the booklets and answer sheets are pre-printed
bar code labels for each individual student, which are required to be affixed by the
respective school personnel/staff to one of the four versions of the answer sheets. The
individual schools determine which bar code label is affixed to which exam version.
(b) (6), (b)
(7)(C)
             stated the reason for this is that some schools might have special education (SE)
students that are required to have their test questions read aloud. In this situation, you
would want all students in this group to have the same version of the test booklet to
negate duplicative instructions.

The exam booklets, which come sealed in cellophane wrappers of eight books per packet,
have space on the front for students/teachers to write in the student’s name on the first
day of the exam. In addition to being wrapped in cellophane, each individual test booklet
has a security seal which is only to be broken by each student at the beginning of the first
exam day. OSSE monitors are trained to check for the security seal during the first
morning when the booklets are handed out, but (b)    (6), (b)
                                                 (7)(C)
                                                              admitted that this is not
foolproof, especially if the school has hundreds of students. OSSE also has reporting
requirements in place should any seals be broken by accidental events.


    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                                                                               3

(b) (6), (b)
(7)(C)
          stated that there is a sufficient amount of prep work required for the preparation
of the exam booklets and answer sheets to justify sending out the materials one week
before the first exam date.

OSSE does not require schools to have special seating arrangements, nor do they instruct
schools to make sure that students seated next to each other have different versions of the
exam booklets. However, OSSE does suggest that schools distribute the forms evenly,
provide a good testing environment, have adequate space between each student, and
maintain strict protocols regarding the security of the exam booklets and answer sheets
prior to, during, and after the exams are completed, prior to pick-up. In 2010, OSSE
narrowed its pick-up date to nine days after the first exam date, which is the Friday of the
second week of exams. There is an alternate pick-up date of the following Monday for
those schools that need extra time due to excused absences by the testing students.
(b) (6), (b)
(7)(C)
             admitted that there is not much OSSE/DCPS can do regarding the honesty of
school employees, particularly the Test Coordinator or the Principal, if either of those
individuals is predisposed to alter answer sheets after school hours or on the weekend.
(b) (6), (b)
(7)(C)
             stated that if she had it her way, she would hold the key to each locked office
every evening while the exam materials were kept at each individual school.

OSSE has attempted to make each school employee sign a non-disclosure form stating
that each teacher/proctor/administrator did not compromise the integrity of the DC CAS
by cheating in any way, shape, or form; however, they met with too much resistance from
the Washington Teacher’s Union (WTU), and were unable to mandate this requirement.
OSSE instead tries to set strong policies, and have independent monitors in place to
oversee the school testing during test hours. OSSE and DCPS have to rely mainly on the
trust of their employees to deter any cheating.




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                      Office of The Inspector General
                                           Investigations Division

                                            Memorandum of Interview



To:         File
             (b) (6), (b) (7)(C)
From:                               , Special Agent

Date: May 2, 2012

Re:   2011-0318
________________________________________________________________________

Date of Interview:                 May 1, 2012

Time Began: 1:50 pm                                                     Time Ended: 2:00 pm

Location of Interview:                      Telephonic (b) (6), (b) (7)(C)

Persons Present:                   Special Agent (b) (6), (b) (7)(C)


Person Interviewed: (b) (6), (b) (7)(C)


________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________


(b) (6), (b) (7)
(C)
          formerly worked with the Office of the State Superintendent for Education
(OSSE) for the District of Columbia. (b)
                                     (C)
                                         (6), (b) (7)
                                                      confirmed that he served as a DC CAS
Test Monitor for OSSE performing spot checks at various DCPS facilities during the
week of the DC CAS exams, which are typically held in April.
(b) (6), (b) (7)
(C)
           recalled serving as a monitor at Noyes Education Campus (NEC), in the
                 (b) (6), (b) (7)
Spring of 2010. (C)               stated that he only visited the school during one day of
testing, which he believed was the second of four days of testing. He could not recall
whether that was a Tuesday or Wednesday. There was an additional monitor at the
school from the DCPS Central Office; however, (b)       (C)
                                                            (6), (b) (7)
                                                                          could not recall the name of
                                                            (b) (6), (b) (7)
this monitor, or be sure if it was a male or female. (C)                     believed that the DCPS
monitor was on-site during all four days of testing, but, since he was not present all four
days, he could not confirm this statement.
                                                                                                                        2

(b) (6), (b) (7)
(C)
            stated that all the classroom doors that held students that were taking the DC
CAS were closed during the test sessions. The test sessions were broken up into two
parts, with a 10-minute break in-between, and a conclusion somewhere between 11:00
                 (b) (6), (b) (7)
and 11:30 am. (C)                 could not recall whether he stayed at the school until the end of
the test period.
(b) (6), (b) (7)
(C)
                 initially stated that he entered two classrooms during the test period, but later
in the conversation thought that he might have entered four or five classrooms.
(b) (6), (b) (7)
(C)
                 stated that just before the 10-minute break, he entered a classroom that had the
door in the back of the classroom and took a seat back against the rear wall. Although he
was very quiet and did not believe that he disturbed any students, the class teacher and/or
proctor reported the incident to (b) (6), (b) (7)(C)                                            . (b)  (6),
                                                                                                   (b) (7)(C)
                                                                                                              spoke with
(b) (6), (b) (7)                                                                     (b) (6), (b) (7)
(C)
                 at some point later in the morning and questioned (C)                                  regarding his
authority, and the rules governing his conduct while at NEC. (b)                       (C)
                                                                                           (6), (b) (7)
                                                                                                         believed that the
                                               (b) (6),           (b) (6), (b) (7)
teacher and/or proctor complained to (b) (7)(C) that (C)                             disturbed the students by
entering the classroom and being present during testing. (b)                  (C)
                                                                                   (6), (b) (7)
                                                                                                 claimed that he told
(b) (6),
(b) (7)(C)
             he  wanted   to witness one  classroom       during     break-time          to  see   what the teacher and
                                             (b) (6), (b) (7)
proctor did during that time period. (C)                        stated that he entered the classroom
approximately five minutes before break time, and exited approximately five minutes
after the second test session started. (b)     (C)
                                                   (6), (b) (7)
                                                                 disputed any notion that he caused any
disruption to the students.
(b) (6), (b) (7)
(C)
                 stated that he was never told by (b)      (6),
                                                       (b) (7)(C)
                                                                    or any other individual to stay out of
the classrooms during testing while he was present at NEC. Most of the time (b)                   (C)
                                                                                                      (6), (b) (7)

visually checked the classrooms through the window on the closed classroom doors.
(b) (6), (b) (7)
(C)
                 could not report what the actions of the DCPS central office monitor were
during the time (b)   (C)
                          (6), (b) (7)
                                       was present at NEC. (b)  (C)
                                                                    (6), (b) (7)
                                                                                 described the atmosphere in
the hallways at NEC during test time as deathly quiet.
(b) (6), (b) (7)
(C)
            recalled the storeroom located next to the guidance counselor’s office where
the exam booklets and answer sheets were kept. He recalled reporting to OSSE that the
door to this room seemed to be propped open during the entire time that (b)  (C)
                                                                                 (6), (b) (7)
                                                                                              was
                  (b) (6), (b) (7)
present at NEC. (C)                never saw anyone tampering with the test materials, and
verified that the office where the exam booklets and answer sheets were kept was within
sight of the school secretaries and the security guard desk.




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                      Office of The Inspector General
                                           Investigations Division

                                            Memorandum of Interview



To:         File
             (b) (6), (b) (7)(C)
From:                               , Special Agent

Date: May 2, 2012

Re:   2011-0318
________________________________________________________________________

Date of Interview:                 May 1, 2012

Time Began: 1:50 pm                                                     Time Ended: 2:00 pm

Location of Interview:                      Telephonic (b) (6), (b) (7)(C)

Persons Present:                   Special Agent (b) (6), (b) (7)(C)


Person Interviewed: (b) (6), (b) (7)(C)


________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________


(b) (6), (b) (7)
(C)
          formerly worked with the Office of the State Superintendent for Education
(OSSE) for the District of Columbia. (b)
                                     (C)
                                         (6), (b) (7)
                                                      confirmed that he served as a DC CAS
Test Monitor for OSSE performing spot checks at various DCPS facilities during the
week of the DC CAS exams, which are typically held in April.
(b) (6), (b) (7)
(C)
           recalled serving as a monitor at Noyes Education Campus (NEC), in the
                 (b) (6), (b) (7)
Spring of 2010. (C)               stated that he only visited the school during one day of
testing, which he believed was the second of four days of testing. He could not recall
whether that was a Tuesday or Wednesday. There was an additional monitor at the
school from the DCPS Central Office; however, (b)       (C)
                                                            (6), (b) (7)
                                                                          could not recall the name of
                                                            (b) (6), (b) (7)
this monitor, or be sure if it was a male or female. (C)                     believed that the DCPS
monitor was on-site during all four days of testing, but, since he was not present all four
days, he could not confirm this statement.
                                                                                                                        2

(b) (6), (b) (7)
(C)
            stated that all the classroom doors that held students that were taking the DC
CAS were closed during the test sessions. The test sessions were broken up into two
parts, with a 10-minute break in-between, and a conclusion somewhere between 11:00
                 (b) (6), (b) (7)
and 11:30 am. (C)                 could not recall whether he stayed at the school until the end of
the test period.
(b) (6), (b) (7)
(C)
                 initially stated that he entered two classrooms during the test period, but later
in the conversation thought that he might have entered four or five classrooms.
(b) (6), (b) (7)
(C)
                 stated that just before the 10-minute break, he entered a classroom that had the
door in the back of the classroom and took a seat back against the rear wall. Although he
was very quiet and did not believe that he disturbed any students, the class teacher and/or
proctor reported the incident to (b) (6), (b) (7)(C)                                            . (b)  (6),
                                                                                                   (b) (7)(C)
                                                                                                              spoke with
(b) (6), (b) (7)                                                                     (b) (6), (b) (7)
(C)
                 at some point later in the morning and questioned (C)                                  regarding his
authority, and the rules governing his conduct while at NEC. (b)                       (C)
                                                                                           (6), (b) (7)
                                                                                                         believed that the
                                               (b) (6),           (b) (6), (b) (7)
teacher and/or proctor complained to (b) (7)(C) that (C)                             disturbed the students by
entering the classroom and being present during testing. (b)                  (C)
                                                                                   (6), (b) (7)
                                                                                                 claimed that he told
(b) (6),
(b) (7)(C)
             he  wanted   to witness one  classroom       during     break-time          to  see   what the teacher and
                                             (b) (6), (b) (7)
proctor did during that time period. (C)                        stated that he entered the classroom
approximately five minutes before break time, and exited approximately five minutes
after the second test session started. (b)     (C)
                                                   (6), (b) (7)
                                                                 disputed any notion that he caused any
disruption to the students.
(b) (6), (b) (7)
(C)
                 stated that he was never told by (b)      (6),
                                                       (b) (7)(C)
                                                                    or any other individual to stay out of
the classrooms during testing while he was present at NEC. Most of the time (b)                   (C)
                                                                                                      (6), (b) (7)

visually checked the classrooms through the window on the closed classroom doors.
(b) (6), (b) (7)
(C)
                 could not report what the actions of the DCPS central office monitor were
during the time (b)   (C)
                          (6), (b) (7)
                                       was present at NEC. (b)  (C)
                                                                    (6), (b) (7)
                                                                                 described the atmosphere in
the hallways at NEC during test time as deathly quiet.
(b) (6), (b) (7)
(C)
            recalled the storeroom located next to the guidance counselor’s office where
the exam booklets and answer sheets were kept. He recalled reporting to OSSE that the
door to this room seemed to be propped open during the entire time that (b)  (C)
                                                                                 (6), (b) (7)
                                                                                              was
                  (b) (6), (b) (7)
present at NEC. (C)                never saw anyone tampering with the test materials, and
verified that the office where the exam booklets and answer sheets were kept was within
sight of the school secretaries and the security guard desk.




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                     Office of The Inspector General
                                          Investigations Division

                                           Memorandum of Interview



To:         File
             (b) (6), (b) (7)(C)
From:                               , Special Agent

Date: August 19, 2011

Re:   2011-0318
________________________________________________________________________

Date of Interview:                 August 3, 2011

Time Began: 4:00 pm                                                         Time Ended: 4:40 pm

Location of Interview:                     OIG, 717 14th Street, NW, Washington, DC

Persons Present:                   Special Agent (b) (6), (b) (7)(C)    , DC-OIG
                                   Special Agent (b) (6), (b) (7)(C) , ED-OIG

Person Interviewed: (b) (6), (b) (7)(C)                                                   Noyes EC
                                                      (b) (6), (b) (7)(C)
                                   Home Address:
                                                            (b) (6), (b) (7)(C)
                                   Cellular Telephone:



________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________
(b) (6), (b) (7)
(C)
           signed an OIG Warning and Assurance Form (attached) and voluntarily
provided the following information:
(b) (6), (b) (7)(C)
                                                                                                               2

(b) (6), (b) (7)(C)




(b) (6), (b) (7)(C)




During the DC CAS testing in April 2009, (b)              (C)
                                                              (6), (b) (7)
                                                                           acted as a monitor for students who
arrived late to school, and were, therefore, unable to take the exam on that particular day.
                         (b) (6), (b) (7)
In 2010 and 2011, (C)                      was assigned a position as hall monitor, to ensure that halls
were empty and students had proper passes. The D.C. Office of the State Superintendent
for Education (OSSE) also sent over at least one hall monitor to NEC to monitor the DC
       (b) (6), (b) (7)
CAS. (C)                stated that (b)      (6),
                                         (b) (7)(C)
                                                    was adamant that the OSSE monitors were not
allowed to enter any classroom, and could only verify test procedures by looking through
the door glass.
(b) (6), (b) (7)
(C)
                 stated that a dozen new things instituted by (b)          (6),
                                                                       (b) (7)(C)
                                                                                    helped NEC achieve high
                                                                   (b) (6), (b) (7)
test scores for its students in 2009, and prior years. (C)                          did not elaborate on this
                 (b) (6), (b) (7)
statement. (C)                    then attributed the sharp drop in DC CAS scores in 2010 to an
influx of new students, especially those who spoke English as a second language.
(b) (6), (b) (7)
(C)
                 stated that she knew of one student, (b) (6), (b) (7)(C) , who struggled reading
and writing the English language, and therefore would have had immense difficulty on
the DC CAS, mainly because NEC and DCPS had no special education plan for students
with learning disabilities. (b)       (C)
                                          (6), (b) (7)
                                                       was unaware of any cheating that took place during
the DC CAS.

When (b)     (6),
        (b) (7)(C)
                     was principal at NEC, there was a management team in place that would
meet regularly to go over issues affecting NEC. The management team was disbanded
by (b) (6), (b) (7)(C) shortly after the start of the fall semester. (b)  (C)
                                                                              (6), (b) (7)
                                                                                           believed that the
                      (b) (6), (b) (7)(C)
disputes among                            , and the senior staff over her different leadership style led
to the disbandment of the management team.




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                               Office of The Inspector General
                                    Investigations Division

                                     Memorandum of Interview



To:                   File

From: (b) (6), (b) (7)(C), Special Agent

Date: May 4, 2012

Re:   2011-0318
________________________________________________________________________

Date of Interview:           May 4, 2012

Time Began: 1:30 pm                                          Time Ended: 2:00 pm

Location of Interview:               Telephonic (b) (6), (b) (7)(C)

Persons Present:             Special Agent (b) (6), (b) (7)(C)


Person Interviewed: (b) (6), (b) (7)(C)           ,
                    SHI 360, Inc, Global Aids Initiative

________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________


(b) (6), (b) (7)(C)




      stated that she served as a monitor at NEC jointly with (b) (6), (b) (7)(C) , who is
(b) (6), (b) (7)(C)




currently a teacher at Anacostia High School, DCPS. (b) (6), (b) (7)(C) held a previous
position with DCPS Central Office.
(b) (6), (b) (7)(C)

     recalled being present at NEC during the morning of the first day of the DC CAS
exams. She could not recall whether the first day of the four days of testing for reading
and math was a Monday or Tuesday. She recalled how neat, orderly and quiet NEC was
                                                                                                                                                                                                                            2


in comparison to some of the other schools that she served as monitor for on previous
years. Both (b) (6), (b) (7)(C) were present on the first day and met with
                                                                                                                                                                                                  (b) (6), (b) (7)(C)




(b) (6), (b) (7)(C)                                             , NEC. No other NEC staff were
              (b)   (6),    (b)   (7)(C)              (b) (6), (b) (7)(C)                                                                      (b) (6), (b) (7)(C)

present when                                met with                      . felt that it was odd that
no one assisted (b) (6), (b) (7)(C) in his duties as (b) (6), (b) (7)(C), as NEC had a number of                                                                                                      (b) (6), (b) (7)(C)

classrooms and students that took the DC CAS. This was not the practice that
witnessed in previous schools.
(b) (6), (b) (7)(C)

      recalled seeing stacks of test booklets and answer sheets already opened and pre-
arranged in piles in the office space adjoining (b) (6), (b) (7)(C) office when she arrived on
the first day. Although (b) (6), (b) (7)(C) had a binder of policies and procedures to
                                                                   stated that (b) (6), (b) (7)(C) gave
                                                                                                                                (b) (6), (b) (7)(C)

follow that were issued to them by the Central Office,
them a separate list of policies and procedures that they were to follow while at NEC.
One of these rules was that (b) (6), (b) (7)(C) were not allowed to enter any
classroom in which the door was closed. If the door was closed, (b) (6), (b) (7)(C)
were only allowed to peer through the small glass window located in each door.

If the classroom door was open, (b) (6), (b) (7)(C) could enter the doorway and
briefly scan the room. They were not allowed to go into the classroom, walk around, or          (b) (6), (b) (7)(C)

stand in the back or side of the classroom.                    felt that this was unusual, but she did not
want to confront (b) (6), (b) (7)(C) with her concerns.                stated that (b) (6), (b) (7)(C) was a little
                                                                                                              (b) (6), (b) (7)(C)




more assertive and challenged        (b) (6), (b) (7)(C)
                                                         . After (b) (6), (b) (7)(C)
                                                                                     challenged (b) (6), (b) (7)(C)
he relented somewhat, allowing (b) (6), (b) (7)(C) to stand in the doorway for a
                                  no longer has the policy paperwork that (b) (6), (b) (7)(C) gave to
                                            (b) (6), (b) (7)(C)

longer period of time.
them; however, she thought an associate of hers at Sousa Middle School might have a
                                               (b) (6), (b) (7)(C)

copy of this document.              will reach out to this individual and report back to the
                                                      stated that (b) (6), (b) (7)(C) might have a copy of
                                                                          (b) (6), (b) (7)(C)

reporting agent as soon as possible.
this paperwork also.

 After the orientation with (b) (6), (b) (7)(C), he (b) (6), (b) (7)(C)) escorted
                                                                                                                                                                     (b) (6), (b) (7)(C)(b) (6), (b) (7)(C)

 across the hallway to the principal’s office and introduced them to
                                                                                     (b)(6), (b)(7)(C)



                  , NEC. This was the only time they had any formal interaction with
(b)(6), (b)(7)(C)                                                                                         (b)(6), (b)(7)(C)



              stated that she witnessed                   roaming the hallways once or twice during exam
                                        (b)(6), (b)(7)(C)

                                                                                                                                                                          (b) (6), (b) (7)(C)

 periods, but other than that, he was absent from all testing activities.                              stated this was
 very unusual also, based on her experience as monitor at other District schools, where the
 principals were actively engaged in all parts of testing activities and areas.

During the first day of testing (b) (6), (b) (7)(C) separated themselves on the two
                                                    (b) (6), (b) (7)(C)

floors of testing at NEC.              recalled that a majority of testing rooms at NEC were on
the second floor. (b) (6), (b) (7)(C) rotated once during the first day of testing.
(b) (6), (b) (7)(C)                                                                                                                                                                        (b) (6), (b) (7)(C)

                    covered NEC during the second and fourth day of testing, and
                      (b) (6), (b) (7)(C)
                                                                                        covered
the third day.            stated that the school was extremely quiet during testing periods, and
there were no noise distractions that she noted the two days she was there.
                                                                                                                                                                                                (b) (6), (b) (7)(C)

While a majority of classroom doors were left open during the exam period,      recalled
two or three classrooms in which the door was closed during the entire exam process.

      This document contains neither recommendations nor conclusions of the Office of the
   Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
                and its contents are not to be distributed outside your agency.
                                                                                                                                              3


Per (b) (6), (b) (7)(C) instructions,
                                                                      (b) (6), (b) (7)(C)

                                      only peered through the door window. She recalled                      (b) (6), (b) (7)(C)

one      grade classroom that was being taught by a female teacher. While       was
            (b)(6),
            (b)(7)(C)



observing, she noticed the teacher lingering over her students’ shoulders and appearing to
closely examine the student’s test paperwork. She also noticed the teacher moving her
arms, but could not determine if the teacher was pointing something out on an answer                                                (b) (6), (b) (7)(C)

sheet, or possibly assisting the students with an answer. Because of the closed door,
was not aware if the teacher was whispering to the students.
(b) (6), (b) (7)(C)

      felt that the teacher’s actions were suspicious, and thought she noted this
                                                                             (b) (6), (b) (7)(C)

observation on her Site Report.           could not recall any other information about this             (b) (6), (b) (7)(C)

teacher, but recalled that she did not notice a proctor in this classroom.       stated that a
majority of the classrooms that she monitored during her two days at NEC did not have                         (b) (6), (b) (7)(C)

proctors or a cond adult individual present during the DC CAS testing.
                        (b
                                                                                    only
recalled one      grade classroom and the library room that had two adults present during
                        )
                        (6
                        ), b) (6), (b) (7)(C)

the test period.        stated that she now realizes that this was very unusual and wonders
                        (b
                        )


why this issue is not a part of her Site Evaluation Report, and why this was not part of her
                        (7
                        )
                        (


instructions from central office to verify at least two adults present in each testing room.
                        C)




(b) (6), (b) (7)(C)

     was questioned if the two or three classrooms that had their door closed might have
been closed due to noise from other non-testing classrooms, or from machinery or other
                                                (b) (6), (b) (7)(C)

environmental reasons.        stated the entire testing areas of the school were extremely
quiet and therefore no reason to have only those two or three classroom doors closed.
(b) (6), (b) (7)(C)

      noticed a Hall Monitor on each floor sitting in a chair, which rotated among various
staff members whose sole duty was to maintain a quiet environment and keep the halls
clear.

     recalled that (b) (6), (b) (7)(C) actively patrolled the hallways during the test periods, and
(b) (6), (b) (7)(C)




occasionally she noticed (b) (6), (b) (7)(C)                                                   ,
NEC, patrolling the hallways.
(b) (6), (b) (7)(C)

     reiterated that in one aspect, everything at NEC was neat, orderly and organized, but
in another, she felt it very strange that (b) (6), (b) (7)(C) handled a majority of the test
coordinator duties alone, while the                 or other senior staff seemed to be absent
                                                                                   (b)(6), (b)(7)(C)




during the entire test period.

      confirmed that she (and (b) (6), (b) (7)(C) on the first day) arrived in time to witness the
(b) (6), (b) (7)(C)




testing paperwork distributed to the staff each morning, and stayed until all test materials
                                                                                  (b) (6), (b) (7)(C)

were turned in right before lunch.             was unable to notice if any test booklets or
answer sheets appeared to be altered or disturbed on the first day of testing due to the
crowded activities of multiple teachers collecting the materials all at once.




      This document contains neither recommendations nor conclusions of the Office of the
   Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
                and its contents are not to be distributed outside your agency.
                                     Office of The Inspector General
                                          Investigations Division

                                           Memorandum of Interview



To:        File
            (b) (6), (b) (7)(C)
From:                              , Special Agent

Date: September 30, 2011

Re:   2011-0318
________________________________________________________________________

Date of Interview:                September 28, 2011

Time Began: 10:50 am                                                  Time Ended: 11:00 am

Location of Interview:                     Telephonic ((b) (6), (b) (7)(C) )

Persons Present:                  Special Agent (b) (6), (b) (7)(C)


Person Interviewed: (b) (6), (b) (7)(C) Parent of former Noyes EC Student
                    District of Columbia Public School System (DCPS)

________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________


(b) (6), (b) (7)(C)




(b) (6), (b) (7)(C)




                                    Knowing these facts, (b) (6), (b)
                                                         (7)(C)
                                                                                was surprised at (b)
                                                                                                 (6),
                  apparent DC CAS scores.                                                         (b)
                                                                                                  (7)
                                                                                                  (C)
                                                                                                        2


In one instance, when students from NEC were temporarily housed at the Hamilton
School while NEC was undergoing renovations, (b)             (6), (b)
                                                         (7)(C)
                                                                      witnessed staff members of
NEC congregated in a private office with numerous DC CAS test booklets and answer
sheets displayed in a haphazard manner. (b)  (C)
                                                 (6), (b) (7)
                                                               noticed this congregation on multiple
days when he picked his daughter up from school during the exam week. (b)            (C)
                                                                                         (6), (b) (7)

attempted to look into the office through a window pane, but the glass had been covered
                                (b) (6), (b)
with red paper. It appeared to (7)(C)        that the individuals may have been tampering
with the exams; however, he could not state with certainty that he witnessed the staff
actually changing any answer sheets.
(b) (6), (b)
(7)(C)
          stated that another NEC teacher, (b) (6), (b) (7)(C)                              , also
witnessed this activity and discussed the possible impropriety with (b)     (6), (b)
                                                                        (7)(C)
                                                                                         . (b) (6),
                                                                                           (b) (7)
                                                                                                    was
                                                               (b) (6), (b) (7)(C)
concerned enough that she allegedly reported the incidents to                              (C)
                 , and (b) (6), (b) (7)(C)                                        . (b)  (6), (b)
                                                                                     (7)(C)
                                                                                                    was
                               (b) (6),
unaware of the outcome of (b) (7) ’s complaint.
                                    (C)
(b) (6), (b)
(7)(C)
                 identified   the following individuals as being present in the exam office:
(b) (6), (b) (7)(C)




(b) (6), (b)
(7)(C)
          was approached by a reporter (b) (6), (b) (7)(C)
                       and questioned about testing irregularities at NEC during (b)     (6),
        ’s tenure at the school. (b) (6), (b)
                                 (7)(C)
                                              attempted    to locate (b) (6),
                                                                     (b) (7)
                                                                              to corroborate
                                                                                         (b) his
testimony regarding the group meetings in test room; however,(C)      he was unable to (7)locate
                                                                                         (C)
her.
(b) (6), (b) (7)(C)

                                     never told (b) (6), (b)
                                                (7)(C)
                                                                 that she witnessed any cheating by
teachers at NEC during the exam periods. (b)         (C)
                                                         (6), (b) (7)
                                                                      stated that he would follow-up with
(b) (6), (b) (7)(C)
                    , and that he would provide the reporting agent with any additional
information that (b) (6), (b) (7)(C) might have regarding DC CAS test irregularities.




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                               Office of The Inspector General
                                    Investigations Division

                                       Memorandum of Interview



To:        File

From: SA (b) (6), (b) (7)(C)

Date: June 21, 2012

Re:   2011-0318
________________________________________________________________________

Date of Interview:         June 20, 2012

Time Began: 10:15 am                             Time Ended: 10:40 am

Location of Interview:                DCPS, Office of the Chancellor
                                      1200 First St, NE, Washington, DC

Persons Present:           Special Agent (SA) (b) (6), (b) (7)(C)


                           (b) (6), (b) (7)(C)
Person Interviewed:                                                       ,
                           DC Public Schools (DCPS)

                           Work Address: 1200 First Street, NE, Washington, D.C.
                  (b) (6), (b) (7)(C)
Also Present:                               , DCPS
________________________________________________________________________
                            SUMMARY OF INTERVIEW
________________________________________________________________________

After being apprised of the identity of the interviewing agent and the nature of the
interview, (b) (6), (b) (7)(C) voluntarily provided the following information:
(b) (6), (b) (7)(C)




DCPS policy regarding incidents reported during the DC CAS exams is for DCPS
Central Office (CO) personnel to conduct interviews and make preliminary reports to the
D.C. Office of the State Superintendent for Education (OSSE) within 48 hours. These
                                                                                              2


timelines are required by written OSSE policies. DCPS CO handles the intake for all
complaints; however, if the complaint is from a non-DCPS source, i.e. parent, then DCPS
CO will refer the matter to the DCPS Office of School Security. (b) (6), (b) (7)(C) could not
recall any complaints that have been referred to school security.

Based on the severity of the complaint, DCPS might remove a test administrator from the
testing classroom immediately if they feel it is warranted. Otherwise, DCPS CO
personnel will question the offender, the school principal, any other witnesses, i.e.
proctor, and possibly the school’s test coordinator, before issuing a final written report.

If personnel action is warranted, DCPS will confer with the labor union and the general
counsel’s office. All teachers are covered by the Washington Teachers Union, while
principals are with the Chief School Officer’s Union. Any final actions regarding
proposed punishments will not be included in the investigative files, but will be kept by
DCPS Human Resources Department, or possibly the Labor Relations Division.
(b) (6), (b) (7)(C)
               stated that the four binders she submitted, labeled 2009, 2010, 2011 (Part I)
and 2011 (Part II), were the complete files that DCPS had in its possession, that were
submitted to OIG for copying, regarding DCPS investigations of incidents reported
during the DC CAS. (b) (6), (b) (7)(C) stated there are no written records regarding DC CAS
incidents for the spring 2008 test period. (b) (6), (b) (7)(C) believed that monitors were
present in 2008; however, there were no official forms created by DCPS or OSSE for the
monitors to report any incidents.
(b) (6), (b) (7)(C)
              stated that OSSE has become more rigid in their requirements for oversight
of the DC CAS. They have more expectations, and require more detailed paperwork in
2012, than they have in any of the previous years.

DCPS hired the firm of ALVAREZ and MARSAL to review the results of the 2012 DC
CAS erasure analysis, replacing CAVEON who had been hired for the 2009 and 2010
analysis. (b) (6), (b) (7)(C) did not know the reason for the change in companies.
(b) (6), (b) (7)(C)
              believed that there were two on-going investigations involving the 2012
DC CAS, which have been referred to ALVAREZ and MARSAL, and there were
multiple reports of minor irregularities reported and investigated by DCPS CO.
(b) (6), (b) (7)(C)
              stated that none of the DCPS CO staff had formal training in conducting
investigations; however, all staff attended meetings in which they were trained on what
type of questions to ask, and whom to question.
(b) (6), (b) (7)(C)
              stated that to the best of her belief, DCPS has never requested school staff
to conduct their own internal investigations. (b) (6), (b) (7)(C) also stated that DCPS has not
hired any other firms, other than CAVEON and ALVAREZ and MARSAL to conduct
any type of cheating investigations.



    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                        Office of The Inspector General
                                             Investigations Division

                                              Memorandum of Interview



To:            File
               (b) (6), (b) (7)(C)
From:                                 , Special Agent

Date: June 21, 2011

Re:   2011-0318
________________________________________________________________________

Date of Interview:                   June 20, 2011

Time Began: 10:40 am                                                     Time Ended: 11:10 pm

Location of Interview:                        Noyes Education Campus, 2725 10th St, NE

Persons Present:                     Special Agent (b) (6), (b) (7)(C)
                                     Special Agent (b) (6), (b) (7)(C)

Person Interviewed: (b) (6), (b) (7)(C)
                    Home Address: (b) (6), (b) (7)(C)
                    Home Telephone Number: (b) (6), (b) (7)(C)
                    Work Location:          Noyes Educational Campus
                                            2725 10th Street, NE, Washington, DC
                    Work Telephone Number: (b) (6), (b) (7)(C)

________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________
(b) (6), (b)
(7)(C)
        signed an OIG Warning and Assurance Form and voluntarily provided the
following information:
(b) (6), (b)
(7)(C)
              began      her career with the D.C. Public School System (DCPS) in 2000. In 2001,
(b) (6), (b) (7)(C)
                                                                                                 2

(b) (6), (b)
(7)(C)
              has servedas a Proctor during the DC CAS exams since returning to Noyes in
(b) (6), (b) (7)(C)
                  . She could not recall the names of the teachers that she administered the
exams with, but stated that it was a different teacher each of the last three or four years.
(b) (6), (b)
(7)(C)
             and the teacher took turns handing out the exams, and it was her responsibility to
go around the classroom and make sure that the students were filling in the answer sheets
correctly.

In the classrooms that contained special education students, the special education teacher
would be responsible for handing out the exam booklets. (b)     (6), (b)
                                                            (7)(C)
                                                                         did not believe that
special education students were always required to take the exam, but lately it was
mandatory. There is one student who is classified as mentally retarded, who did not have
to take the test in 2008, or 2009, but was required to take the exam in 2010 and 2011.
(b) (6), (b)
(7)(C)
         did not recall anything unusual during the test periods for the DC CAS. She
stated that it was very quiet during test time, as there is no talking allowed by students,
teachers, or proctors.
(b) (6), (b) (7)(C)




(b) (6), (b)
(7)(C)
        was not aware that she was receiving a U.S. Department of Education TEAM
award in 2008, until the money was deposited into her bank account. She received
approximately (b) (6),
                        . (b) (6), (b) attributed the award and higher test scores to a lot of hard
              (b) (7)(C) (7)(C)
work with the Head Start Program which combines extra tutoring and some after school
work.
(b) (6), (b)
(7)(C)
             explained the sudden drop in exam scores (b) (6), (b) (7)(C)              at
Noyes as being caused by an influx of new students from Slowe EC, which was being
closed. Apparently, many of the transfer students from Slowe were unidentified special
education students who could not perform at the basic level for their current grade.
(b) (6), (b)
(7)(C)
             believed that this caused the dramatic drop in average scores for certain
classrooms. In addition, because of the transfers, the class sizes grew dramatically.
(b) (6), (b)
(7)(C)
         could not provide a qualified reason for the high number of wrong-to-right
erasure marks on the DC CAS exams in 2008 and 2009. She stated that some of the
special education students would hurry up and mark anything on the answer booklet and
be finished with the exam in as little as ten minutes. The teacher and proctor would be
responsible for making sure the student understood the importance of the exam, and the
need to study each question and answer it appropriately. (b)   (6), (b)
                                                           (7)(C)
                                                                        believes a lot of
erasures came from those students who answered too quickly and went back and
reviewed their work and found errors.

    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                                                                        3


(b) (6), (b)
(7)(C)
         stated that she did not read the USA Today news article regarding erasure scores
at Noyes. She had not heard any information regarding any type of cheating from any
other staff sources at her school, and would not know if anyone was in the school
building on the weekend while the exam answer sheets were still locked in the guidance
counselor’s office.


Attachments




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                      Office of The Inspector General
                                           Investigations Division

                                            Memorandum of Interview



To:         File
             (b) (6), (b) (7)(C)
From:                               , Special Agent

Date: June 13, 2011

Re:   2011-0318
________________________________________________________________________

Date of Interview:                 June 9, 2011

Time Began: 4:10 pm                                                      Time Ended: 4:35 pm

Location of Interview:                      Noyes Education Campus, 2725 10th Street, NE

Persons Present:                   Special Agent (b) (6), (b) (7)(C)
                                   Special Agent (b) (6), (b) (7)(C)

Person Interviewed: (b) (6), (b) (7)(C)                                                  , Noyes EC
                                                                       (b) (6), (b) (7)(C)
                                   Office Telephone Number:


________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________
(b) (6), (b) (7)
(C)
            signed an OIG Warning and Assurance Form (attached) and voluntarily
provided the following information:
(b) (6), (b) (7)(C)




(b) (6), (b) (7)(C)
                                                                                                            2

(b) (6), (b) (7)(C)




(b) (6), (b) (7)(C)



            .
(b) (6), (b) (7)
(C)
             was aware that the DC CAS student exams were kept in a locked office
adjacent to the Guidance Counselor’s office. Only the Principal, Assistant Principal,
Guidance Counselor and Janitorial staff had keys to this office. (b)
                                                                   (C)
                                                                       (6), (b) (7)
                                                                                    stated that he
changed the lock on the office door earlier this year, prior to the start of the 2011 DC
CAS exam period.
(b) (6), (b) (7)
(C)
                admitted that he was awarded a bonus during the 2008 and 2009 school years
when Noyes was awarded TEAM awards for outstanding performance from the U.S.
                               (b) (6), (b) (7)
Department of Education. (C)                    believed his bonuses were (b) (6),
                                                                          (b) (7)(C)
                                                                                     each year, or
      (b) (6), (b)
about (7)(C) after taxes.
(b) (6), (b) (7)
(C)
            has never heard any of cheating or erasure incidents involving the DC CAS
                                                                             (b)
exams, with the exception of (b) (6), (b) (7)(C)                  , a former (6),         teacher who
               (b) (6), (b) (7)
was terminated (C)              from Noyes. (b)(C)
                                                   (6), (b) (7)
                                                                was not sure of
                                                                             (b) the reason for the
                                                                             (7)     (b) (6), (b) (7)
termination, but rumors were that it had something to do with cheating.      (C)     (C)
                                                                                                      has
never seen anyone in the locked office containing the DC CAS answer sheets when the
exam was not being given, and does not recall seeing anyone in that office during the
weekend immediately after the exam was given.
(b) (6), (b) (7)
(C)
             could not explain the sudden spike in test scores at Noyes in 2008 and 2009.
He opined that the rise in scores might have been caused by an influx of above average
students from other locations. (b)
                                (C)
                                    (6), (b) (7)
                                                 did not believe that (b) (6),
                                                                      (b) (7)(C)
                                                                                 had anything to do
potential erasures on the DC CAS answer sheets or any other potential fraud associated
with the DC CAS.




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                    Office of The Inspector General
                                         Investigations Division

                                          Memorandum of Interview



To:        File
            (b) (6), (b) (7)(C)
From:                               Special Agent

Date: August 9, 2011

Re:   2011-0318
________________________________________________________________________

Date of Interview:                July 15, 2011

Time Began: 1:00 pm                                                       Time Ended: 1:45 pm

Location of Interview:                    OIG, 717 14th Street, NW, Washington, DC

Persons Present:                  Special Agent (b) (6), (b) (7)(C)    , DC-OIG
                                  Special Agent (b) (6), (b) (7)(C) , ED-OIG

Person Interviewed: (b) (6), (b) (7)(C)                    Teacher, Noyes EC
                                                    (b) (6), (b) (7)(C)
                                  Home Address:



________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________
(b) (6), (b) (7)(C)
                 signed an OIG Warning and Assurance Form (attached) and voluntarily
provided the following information:
(b) (6), (b) (7)(C)
                                                                                                              2

(b) (6), (b) (7)(C)
                    was not aware that Noyes had won a U.S. Department of Education
(ED) TEAM award for the 2006/2007 school year until after she was hired. NOYES won
the award a second time during (b) (6), (b) (7)(C)    ’s first year at the school, and
(b) (6), (b) (7)(C)              (b) (6),
                    was given an (b) (7)(C) bonus as part of the TEAM award.
(b) (6), (b) (7)(C)
                    explained that DCPS sets benchmark goals for each school, and that
each teacher has his/her own benchmark goal. (b) (6), (b) (7)(C)  made her goal the first
two years at Noyes, but does not believe she made her goal the last two years. The
benchmark goals are tied to scores achieved on the DC CAS exams which are given each
year in April. (b) (6), (b) (7)(C) has been administering the DC CAS since she was
             (b)
employed at (6), .
                  (b)
At Noyes,       the(7)DCCAS exams are picked up each morning during exam week from (b)          (6),
                  (C)
                                                                , Noyes. Each exam booklet and(b) (7)
answer sheet is accounted for and initialed on a sign-in/sign-out form. The forms are           (C)

locked each evening in a separate office. Each classroom that gives the DC CAS has a
proctor assigned to assist the teacher with the exam. (b) (6), (b) (7)(C)         stated that her
                             (b) (6), (b) (7)(C)
assigned Proctor was                                                  , Noyes, this past year, but that
someone from the Office of the State Superintendent for Education (OSSE) filled in as
proctor for (b) (6), (b) (7)(C)         ’s first year at Noyes.
(b) (6), (b) (7)(C)
                 did not feel any undue pressure to raise her DC CAS scores the last few
years. She was unaware of any cheating taking place at Noyes, and had not heard any
gossip regarding any potential cheating. (b) (6), (b) (7)(C) had also given this information
to CAVEON, when she was interviewed by the company the previous year.
(b) (6), (b) (7)(C)
                      heard that (b) (6), (b) (7)(C)               , Noyes had resigned, (b)           (6), (b)
                                                                                                   (7)(C)
                                                       (b) (6),                     (b) (6), (b) (7)(C)
                             . She was also aware that (b) (7)(C had resigned
                                                              . (b) (6), (b) (7)(C)     was unaware of
(b) (6),
(b) (7)(C)
           ’s future plans.




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                      UNITED STATES DEPARTMENT OF EDUCATION
                                             OFFICE OF INSPECTOR GENERAL
                                                INVESTIGATION SERVICES




DATE INTERVIEWED:                                                    March 15, 2012
                                                                     (b) (6), (b) (7)(C)
PERSON INTERVIEWED:
INTERVIEWED BY:                                                      (b) (6), (b) (7)(C)                , Special Agents,
                                                                     U.S. Department of Education, Office of Inspector
                                                                     General
LOCATION:                                                            1200 1st Street NE
                                                                     Washington, DC
REFERENCE:                                                           Noyes Elementary
CASE NUMBER:                                                         11-000491

On March 15, 2012, (b) (6), (b) (7)(C)                                           District of
Columbia Public Schools (DCPS), was interviewed regarding allegations of cheating on the                (b) (6), (b) (7)(C)

District of Columbia Comprehensive Assessment System (DC CAS) test.          was advised of
the reporting agents’ identities and stated the following in essence:

(b) (6), (b) (7)(C)




(b) (6), (b) (7)(C)

       believed Caveon was hired to investigate cheating allegations related to the 2008-2009
                                               (b) (6), (b) (7)(C)

and 2009-2010 school years.           stated she had seen the investigative reports from Caveon
related to the allegations of cheating on the District of Columbia Benchmark Assessment System
                       (b) (6), (b) (7)(C)

(DC BAS) test.           had also seen summaries of the data analysis related to the investigation.
Due to the cheating allegation, DCPS has implemented test observers/monitors during the
administration of the DC BAS. The Office of the State Superintendent of Education (OSSE),
District of Columbia, has also implemented erasure analysis monitoring which flags certain
classrooms based on a predetermined criteria.
(b) (6), (b) (7)(C)

      stated the Race to the Top Assessment Program required student performance data from
the District of Columbia, but any allegations of cheating were investigated each year. If
evidence of cheating was found, the test scores were invalidated. Sometimes the official
                                                                                  (b) (6), (b) (7)(C)
    Date Prepared: March 28, 2012                           S/A                                    Case No: 11-000491
This report is the property of the Office of Investigation Services and is loaned to your agency; it and its contents may not be
reproduced without written permission. The report is FOR OFFICIAL USE ONLY and its disclosure to unauthorized
persons is prohibited. Public availability to be determined by 5 U.S.C. 552.

OIG-301 (11/06)                                                                                                               Page 1 of 2
Person Interviewed: (b) (6), (b) (7)(C)                                                           Case No: 11-000491



reported scores were changed after they were submitted, due to findings from an investigation.
(b) (6), (b) (7)(C)

       did not have knowledge of the criteria used to remove the scores.
(b) (6), (b) (7)(C)

       was not directly involved with the Together Everyone Achieves More (TEAM) awards,
but she believed the allegations of cheating surfaced after schools had received the TEAM
                      (b) (6), (b) (7)(C)

awards.         did not have any knowledge of a school receiving a TEAM award if there were
allegations of cheating surrounding the particular school. (b) (6), (b) (7)(C)
                         , DCPS, may have more knowledge about the TEAM awards.
(b) (6), (b) (7)(C)

       stated she was not involved in the investigation process of the alleged cheating in DCPSs,
                                            (b) (6), (b) (7)(C)                                                   (b) (6), (b) (7)(C)

and she was not aware of when           office was notified of the cheating allegations.
believed DCPS responded in a timely and appropriate manner when they were notified of the
cheating allegations.

Contact Information
(b) (6), (b) (7)(C)




                                                                        (b) (6), (b) (7)(C)
          Date Prepared: March 28, 2012                           S/A                             Case No: 11-000491

This report is the property of the Office of Investigation Services and is loaned to your agency; it and its contents may not be
reproduced without written permission. The report is FOR OFFICIAL USE ONLY and its disclosure to unauthorized
persons is prohibited. Public availability to be determined by 5 U.S.C. 552.

OIG-301 (11/06)                                                                                             Page 2 of 2
                            Office of The Inspector General
                                 Investigations Division

                                  Memorandum of Interview



To:        File

From: David R Stupar, (b) (6), (b) (7)(C)

Date: June 9, 2011

Re:   2011-0318
________________________________________________________________________

Date of Interview:       June 8, 2011

Time Began: 4:15 pm                                               Time Ended: 4:45 pm

Location of Interview:           Noyes Education Campus, 2725 10th Street, NE

Persons Present:         Special Agent (b) (6), (b) (7)(C)
                         Supervisory Special Agent (b) (6), (b) (7)(C)

Person Interviewed: (b) (6), (b) (7)(C)                                            Noyes EC
                                            (b) (6), (b) (7)(C)
                         Home Address:
                                                             (b) (6), (b) (7)(C)
                         Home Telephone Number:


________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________
(b) (6), (b) (7)(C)
                  signed an OIG Warning and Assurance Form (attached) and
voluntarily provided the following information:
(b) (6), (b) (7)(C)
                                                                                                  2

(b) (6), (b) (7)(C)




(b) (6), (b) (7)(C)
                      stated that he has no involvement with the DC CAS exams, which are
given to students in the third through eighth grade. Since his workday starts at 11:00, and
the exams are given from 9:00 to 11:00 am, (b) (6), (b) (7)(C)            is not on site during the
exams, but may sometimes hear announcements over the public address system
informing teachers that the exam is over. (b) (6), (b) (7)(C)         acknowledged receiving
          (b) (6),
about (b) (7)(C) after taxes for a U.S. Department of Education TEAM award shortly after
he arrived at Noyes in 2009. The award was given in part for a rise in DC CAS scoring
by Noyes for the 2008/2009 school year. (b) (6), (b) (7)(C)           credited the rise in scores to
both the enrichment program instituted at Noyes, and the quality of the staff.
(b) (6), (b) (7)(C)
                      described the principal at that time, (b) (6), (b) (7)(C)
         (b) (6), (b)
         (7)(C)
                      received
                      many accolades and considered his staff a team. It did not
            (b) (6), (b) (7)(C)
surprise                 that Noyes received awards in both 2008 and 2009 for a
dramatic rise in DC CAS scores.
(b) (6), (b) (7)(C)
                     blamed the sharp drop in scores in 2010 to an influx of students from
Shade and Marshal Elementary schools. Noyes used to be a K through 6th grade school,
but recently expanded to include the 7th and 8th grades. (b) (6), (b) (7)(C)    believed that
these new students were responsible for the lower scores in the 2010 spring semester.
When questioned why the students who were already at Noyes also scored lower the
following year, (b) (6), (b) (7)(C) was unable to formulate an answer. (b) (6), (b) (7)(C)
was also questioned about the scores dropping dramatically after (b) (6), (b) (7)(C)

          . (b) (6), (b) (7)(C) was still unable to explain the drop on anything other than a
transfer of new students to the school.
(b) (6), (b) (7)(C)




                                                        (b) (6), (b) (7)(C)
                                                                  had no knowledge that
any cheating ever took place on the DC CAS, but admitted that there was a security flaw
in allowing the exams to be kept at the school overnight and through the weekend, before
they are picked up by the central office.
(b) (6), (b) (7)(C)
                         knew (b) (6), (b) (7)(C)             as a 4th grade teacher at Noyes.
(b) (6), (b) (7)(C)
                                  (b) (6), (b) (7)(C)
                                          heard recently that (b) (6), (b) (7)(C) was
terminated, but did not know the reasons for his termination. (b) (6), (b) (7)(C)   named
(b) (6), (b) (7)(C)
                                                            as the closest associates at
Noyes of (b) (6), (b) (7)(C) .




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                    Office of The Inspector General
                                         Investigations Division

                                          Memorandum of Interview



To:        File
            (b) (6), (b) (7)(C)
From:                              , Special Agent

Date: March 7, 2012

Re:   2011-0318
________________________________________________________________________

Date of Interview:                March 7, 2012

Time Began: 11:00 am                                                         Time Ended: 11:55 am
                                         (b) (6), (b) (7)(C)
Location of Interview:

Persons Present:                  Special Agent (b) (6), (b) (7)(C)   , DC-OIG
                                  Special Agent (b) (6), (b) (7)(C) , DC-OIG

Person Interviewed: (b) (6), (b) (7)(C)                                      , NEC
                                                       (b) (6), (b) (7)(C)
                                  Home Address:
                                                                        (b) (6), (b) (7)(C)
                                  Home Telephone Number:

________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________

After being apprised of the identity of the interview agents, and the nature of the
interview, (b) (6),
           (b) (7)(C)
                      voluntarily provided the following information:
(b) (6), (b) (7)(C)




NEC is required to submit a test plan to the D.C. Office of the State Superintendent
(OSSE) each year, showing that they meet all the security requirements for administering
                                                                                                       2


the D.C. Comprehensive Assessment System (DC CAS). If the first draft does not meet
with OSSE approval, NEC staff will edit the plan and re-submit to OSSE. (b)     (6),
                                                                            (b) (7)(C)
admitted that after the first year’s plan was submitted and approved, it was unlikely that
following year’s plans would be rejected, unless OSSE instituted major new changes.

Once the plan is approved, a test committee, made up of approximately half a dozen NEC
staff, meets, and goes over test preparations. (b)     (6),
                                                   (b) (7)(C)
                                                               recalled that (b) (6), (b) (7)(C) was the
                                                         (b) (6), (b) (7)(C)
Chairperson of the committee, and he thought that
                                                                                                    might
have been the other members of the committee. (b)         (6),
                                                      (b) (7)(C)
                                                                   stated   that he did not   take an
active role in the test preparations, as this was part of (b) (6), (b) (7)(C) job duties. One of the
committee’s roles was to determine which teachers and which proctors would be assigned
to each classroom. (b)   (6),
                     (b) (7)(C)
                                believed that proctor’s were assigned based on their
familiarity with certain teachers or classrooms. For instance, if there was an educational
assistant assigned to a particular classroom throughout the school year, that person would
probably be assigned as the proctor to that classroom, to minimize any disruptions or
discomfort to the students. The committee also took into account individual personality
conflicts between staff members when assigning proctors to classrooms.

Additionally, the committee would determine an Individual Education Plan (IEP) for
special education students. They would discuss which students would need to be
segregated to a separate room due to special needs, such as having questions read aloud
to them. (b)  (6),
          (b) (7)(C)
                     stated that not all special education (SE) students were segregated, just
those with the most severe handicaps. The scores for the SE students did not always
count toward the school’s Adequate Yearly Progress (AYP) scores. There were a
minimum number of SE students needed for the scores to count towards AYP. (b)            (6),
                                                                                     (b) (7)(C)
could not recall this number, nor did he provide any other details regarding this group of
students.
(b) (6),
       believed there were 12-15 SE students in 2007/2008, and a slightly higher number
(b) (7)(C)
each year thereafter. He could not recall any specific numbers.

A number of lower performing students came through NEC from other schools and areas,
which could have caused the fluctuations in the DC CAS scores. Additionally, NEC
went through a staff turnover of approximately 10 – 15% each year. (b)       (6),
                                                                         (b) (7)(C)
                                                                                    blamed the
staff turnover on retirements, relocations, personality conflicts, and other unspecified
reasons. This could account for why students in one 3rd grade classroom scored very well
one year, while next year’s 3rd grade students scored much lower. (b)    (6),
                                                                     (b) (7)(C)
                                                                                  believed the
high number of erasures on the DC CAS could have been caused by students taking more
time to review and then changing their answers.
(b) (6), (b) (7)(C)
               was assigned as the Test Coordinator at NEC, and therefore was mainly
responsible for test security. The DC CAS was shipped to NEC approximately one week
prior to the first exam day, and the school secretary would inform (b) (6), (b) (7)(C) when the
boxes arrived. (b) (6), (b) (7)(C) would take possession of the boxes and secure them in a
locked office next to (b) (6), (b) (7)(C) ’s office. (b) (6), (b) (7)(C) , and the school

    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                                                                                       3


custodians had access to this office. (b)     (6),
                                          (b) (7)(C)
                                                     stated that he had nothing to do with test
preparation procedures other than giving an opening statement to all testing staff just
prior to the first day of exams. The test committee would handle affixing individual
student identification labels to each answer sheet prior to the first day of exams. (b)       (6),
                                                                                          (b) (7)(C)
was not present during this procedure and could not explain in any more detail how this is
accomplished. (b)    (6),
                 (b) (7)(C)
                            stated that no staff is authorized to open any exam booklets until
the morning of the first day of exams.
(b) (6),
         was aware that NEC was flagged for an unusually high number of wrong-to-right
(b) (7)(C)
(WTR) erasures in multiple classrooms. He also read the negative USA Today news
article, for which he stated he gave little credence to, based on the one-sided view of most
reporters.
(b) (6),
        wanted to conduct his own internal investigation into high WTR erasures in
(b) (7)(C)
certain classrooms flagged by OSSE, but was instructed by DCPS Central Office and
OSSE not to do anything. He was subsequently informed that an outside company,
Caveon, would be conducting an erasure analysis, and that he was to make his staff
available for any interviews, and that they were to cooperate fully with Caveon
investigators.
(b) (6),
         verified that OSSE sent monitors to NEC during the DC CAS, whose function
(b) (7)(C)
were to oversee the administration of the exam. Parts of these duties were to visually
inspect individual classrooms to confirm that teachers and proctors were following proper
testing protocol. (b)  (6),
                   (b) (7)(C)
                              recalled one incident in which a teacher complained to (b)           (6),
                                                                                               (b) (7)(C)
that the OSSE monitor was disrupting the test administration, allegedly by their presence
in the front of the classroom. (b)     (6),
                                   (b) (7)(C)
                                              could not recall the exact circumstances, nor recall
the name of the teacher who made the complaint. (b)            (6), (b)
                                                           (7)(C)
                                                                        stated that he never instructed
any of his staff to shut their classroom doors, and that he forbade any OSSE monitors
from opening doors or entering any classrooms. (b)           (6),
                                                         (b) (7)(C)
                                                                      stated that he did not have the
authority to issue that type of directive to an OSSE employee.
(b) (6),
        admitted that each teacher should be aware of his/her student’s academic abilities
(b) (7)(C)
throughout the year, especially knowing the results of the four DC BAS practice exams
given throughout the year up until the DC CAS exam in the spring. Based on the results
of these exams, teachers should know which students are at the “Basic” level, and which
basic students are on the bubble to rising to the proficient level. It is every teachers job to
work hard with all students to raise their test scores, and (b)  (6),
                                                             (b) (7)(C)
                                                                        did not dispute that
teachers may work extra hard with those bubble students to raise their DC CAS scores.
However, (b)   (6),
           (b) (7)(C)
                      denied that those students were seated in any special areas of the
classroom, or that any teachers gave assistance to these students during the DC CAS
exam.
(b) (6),
        believed that most teachers had standard seating charts at the beginning of the
(b) (7)(C)
school year, and that those same seating arrangements stayed consistent throughout the
year, except for students who had behavioral issues and might need to be moved away
from certain other students. (b) (6), (b)
                             (7)(C)
                                          could not confirm that students in certain rows were

    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                                                                              4


given specific versions of the DC CAS exam booklets, so that each student sitting next to
each other had different versions to deter cheating. (b)   (6),
                                                       (b) (7)(C)
                                                                  acknowledged that teachers
and proctors are supposed to circulate throughout the classroom during the exam to be
sure that students are not answering the wrong section of the answering sheet, are in the
correct section of the test booklet, and not trying to change answers from a previous day’s
exam.
(b) (6),
(b) (7)(C)
           described that he met with (b) (6), (b)
                                      (7)(C)
                                                   teachers throughout the school year, and just
before the DC CAS to review the academic levels of each student in every classroom.
(b) (6),
(b) (7)(C)
           would question the teacher’s academic plan to raise scores and grades, for which
teachers offered ideas such as extra tutoring after school and weekends, and meeting with
parents to determine proper homework study habits.
(b) (6), (b) (7)(C)




(b) (6),
       was questioned as to whether or not he was aware of any cheating, in any way,
(b) (7)(C)
shape or form, by any NEC staff member on the DC BAS or DC CAS exams, for which
he answered “absolutely not.”




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                    Office of The Inspector General
                                         Investigations Division

                                          Memorandum of Interview



To:        File
            (b) (6), (b) (7)(C)
From:                              , Special Agent

Date: May 16, 2012

Re:   2011-0318
________________________________________________________________________

Date of Interview:                May 16, 2012

Time Began: 12:30 pm                                                       Time Ended: 12:40 pm

Location of Interview:                    Telephonic

Persons Present:                  Special Agent (b) (6), (b) (7)(C)   , DC-OIG
                                  Special Agent (b) (6), (b) (7)(C) , DC-OIG

Person Interviewed: (b) (6), (b) (7)(C)                                    , NEC
                                                     (b) (6), (b) (7)(C)
                                  Home Address:
                                                                      (b) (6), (b) (7)(C)
                                  Home Telephone Number:

________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________
(b) (6), (b) (7)(C)
                                                                                                       2


(b) (6),
        confirmed that both DCPS Central Office personnel and D.C. Office of the State
(b) (7)(C)
Superintendent for Education (OSSE) have monitors which visit DCPS facilities during
the administration of the DC CAS exams. (b) (6), (b) (7)(C)
                     never instructed any monitor that they were not to enter any
classrooms which were administering the DC CAS, whether or not the door to the
classroom was closed. (b)   (6),
                        (b) (7)(C)
                                   ’s only request to DCPS and OSSE monitors was that they
did not do anything to disrupt the classroom. (b)      (6),
                                                   (b) (7)(C)
                                                              stated “I don’t care if they entered
the classroom and stood on their head, as long as they didn’t disrupt the classroom.” As
far as he was concerned, the monitors could enter the classroom, stand at the side of the
room, or sit in the back of the classroom, as long as they weren’t disruptive.
(b) (6),                            (b) (6), (b) (7)
                                                 1
(b) (7)(C)
           denied telling           (C)            , DCPS Central Office Monitor, that she was
forbidden to enter any classrooms in the Spring of 2010. (b)            (6),
                                                                    (b) (7)(C)
                                                                               recalled an incident with
the OSSE monitor during this test period in which it was reported to him that the OSSE
monitor entered the classroom and stood at the front of the class with his arms crossed for
approximately 15 minutes, causing “extreme stress” for the teacher, proctor, and students.
(b) (6),
(b) (7)(C)
           recalled reporting this disruptive incident to OSSE superiors; however, he was
unaware of any outcome from his complaint. (b)           (6),
                                                     (b) (7)(C)
                                                                did not keep a copy of this report,
and was unable to assist the reporting agent with locating a copy of this report.
(b) (6),
(b) (7)(C)
             stated he might have discussed this incident with (b) (C)
                                                                       (6), (b) (7)
                                                                                    later this same date;
however, he denied telling her that she could not enter any classroom, whether the
classroom door was open or closed. (b)         (6),
                                           (b) (7)(C)
                                                      stated that he would have only instructed
(b) (6), (b) (7)
(C)
                  that she was not to do anything     that would be disruptive to the classroom.
(b) (6),
        did not believe that any classrooms failed to have a proctor present during the
(b) (7)(C)
exam period. He stated the only rooms which might not contain a proctor would be the
special education rooms which might have contained only 2-3 students. (b)     (6),
                                                                          (b) (7)(C)
                                                                                        disputed
the accounts of both DCPS Central Office Monitors that as many as half of the testing
classrooms during the Spring 2010 DC CAS failed to have proctors present. (b)          (6),
                                                                                   (b) (7)(C)
stated this would have been reported on the Site Evaluation Report as a major infraction
by NEC, and stated it would have been brought to his attention by the monitors prior to
their departure from the school grounds.
(b) (6), (b) (7)(C)




1 (b)   (6), (b) (7)(C)                                      .


    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                      Office of The Inspector General
                                           Investigations Division

                                            Memorandum of Interview



To:         File
             (b) (6), (b) (7)(C)
From:                               , Special Agent

Date: March 30, 2012

Re:   2011-0318
________________________________________________________________________

Date of Interview:                 March 28, 2012

Time Began: 10:30 am                                                      Time Ended: 11:00 am

Location of Interview:                      J.O. Wilson Elementary School, 660 K Street, NE

Persons Present:                   Special Agent (b) (6), (b) (7)(C)
                                   Special Agent (b) (6), (b) (7)(C)

Person Interviewed: (b) (6), (b) (7)(C)
                                                                       (b) (6), (b) (7)(C)
                                   Work Telephone Number:


________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________

After being advised of the identity of the interviewing agents, and the nature of the
           (b) (6), (b) (7)
interview, (C)              voluntarily provided the following information:
(b) (6), (b) (7)(C)




(b) (6), (b) (7)
(C)
             was questioned about the precipitous drop in DC CAS reading and math
scores from 2010 to 2011. JOW dropped from 77% to 53% in reading, and 68% to 53%
in math. (b)
          (C)
              (6), (b) (7)
                           explained that JOW is one of the higher performing schools in the
DCPS system and thus allows transfer students to attend JOW from other lower
performing schools in DCPS. Currently, 60% of the students at JOW are from out-of-
boundary. A large number of the new students, some of which are special education
                                                                                                                  2


students, tend to struggle their first or second year at JOW. (b)   (C)
                                                                        (6), (b) (7)
                                                                                     stated that 90-
95% of the new transfer students come in “below basic” on the standardized scale. Many
of them do not have the parental support or backing that most of the higher performing
students have. (b)
                 (C)
                     (6), (b) (7)
                                  expects these students to adapt to new educational habits
within their first two years at JOW, and she would expect to see an increase in their
standardized scores in that time period.

JOW also lost their 6th grade class in 2008, when the 6th graders were transferred to
middle school, and the 5th grade class graduated at the same time. Currently, JOW
teaches Pre-K through 5th grade.
(b) (6), (b) (7)
(C)
            stated that the JOW (b)         (6), (b)
                                        (7)(C)
                                                       acts as the DC CAS (b) (6), (b) (7)(C)          . She
                                          (b) (6), (b)                         (b) (6), (b)
could not immediately recall the (7)(C)                ’s name, but stated the (7)(C)          took over the
duties this year, after (b) (6), (b) (7)(C)
                left JOW at the conclusion of the school year in (b)         (C)
                                                                                 (6), (b) (7)
                                                                                              . JOW has a
very small turnover rate in its teaching staff, losing only four instructors in (b) (6), (b) (7)(C)
10+ years at JOW.

DC CAS exam booklets and answer sheets are kept in a locked vault, and the testing
coordinator is the only person with a key to that vault.
(b) (6), (b) (7)
(C)
            recalled that the D.C. Office of the State Superintendent (OSSE) sent over at
least one monitor during the DC CAS exams for the previous two school years, as well as
a monitor from the DCPS central office. (b)(C)
                                               (6), (b) (7)
                                                              does not believe that teachers shut
their classroom doors during the DC CAS, and (b)     (C)
                                                         (6), (b) (7)
                                                                      confirmed that there is one
proctor assigned to each testing classroom. There are only three testing classrooms, since
the DC CAS is only given to 3rd through 5th graders at JOW, and there is only one
classroom for each grade.

Because of the USA Today newspaper article and the Caveon investigation, (b)                        (C)
                                                                                                        (6), (b) (7)

was inquisitive regarding the high number of erasures in certain classrooms. During the
                                                                                     (b)
DC CAS in 2010 or 2011, (b)      (C)
                                     (6), (b) (7)
                                                   asked the proctor for her (6), grade class to watch
and monitor how much “erasing” the monitor noticed during the                        (b)exam, just to satisfy
(b) (6), (b) (7)                                            (b) (6), (b) (7)         (7)
(C)
                 ’s curiosity. The proctor, whom (C)                         could not
                                                                                     (C)
                                                                                        recall, reported back that
                                                  (b) (6), (b) (7)
the students were “unmerciful,” or as (C)                             clarified, made an abundant amount of
erasures during the DC CAS exam.

JOW currently has 401 students enrolled for the 2011-2012 school year. 127 of these
students are 3-4 years old. (b)
                            (C)
                                (6), (b) (7)
                                             stated that JOW never has less than 50 special
education students, with 25 special education students enrolled in August 2011.
(b) (6), (b) (7)
(C)
          was unaware of any cheating relating to the DC CAS or DC BAS exams at
JOW, or any other school within DCPS.




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                                         Office of The Inspector General
                                              Investigations Division

                                                 Memorandum of Interview



To:            File
               (b) (6), (b) (7)(C)
From:                                  , Special Agent

Date: July 26, 2012

Re:   2011-0318
________________________________________________________________________

Date of Interview:                   July 25, 2012

Time Began: 3:15 pm                                                         Time Ended: 3:45 pm

Location of Interview:                          D.C. Public Schools Central Office
                                                1200 1st Street, NE, Washington, DC

Persons Present:                     Special Agent (b) (6), (b) (7)(C)       , DC-OIG


Person Interviewed: (b) (6), (b) (7)(C)                                           , DCPS
                                     (b) (6), (b) (7)(C)
                                                                                           , DCPS
                                                            (b) (6), (b) (7)(C)
                                     Office Telephone:



________________________________________________________________________
                       SUMMARY OF INTERVIEW
________________________________________________________________________

After being apprised of the identity of the interview agent, and the nature of the
           (b) (6), (b)
interview, (7)(C)       and (b)
                            (C)
                                (6), (b) (7)
                                             voluntarily provided the following information:
(b) (6), (b) (7)(C)




(b) (6), (b)
(7)(C)
         had no knowledge of (b) (6), (b) (7)(C) , EDUNEERING Inc, or any reports,
memorandums, documents, or letters, that dealt with the D.C. Office of the State
Superintendent for Education (OSSE) letter, dated November 21, 2008, which was sent to
                                                                                                      2

(b) (6), (b) (7)(C)
                                      , DCPS. The letter for OSSE detailed a high number
of Wrong-to-Right erasures on the 2008 DC CAS exam and abnormal gains in overall
test scores at certain District schools.
(b) (6), (b)
(7)(C)
                was shown a copy
                              of a “Project Brief Sheet” dated January 30, 2009, from
(b) (6), (b) (7)
(C)
                  to (b) (6), (b) (7)(C)                                                    , DCPS, and
                                 (b) (6), (b) (7)(C)            (b) (6), (b) (7)(C)
a copy of a memorandum from                                 to
        , DCPS, dated February 23, 2009. (b)           (6), (b)
                                                   (7)(C)
                                                                   stated that he has never seen, nor
heard of anything related to these two documents.
(b) (6), (b)
(7)(C)
         will perform a second check of his office files and computer to determine if he
has anything related to this time period since he has possession of all of (b) (6), (b) (7)(C) ’s
DCPS records.
(b) (6), (b) (7)
(C)
                    also did not have any knowledge of the two above referenced documents.
(b) (6), (b) (7)
(C)
                    vaguely recalled the name EDUNEERING, Inc, but did not specifically
          (b) (6), (b) (7)
recall (C)                 . (b)
                             (C)
                                 (6), (b) (7)
                                              was not present in any meeting in which the OSSE letter
was discussed, nor was he aware of any investigation into the 2008 DC CAS exams.
           (b) (6), (b) (7)
Although (C)                filled in for (b) (6), (b) (7)(C) on an occasional management meeting
when (b) (6), (b) (7)(C) was out of the office, (b)  (C)
                                                         (6), (b) (7)
                                                                      was not present during any
discussions regarding the OSSE letter, EDUNEERING, or any investigation into DC
CAS test scores by senior staff at DCPS.
(b) (6), (b) (7)
(C)
                    will contact (b) (6), (b) (7)(C)                                , to determine
the status of OIG’s outstanding request for information related to a former principal at
(b) (6), (b) (7)(C)
                               who might have been involved in a testing incident in 2008 or
2009.

(Attachments)




    This document contains neither recommendations nor conclusions of the Office of the
 Inspector General (OIG). It is the property of the OIG and is loaned to your agency; it
              and its contents are not to be distributed outside your agency.
                  UNITED STATES DEPARTMENT OF EDUCATION
                                      OFFICE OF INSPECTOR GENERAL
                                         INVESTIGATION SERVICES




DATE INTERVIEWED:                                August 30, 2011
PERSON INTERVIEWED:                              (b) (6), (b) (7)(C)
INTERVIEWED BY:                                  (b) (6), (b) (7)(C)          Special Agent, U.S. Department of
                                                 Education, Office of Inspector General


LOCATION:                                        Telephonic
                                                 (b) (6), (b) (7)(C)




REFERENCE:                                       Noyes Elementary
CASE NUMBER:                                     11-000491

On August 30, 2011, (b) (6), (b) (7)(C)                                    , Noyes Elementary School,
Washington, DC, was interviewed regarding allegations of cheating on the District of Columbia
                                                                (b) (6), (b) (7)(C)
Comprehensive Assessment System (DC CAS) test.                                      was advised of the reporting
                   (b) (6), (b) (7)(C)
agent’s identitiy,                     stated the following in substance:

(b) (6), (b) (7)(C)




In March 2010,                  (b) (6), (b) (7)(C) (b) (6), (b) (7)(C) (b) (6), (b) (7)(C)
                     (b) (6), (b) (7)(C)

                   . During this month, the teachers involved with grades that took the DC CAS
                                                                          (b) (6), (b) (7)(C)
exam would have daily meetings regarding the tests, and                                       attended these meetings.
(b) (6), (b) (7)(C)                                                                           , NE, organized these
meetings and gave directions involving how to seat students during the DC CAS. (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C) , were also present at some of these meetings where the seating chart was
addressed. It was discussed in these meetings whether a student was likely to score in the range
                                                               (b) (6), (b) (7)(C)
    Date Prepared: September 28, 2011                       S/A                                    Case No: 11-000491
This report is the property of the Office of Investigation Services and is loaned to your agency; it and its contents may not be
reproduced without written permission. The report is FOR OFFICIAL USE ONLY and its disclosure to unauthorized
persons is prohibited. Public availability to be determined by 5 U.S.C. 552.

OIG-301 (11/06)                                                                                             Page 1 of 4
Person Interviewed: (b)        (6), (b) (7)(C)                                                                   Case No: 11-000491



of below basic, basic, proficient, or advanced on the DC CAS. These predictions were based on
                                                          (b) (6), (b) (7)(C)
the DC BAS exams. The teachers were then directed by                          to come up with a seating
chart for their classroom. The seating charts consisted of grouping the students together based
on their expected performance on the DC CAS. The usual layout of the classrooms had the
doorways located towards the front of the room. The doorways also had a window which looked
into the hallway.

The students seated closest to the window were predicted to score in the below basic range on
the DC CAS, those seated in the middle of the classroom were predicted to score in the proficient
and/or advanced range, and those seated in the back of the classroom were predicted to score in
the basic range. Prior to the DC CAS, the teachers were required to give their seating charts to
(b) (6), (b)                                                             (b) (6), (b) (7)(C)
(7)(C)
             with the predicted performance range/level of the students.                     stated nobody
questioned the seating arrangements during any of the meetings.
                                                       (b) (6), (b) (7)(C)               (b) (6), (b) (7)(C)
While going over the seating chart,          informed              the students predicted to be in
the basic range on the DC CAS mattered. These students were on the “bubble” and they needed
to get them to the proficient level. That was the reason the basic kids were seated in the back of
the room and seating charts were submitted, so teachers could give the basic students the correct
answers.
                                                                                                                               (b) (6), (b) (7)(C)
The week prior to the DC CAS (unknown day), (b) (6), (b) (7)(C) were in
                           (b) (6), (b) (7)(C)                   (b) (6), (b) (7)(C)         (b) (6), (b) (7)(C)
classroom when                                 entered the room.                      gave                       a copy of the 2010 DC CAS
                                                                                                                            (b) (6), (b) (7)(C)
and told them to make copies if they needed to and to do what you need to do.                                                                   stated
                                                                    (b) (6), (b) (7)(C)      (b) (6), (b) (7)(C)
he needed the test back by the end of the day.                                          told                        they could use the test to
make similar practice test questions for the students. (b) (6), (b) (7)(C) looked through the
test booklet and found approximately eight to ten questions they believed the students would
have difficulty answering correctly. (b) (6), (b) (7)(C) then changed the numbers and
names in the questions and created eight to twelve similar questions, but they did not copy the
      (b) (6), (b) (7)(C)
test.                      believed other teachers were provided with the test too, but he did not provide
specific examples. These teachers included: (b) (6), (b) (7)(C)
                    (b) (6), (b) (7)(C)
                .                           believed most teachers copied the test, but he did not elaborate on this
subject.
(b) (6), (b) (7)(C)
            did not recall any discussions related to the Together Everyone Achieves More
                                                           (b) (6), (b) (7)(C)
(TEAM) awards, and he did not receive a TEAM award.                            believed it was implied at
NE that if you did not increase student scores on the DC CAS, you might be terminated

(b) (6), (b) (7)(C)                                                     before the DC CAS was to be
administered. The first day of the DC CAS test was (b) (6), (b) (7)(C)first day in the classroom
                                                                                           (b) (6), (b) (7)(C)
                                                                                       (b) (6), (b) (7)(C)
without another teacher, and (b) (6), (b) (7)(C) was the           assigned to assist                      with
the administration of the DC CAS. The students were arranged according to the seating chart.
Once the DC CAS began, (b) (6), (b) (7)(C) walked around the room and looked at
proficient and advanced students’ tests to make sure they were testing at their appropriate levels.
They would then focus on the “bubble” students and look over the student’s shoulders and point
                                                                   (b) (6), (b) (7)(C)
     Date Prepared: September 28, 2011                     S/A                                                   Case No: 11-000491

This report is the property of the Office of Investigation Services and is loaned to your agency; it and its contents may not be
reproduced without written permission. The report is FOR OFFICIAL USE ONLY and its disclosure to unauthorized
persons is prohibited. Public availability to be determined by 5 U.S.C. 552.

OIG-301 (11/06)                                                                                                                    Page 2 of 4
Person Interviewed: (b)        (6), (b) (7)(C)                                                             Case No: 11-000491



to answers that were wrong. The students would then change the answers and the teachers
would continue to point at the question until the student filled-in the correct answer. This was all
                       (b) (6), (b) (7)(C)                                            (b) (6), (b) (7)(C)
nonverbal and                              did not discuss this with                                      prior to administering the test.
(b) (6), (b) (7)(C)                                                                                                             (b) (6), (b) (7)(C)
                    also stated the students did not question what the teachers were doing.
stated that it “seemed” it was just “understood” that was how you tested students at NE. In
                                          (b) (6), (b) (7)(C)

approximately June 2010,                          was promoted to (b) (6), (b) (7)(C)                                      DCPS.
                            (b) (6), (b) (       (b) (6), (b) (7)(C)
In approximately                               ,                        became a (b) (6), (b) (7)(C)                                              at
                                                                (b) (6), (b) (7)(C)
NE, and (b) (6), (b) (7)(C) was appointed                                           at NE. The DC BAS P was administered at the
                                                                        (b) (6), (b) (7)(C)
end of August or beginning of September.                                                      stated nothing happened, that he knew of,
related to cheating on this test.

In approximately November 2010, the BAS A was to be administered. A few days prior to the
                      (b) (6), (b) (7)(C)
day of the test                            provided (b) (6), (b) (7)(C) with a copy of the test and told him he needed it
back by the end of the day. (b) (6), (b) (7)(C) stated he did not look at the test and just gave it back at
                                    (b) (6), (b) (7)(C)   (b) (6), (b) (7)(C)
the end of the day to                                   .                       did not help students on this test as he realized it was
not the proper way to administer a test. There was also no seating chart used on this test. The
fourth grade DC BAS test consisted of a test booklet and an answer sheet, and the teachers were
                                                                                              (b) (6), (b) (7)(C)
not required to turn in the test booklets after the test.                                                         had his students answer on both
                                                                       (b) (6), (b) (7)(C)
the answer sheet and the test booklet.                                                     kept the test booklets and handed in the answer
          (b) (6), (b) (7)(C)
sheets to                     .

At a later date, the test scores were posted online and some students showed significant
                                     (b) (6), (b) (7)(C)
improvement over previous tests.                         compared the answers in the test booklets against
the answers reported online for approximately three to four students. It appeared the answers
sheets showed these students had provided between approximately five and twelve more correct
                                                                  (b) (6), (b) (7)(C)
answers than what they had listed in their test booklets.                             did not believe students
would have such a discrepancy between the booklets and answer keys unless the answers had
                                                                       (b) (6), (b) (7)(C)
been changed after the student had turned in the materials.                                also spoke with another                  (b) (6), (b) (7)(C)
(b) (6), (b) (7)(C)                       about the higher scores on the answer sheets.                       also
stated she had her students write their answers on the answer sheet and in the test booklets.
(b) (6), (b) (7)(C)
        also observed “unusually” higher test score based off the answer sheets compared to the
test booklets.

In approximately December 2010, a test security company conducted interviews at NE.
(b) (6), (b) (7)(C)
                     believed the name of the company was Caveon. Prior to being interviewed,
(b) (6), (b) (7)(C)                          (b) (6), (b) (7)(C)    (b) (6), (b) (7)(C)      (b) (6), (b) (7)(C)
                     spoke with                                  .                      told                      to lie in the interview to save his
               (b) (6), (b) (7)(C)
career.                              assumed this related to helping students on the DC CAS, but he had never                       (b) (6), (b) (7)(C)
                                      (b) (6), (b) (7)(C)     (b) (6), (b) (7)(C)
discussed that with                                       .                          was interviewed by an individual named                     , and
(b) (6), (b) (7)(C)
                     stated he was honest during the interview. The interview consisted of questions
                   (b) (6), (b) (7)(C)                                                              (b) (6), (b) (7)(C)
related to                                providing answers on the test.                                                stated he was truthful when he
answered the questions, but he did not volunteer any other information. After the interview,
(b) (6), (b) (7)(C)           (b) (6), (b) (7)(C)
                     saw                            and she told him she did not want to know what he said in the
interview, but she suggested he should get a lawyer.
                                                                      (b) (6), (b) (7)(C)
         Date Prepared: September 28, 2011                      S/A                                        Case No: 11-000491

This report is the property of the Office of Investigation Services and is loaned to your agency; it and its contents may not be
reproduced without written permission. The report is FOR OFFICIAL USE ONLY and its disclosure to unauthorized
persons is prohibited. Public availability to be determined by 5 U.S.C. 552.

OIG-301 (11/06)                                                                                                                   Page 3 of 4
Person Interviewed: (b)   (6), (b) (7)(C)                                                          Case No: 11-000491


(b) (6), (b) (7)(C)                                                                                   (b) (6), (b) (7)(C)
                   stated nothing else happened related to the interview until                                     .
                                                                                         (b) (6), (b) (7)(C)
Approximately a week prior to the DC CAS being administered                                                  approached
(b) (6), (b) (7)(C) (b) (6), (b) (7)(C)         (b) (6), (b) (7)(C)
                                        advised                     he would not be allowed in a classroom with any DC
CAS test.
                        (b) (6), (b) (7)(C)              (b) (6), (b) (7)(C)
On May 27, 2011,                              met with                             and terminated him for academic dishonesty.


(b) (6), (b) (7)(C)




                                                             (b) (6), (b) (7)(C)
     Date Prepared: September 28, 2011               S/A                                           Case No: 11-000491

This report is the property of the Office of Investigation Services and is loaned to your agency; it and its contents may not be
reproduced without written permission. The report is FOR OFFICIAL USE ONLY and its disclosure to unauthorized
persons is prohibited. Public availability to be determined by 5 U.S.C. 552.

OIG-301 (11/06)                                                                                                             Page 4 of 4
                           UNITED STATES DEPARTMENT OF EDUCATION
                                  OFFICE OF INSPECTOR GENERAL
                                     INVESTIGATION SERVICES




DATE INTERVIEWED:                                August 31, 2011
PERSON INTERVIEWED:                              (b) (6), (b) (7)(C)                      , (b) (6), (b) (7)(C)
                                                 Department of Elementary and Secondary Education
INTERVIEWED BY:                                  (b) (6), (b) (7)(C)                      , Special Agents, U.S.
                                                 Department of Education, Office of Inspector General
LOCATION:                                        (b) (6), (b) (7)(C)
                                                 (b) (6), (b) (7)(C)
REFERENCE:                                       Noyes Elementary
CASE NUMBER:                                     11-000491

On August 31, 2011, (b) (6), (b) (7)(C)                                              Office of
State Superintendent of Education (OSSE), District of Columbia, was interviewed regarding
allegations of cheating on the District of Columbia Comprehensive Assessment System test (DC
         (b) (6), (b) (7)(C)

CAS).        was accompanied by (b) (6), (b) (7)(C)                                       ,
                                                                                         (b) (6), (b) (7)(C)

(b) (6), (b) (7)(C)                                                    was advised of the
reporting agents’ identities.     stated the following in substance:

(b) (6), (b) (7)(C)




(b) (6), (b) (7)(C)
                    In fall 2008, OSSE staff observed some of the DCPS had a “high” increase in
test scores on their spring 2008 DC CAS. The OSSE staff was concerned due to the fact there
had not been a recent dynamic leadership change in the DC school system. During that time,
OSSE asked questions related to how the DC CAS was administered. OSSE also asked McGraw
Hill/CTB (CTB), the manufacturer of the DC CAS test, to conduct an erasure analysis. The DC
CAS erasure analysis showed “many” schools were outside of the statistical norm for wrong to
right erasures.
                                                               (b) (6), (b) (7)(C)
    Date Prepared: September 1, 2011                        S/A                                    Case No: 11-000491
This report is the property of the Office of Investigation Services and is loaned to your agency; it and its contents may not be
reproduced without written permission. The report is FOR OFFICIAL USE ONLY and its disclosure to unauthorized
persons is prohibited. Public availability to be determined by 5 U.S.C. 552.

OIG-301 (11/06)                                                                                                Page 1 of 2
Person Interviewed: (b) (6), (b) (7)(C)                                                                              Case No: 11-000491


                                          (b) (6), (b) (7)(C)

In approximately October 2008,       contacted (b) (6), (b) (7)(C)       DCPS, regarding the
                                                                 (b) (6), (b) (7)(C)   (b) (6), (b) (7)(C)

large amount of wrong to right erasures.     informed       the OSSE was going to ask for an
investigation. There was no response from the Chancellor’s Office. A follow-up contact by the
OSSE to the Chancellor’s Office also yielded no response.

In November 2008, a letter was sent to the DCPS Chancellor’s Office asking for a response
regarding the erasure analysis. The Chancellor’s Office asked questions regarding how the
wrong to right erasures were statistically tabulated and then asked for the analysis to be tabulated
in a different statistical manner. In approximately January 2009, the Chancellor’s Office sent an                             (b) (6), (b) (7)(C)

official letter asking for an extension on their response, which the OSSE granted.        stated it
“appeared” the Chancellor’s Office was “stalling” and may have wanted to find a way to show
the data process used to determine the high number of wrong to right erasures was inaccurate.
(b) (6), (b) (7)(C)                   were staff members at OSSE that conducted some of the
conversations with the Chancellor’s Office. (b) (6), (b) (7)(C)
                                                  .


(b) (6), (b) (7)(C)




                                                                (b) (6), (b) (7)(C)
    Date Prepared: September 1, 2011                    S/A                                                  Case No: 11-000491

This report is the property of the Office of Investigation Services and is loaned to your agency; it and its contents may not be
reproduced without written permission. The report is FOR OFFICIAL USE ONLY and its disclosure to unauthorized
persons is prohibited. Public availability to be determined by 5 U.S.C. 552.

OIG-301 (11/06)                                                                                                               Page 2 of 2
TEST CHAIRPERSON’S
MANUAL
DISTRICT OF COLUMBIA
Comprehensive Assessment System




Reading and
Mathematics,
Composition,
Science, and Biology
2008



                             20369
 ✓
 EVENT
                       Important Testing Events

                                                                                      DATE
 Test Administration
 Training Sessions (CTB-led) .................................................... March 2008

 Receipt of Test Chairperson’s Materials ................................. March 14, 2008

 Receipt of Secure Test Materials ............................................. by April 10, 2008

 Short/Add Window.................................................................. April 11 through April 18, 2008

 Chairperson Conducts Teacher Training Sessions
 (in schools)................................................................................ Prior to test administration

 Test Dates for Grades 3–8 and 10
 (includes Makeup Testing)....................................................... Tuesday, April 22, through Friday, May 2, 2008

 Deadline to Register for Online Retrieval of
 Test Materials at www.ctb.com .............................................. May 2, 2008

 Ship (Return) All Scorable and Nonscorable
 Materials to CTB ...................................................................... by May 8, 2008

 Last Day for CTB to Receive Test Materials
 for Scoring ................................................................................ May 14, 2008




 Note: Special permission to begin testing special education or ELL students with level 3 or level 4
 accommodations must be obtained from the OSSE Division of Assessment and Data Reporting prior to
 April 10, 2008.


                      Important Telephone Numbers
                      for Shortages, Errors, and General
                      Information
District of Columbia                                                   For information concerning District of Columbia
Ofﬁce of the State Superintendent                                      statutes, as well as policy and procedures for the District
                                                                       of Columbia Comprehensive Assessment System, contact
of Education (OSSE)                                                    the Ofﬁce of the State Superintendent of Education,
Division of Assessment and                                             Division of Assessment and Data Reporting at
Data Reporting                                                         202-442-5220

CTB DC CAS Customer Service Contact Numbers:
DC Only Toll Free: 800-994-8579
Customer Service Fax: 866-282-2251
Hours of Business: 8:30 A.M.–5:00 P.M. (EST)
E-mail to: DC-CAS_helpdesk@ctb.com
Developed and published under contract with the District of Columbia Public Schools by CTB/McGraw-Hill LLC, a subsidiary of The McGraw-Hill Companies,
Inc., 20 Ryan Ranch Road, Monterey, California 93940-5703. Copyright © 2008 by the District of Columbia Public Schools. Only District of Columbia
educators and citizens may copy, download and/or print the document, located online at http://www.ctb.com/dc-cas. Any other use or reproduction
of this document, in whole or in part, requires written permission of the District of Columbia Public Schools and the publisher.
Dear Test Chairperson,

Thank you for agreeing to serve as the Test Chairperson for your school. This is an important function,
not only for your school, but for the entire school system, as we seek to improve the instructional program here
in the District of Columbia.

This manual is designed to assist you in preparing for and conducting the upcoming testing program in
your school. Please read it carefully and follow the procedures described. Doing so will ensure that the test
administration is conducted under optimal conditions and that students are given an opportunity to do their best.

We hope that the manual will also assist you in providing in-service training to your school faculty. Feel free to
duplicate salient portions for handouts or overheads. Meanwhile, we need to remind ourselves of why we test
students:

The information gained through testing is used by
• teachers to develop lesson plans that support effective instruction for all students
• schools and districts to evaluate whether the goals of the content standards are being met
• parents to monitor children’s educational progress

Schools in the District of Columbia will administer the District of Columbia Comprehensive Assessment System
(DC CAS) to students in grades 3 through 8 and 10 in Spring 2008. The results of the test will provide useful
information about instructional strengths and weaknesses relative to the District of Columbia content standards.

The Comprehensive Assessment System combines selected-response items with constructed-response items that
allow students to produce their own responses. The content areas consist of Reading, Mathematics, Composition,
and Science.

Students with disabilities who have a state assessment level of 5 (IEP or 540 Accommodations Plans that
speciﬁcally state that this test is inappropriate because students cannot take the test without modiﬁcations
or accommodations other than those listed) are not required to participate in this test. However, they must
participate in the DC CAS alternate assessment (Portfolio).

This Test Chairperson’s Manual has been designed to help the Chairperson organize and oversee test
administrative procedures for Reading, Mathematics, Composition, Science, and Biology. A series of easy-to-follow
steps provides guidelines for receiving and checking testing materials, scheduling testing times, overseeing the
administration, and returning the materials to CTB/McGraw-Hill.

As you read through this manual and prepare for the test administration, should any questions arise, please
contact CTB/McGraw-Hill’s Customer Service Center at 800-994-8579 or the OSSE Division of Assessment and
Data Reporting, DCPS, at 202-442-5220.

Thank you for your expertise and commitment.

Ofﬁce of the State Superintendent of Education
Division of Assessment and Data Reporting
CTB/McGraw-Hill
                                                           Contents
Letter to Chairperson
Section 1 General Information
           Testing Steps ..............................................................................................................................1
           Important Dates and Times
              Administrative Date..............................................................................................................2
              Testing Dates .........................................................................................................................2
              Approximate Testing Times ..................................................................................................2
           Overview of Assessment Materials ..........................................................................................6
Section 2 Security Procedures
           Secure Materials ........................................................................................................................9
           School Security Checklist ..........................................................................................................9
           Security Guidelines..................................................................................................................10
           Security During Testing ...........................................................................................................11
Section 3 Before Testing—Instructions for Test Chairpersons
           Step 1—Receive Test Materials ...............................................................................................12
           Step 2—Inventory Test Materials ...........................................................................................12
           Step 3—Schedule the Test ......................................................................................................13
           Step 4—Notify Students and Parents of Testing ...................................................................13
           Step 5—Conduct Training Sessions for Test Administrators and Proctors
              Test Administrators .............................................................................................................13
              Proctors ...............................................................................................................................16
           Step 6—Distribute Test Materials ...........................................................................................17
           Step 7—Fulﬁll School Materials Requests..............................................................................18
           Step 8—Using the Precoded Student Label and
                    Completing the Student-Identifying Information ..................................................18
Section 4 During Testing—Instructions for Test Chairpersons .............................................................23
Section 5 After Testing—Instructions for Test Chairpersons
           Step 1—Receiving and Checking Test Materials....................................................................24
           Step 2—Organizing and Preparing Test Materials ................................................................26
           Step 3—Preparing Test Materials for Shipment ....................................................................28
           Step 4—Shipping Test Materials ............................................................................................29
Appendix A.1: Special Education Test Accommodation Levels..............................................................31
Appendix A.2: Accommodations for Linguistically and Culturally Diverse (LCD) Students ................33
Appendix B: Test Site Observation Report ..............................................................................................34
Appendix C: Comment Fax Form .............................................................................................................39
Appendix D: Short/Add Fax Form—Reading and Math .........................................................................41
Appendix E: Short/Add Fax Form—Composition ...................................................................................43
Appendix F: Short/Add Fax Form—Science.............................................................................................45
Appendix G: Local School Responsibilities In Implementing The State Assessment Programs ..........47
Appendix H: Conﬁdentiality Agreement .................................................................................................51
                  General Information

                  TESTING STEPS




 1      REVIEW MANUAL


      2      COMPLETE
             SECURITY PROCEDURES
             and PAPERWORK


           3      INVENTORY MATERIALS


               4       SCHEDULE THE TEST


                    5       NOTIFY STUDENTS AND
                            PARENTS OF TESTING


                         6       CONDUCT TRAINING


                                 7   DISTRIBUTE TEST
                                     MATERIALS


                                     8   MAINTAIN SECURITY
                                         DURING TESTING


                                         9   CHECK-IN MATERIALS


                                             10    SHIP MATERIALS



2008 Test Chairperson’s Manual                District of Columbia Comprehensive Assessment System 1
IMPORTANT DATES AND TIMES

Administrative Date
If you need additional test materials, you may order them during the short/add window from April 11– April 18, 2008.
To access the system for test materials adjustments, go to www.ctb.com and enter the User ID and Password that you
received from CTB in a separate mailing. To obtain detailed instructions, you may access the Test Materials Adjustments
User Guide posted to the DC CAS website at www.ctb.com/dc-cas. If you have any additional questions, contact the CTB
DCPS Customer Service line at 1-800-994-8579.

Note: Any shipment of materials after the Ship (Return) All Scorable and Nonscorable Materials to CTB date (see Important
Testing Events page) that causes CTB to pay for shipping, other than ground, will incur additional charges.


Testing Dates
Testing dates have already been determined by the District of Columbia Ofﬁce of the State Superintendent of Education.
The testing dates are as follows:

        Grades 3–8 and 10
        (includes Makeup Testing)          Tuesday, April 22, through Friday, May 2, 2008

Testing of all content areas—Reading and Mathematics, Composition, Science, and Biology—must be
completed during this testing window.


Approximate Testing Times

The times shown in the charts on the following pages indicate an approximate period of time to complete the test.
However, any student who does not ﬁnish the test in the estimated time must be given time in an appropriate setting in
which to complete the test.




2   District of Columbia Comprehensive Assessment System                                 2008 Test Chairperson’s Manual
Reading

The Reading Assessment has four sessions. Each Test Administrator will follow the schedule provided by the Test
Chairperson. The schedule will include testing sessions for students in special populations and makeup sessions.


                          Reading—All Grades

                           Subtest                             Approximate Testing Time

                          Testing Session 1
                          Reading                                               40 minutes


                          Testing Session 2
                          Reading                                               50 minutes


                          Testing Session 3
                          Reading                                               40 minutes


                          Testing Session 4
                          Reading                                               40 minutes


                         Times shown refer to the actual administration of items.
                         Allow for an additional 15 minutes for completing student biographical
                         information, administering the sample questions, and reading directions.


Mathematics
The Mathematics Assessment has four sessions. Each Test Administrator will follow the schedule provided by the Test
Chairperson. The schedule will include testing sessions for students in special populations and makeup sessions.


                           Mathematics—Grades 3 through 6

                           Subtest                             Approximate Testing Time

                           Testing Session 1
                           Mathematics                                          40 minutes


                          Testing Session 2
                          Mathematics                                           40 minutes


                          Testing Session 3
                          Mathematics                                           40 minutes


                          Testing Session 4
                          Mathematics                                           40 minutes




2008 Test Chairperson’s Manual                          District of Columbia Comprehensive Assessment System 3
                           Mathematics—Grades 7, 8, and 10

                           Subtest                             Approximate Testing Time

                           Testing Session 1
                           Mathematics                                *Part A – 25 minutes
                                                                       Part B – 25 minutes
                                                                   Total time = 50 minutes
                          Testing Session 2
                          Mathematics                                            40 minutes


                          Testing Session 3
                          Mathematics                                 *Part A – 25 minutes
                                                                       Part B – 25 minutes
                                                                   Total time = 50 minutes
                          Testing Session 4
                          Mathematics                                            40 minutes



                          Times shown refer to the approximate administration of items.
                          An additional 5 to 10 minutes will be required for administering the
                          sample items and reading introductions and directions.
                          *For grades 7, 8, and 10, for Part A ONLY, the use of calculators is
                          permitted. At the end of Part A, instruct students to put their
                          calculators away.


Composition
The Composition Assessment has two sessions. Each Test Administrator will follow the schedule provided by the Test
Chairperson. The schedule will include testing sessions for students in special populations and makeup sessions.


                           Composition—Grades 4, 7, and 10

                           Subtest                             Approximate Testing Time

                           Testing Session 1
                           Composition: Phase 1 Planning/Draft                  60 minutes

                          Testing Session 2
                          Composition: Phase 2 Final Composition                 60 minutes


                         Times shown refer to the recommended time allowed to complete
                         the composition.
                         An additional 5 to 10 minutes will be required for reading
                         introductions and directions.
                         Note that additional time should be granted as needed to
                         students who continue to work on their compositions.




4   District of Columbia Comprehensive Assessment System                               2008 Test Chairperson’s Manual
Science
The Science and Biology Assessments have three sessions. Each Test Administrator will follow the schedule provided by
the Test Chairperson. The schedule will include testing sessions for students in special populations and makeup sessions.


                           Science—Grades 5, 8, and Biology

                           Subtest                              Approximate Testing Time

                           Testing Session 1
                           Science                                               35 minutes

                           Testing Session 2
                           Science                                               35 minutes

                           Testing Session 3
                           Science                                               30 minutes

                          Times shown refer to the actual administration of items.
                          An additional 5 to 10 minutes will be required for administering the
                          sample items and/or reading introductions and directions.




2008 Test Chairperson’s Manual                           District of Columbia Comprehensive Assessment System 5
OVERVIEW OF ASSESSMENT MATERIALS
The following assessment materials are provided at grades 3–8 and 10:

    Grade 3
         Test book—grade 3*

                 One for each student and one for the Test Administrator

         Test Directions—one book for grade 3

         Punch-out tool*—ruler (yellow/purple with inches and half-inch markings on one side and centimeters on
         other side, commodity code 53493)

    Grades 4–8 and 10
         Test Directions—one book for grades 4–8 and 10, all content areas included

         Note: The test book and answer booklet for each grade are printed in the same color. Colors vary by grade
         level. For Reading and Mathematics and for Science and Biology, there are two versions of the test for each
         grade—Form 1 and Form 2. Teachers should check that students in grades 4–8 and 10 are using the correct test
         book and answer booklet combination. Dark and light shading will be used to distinguish Form 1 from Form 2.

    Grade 4
         Reading and Mathematics Test Book*

                 One for each student and one for the Test Administrator

         Reading and Mathematics Answer Booklet*

                 One for each student and one for the Test Administrator

         Punch out tool*—ruler (yellow/purple with inches and half-inch markings on one side and centimeters on other
                 side, commodity code 53493)

         Composition Test Book*

                 One for each student and one for the Test Administrator

         Planning and Draft paper

                 Two pages for each student

    Grade 5
         Reading and Mathematics Test Book*

                 One for each student and one for the Test Administrator

                 Note: No punch out tool is needed for this grade.

         Reading and Mathematics Answer Booklet*

                 One for each student and one for the Test Administrator




6    District of Columbia Comprehensive Assessment System                              2008 Test Chairperson’s Manual
       Science Test Book*

               One for each student and one for the Test Administrator

       Science Answer Booklet*

               One for each student and one for the Test Administrator

 Grade 6
       Reading and Mathematics Test Book*

               One for each student and one for the Test Administrator

       Reading and Mathematics Answer Booklet*

               One for each student and one for the Test Administrator

       Punch out tool*—ruler (orange fading into yellow with 1/8th-inch markings on the orange side and centimeter
               with millimeter markings on the other side, commodity code 53494)

 Grade 7
       Reading and Mathematics Test Book*

               One for each student and one for the Test Administrator

       Reading and Mathematics Answer Booklet*

               One for each student and one for the Test Administrator

       Punch out tool*—ruler (orange fading into yellow with 1/8th-inch markings on the orange side and centimeter
               with millimeter markings on the other side, commodity code 53494)

               Note: Students in this grade will be allowed to use calculators in Part A of Sessions 1 and 3 of the
               Mathematics test.

       Composition Test Book*

               One for each student and one for the Test Administrator

       Planning and Draft paper

               Two pages for each student

 Grade 8
       Reading and Mathematics Test Book*

               One for each student and one for the Test Administrator

       Reading and Mathematics Answer Booklet*

               One for each student and one for the Test Administrator




2008 Test Chairperson’s Manual                         District of Columbia Comprehensive Assessment System 7
           Punch out tool*—ruler (orange fading into yellow with 1/8th-inch markings on the orange side and centimeter
                      with millimeter markings on the other side, commodity code 53494)

                      Note: Students in this grade will be allowed to use calculators in Part A of Sessions 1 and 3 of the
                      Mathematics test.

           Science Test Book*

                      One for each student and one for the Test Administrator

           Science Answer Booklet*

                      One for each student and one for the Test Administrator

    Grade 10
           Reading and Mathematics Test Book*

                      One for each student and one for the Test Administrator

           Reading and Mathematics Answer Booklet*

                      One for each student and one for the Test Administrator

           Punch out tool*—ruler (orange fading into yellow with 1/8th-inch markings on the orange side and centimeter
                      with millimeter markings on the other side, commodity code 53494)

                      Note: Students in this grade will be allowed to use calculators in Part A of Sessions 1 and 3 of the
                      Mathematics test.

           Composition Test Book*

                      One for each student and one for the Test Administrator

           Planning and Draft paper

                      Two pages for each student

    Students Enrolled in a Biology Course
           Biology Test Book*

                      One for each student and one for the Test Administrator

           Biology Answer Booklet*

                      One for each student and one for the Test Administrator
     * Test Books and punch-out tools are available in large-print and Braille editions at designated grade levels for those students with special needs.
       Answer Booklets are available in large-print editions only. Composition test books are available in Braille editions only.




8     District of Columbia Comprehensive Assessment System                                                     2008 Test Chairperson’s Manual
                     Security Procedures
                     As Test Chairperson, you will need to work closely with the principal to ensure the security of the
                     Comprehensive Assessment System. To prevent the loss or copying of any test book, test items, or
                     completed answer booklet, you will need to establish strict security guidelines within your school,
                     and keep a detailed inventory of all test books before, during, and after test administration until the
                     time they are returned to CTB.

                     If after reading these instructions, you have any questions about the materials or the instructions on
                     how to inventory the materials, please call 800-994-8579, between 8:30 A.M. and 5:00 P.M. Eastern
                     Standard Time.

SECURE MATERIALS
Each school must develop an organized test material distribution process so that all secure test materials, used and
unused, are accounted for and returned to CTB. Under no circumstances should anyone destroy or throw away any test
book or any answer booklet including invalidated or damaged test books or answer booklets. All test books must be
returned to CTB.*

All test books are secure materials and must be kept in locked storage when not in use. Secure test books have been
assigned a security number. These security numbers correspond to the numbers listed on the School Packing List. If
the numbers do not correspond, call the OSSE Division of Assessment and Data Reporting at 202-442-5220 and CTB
DC CAS Customer Service at 800-994-8579.


SCHOOL SECURITY CHECKLIST
The Test Chairperson must complete a School Security Checklist for each Test Administrator receiving test materials.
The Chairperson must write the quantity for bar-coded materials signed out and in with the Test Administrators. The
Chairperson and the Test Administrator must initial the materials out and in each day.




* Unused answer booklets will not be returned to CTB.



2008 Test Chairperson’s Manual                            District of Columbia Comprehensive Assessment System 9
SECURITY GUIDELINES
Leaving secure test materials unattended any time they are not in locked storage is a violation of test
security.

•    Test books are secure. The principal must ensure that the books are kept in a secure central location in the school,
     except during testing.

•    Test books must be distributed to teachers for their exact count of students on the morning of testing and returned
     to the Chairperson immediately after testing.

•    Test books signed out to teachers and not being distributed to students should be temporarily stored in the room in
     a location inaccessible to students until the end of the testing session.

•    The use of cells phones and PDAs is strictly forbidden during the testing session. Cell phones and PDAs must be
     turned off and put away.

•    No calculators are to be used for calculating answers to questions other than as speciﬁed for grades 7, 8, and 10, or
     as required by a student’s IEP or 504 plan.

•    Test materials should be distributed to and collected from each student individually.

•    Only materials that are speciﬁcally listed for use in the Test Directions are allowed. Room displays related to test
     content (e.g., math or science facts and literary deﬁnitions) should be covered or removed.

•    Student responses must not be interfered with in any way, including making statements to students regarding
     accuracy of responses; reading items; deﬁning words; giving students hints, clues, or cues; or altering or editing
     student responses. Those administering the test are encouraged to walk around the room during testing and should
     check to see that students are marking their responses correctly.

•    Do not hand-score student responses.

•    After testing, access to secure materials is restricted to supervised sessions for completing additional student
     information on the back of the test books or answer booklets. Student responses must not be edited or altered in
     any way.

•    Test items and/or test books may not be copied under any circumstances. Test items or test books must not be used
     for review or practice purposes before or after testing.

•    Discussion of speciﬁc test items with students or staff is prohibited.

•    Any breach of testing security—cheating, loss of material, and/or failure to account for all materials—must be
     reported by the Test Administrator to the Test Chairperson. The principal or his/her designee must relay these reports
     to the Ofﬁce of the State Superintendent of Education, Division of Assessment and Data Reporting.




10   District of Columbia Comprehensive Assessment System                                 2008 Test Chairperson’s Manual
SECURITY DURING TESTING
Be available to respond to questions from Test Administrators and school personnel. If the answer is not available in
this manual or the Test Directions, call the OSSE Division of Assessment and Data Reporting or CTB, using the contact
information provided on the inside front cover of this manual.

• Notify the OSSE Division of Assessment and Data Reporting and CTB if any secure materials are missing.

• Create a school security ﬁle. This ﬁle should contain the following items:

  1. Documentation of any testing disruptions

  2. Copies of the School Security Checklists

  3. Explanations as to why materials were not returned after testing

  You will need this ﬁle

     º in the event that CTB reports secure documents missing from your school

     º if the school or district decides to invalidate a student’s score. If you invalidate a test score, this should be noted
       in writing and attached to the student’s score reports in the student’s permanent ﬁle.

  • Send copies of any documentation relating to potential invalidations of whole classes, schools, or districts to the
     OSSE Division of Assessment and Data Reporting.

  • CTB will maintain a record of serial numbers of all test books shipped to the schools and districts, including overage
     shipments and any additional materials request shipments. When testing is completed, all test books, used and
     unused, must be returned. CTB will use a scanner to account for all test books by serial number and provide a
     record of missing test books to the OSSE Division of Assessment and Data Reporting. If any test books shipped
     to a school or district are determined to be missing, the school principal will be required by the OSSE Division of
     Assessment and Data Reporting to account for the missing materials.

  • The Test Chairperson is expected to maintain test security by using the serial numbers to account for all test books
     before, during, and after test administration until the time they are returned to CTB. The Chairperson must record
     all pertinent information regarding the replacement of missing test books for a school on the School Security
     Checklist.




2008 Test Chairperson’s Manual                           District of Columbia Comprehensive Assessment System 11
                   Before Testing—Instructions for Test Chairpersons
                   PLEASE TAKE THE TIME TO REVIEW AND INVENTORY ALL TEST
                   MATERIALS WHEN THEY ARRIVE AT YOUR SCHOOL.



Step 1        RECEIVE TEST MATERIALS
              • Conﬁrm that you have received the total number of school boxes listed on the shipping invoice. Notify
                 CTB immediately and no later than noon, April 10, 2008, at 800-994-8579 if any boxes are missing, or
                 contain damaged materials, or if you received boxes that should have been delivered to another school.

              • The Test Chairperson should open boxes within 24 hours to allow plenty of time to resolve shortages.

              • Verify the contents of the school overage box(es). Keep all boxes for returning test materials.


Step 2        INVENTORY TEST MATERIALS
              • Check the materials speciﬁed on the School Packing List against materials received.

              • Compare the security numbers on the shrink-wrapped packages of test books with those listed on
                 the School Packing List (example shown below).

              • Check quantities of materials against current enrollment.

              • Report any discrepancies or materials shortages to CTB. Note any discrepancies on the School Packing
                 List.


                                                                   School Packing List




                                                                           E
                           SOUTH CAROLINA STATE ED DEPT                           SHIP TO:
                           TERRANOVA SPRING 2004 ADMIN




                                                                         L
                           GRADES 4, 7, AND 10                                    SCHOOL NUMBER
                                                                                  SCHOOL NAME




                                                                       P
                                                                                  C/O DISTRICT NUMBER
                                                                                  DISTRICT NAME
                           SCHOOL PACKING LIST                                    DISTRICT ADDRESS




                                                    M
                           (PLEASE KEEP A COPY FOR YOUR RECORDS)                  ATTN: TEST COORDINATOR

                                                                                  April 2, 2004




                                                  A
                                                                                               PAGE 1




                                   EX
                                          PACKING LIST # 627684757-1

                                   UNIT                                                      COMMOD     SEQ#     SEQ#
                           QUANT   SIZE   DESCRIPTION OF MATERIALS                           CODE       BEGIN    END      RECEIVED
                           6       15     Grade 4 Student Book                               45257      000101   000190
                           6       15     Grade 7 Student Book                               45258      001001   001090
                           6       1      Grade 10 Student Book                              45259      000011   000016
                           6       1      Grades 4-11 Test Directions                        42537      001101   001106
                           6       1      Grades 4, 7, and 10 Test Coordinator's Manual      42535-04
                           3       30     TN Grades 14-15 Practice Test/Directions           53758
                           3       30     TN Levels 16-18 Practice Test/Direction            53760
                           6       1      Answer Sheet Return Envelopes                      67317
                           3       32     Grades 4-12 Math Manipulative                      53494




12   District of Columbia Comprehensive Assessment System                                                                  2008 Test Chairperson’s Manual
Step 3        SCHEDULE THE TEST
              • Review the Test Chairperson’s Manual and Test Directions in advance.

              • Refer to Pages 3, 4, and 5 for approximate length of each session time. Schedule testing to allow
                sufﬁcient time to complete each test session.

              • Establish a testing plan that shows how the school will accommodate students who need
                additional time.

              • Tests and Makeup Tests must be administered Tuesday, April 22, through Friday, May 2, 2008.

              • Avoid testing just after students have had strenuous physical or mental activity.


Step 4        NOTIFY STUDENTS AND PARENTS OF TESTING
              Students and parents must be notiﬁed when testing will take place and should be informed as to the
              purpose of the test. While undue emphasis on the importance of the test should be avoided so that
              students will not become overly anxious, it is important that students are motivated to do their best in
              order to obtain the best results.


Step 5        CONDUCT TRAINING SESSIONS FOR TEST ADMINSTRATORS AND PROCTORS
              Anyone who will handle test materials must attend a training session prior to the test
              administration.


              Test Administrators
              Test Administrators must be employees of the district. All Test Administrators (including possible
              substitutes) must have received training in the administration of the test in Spring 2008. It is
              recommended that Test Chairpersons train more certiﬁed employees than are actually necessary for
              administering the test to cover unforeseen absences. Do not allow untrained employees, teachers,
              or substitutes to administer tests. Test Administrators must not administer tests to close
              relatives (e.g., children or grandchildren).



              OUTLINE OF INSTRUCTIONS FOR TEST ADMINISTRATORS

              Prior to testing:

              Review test administration procedures and test materials thoroughly.

              Review school procedures to accommodate students who need additional time.

              Prepare to Schedule Testing

              • Review the scheduling guidelines provided by the Test Chairperson for the administration of the
                different content areas.




2008 Test Chairperson’s Manual                        District of Columbia Comprehensive Assessment System 13
              • Allow sufﬁcient time to complete the student-identifying information. (See the section on using the
                 precoded student labels and completing the student-identifying information.)

              • The Comprehensive Assessment System contains content-area tests for Reading, Mathematics,
                 Composition, Science, and Biology.

              • Avoid testing on days just before or after vacations, important school functions, or holidays.

              • Testing should occur at the beginning of the morning when students are most alert. Do not
                 administer the test immediately after students have been involved in any strenuous physical or
                 mental activity.

              • Schedule testing to allow sufﬁcient time to complete a testing session. See the tables on Pages 3, 4,
                 and 5 for testing times.

              Prepare the Testing Environment

              • Review the Test Site Observation Report.

              • Testing in a familiar classroom setting reduces test anxiety for students and should simplify test
                 security. Students should be tested in classrooms that have good lighting, adequate ventilation, and
                 sufﬁcient space. Schools are strongly encouraged to avoid large group administrations in settings
                 such as the library or the cafeteria.

              • Freedom from interruptions is important to any testing environment. The testing room should be as
                 quiet as possible.

              • Remove charts or reference materials from the walls of the testing room.

              Receive Materials from Test Chairperson

              • Test Administrators must sign out and sign in test materials each day, using the School Security
                 Checklist. Copies of the form are provided in the Test Chairperson’s Packet for each school.

              During testing:
              • In order to ensure that test results for the District of Columbia Comprehensive Assessment System are
                 valid, reliable, and equitable, the test administration must be standardized with the same directions
                 and time limits and similar testing conditions across the District of Columbia. In order to provide
                 standardized test administration, Test Administrators must carefully follow the instructions provided in
                 the Test Directions.

              • Observe timing guidelines.

              • Read oral directions at a moderate, steady pace.

              • Schedule breaks to maintain an unhurried pace and a relaxed atmosphere. Be sensitive to students’
                 fatigue level and attention span, and alter the schedule as necessary.




14   District of Columbia Comprehensive Assessment System                             2008 Test Chairperson’s Manual
              After testing:
              Assemble Materials for Return

              Test Administrators (with help from proctors, if requested) will review all assessment materials for the
              following:

              • to ensure that no foreign materials, such as scratch paper, paper rulers, tape, paper clips, have been
                 left inside test books or answer booklets

              • to identify any damaged materials

              • to mark a test for invalidation, if necessary (see below)

              • to complete accommodation and special education ﬁelds on the bottom half of the student data grid

              Each Test Administrator will organize the scorable materials by class and content area—test books for
              grade 3 or answer booklets for grades 4–8 and 10—and complete a Group Information Sheet for those
              test materials. The materials will be placed in envelopes labeled “For Test Booklets,” accompanied by
              the completed Group Information Sheets placed on the top. These envelopes will be returned to the Test
              Chairperson.

              Test Administrators should also return to the Test Chairperson all unused test books (grade 3) or all test
              books (grades 4–8 and 10), and the Test Directions.

              Test Invalidation

              Tests should be invalidated only in speciﬁc cases. A content-area section should be invalidated if a student
              becomes ill during the content-area section and is not able to complete the test. Tests should also be
              invalidated if there is clear evidence that a student received inappropriate assistance (i.e., cheating).
              Follow the directions below when invalidating a content-area section.

              Grade 3

              Mark the invalid content-area section by 1) ﬁlling in the small diamond that appears on the bottom of
              the ﬁrst page of the content-area section in the test book, and 2) ﬁlling in all the circles of the ﬁrst ﬁve
              multiple-choice questions in that content area.

              Grades 4–8 and 10
              Reading, Mathematics, and Science Only

              To mark a student’s test as invalid: 1) In the student’s answer booklet, ﬁll in the small diamond that
              appears next to the heading for Session 1 of the content-area section to be invalidated. 2) Then ﬁll in all
              the circles of the ﬁrst ﬁve multiple-choice questions in that content-area section.

              Composition (Grades 4, 7, and 10 Only)

              To indicate that a test booklet is invalid, the Test Administrator should ﬁll in the whole row of zeros in
              the ﬁeld titled “Special Use Only” on the back cover.

              Note: Invalidating a section of a content area invalidates the entire content area.




2008 Test Chairperson’s Manual                         District of Columbia Comprehensive Assessment System 15
              OUTLINE OF INSTRUCTIONS FOR PROCTORS
              Proctors
              It is recommended that, in addition to the Test Administrator, one person be present in the classroom
              to serve as a proctor during testing. A proctor can be a teacher’s aide, a parent, or other district/school
              personnel (e.g., music teachers, P.E. teachers, and counselors). Parents must not be proctors in the
              rooms where their children are being tested. Prior to the week of testing, proctors should be notiﬁed
              and informed of their duties.

              The information below shows a list of possible duties for proctors.

              Include in your training session a review of the Test Site Observation Report (see Appendix B).


              Prior to testing:
              1. Assist Test Administrator with completing student-identifying information on the back of test books
                 (grade 3) or answer booklets (grades 4–8 and 10), as necessary.

              2. Punch out mathematics manipulatives (punch-out tools) for the Mathematics content-area section of
                 the assessment.

              During testing:
              1. Check to ensure that students receive a test book (grade 3 and Composition) or a test book and
                 the corresponding answer booklet (grades 4–8 and 10). For the Mathematics content-area section
                 of the assessment, check to ensure that students receive punch-out tools and scratch paper. For the
                 Composition tests (grades 4, 7, and 10), ensure that each student has two sheets of Planning and
                 Draft paper.

              2. Walk around the room quietly and frequently to ensure that students
                 a. receive additional sharpened pencils when needed
                 b. follow instructions
                 c. are working on the appropriate content-area section of the assessment
                 d. mark their responses in the appropriate area of the test books (grade 3 and Composition) or
                   answer booklets (grades 4–8 and 10)
                 e. use only allowable materials
                 f. do not give help to or receive help from other students
                 g. are not using a calculator except on approved sections of the Mathematics test

              3. Refer all students’ questions to the Test Administrator.




16   District of Columbia Comprehensive Assessment System                              2008 Test Chairperson’s Manual
              After testing:
              1. For grades 4–8 and 10, check to make sure students have not left answer booklets inside test books.

              2. For all grades, check test books (grade 3) or answer booklets (grades 4–8 and 10) to make sure there
                are no sticky notes, staples, pins, paper clips, and no tape of any kind on any pages. Remove any of
                these extraneous materials.

              3. For the Mathematics content-area section of the assessment, check to be sure no punch-out tools or
                scratch paper were left inside the test books (grade 3) or answer booklets (grades 4–8 and 10).

              4. For the Composition tests, check to be sure no Planning and Draft pages have been left in the test
                books.

Step 6        DISTRIBUTE TEST MATERIALS
              The Test Chairperson should distribute the test materials on the morning of testing.

              • Test books and answer booklets—See Pages 6, 7, and 8 of this manual for list of assessment materials
                for each grade.

              • Punch-out tools—See Pages 6, 7, and 8 of this manual for punch-out tool needed for each grade.

              • Test Directions—one copy of the test directions for the grades they are administrating (grade 3 or
                grades 4–8 and 10)

              • Group Information Sheets (GISs)—one for each group of students and content area tested

                   grade 3—one GIS for Reading and Mathematics Test Books for each group of students tested

                   grades 4-8 and 10—one GIS for Reading and Mathematics Answer Booklets for each group of
                   students tested

                   grades 4, 7, 10—one GIS for Composition Test Booklets for each group of students tested

                   grades 5, 8, and Biology students—one GIS for Science or Biology Answer Booklets for each group
                   of students tested

              • Envelopes for Reading and Mathematics Test Books (grade 3), Reading, Mathematics, Science, and
                Biology Answer Booklets (grades 4–8 and 10), or Composition Test Booklets (grades 4, 7, and 10)—
                one for each group or class of students tested

              There must be separate Group Information Sheets and envelopes for test books and answer booklets for
              each class or group and content area (see above) to be tested. If you need additional Group Information
              Sheets or envelopes, please call 800-994-8579. Do not photocopy these documents.

              The Test Chairperson must complete a School Security Checklist for each Test Administrator receiving
              test materials. The Chairperson must write the quantity for bar-coded materials signed out and in with
              the Test Administrators. The Chairperson and the Test Administrator must initial the materials out and in
              each day.



2008 Test Chairperson’s Manual                       District of Columbia Comprehensive Assessment System 17
Step 7        FULFILL SCHOOL MATERIALS REQUESTS
              The Test Chairperson should ﬁll requests for additional materials within the school by using the overage
              material received and the School Security Checklist. The Chairperson must complete the School Security
              Checklist by identifying the school name and the Test Administrator receiving the materials. The Test
              Chairperson should write in the quantity of all test materials provided.


Step 8        USING THE PRECODED STUDENT LABEL AND COMPLETING
              THE STUDENT-IDENTIFYING INFORMATION
              Precoded student labels will be distributed by the Test Chairperson. The precoded student label will
              identify the student’s name, student ID number, birth date, ethnicity, gender, and grade. Each student’s
              label must be placed on the front cover of the test book or answer booklet in the space indicated in
              order for scores to be reported correctly.

              If a precoded student label is not provided for a student, or the information on the label is inaccurate,
              the student data grid on the back of the test book or answer booklet must be completed. An overage
              of answer booklets is provided to use for students who do not have a precoded student label or whose
              label shows inaccurate information.

              Check the precoded student label for accuracy:

              •   If the information on the precoded student label is correct, place the label on the front cover of
                  the test book or answer booklet in the space indicated. After testing, refer to Appendix A.1 for
                  instructions on completing special education information for each student.

              •   If a precoded student label has been afﬁxed to the front cover of the test book or answer booklet
                  and some information (not including ELL PROF) on the label is subsequently determined to be
                  inaccurate, the test book or answer booklet can still be used by doing the following: Place two
                  blank labels over the inaccurate label. Then, bubble all information on the student data grid. Blank
                  labels are sent speciﬁcally for this use.




18   District of Columbia Comprehensive Assessment System                                2008 Test Chairperson’s Manual
COMPLETING STUDENT-IDENTIFYING INFORMATION PRIOR TO TEST ADMINISTRATION
Use the instructions in this section to complete the top half of the student data grid on the back of the answer booklets
(or test books for grade 3). This information should be completed prior to the administration of the ﬁrst testing session
of the assessment.


                                                       DISTRICT OF COLUMBIA
                                                COMPREHENSIVE ASSESSMENT SYSTEM 2008
                                                                                                                GRADE X
                                 Student Name

                                 Teacher                                                                                School

                            Last           STUDENT’S NAME                        First                                    M.I.             BIRTH DATE                         ETHNICITY
                                                                                                                                    Month         Day       Year                (mark one)
                                                                                                                                                                         1    Asian/
                                                                                                                                    Jan           0   0     0   0             Paciﬁc Islander
                            A     A    A   A    A     A    A    A   A   A   A     A   A   A   A   A   A     A   A   A       A       Feb           1   1         1        2    Black
                            B     B    B   B    B     B    B    B   B   B   B     B   B   B   B   B   B     B   B   B       B       Mar           2   2         2             (non-Hispanic)
                            C     C    C   C    C     C    C    C   C   C   C     C   C   C   C   C   C     C   C   C       C       Apr           3   3         3        3    Hispanic
                            D     D    D   D    D     D    D    D   D   D   D     D   D   D   D   D   D     D   D   D       D       May               4         4

                            E     E    E   E    E     E    E    E   E   E   E     E   E   E   E   E   E     E   E   E       E       Jun               5         5        4    American Indian/
                            F     F    F   F    F     F    F    F   F   F   F     F   F   F   F   F   F     F   F   F       F       Jul               6         6             Alaska Native
                            G     G    G   G    G     G    G    G   G   G   G     G   G   G   G   G   G     G   G   G      G        Aug               7         7        5    White
                            H     H    H   H    H     H    H    H   H   H   H     H   H   H   H   H   H     H   H   H       H       Sep               8     8   8             (non-Hispanic)
                             I    I    I   I     I    I     I   I   I   I   I     I   I   I   I   I   I     I   I   I       I       Oct               9     9   9

                            J     J    J   J    J     J    J    J   J   J   J     J   J   J   J   J   J     J   J   J       J
                                                                                                                                                                               GENDER
                                                                                                                                    Nov
                            K     K    K   K    K     K    K    K   K   K   K     K   K   K   K   K   K     K   K   K       K       Dec                                       Female             Male
                            L     L    L   L    L     L    L    L   L   L   L     L   L   L   L   L   L     L   L   L       L
                                                                                                                                                   Place precoded STUDENT
                            M     M    M   M    M     M    M    M   M   M   M    M    M   M   M   M   M    M    M   M      M
                                                                                                                                 STUDENT ID NUMBER LABEL on front cover. If a
                            N     N    N   N    N     N    N    N   N   N   N     N   N   N   N   N   N     N   N   N       N                      precoded student label is used,
                            O     O    O   O    O     O    O    O   O   O   O     O   O   O   O   O   O     O   O   O      O                       the following data cannot be
                            P     P    P   P    P     P    P    P   P   P   P     P   P   P   P   P   P     P   P   P       P      0 0 0 0 0 0 0   modiﬁed: student name,
                            Q     Q    Q   Q    Q     Q    Q    Q   Q   Q   Q     Q   Q   Q   Q   Q   Q     Q   Q   Q      Q       1 1 1 1 1 1 1   birth date, ethnicity, gender,
                            R     R    R   R    R     R    R    R   R   R   R     R   R   R   R   R   R     R   R   R       R      2 2 2 2 2 2 2   and student ID number. If any
                            S     S    S   S    S     S    S    S   S   S   S     S   S   S   S   S   S     S   S   S       S      3 3 3 3 3 3 3   of that information is incorrect,
                            T     T    T   T    T     T    T    T   T   T   T     T   T   T   T   T   T     T   T   T       T      4 4 4 4 4 4 4   do not use the precoded
                            U     U    U   U    U     U    U    U   U   U   U     U   U   U   U   U   U     U   U   U       U      5 5 5 5 5 5 5
                                                                                                                                                   STUDENT LABEL. Instead,
                                                                                                                                                   ﬁll in all sections of this page.
                            V     V    V   V    V     V    V    V   V   V   V     V   V   V   V   V   V     V   V   V       V      6 6 6 6 6 6 6
                                                                                                                                                   For further instructions on
                            W     W    W   W    W     W    W    W   W   W   W    W    W   W   W   W   W    W    W   W      W       7 7 7 7 7 7 7
                                                                                                                                                   ﬁlling in information on this
                            X     X    X   X    X     X    X    X   X   X   X     X   X   X   X   X   X     X   X   X       X      8 8 8 8 8 8 8
                                                                                                                                                   page, please refer to the Test
                            Y     Y    Y   Y    Y     Y    Y    Y   Y   Y   Y     Y   Y   Y   Y   Y   Y     Y   Y   Y       Y      9 9 9 9 9 9 9
                                                                                                                                                   Directions or Test Chairperson’s
                            Z     Z    Z   Z    Z     Z    Z    Z   Z   Z   Z     Z   Z   Z   Z   Z   Z     Z   Z   Z       Z                      Manual.

                                                     ENGLISH LANGUAGE LEARNER                                             SPECIAL EDUCATION ASSESSMENT LEVEL
                            PROFICIENCY STATUS                          TEST ACCOMMODATION LEVEL                            1    Level 1     2    Level 2       3   Level 3      4   Level 4
                                                                                      (mark one)
                                       ELL (Levels 1–4)                     1   Level 1           3       Level 3                504 STUDENT
                                                                            2   Level 2           4       Level 4
                                      ELL TEST ACCOMMODATIONS                         (mark all that apply)               SPECIAL EDUCATION / 504
                                                                                                                          TEST ACCOMMODATIONS
                                                          Timing/Scheduling/Setting (Level 2)
                                                                                                                          (mark all that apply)                                      SPECIAL
                                                          Presentation
                                                                                                                                                                                     USE ONLY
                                                          Extended Time                                                          Timing/Scheduling
                                                          Timing/Scheduling/Setting (Level 3)                                    Setting
                                                          Assisted Reading                                                       Presentation                                        0   0   0   0

                                                                                                                                 Response
                                               Homeschooled, not enrolled in public school                                       Equipment




For all students:

On the back of the answer booklets (or test books for grade 3 and Composition), in the top section, print the student’s
name, the teacher’s name, and the name of the school.

For only those students who do not have a precoded student label or whose label shows inaccurate information:

All the following ﬁelds must be completed according to the information on the next page.

   * Student Name                              * Gender
   * Birth Date                                * Student ID Number
   * Ethnicity




2008 Test Chairperson’s Manual                                                                             District of Columbia Comprehensive Assessment System 19
               INSTRUCTIONS FOR COMPLETING STUDENT-IDENTIFYING INFORMATION
                 Turn to the back cover of your answer booklet (or test book for grade 3 and Composition). In
                 the top section, print your name, the teacher’s name, and the name of the school. I have put
                 the teacher name and school name on the board to show you exactly how they should be
                 printed.

                   Pause while students complete the information in the header space.

                   If all students have an answer booklet (or test book for grade 3 and Composition) with a precoded
                   student label afﬁxed on the front cover, proceed to the test administration directions on Page 13 of
                   the Test Directions Manual for Grade 3, and Page 20 of the Test Directions for Grades 4–8 and 10
                   (Reading and Mathematics), Page 44 (Composition), or Page 49 (Science or Biology).

Completing the Student Data Grid with Students

                   If the answer booklets (or test books for grade 3 and Composition) do not have a precoded student
                   label on the front cover—and the student-identifying information on the student data grid has not
                   been completed—proceed with these directions for students to complete the top half of the student
                   data grid.


                 Below the top section, ﬁnd the heading “STUDENT’S NAME.” For “Last,” start at the left and
                 print one letter in each box. Print as many letters of your last name as will ﬁt in the boxes
                 provided. If you do not need all the boxes, leave those boxes blank. Repeat this procedure
                 for “First,” and then print the ﬁrst letter of your middle name under “M.I.” Do not print a
                 nickname or shortened name.

                 Below each box that shows a letter of your name, ﬁll in the appropriate circle for that letter.
                 If you left some boxes blank, ﬁll in the empty circles for those boxes.

                 Are there any questions?

                   Pause to answer any questions and to allow students time to complete this ﬁeld.

                 In the section to the right of your name, ﬁnd the heading “BIRTH DATE.” Under “Month,” ﬁll
                 in the circle that corresponds to the month of your birth date. Then under “Day,” ﬁll in two
                 circles. If you were born on the ﬁrst through the ninth of the month, ﬁll in a circle for zero
                 and then the number that corresponds to the correct day. For “Year,” ﬁll in the two circles
                 that indicate the last two digits of the year you were born.

                   Pause while students complete this ﬁeld.

                 To the right of “BIRTH DATE,” ﬁnd the heading “ETHNICITY.” Fill in the one circle that best
                 identiﬁes your ethnic origins.

                 Are there any questions?

                   Pause to answer any questions and to allow students time to complete this ﬁeld.




20   District of Columbia Comprehensive Assessment System                            2008 Test Chairperson’s Manual
               Below “ETHNICITY,” ﬁnd the heading “GENDER” and ﬁll in the appropriate circle to identify
               your gender.

                  Pause.

               Below “BIRTH DATE,” ﬁnd the heading “STUDENT ID NUMBER.” In the boxes above the
               circles, print the seven-digit number that is your ID number. Then ﬁll in the appropriate circle
               below each number.

                  Pause while students complete this ﬁeld. Then turn to Page 13 of the Test Directions Manual
                  for Grade 3 (Reading and Mathematics), Page 20 of the Test Directions for Grades 4–8 and 10
                  (Reading and Mathematics), Page 44 (Composition), or Page 49 (Science or Biology) for directions to
                  continue the administration.

                 The remaining information ﬁelds on the grid should not be ﬁlled in until after the test
                 administration. See below for ﬁlling in the lower part of the grid after the test.

              COMPLETING ADDITIONAL STUDENT INFORMATION AFTER THE TEST
              The following codes could not be precoded and must be completed for all students.

              ENGLISH LANGUAGE LEARNER

              Complete the appropriate codes in the following ﬁelds for English Language Learners:

              o PROFICIENCY STATUS (Mark only if the student has a proﬁciency status of ELL Level 1, 2, 3, or 4.)

                           ELL (Levels 1–4)


              o TEST ACCOMMODATION LEVEL (mark one)

                   1       Level 1        3   Level 3
                   2       Level 2        4   Level 4


              o ELL TEST ACCOMMODATIONS (mark all that apply)


                           Timing/Scheduling/Setting (Level 2)
                           Presentation
                           Extended Time
                           Timing/Scheduling/Setting (Level 3)
                           Assisted Reading


                       Homeschooled, not enrolled in public school




2008 Test Chairperson’s Manual                          District of Columbia Comprehensive Assessment System 21
              SPECIAL EDUCATION ASSESSMENT LEVEL

              For more information regarding permissible test accommodations for special education accommodation
              levels, see the Appendix at the end of this manual.

              Complete the appropriate code (mark 504 STUDENT if student has a 504 Plan):


                   1     Level 1      2   Level 2    3    Level 3    4    Level 4


                         504 STUDENT


              SPECIAL EDUCATION/504
              TEST ACCOMMODATIONS
              (mark all that apply)

              Please note that Level 4 accommodations for special education students include assisted reading.


                         Timing/Scheduling
                         Setting
                         Presentation
                         Response
                         Equipment


              SPECIAL USE ONLY

              DO NOT MARK. The Special Use Only ﬁeld is to be used by CTB only.




22   District of Columbia Comprehensive Assessment System                           2008 Test Chairperson’s Manual
                  During Testing—Instructions for Test Chairpersons



              During testing, the Test Chairperson should do the following:

              • Sign out and sign in secure materials on a daily basis. You may pre-assign materials to help facilitate
                the process.

              • Be available to answer questions that might arise.

              • Make sure that directions are not read over the Public Address System.

              • Oversee the test administration. Make sure that materials for each test are available and all
                administration procedures are being followed. Make sure that unspeciﬁed supplemental materials are
                not being used.

              • Ensure that all school personnel involved in the test administration adhere to the security guidelines.
                Any breach of test security must be reported.

              • Make sure that the circumstances surrounding signiﬁcant disruptions in normal testing are
                documented and kept on ﬁle in the school ofﬁce (e.g., a student is suspected of cheating). Copies of
                the documentation related to disruptions must be sent to the OSSE Division of Assessment and Data
                Reporting.

              • On each testing day, sign out and sign in all test books and any answer booklets that contain student
                responses. These secure materials must be returned at the end of testing. The test book (grade 3 and
                Composition) or answer booklet (grades 4–8 and 10) of any student who attempted any test must be
                sent in for scoring.

              • If there are missing secure materials (i.e., test materials initially received by the Test Administrator but
                not returned), alert CTB and document this with as many details as are known.




2008 Test Chairperson’s Manual                         District of Columbia Comprehensive Assessment System 23
                  After Testing—Instructions for Test Chairpersons



Step 1        RECEIVING AND CHECKING TEST MATERIALS
              Following test administration, the Test Chairperson should conﬁrm receipt of all materials from each
              Test Administrator. Alert CTB and the OSSE Division of Assessment and Data Reporting if materials are
              missing.


              Review School Security Checklist
              The School Security Checklist for each Test Administrator should be reviewed to ensure that the quantity
              and the beginning and ending serial numbers for bar-coded materials were signed out and signed in
              with the Test Administrators. The Chairperson and the Test Administrator should have initialed the
              materials out and in each day.

              Check Group Information Sheet
              The Group Information Sheet is shown on the next page. Instructions for checking each section for
              completeness and accuracy follow.

              The appropriate Group Information Sheet for all grades is purple. CTB Group Information Sheets
              used for other testing must not be used for the District of Columbia Comprehensive
              Assessment System.

              The Group Information Sheet contains information precoded for a speciﬁc school. Therefore, Group
              Information Sheets may not be exchanged between schools.

              There is a Group Information Sheet for the Reading/Mathematics Answer Booklets, one for Composition
              Test Booklets, one for Science Answer Booklets, and one for the Biology Answer Booklets. Be sure to use
              the correct sheet. The identifying content area information is in small black text in the lower right-hand
              corner of the Group Information Sheet.

              It is essential that a complete and accurate Group Information Sheet be placed on top of each stack of
              Reading/Mathematics Test Books (grade 3), Reading/Mathematics Answer Booklets (grades 4–8 and 10),
              Composition Test Booklets (grades 4, 7, and 10), Science Answer Booklets (grades 5 and 8), or Biology
              Answer Booklets (grades 8–12) for which scores will be reported together.




24   District of Columbia Comprehensive Assessment System                             2008 Test Chairperson’s Manual
                                 1                                   2         3




WHEN YOU CHECK THIS…             LOOK FOR THESE:
 1    Teacher Name               The Test Administrator’s last name should be printed in the boxes, and then the
                                 ﬁrst name or initial if needed. Under each box, the circle with the same letter
                                 should be ﬁlled in.


 2    Number Students Testing    The number of students whose completed test books (grade 3) or completed
                                 answer booklets (grades 4–8 and 10) are being returned under this Group
                                 Information Sheet should be printed in the boxes and the corresponding circles
                                 ﬁlled in. Fill in a circle for each column, using leading zeros if necessary.


 3    Grade                      The circle that shows the grade of the students being tested should be ﬁlled in.




2008 Test Chairperson’s Manual                  District of Columbia Comprehensive Assessment System 25
Step 2        ORGANIZING AND PREPARING TEST MATERIALS

              Complete the School/Group List
              The School/Group List is shown below. One School/Group List needs to be ﬁlled out for Reading/
              Mathematics (R/M), one for Science and Biology, and one for Composition (COMP). Instructions for
              checking each section for completeness and accuracy appear on the next page.




26   District of Columbia Comprehensive Assessment System                          2008 Test Chairperson’s Manual
              The appropriate School/Group List is speciﬁc to the District of Columbia Comprehensive Assessment
              System. Any other CTB School/Group Lists used for testing other students must not be used for the
              District of Columbia Comprehensive Assessment System.

              The School/Group List contains information precoded for a speciﬁc school. Therefore, School/Group Lists
              must not be exchanged between schools.




WHEN YOU CHECK THIS…                      LOOK FOR THIS:
 1    District/Element Name, School        This information should be precoded.



 2    Area or Region, School Number        This information should be precoded.



 3    Contact Person, Phone Number         Please provide the name of a school site contact person, either the Test
                                           Chairperson or another person, and provide the contact person’s phone
                                           number.



 4    Teacher, Grade                       In order of grade, list each group by the name shown on the Group
                                           Information Sheet (GIS) —typically the classroom teacher’s name. Then in
                                           the “Grade” column, list the grade for each teacher.



 5    Number Tested                        For each group, write the number of students tested. This should be the
                                           same as the “Number Students Testing” on the corresponding GIS. This
                                           number should not include non-tested students.




2008 Test Chairperson’s Manual                       District of Columbia Comprehensive Assessment System 27
Step 3        PREPARING TEST MATERIALS FOR SHIPMENT

              New for 2008—Reuse Pink Shipping Cartons
              The pink boxes in which test materials were delivered to you
              are the only boxes permissible for return shipping. Ensure that
              former labels and other markings have been removed or covered.


              Preparing Scorable Test Materials
              • Reading and Mathematics Test Books (Grade 3)
              • Reading and Mathematics Answer Booklets                  SCORABLE

                 (Grades 4–8 and 10)
              • Composition Test Booklets (Grades 4, 7, and 10)
              • Science (Grades 5 and 8) and Biology (Grades                        ADAMS ES
                                                                                                    1 of 2
                 8–12) Answer Booklets

              Stack the envelopes containing completed Group Information Sheets and completed test books or
              answer booklets ﬂat in the cartons. If testing more than one grade, number the envelopes “1 of 4,”
              “2 of 4,” and so on. Example: If grade 3 scorable materials ﬁt in four envelopes and grade 4 scorable
              materials ﬁt in two envelopes, then number them so CTB will know where each grade’s materials begin.
              Place the School/Group List on top of the stacks of envelopes for each associated group of materials.

              Write the School Name on the outside of each “scorable” carton and number the cartons “1 of 2,”
              “2 of 2,” etc.


              Preparing Nonscorable Test Materials
              Although the students in grades 4–8 and 10
              do not mark the Reading and Mathematics,                                                       SOUTH CAROLINA STATE ED DEPT
                                                                                                             TERRANOVA SPRING 2000 ADMIN
                                                                                                             GRADES 5,8,AND 11
                                                                                                                                                                      SHIP TO:

                                                                                                                                                                      SCHOOL NUMBER
                                                                                                                                                                      SCHOOL NAME

                                                                                                                                                                      C/O DISTRICT NUMBER
                                                                                                                                                                      DISTRICT NAME
                                                                                                             SCHOOL PACKING LIST                                      DISTRICT ADDRESS




              Science, and Biology test books with their
                                                                                                             (PLEASE KEEP A COPY FOR YOUR RECORDS)                    ATTN: TEST COORDINATOR

                                                                                                                                                                      MARCH 25, 2000

                                                                                                                                                                                   PAGE 1

                                                                                                                            PACKING LIST # 627684757-1

                                                                                                                     UNIT                                                        COMMOD     SEQ#     SEQ#
                                                                                                             QUANT   SIZE                                                        CODE       BEGIN    END



              responses, the test books remain secure
                                                                                                             6              Grade 5 Student Book                                            000101
                                                                                                             6              Grade 8 Student Book                                            001001

                                                                      NONSCORABLE                            6
                                                                                                             6
                                                                                                             6
                                                                                                                            Grade 11 Student Book
                                                                                                                            Grades 4-11 Test Directions
                                                                                                                            Grades 4-11 Test Administrator's Manual
                                                                                                                                                                                            000011
                                                                                                                                                                                            001101

                                                                                                             3              TN Level 13 Practice Test/Directions
                                                                                                             3              TN Levels 16-18 Practice Test/Direction
                                                                                                             6              Booklet Return Envelopes




              documents and must be returned to CTB. Test
                                                                                                             6              Answer Sheet Return Envelopes
                                                                                                             3              Grade 4-11 Math Manipulative




              Chairpersons should not return Test Directions,
              math manipulatives (punch-out tools), or unused
                                                                                ADAMS ES
              answer booklets to CTB.                                                      1 of 2



              Arrange all unused test books by serial number (this includes any that may have been provided to
              make up for shortages). Use the School Packing List and the School Security Checklist that came with
              your materials to verify that all test books delivered to your school are being returned. Place all unused
              grade 3 test books and all grades 4–8 and 10 unused test books in cartons for returning test materials,
              with the original copy of the School Packing List and the School Security Checklist on top. Retain a
              copy of each for your ﬁles. Write your School Name on the outside of each “nonscorable” carton and
              number the cartons “1 of 3,” “2 of 3,” and “3 of 3.”




28   District of Columbia Comprehensive Assessment System                              2008 Test Chairperson’s Manual
              Add Packing Material to Cartons
              Add enough packing material to hold the documents securely in place during transit. Then seal each box
              tightly with packing tape. As each box is sealed, be sure to maintain separation between “nonscorable”
              materials and “scorable” materials.


Step 4        SHIPPING TEST MATERIALS
                                                                                                Return Shipping
              Attach the Appropriate (“Scorable” or “Nonscorable”)                       The return shipping window will
              Shipping Label to Each Carton                                              be open from 5/6/08- 5/8/08.
              Attach or afﬁx the appropriate shipping label to each carton of
              materials. These labels are included in your Test Chairperson’s Packet.

              Mark the Cartons
              Use the yellow labels for the scorable materials.

              On the return shipping label, ﬁll in the number of scorable boxes
              you’re returning, and mark each label on each carton with a unique
                                                                                         YELLOW–Scorable Materials
              number, such as “1 of 3,” “2 of 3,” “3 of 3.”

              Use the blue labels for the cartons of nonscorable materials: unused
              test books for grade 3 and/or all test books for grades 4–8 and 10.

              On the return shipping label, ﬁll in the number of nonscorable boxes
              you’re returning, and mark each label on each carton with a unique
              number, such as “1 of 3,” “2 of 3,” “3 of 3.”


              Ship Cartons to CTB/McGraw-Hill                                            BLUE–Nonscorable Materials

              After you have ﬁnished packaging, sealing, labeling, and numbering
              your boxes, you will be ready to register online for return
              shipping. Please note that the scheduled retrieval takes place
              several days after you make your retrieval arrangements. You
                                                                                                          ADAMS ES
              or your principal’s designee must plan to be present at your              ADAMS ES                    2 of 2

              site for at least three days after you register for test materials                 1 of 2
              retrieval to ensure that test materials are picked up before the
              deadline. Test materials retrieval will not occur on the same
              day that you register for it. The deadline to register for test
              materials retrieval is May 2, 2008, to ensure that all materials
              are picked up by May 8, 2008. You may access CTB’s online
              registration for return shipping as follows:

               1. In your web browser’s address line, enter www.ctb.com/dc-cas.

               2. Click on “CTB Navigator” on the left side menu under Quick Links.




2008 Test Chairperson’s Manual                          District of Columbia Comprehensive Assessment System 29
               3. Enter your User ID and Password (same User ID and Password as for your Spring 2008 Online
                  Enrollments).

               4. Click the LOG IN button. You will be directed to the CTB Navigator™ “My Programs Overview”
                  page.

               5. On the CTB Navigator™ “My Programs Overview” page, click on the “ONLINE TRANSPORTATION”
                  link located under the Materials Tracking section.

               6. Select DC GR. 3-8 & 10 Spring 2008 Administration. Then click the SELECT button. This will direct
                  you to the Site Summary page for your school.

               7. Click on the “GO TO PICKUPS” link in the upper left hand corner of the page.

               8. Verify all information on the registration page is correct. Be sure the e-mail address listed is correct.
                  This will be the address that the scheduled pickup conﬁrmation information will be sent to.

               9. In the appropriate ﬁeld, enter the number of boxes to be picked up by label color (yellow for
                  scorable materials, blue for nonscorable materials). You must enter a “zero” if you have no boxes
                  of a particular label color. It is important that you enter the exact number of boxes that you have
                  packaged, sealed, labeled, numbered, and separated by color label.

              10. When you have ﬁnished entering your information, click on the SUBMIT button.

              You will receive an initial e-mail conﬁrming receipt of the registration and a second e-mail
              informing you of the exact pickup arrangements and procedures.

              If you have any questions or have difﬁculty accessing the return-shipping registration page, please call
              the CTB DCPS Customer Service line at 1-800-994-8579.

              All materials must be picked up by close of business, May 8, 2008. The school contact person
              will need to designate the school’s hours of operation and have school personnel on site to ensure UPS
              pickup by 4:30 P.M.

              Note: A surcharge will be billed to any school whose materials are not available when the delivery
              service arrives to retrieve the test documents.




30   District of Columbia Comprehensive Assessment System                               2008 Test Chairperson’s Manual
Appendix A.1: Special Education Test Accommodation Levels
Level 1: Students receive no accommodations and participate fully in testing.

Level 2: Approved accommodations which maintain standard conditions.
           I. Timing/Scheduling Accommodations

              a. Flexible scheduling (e.g., order of subtests is altered)

              b. Test administered over several days (e.g., one or two subtests per day)

              c. Test administered at best time of day for student

              d. Breaks allowed between subtests

          II. Setting Accommodations

              a. Preferential seating (e.g., in front of the room or in a study carrel)

              b. Small group testing

              c. Individual testing

              d. Special lighting

              e. Location with minimal distractions

              f. Adaptive or special furniture

              g. Noise buffer

          III. Presentation Accommodations

              a. Repetition of directions

              b. Simpliﬁcation of oral directions

              c. Use of masks or markers to maintain place

              d. Use of magnifying glass

              e. Ampliﬁcation equipment such as hearing aid or auditory trainer

              f. Interpretation of oral directions (signing, cued speech) although test questions may not be interpreted

          IV. Response Accommodations

              a. Use of large print test materials

              b. Use of Braille test materials

           V. Equipment

              a. Computers

              b. Calculators

              c. Pencil grip




2008 Test Chairperson’s Manual                           District of Columbia Comprehensive Assessment System 31
Level 3: Approved accommodations which maintain standard conditions. Students are able to complete the
          test with some assistance.

            VI. Permissible Accommodations
                Timing/Scheduling
                a. Extended time on subtests (may administer 1 subtest per day)

                b. Breaks during a subtest (may last no longer than 3-5 minutes)

                Presentation Accommodations
                c. Reading of test questions (math only)

                d. On the spot translation of words or phrases, when practical (math only)

                e. Assistance with interpretation of directions

                Response Accommodations
                f. Oral response to tests

                g. Write in test booklets

                h. Students indicate answers to multiple-choice questions by pointing or other method

                i. A student dictates to examiner responses to constructed response items. Dictation may be transcribed
                   later, but it may not be edited by anyone other than the student.

                Equipment Response

                j. Student responses to constructed response items may be taped for later verbatim transcription.
                   (Questions may not be recorded.)

Level 4: Permissible accommodations that result in non-standard conditions in which students require
          on-going assistance in taking the test.

            VII. Permissible Accommodations
                a. Assisted reading of comprehension passages on reading test.

                b. Assisted reading of entire reading comprehension test including passages, questions and answer
                   options.

Notes:

1. Students at any of these levels may require multiple accommodations.

2. Students with state assessment levels of 3 and 4 should always be tested in a separate setting.

3. Use of accommodations not listed here may be considered if the accommodations are used routinely
     during instruction. For approval, requests to use other accommodations must be forwarded to the Ofﬁce
     of the State Superintendent of Education, Division of Assessment and Data Reporting at least one month
     prior to the test administration dates.




32    District of Columbia Comprehensive Assessment System                             2008 Test Chairperson’s Manual
Appendix A.2: Accommodations for Linguistically and
              Culturally Diverse (LCD) Students
The English Language Proﬁciency (ELP) Level for each LCD student is determined by the student’s ACCESS for ELLs or
W-APT test score. Schools have the option to choose accommodations appropriate for their students, within the permitted
accommodations for their ELP level.

ELP Level 1:   Approved accommodations: All of the accommodations listed in Roman numerals I, II, III and IV
            I. Direct Linguistic Support Accommodations
               a. Oral reading of test in English (including test passages, questions and answer choices)

           II. Indirect Linguistic Support Accommodations
               Test Scheduling Accommodations
               b. Breaks during a subtest (lasting no longer than 3-5 minutes)

ELP Levels 2-4: Approved accommodations: All of the accommodations listed under Roman numerals III and IV
           III. Direct Linguistic Support Accommodations
               c. Oral reading of directions
               d. Repetition of directions
               e. Simpliﬁcation of directions
               f. Simpliﬁcation of writing prompt (on writing test)
               g. Use of English dictionaries and bilingual dictionaries (math & science only)
               h. Use of place markers to maintain place
           IV. Indirect Linguistic Support Accommodations
               Test Scheduling Accommodations
               i. Extended testing time
               j. Time of day most beneﬁcial to student (morning or afternoon)
               k. Extra or longer breaks allowed between subtests
               l. Flexible scheduling (order of subtests is altered)
               m. Test administered over several days (one or two subtests per day)
               Test Environment Accommodations
               n. Person familiar with student administers test
               o. Preferential seating
               p. Small group testing
English Proﬁcient (EP), EP Monitored, Outdated and Pending: No accommodations. Students participate fully in
testing without accommodations.
Important Notes:
1. Students receiving the use of dictionaries accommodation must also receive the extended testing time
   accommodation.
2. Students receiving the oral reading, breaks during subtest, use of dictionaries, or extended time
   accommodation must be tested in a separate setting.
3. The use of unfamiliar or inappropriate accommodations may have a negative impact on testing. Only those
   accommodations familiar to students and believed to facilitate a student’s content knowledge and skills
   should be used.


2008 Test Chairperson’s Manual                           District of Columbia Comprehensive Assessment System 33
Appendix B: Test Site Observation Report




                          3.


                          4. Procedures were in place to distribute and retrieve secure test
                             materials used in make up sessions.




                                            (special populations DC CAS-ALT).




                                                     -1-



34   District of Columbia Comprehensive Assessment System                          2008 Test Chairperson’s Manual
         Provisions for Students Who Require Additional Time to Complete the Test Session(s)

         Yes    No

                       1. Adequate provisions were made for students who needed additional
                          time to complete the test session.

                       2. Provisions for students who needed additional time were implemented
                          without disturbance to students who completed the test within the
                          scheduled time frames.

                       3. Students who required additional time completed the session during the
                          period scheduled for the day. That is, no student in general education
                          began a test session and completed it on another day, after lunch, etc.




                                                   -2-



2008 Test Chairperson’s Manual                   District of Columbia Comprehensive Assessment System 35
                            TEST SITE OBSERVATION REPORT
        PART B
        ADMINISTRATIVE PROCEDURES                                             Yes No Not
                                                                                     Observed
        1. Proctors monitor assigned stations
        2. Manual available and in use by test supervisor
        3. Sufficient supply of tests for administration
        4. Extra pencils, erasers, scratch paper supplied and available
           to students
        5. Test materials handed to each examinee individually by a
           member of the test administration team
        6. Test materials checked to ensure that answer booklets (grades
           4-8 and 10) correspond to the correct test book forms and grades
        7. Students are informed of the procedures that will be used to
           accommodate students who need extra time to complete the
           test sessions?
        8. Adherence to test directions as stated in the manual
        9. Test administration process starts on time and in keeping with
           school’s testing schedule
        10. No students admitted after the start of testing
        11. Adherence to suggested limits; use of functional timepiece
        12. Students checked as to their correct use of answer booklet
        13. Students periodically informed as to the amount of time
             remaining for testing
        14. Materials collected promptly, systematically, completely
             from each student
        15. Test material checked and counted before dismissal of
             examinees

        SEATING ARRANGEMENTS                                                  Yes No Not
                                                                                     Observed
        1. Adequate spacing between seats and rows for self-reliance by
           students
        2. Provisions for left-handed examinees
        3. All examinees facing forward and in the same direction (unless
           tables were used)

        TEST ENVIRONMENT                                                             Not
                                                                              Yes No Observed
        1. Desks/tabletops clear
        2. Good heat, light, ventilation
        3. Limitation of unnecessary interruptions
        4. Good atmosphere for quiet work
        5. Administration free of disturbances or irregularities
        6. Students cooperating with test administration directives

        DELIVERY OF TEST DIRECTIONS                                                  Not
                                                                              Yes No Observed
        1. Provisions for microphone for large groups
        2. Clear, loud voice heard all over room
        3. Instructions read clearly and verbatim from manual
                                                   -3-


36   District of Columbia Comprehensive Assessment System                     2008 Test Chairperson’s Manual
                                  -4-




2008 Test Chairperson’s Manual   District of Columbia Comprehensive Assessment System 37
                                 TEST SITE OBSERVATION REPORT

                 PART C (Summary)

                 School Summary Findings

                 After completing Parts A and B, please evaluate the total school program using the rating
                 scale below:

                 Percent of students tested: _________________

                                               Poor   Fair      Good        Excellent      Outstanding
                                                 1     2          3            4               5

           1.    Test Security                  ( )     ( )       ( )          ( )              ( )

           2.    Provisions for Students
                 Who Do Not Take the Tests      ( )     ( )       ( )          ( )              ( )

           3.    Administrative Procedures      ( )     ( )       ( )          ( )              ( )

           4.    Seating Arrangements           ( )     ( )       ( )          ( )              ( )

           5.    Accommodations for
                 Special Populations            ( )     ( )       ( )          ( )              ( )

           6.    Test Environment               ( )     ( )       ( )          ( )              ( )

           7.    Delivery of Test Directions    ( )     ( )       ( )          ( )              ( )

           8.    Facilities                     ( )     ( )       ( )          ( )              ( )

           9.    Provisions for Students Who
                 Require Additional Time to
                 Complete the Test Sessions     ( )     ( )       ( )          ( )              ( )


                 Overall Rating of Program      ( )     ( )       ( )          ( )              ( )

                                                1-9   10-18     19-27         28-36           37-45

                 Overall Comments:
                 _______________________________________________________________________

                 _______________________________________________________________________

                 _______________________________________________________________________



                 Monitor’s Signature:________________________________________ Date:__________
                                                       -5-




38   District of Columbia Comprehensive Assessment System                             2008 Test Chairperson’s Manual
Appendix C: Comment Fax Form




2008 Test Chairperson’s Manual   District of Columbia Comprehensive Assessment System 39
Appendix D: Short/Add Fax Form—Reading and Math




2008 Test Chairperson’s Manual   District of Columbia Comprehensive Assessment System 41
Appendix E: Short/Add Fax Form—Composition




2008 Test Chairperson’s Manual   District of Columbia Comprehensive Assessment System 43
Appendix F: Short/Add Fax Form—Science




2008 Test Chairperson’s Manual   District of Columbia Comprehensive Assessment System 45
Appendix G: Local School Responsibilities In Implementing The State
            Assessment Programs
Public schools in the District of Columbia and private/residential schools that receive tuition payments for DC students
are required to implement the state assessment programs according to the guidelines established by the Ofﬁce of
the State Superintendent. Therefore, school administrators, test chairpersons, test administrators, proctors and other
identiﬁed personnel who assist with the local school testing programs are expected to review and adhere to State
guidelines in executing their professional responsibilities to their local programs.

The primary responsibilities of the principal, test chairperson, local school testing committee, and proctor in
implementing the state assessments are as follows:

The Principal is responsible for:

   ٗ Ensuring that the test coordinator is trained in establishing and coordinating the local school testing program

   ٗ Monitoring the local school testing program

   ٗ Ensuring that the state assessment guidelines are followed as outlined in the coordinator’s and administrators’
      manuals

   ٗ Ensuring that parents are notiﬁed of the testing program in the school

   ٗ Ensuring that all building personnel are informed of test security and test integrity guidelines

   ٗ Ensuring that students who require accommodations receive the appropriate accommodations

   ٗ Identifying a secured area for keeping all test materials

   ٗ Ensuring test security at all times

   ٗ Ensuring that all persons responsible for handling, administering, or proctoring the tests are trained in accordance
      with the professional test administration procedures

   ٗ Ensuring that all secured materials are packaged and returned as mandated

   ٗ Ensuring that any test impropriety is documented and reported to the Ofﬁce of the State Superintendent, Division
      of Assessment and Data Reporting in a timely manner

   ٗ Monitoring school procedures to ensure that students are provided the opportunity to complete all test sessions
      within the guidelines established by the OSSE, Division of Assessment and Data Reporting

   ٗ Ensuring that all persons responsible for handling, administering, or proctoring the tests sign the Conﬁdentiality
      Agreement Form




2008 Test Chairperson’s Manual                            District of Columbia Comprehensive Assessment System 47
The Test Chairperson is responsible for:

     ٗ Attending the DC CAS training sessions

     ٗ Organizing and monitoring the school testing program to ensure that the state assessment guidelines are followed
       as mandated

     ٗ Ensuring that seamless procedures are established and disseminated that allow students to complete the test
       sessions within the guidelines established by the OSSE, Division of Assessment and Data Reporting

     ٗ Conducting the test administration training for school personnel involved in the implementation of the program

     ٗ Checking and distributing the test materials

     ٗ Ensuring that appropriate quantities of materials are requested

     ٗ Collaborating with the Principal to establish school testing schedule and sufﬁcient numbers of proctors

     ٗ Identifying appropriate test sites

     ٗ Ensuring that appropriate conditions and accommodations are established for students who require
       accommodations

     ٗ Maintaining the security of the test materials

     ٗ Supervising testing

     ٗ Completing documentation as required in the test manuals

     ٗ Preparing test materials for return shipment to mandated site

     ٗ Reporting, as directed by the Principal, any testing irregularity (See Security Guidelines in Testing Chairperson’s
       Manual)

The Testing Committee is responsible for:

     ٗ Assisting the Test Chairperson in organizing and monitoring the school testing program

     ٗ Understanding state testing irregularities and policy breaches

     ٗ Assisting (if needed) the Test Chairperson in conducting training on the administration of the state assessment

     ٗ Ensuring test security

     ٗ Assisting the Test Chairperson with checking and distributing test materials

     ٗ Assisting the Test Chairperson in returning test materials to the secure area in the school

     ٗ Assisting the Test Chairperson in packaging test materials for return to the appropriate site

     ٗ Other responsibilities as required




48     District of Columbia Comprehensive Assessment System                                2008 Test Chairperson’s Manual
The Test Administrator is responsible for:

  ٗ Conducting the testing sessions as outlined in the Test Directions, Test Chairperson’s Manual, and Test Site
     Observation Checklist

  ٗ Clarifying all questions regarding testing policy or procedures with the Principal or Test Chairperson

  ٗ Understanding state testing irregularities and policy breaches

  ٗ Establishing the testing climate within the test site

  ٗ Coordinating the distribution and return of test booklets and answer sheets to students

  ٗ Ensuring that students who require accommodations receive the appropriate accommodations

  ٗ Ensuring that students have the correct test form and answer documents

  ٗ Ensuring that students are given the procedures to be followed in ﬁnishing a testing session early or for requesting
     additional time

  ٗ Monitoring

  ٗ Accounting for and maintaining the security of all test materials

  ٗ Checking and completing all required documentation

  ٗ Adhering to test directions and administration guidelines

  ٗ Apprising the Test Chairperson of all testing irregularities

The Proctor is responsible for:

  ٗ Understanding state testing irregularities and policy breaches

  ٗ Assisting the Test Administrator with receipt and maintenance of test materials

  ٗ Assisting the Test Administrator with the distribution and return of test materials

  ٗ Ensuring that students are completing the test as required in the test guidelines

  ٗ Assisting in maintaining the integrity of the testing process

  ٗ Assisting the Test Administrator with the required test accommodations for students in the special populations

  ٗ Ensuring test security

  ٗ Other responsibilities as needed




2008 Test Chairperson’s Manual                          District of Columbia Comprehensive Assessment System 49
Appendix H: Conﬁdentiality Agreement



                  CONFIDENTIALITY AGREEMENT FOR THE DISTRICT OF COLUMBIA
                         COMPREHENSIVE ASSESSMENT SYSTEM (DC CAS)


      This form is required for all personnel who work with tests administered by or through the District of
      Columbia State Office of Education. Schools must retain completed forms for at least three years
      following the last contact of the named person with any State Office of Education assessment material.

      It is my understanding that the District of Columbia Comprehensive Assessment System materials are
      secure documents. I agree to abide by all of the regulations governing test administration and data
      reporting policies and procedures. As a part of these regulations, I know that I am:

          • *Not to provide any support with information or answers to students during the examination
              period.
          • Not to duplicate secure test materials for any reason except as authorized by the State Office of
              Education Division of Assessment and Data Reporting.
          • Not to make written notes about the topics or content of the test materials unless requested to do so
              by the State office.
          • Not to provide any part of the test materials for examination or other use by any other party unless
              authorized by the State office.
          • Not to disseminate any of the test materials to any other party unless authorized by the State office.
          • Not to discuss or teach test specific items of the test at any time.
          • Not to discuss or review with students information related to specific test items during the
              assessment period as a result of reviewing the test booklets and identifying specific information
              assessed.
          •   To maintain under secured conditions all test booklets in my possession.
          •   To return all test materials to the representative authorized by the State by the agreed-upon date.


      * Special education accommodations must be provided as outlined in the IEP.



      Name_____________________________                                School/Office_______________________



      Signature __________________________                              Date ______________________________




                           825 North Capitol Street, NE – 8th Floor Washington, DC 20002
                          Phone: 202.442.5220       Fax: 202.442.5319     www.osse.dc.gov


2008 Test Chairperson’s Manual                         District of Columbia Comprehensive Assessment System 51
Website: www.osse.dc.gov
TEST CHAIRPERSON’S
MANUAL
DISTRICT OF COLUMBIA
Comprehensive Assessment System




Reading and
Mathematics,
Composition,
Science, and Biology
2009



                             21341
 
 EVENT
                       Important Testing Events

                                                                                      DATE
 Test Administration
 Training Sessions (CTB-led) .................................................... March 2009

 Receipt of Test Chairperson’s Materials ................................. March 10, 2009

 Receipt of Secure Test Materials ............................................. by April 3, 2009

 Short/Add Window.................................................................. April 6 through April 10, 2009

 Chairperson Conducts Teacher Training Sessions
 (in schools)................................................................................ Prior to test administration

 Test Dates for Grades 3–8 and 10
 (includes Makeup Testing)....................................................... Monday, April 20, through Thursday, April 30, 2009

 Deadline to Register for Online Retrieval of
 Test Materials at www.ctb.com .............................................. May 4, 2009

 Ship (Return) All Scorable and Nonscorable
 Materials to CTB ...................................................................... by May 11, 2009

 Last Day for CTB to Receive Test Materials
 for Scoring ................................................................................ May 14, 2009




 Note: Special permission to begin testing special education or ELL students early must be obtained from
 the OSSE Division of Assessment and Data Reporting prior to April 3, 2009.


                      Important Telephone Numbers
                      for Shortages, Errors, and General
                      Information
District of Columbia                                                   For information concerning District of Columbia
Ofﬁce of the State Superintendent                                      statutes, as well as policy and procedures for the District
                                                                       of Columbia Comprehensive Assessment System, contact
of Education (OSSE)                                                    the Ofﬁce of the State Superintendent of Education,
Division of Assessment and                                             Division of Assessment and Data Reporting at
Data Reporting                                                         202-741-0792.

CTB DC CAS Customer Service Contact Numbers:
DC Only Toll Free: 800-994-8579
Customer Service Fax: 866-282-2251
Hours of Business: 8:30 A.M.–5:00 P.M. (EST)
E-mail to: DC-CAS_helpdesk@ctb.com

Developed and published under contract with the District of Columbia Public Schools by CTB/McGraw-Hill LLC, a subsidiary of The McGraw-Hill Companies,
Inc., 20 Ryan Ranch Road, Monterey, California 93940-5703. Copyright © 2009 by the District of Columbia Public Schools. All rights reserved. No part
of this publication may be reproduced or distributed in any form or by any means, or stored in a database or retrieval system, without the prior written
permission of the District of Columbia Public Schools.
Dear Test Chairperson,

Thank you for agreeing to serve as the Test Chairperson for your school. This is an important function,
not only for your school, but for the entire school system, as we seek to improve the instructional program here
in the District of Columbia.

This manual is designed to assist you in preparing for and conducting the upcoming testing program in
your school. Please read it carefully and follow the procedures described. Doing so will ensure that the test
administration is conducted under optimal conditions and that students are given an opportunity to do their best.

We hope that the manual will also assist you in providing in-service training to your school faculty. Feel free to
duplicate salient portions for handouts or overheads. Meanwhile, we need to remind ourselves of why we test
students:

The information gained through testing is used by
• teachers to develop lesson plans that support effective instruction for all students
• schools and districts to evaluate whether the goals of the content standards are being met
• parents to monitor children’s educational progress

Schools in the District of Columbia will administer the District of Columbia Comprehensive Assessment System
(DC CAS) to students in grades 3 through 8 and 10 in Spring 2009. The results of the test will provide useful
information about instructional strengths and weaknesses relative to the District of Columbia content standards.

The Comprehensive Assessment System combines selected-response items with constructed-response items that
allow students to produce their own responses. The content areas consist of Reading, Mathematics, Composition,
and Science.

This Test Chairperson’s Manual has been designed to help the Chairperson organize and oversee test
administrative procedures for Reading, Mathematics, Composition, Science, and Biology. A series of easy-to-follow
steps provides guidelines for receiving and checking testing materials, scheduling testing times, overseeing the
administration, and returning the materials to CTB/McGraw-Hill.

As you read through this manual and prepare for the test administration, should any questions arise, please
contact CTB/McGraw-Hill’s Customer Service Center at 800-994-8579 or the OSSE Division of Assessment and
Data Reporting, at 202-741-0792.

Thank you for your expertise and commitment.

Ofﬁce of the State Superintendent of Education
Division of Assessment and Data Reporting
CTB/McGraw-Hill
                                                           Contents
Letter to Chairperson
Section 1 General Information
           Testing Steps..............................................................................................................................1
           Important Dates and Times
              Administrative Date..............................................................................................................2
              Testing Dates.........................................................................................................................2
              Approximate Testing Times..................................................................................................2
           Overview of Assessment Materials ..........................................................................................6
Section 2 Security Procedures
           Secure Materials........................................................................................................................9
           School Security Checklist ..........................................................................................................9
           Security Guidelines..................................................................................................................10
           Security During Testing...........................................................................................................11
Section 3 Before Testing—Instructions for Test Chairpersons
           Step 1—Receive Test Materials...............................................................................................12
           Step 2—Inventory Test Materials ...........................................................................................12
           Step 3—Schedule the Test ......................................................................................................13
           Step 4—Notify Students and Parents of Testing ...................................................................13
           Step 5—Conduct Training Sessions for Test Administrators and Proctors
              Test Administrators.............................................................................................................13
              Proctors ...............................................................................................................................16
           Step 6—Distribute Test Materials...........................................................................................17
           Step 7—Fulﬁll School Materials Requests..............................................................................18
           Step 8—Using the Precoded Student Label and
                    Completing the Student-Identifying Information..................................................18
Section 4 During Testing—Instructions for Test Chairpersons.............................................................23
Section 5 After Testing—Instructions for Test Chairpersons
           Step 1—Receiving and Checking Test Materials....................................................................24
           Step 2—Organizing and Preparing Test Materials................................................................26
           Step 3—Preparing Test Materials for Shipment ....................................................................28
           Step 4—Shipping Test Materials ............................................................................................29
Appendix A.1: Special Education Test Accommodation Levels..............................................................31
Appendix A.2: Approved Accommodations for Linguistically and Culturally Diverse (LCD) Students...33
Appendix B: Test Site Observation Report ..............................................................................................34
Appendix C: Comment Fax Form .............................................................................................................39
Appendix D: Short/Add Fax Form—Reading and Math .........................................................................41
Appendix E: Short/Add Fax Form—Composition ...................................................................................43
Appendix F: Short/Add Fax Form—Science.............................................................................................45
Appendix G: Local School Responsibilities In Implementing The State Assessment Programs ..........47
Appendix H: Conﬁdentiality Agreement.................................................................................................51
                  >\e\iXc@e]fidXk`fe

                  TESTING STEPS




 1      REVIEW MANUAL


      2      COMPLETE
             SECURITY PROCEDURES
             and PAPERWORK


           3      INVENTORY MATERIALS


               4       SCHEDULE THE TEST


                    5       NOTIFY STUDENTS AND
                            PARENTS OF TESTING


                         6       CONDUCT TRAINING


                                 7   DISTRIBUTE TEST
                                     MATERIALS


                                     8   MAINTAIN SECURITY
                                         DURING TESTING


                                         9   CHECK-IN MATERIALS


                                             10    SHIP MATERIALS



2009 Test Chairperson’s Manual                District of Columbia Comprehensive Assessment System 1
IMPORTANT DATES AND TIMES

Administrative Date
If you need additional test materials, you may order them during the Short/Add Window from April 6 – April 10, 2009.
To access the system for test materials adjustments, go to www.ctb.com and enter the User ID and Password that you
received from CTB in a separate mailing. If you have any additional questions, contact the CTB DCPS Customer Service line
at 1-800-994-8579.

Note: Any shipment of materials after the Ship (Return) All Scorable and Nonscorable Materials to CTB date (see Important
Testing Events page) that causes CTB to pay for shipping, other than ground, will incur additional charges to the school.


Testing Dates
Testing dates have already been determined by the District of Columbia Ofﬁce of the State Superintendent of Education.
The testing dates are as follows:

        Grades 3–8 and 10
        (includes Makeup Testing)          Monday, April 20, through Thursday, April 30, 2009

Testing of all content areas—Reading and Mathematics, Composition, Science, and Biology—must be
completed during this testing window.


Approximate Testing Times

The times shown in the charts on the following pages indicate an approximate period of time to complete the test.
However, any student who does not ﬁnish the test in the estimated time must be given time in an appropriate setting in
which to complete the test.




2   District of Columbia Comprehensive Assessment System                                 2009 Test Chairperson’s Manual
Reading

The Reading Assessment has four sessions. Each Test Administrator will follow the schedule provided by the Test
Chairperson. The schedule will include testing sessions for students in special populations and makeup sessions.


                          Reading—Grade 3

                          Subtest                            Approximate Testing Time*

                          Testing Session 1
                          Reading                                               50 minutes


                          Testing Session 2
                          Reading                                               40 minutes


                          Testing Session 3
                          Reading                                               40 minutes


                          Testing Session 4
                          Reading                                               40 minutes


                         * Times shown refer to the approximate administration of items.
                         Allow for an additional 15 minutes for completing student biographical
                         information, administering the sample questions, and reading directions.


                          Reading—Grades 4 through 8 and 10

                           Subtest                            Approximate Testing Time*

                          Testing Session 1
                          Reading                                               40 minutes


                          Testing Session 2
                          Reading                                               50 minutes


                          Testing Session 3
                          Reading                                               40 minutes


                          Testing Session 4
                          Reading                                               40 minutes


                         *Times shown refer to the approximate administration of items.
                         Allow for an additional 15 minutes for completing student biographical
                         information, administering the sample questions, and reading directions.




2009 Test Chairperson’s Manual                          District of Columbia Comprehensive Assessment System 3
Mathematics
The Mathematics Assessment has four sessions. Each Test Administrator will follow the schedule provided by the Test
Chairperson. The schedule will include testing sessions for students in special populations and makeup sessions.


                           Mathematics—Grades 3 through 6

                           Subtest                            Approximate Testing Time*

                           Testing Session 1
                           Mathematics                                          40 minutes


                          Testing Session 2
                          Mathematics                                            40 minutes


                          Testing Session 3
                          Mathematics                                            40 minutes


                          Testing Session 4
                          Mathematics                                            40 minutes




                           Mathematics—Grades 7, 8, and 10

                           Subtest                            Approximate Testing Time*

                           Testing Session 1
                           Mathematics                                *Part A – 25 minutes
                                                                       Part B – 25 minutes
                                                                   Total time = 50 minutes
                          Testing Session 2
                          Mathematics                                            40 minutes


                          Testing Session 3
                          Mathematics                                 *Part A – 25 minutes
                                                                       Part B – 25 minutes
                                                                   Total time = 50 minutes
                          Testing Session 4
                          Mathematics                                            40 minutes



                          *Times shown refer to the approximate administration of items.
                          An additional 5 to 10 minutes will be required for administering the
                          sample items and reading introductions and directions.
                          *For grades 7, 8, and 10, for Part A Sessions 1 and 3 ONLY, the use
                          of calculators is permitted. At the end of Part A, instruct students
                          to put their calculators away.




4   District of Columbia Comprehensive Assessment System                               2009 Test Chairperson’s Manual
Composition
The Composition Assessment has two sessions. Each Test Administrator will follow the schedule provided by the Test
Chairperson. The schedule will include testing sessions for students in special populations and makeup sessions.


                           Composition—Grades 4, 7, and 10

                           Subtest                            Approximate Testing Time*

                           Testing Session 1
                           Composition: Phase 1 Planning/Draft                   60 minutes

                           Testing Session 2
                           Composition: Phase 2 Final Composition                60 minutes


                          *Times shown refer to the approximate time allowed to complete
                          the composition.
                          An additional 5 to 10 minutes will be required for reading
                          introductions and directions.
                          Note that additional time should be granted as needed to
                          students who continue to work on their compositions.

Science
The Science and Biology Assessments have three sessions. Each Test Administrator will follow the schedule provided by
the Test Chairperson. The schedule will include testing sessions for students in special populations and makeup sessions.


                           Science—Grades 5, 8, and Biology

                           Subtest                            Approximate Testing Time*

                           Testing Session 1
                           Science                                               35 minutes

                           Testing Session 2
                           Science                                               35 minutes

                           Testing Session 3
                           Science                                               30 minutes

                          *Times shown refer to the approximate administration of items.
                          An additional 5 to 10 minutes will be required for administering the
                          sample items and/or reading introductions and directions.




2009 Test Chairperson’s Manual                           District of Columbia Comprehensive Assessment System 5
OVERVIEW OF ASSESSMENT MATERIALS
The following assessment materials are provided at grades 3–8 and 10:

    Grade 3
         Test book—grade 3*

                 One for each student and one for the Test Administrator

         Test Directions—one book for grade 3

         Punch-out tool*—ruler (yellow/purple with inches and half-inch markings on one side and centimeters on
         other side, commodity code 53493)

    Grades 4–8 and 10
         Test Directions—one book for grades 4–8 and 10, all content areas included

         Note: The test book and answer booklet for each grade are printed in the same color. Colors vary by grade
         level. For Reading and Mathematics and for Science and Biology, there are two versions of the test for each
         grade—Form 1 and Form 2. Teachers should check that students in grades 4–8 and 10 are using the correct test
         book and answer booklet combination. Dark and light shading will be used to distinguish Form 1 from Form 2.

    Grade 4
         Reading and Mathematics Test Book*

                 One for each student and one for the Test Administrator

         Reading and Mathematics Answer Booklet*

                 One for each student and one for the Test Administrator

                 Note: No punch-out tool is needed for this grade.

         Composition Test Book*

                 One for each student and one for the Test Administrator

         Planning and Draft paper

                 Two pages for each student

    Grade 5
         Reading and Mathematics Test Book*

                 One for each student and one for the Test Administrator

                 Note: No punch-out tool is needed for this grade.

         Reading and Mathematics Answer Booklet*

                 One for each student and one for the Test Administrator




6    District of Columbia Comprehensive Assessment System                              2009 Test Chairperson’s Manual
       Science Test Book*

               One for each student and one for the Test Administrator

       Science Answer Booklet*

               One for each student and one for the Test Administrator

 Grade 6
       Reading and Mathematics Test Book*

               One for each student and one for the Test Administrator

       Reading and Mathematics Answer Booklet*

               One for each student and one for the Test Administrator

               Note: No punch-out tool is needed for this grade.

 Grade 7
       Reading and Mathematics Test Book*

               One for each student and one for the Test Administrator

       Reading and Mathematics Answer Booklet*

               One for each student and one for the Test Administrator

       Punch out tool*—ruler (orange fading into yellow with 1/8th-inch markings on the orange side and centimeter
               with millimeter markings on the other side, commodity code 53494)

               Note: Students in this grade will be allowed to use calculators in Part A of Sessions 1 and 3 of the
               Mathematics test.

       Composition Test Book*

               One for each student and one for the Test Administrator

       Planning and Draft paper

               Two pages for each student

 Grade 8
       Reading and Mathematics Test Book*

               One for each student and one for the Test Administrator

       Reading and Mathematics Answer Booklet*

               One for each student and one for the Test Administrator




2009 Test Chairperson’s Manual                         District of Columbia Comprehensive Assessment System 7
           Punch out tool*—ruler (orange fading into yellow with 1/8th-inch markings on the orange side and centimeter
                     with millimeter markings on the other side, commodity code 53494)

                     Note: Students in this grade will be allowed to use calculators in Part A of Sessions 1 and 3 of the
                     Mathematics test.

           Science Test Book*

                     One for each student and one for the Test Administrator

           Science Answer Booklet*

                     One for each student and one for the Test Administrator

    Grade 10
           Reading and Mathematics Test Book*

                     One for each student and one for the Test Administrator

           Reading and Mathematics Answer Booklet*

                     One for each student and one for the Test Administrator

           Punch out tool*—ruler (orange fading into yellow with 1/8th-inch markings on the orange side and centimeter
                     with millimeter markings on the other side, commodity code 53494)

                     Note: Students in this grade will be allowed to use calculators in Part A of Sessions 1 and 3 of the
                     Mathematics test.

           Composition Test Book*

                     One for each student and one for the Test Administrator

           Planning and Draft paper

                     Two pages for each student

    Students Enrolled in a Biology Course
           Biology Test Book*

                     One for each student and one for the Test Administrator

           Biology Answer Booklet*

                     One for each student and one for the Test Administrator
     * Test Books and punch-out tools are available in large-print and Braille editions for those students with special needs. Answer Booklets are
       available in large-print editions only. Composition test books are available in Braille editions only.




8     District of Columbia Comprehensive Assessment System                                                    2009 Test Chairperson’s Manual
                     J\Zli`kpGifZ\[li\j
                     As Test Chairperson, you will need to work closely with the principal to ensure the security of the
                     Comprehensive Assessment System. To prevent the loss or copying of any test book, test items, or
                     completed answer booklet, you will need to establish strict security guidelines within your school,
                     and keep a detailed inventory of all test books before, during, and after test administration until the
                     time they are returned to CTB.

                     If after reading these instructions, you have any questions about the materials or the instructions on
                     how to inventory the materials, please call 800-994-8579, between 8:30 A.M. and 5:00 P.M. Eastern
                     Standard Time.

SECURE MATERIALS
Each school must develop an organized test material distribution process so that all secure test materials, used and
unused, are accounted for and returned to CTB. Under no circumstances should anyone destroy or throw away any test
book or any answer booklet including invalidated or damaged test books or answer booklets. All test books must be
returned to CTB.*

All test books and answer booklets are secure materials and must be kept in locked storage when not in use. Test
books and answer booklets must be returned to a locked storage area immediately following each test administration.
Secure test books have been assigned a security number. These security numbers correspond to the numbers listed on
the School Packing List. If the numbers do not correspond, call the OSSE Division of Assessment and Data Reporting at
202-741-0792 and CTB DC CAS Customer Service at 800-994-8579.

SCHOOL SECURITY CHECKLIST
The Test Chairperson must complete a School Security Checklist for each Test Administrator receiving test materials.
The Chairperson must write the quantity for bar-coded materials signed out and in with the Test Administrators. The
Chairperson and the Test Administrator must initial the materials out and in each day.




* Unused answer booklets will not be returned to CTB.


2009 Test Chairperson’s Manual                            District of Columbia Comprehensive Assessment System             9
SECURITY GUIDELINES
All test books and answer booklets are secure materials and must be in locked storage when not in use.
Test books and answer booklets must be returned to a locked storage area immediately following each
test administration. Leaving secure test materials unattended any time they are not in locked storage is a
violation of test security.

•    Test books are secure. The principal must ensure that the books are kept in a secure central location in the school,
     except during testing.

•    Test books must be distributed to teachers for their exact count of students on the morning of testing and returned
     to the Chairperson immediately after testing.

•    Test books signed out to teachers and not being distributed to students should be temporarily stored in the room in
     a location inaccessible to students until the end of the testing session.

•    The use of cells phones and PDAs is strictly forbidden during the testing session. Cell phones and PDAs must be
     turned off and put away.

•    No calculators are to be used for calculating answers to questions other than as speciﬁed for grades 7, 8, and 10, or
     as required by a student’s IEP or 504 plan.

•    Test materials should be distributed to and collected from each student individually.

•    Only materials that are speciﬁcally listed for use in the Test Directions are allowed. Room displays related to test
     content (e.g., math or science facts and literary deﬁnitions) should be covered or removed.

•    Student responses must not be coached or inﬂuenced with in any way, including making statements to students
     regarding accuracy of responses; reading items; deﬁning words; giving students hints, clues, or cues; or altering or
     editing student responses. Those administering the test are encouraged to walk around the room during testing and
     should check to see that students are marking their responses appropriately.

•    School personnel must not hand-score student responses at any time.

•    After testing, access to secure materials is restricted to supervised sessions for completing additional student
     information on the back of the test books or answer booklets. Student responses must not be edited or altered in
     any way.

•    Test items and/or test books may not be copied under any circumstances. Test items or test books must not be used
     for review or practice purposes before or after testing.

•    Discussion of speciﬁc test items with students or staff is prohibited.

•    Any breach of testing security—cheating, loss of material, and/or failure to account for all materials—must be
     reported by the Test Administrator to the Test Chairperson. The principal or his/her designee must immediately relay
     these reports to the Ofﬁce of the State Superintendent of Education, Division of Assessment and Data Reporting.




10   District of Columbia Comprehensive Assessment System                                 2009 Test Chairperson’s Manual
SECURITY DURING TESTING
The School Test Chairperson must be available to respond to questions from Test Administrators and school personnel. If
the answer is not available in this manual or the Test Directions, call the OSSE Division of Assessment and Data Reporting
or CTB, using the contact information provided on the inside front cover of this manual.

• Notify the OSSE Division of Assessment and Data Reporting and CTB if any secure materials are missing.

• Create a school security ﬁle. This ﬁle should contain the following items:

  1. Documentation of any testing disruptions

  2. Copies of the School Security Checklists

  3. Explanations as to why materials were not returned after testing or any other test irregularities.

  You will need this ﬁle

     º in the event that CTB reports secure documents missing from your school

     º if the school or district decides to invalidate a student’s score. If you invalidate a test score, this should be noted
       in writing and attached to the student’s score reports in the student’s permanent ﬁle.

  • Send copies of any documentation relating to potential invalidations of whole classes, schools, or districts to the
     OSSE Division of Assessment and Data Reporting.

  • CTB will maintain a record of serial numbers of all test books shipped to the schools and districts, including overage
     shipments and any additional materials request shipments. When testing is completed, all test books, used and
     unused, must be returned. CTB will use a scanner to account for all test books by serial number and provide a
     record of missing test books to the OSSE Division of Assessment and Data Reporting. If any test books shipped
     to a school or district are determined to be missing, the school principal will be required by the OSSE Division of
     Assessment and Data Reporting to account for the missing materials.

  • The Test Chairperson is expected to maintain test security by using the serial numbers to account for all test books
     before, during, and after test administration until the time they are returned to CTB. The Chairperson must record
     all pertinent information regarding the replacement of missing test books for a school on the School Security
     Checklist.




2009 Test Chairperson’s Manual                           District of Columbia Comprehensive Assessment System               11
                   9\]fi\K\jk`e^Ç@ejkilZk`fej]fiK\jk:_X`ig\ijfej
                   PLEASE TAKE THE TIME TO REVIEW AND INVENTORY ALL TEST
                   MATERIALS WHEN THEY ARRIVE AT YOUR SCHOOL.



Step 1        RECEIVE TEST MATERIALS
              • Conﬁrm that you have received the total number of school boxes listed on the shipping invoice. Notify
                 CTB immediately and no later than noon, April 3, 2009, at 800-994-8579 if any boxes are missing, or
                 contain damaged materials, or if you received boxes that should have been delivered to another school.

              • The Test Chairperson should open boxes within 24 hours to allow plenty of time to resolve shortages.

              • Verify the contents of the school box(es) with overage materials. Keep all boxes for returning test
                 materials.


Step 2        INVENTORY TEST MATERIALS
              • Check the materials speciﬁed on the School Packing List against materials received.

              • Compare the security numbers on the shrink-wrapped packages of test books with those listed on
                 the School Packing List (example shown below).

              • Check quantities of materials against current enrollment.

              • Report any discrepancies or materials shortages to CTB. Note any discrepancies on the School Packing
                 List.


                                                                      School Packing List

                              SOUTH CAROLINA STATE ED DEPT                           SHIP TO:
                              TERRANOVA SPRING 2004 ADMIN




                                                                              <
                              GRADES 4, 7, AND 10                                    SCHOOL NUMBER
                                                                                     SCHOOL NAME




                                                                            C
                                                                                     C/O DISTRICT NUMBER
                                                                                     DISTRICT NAME




                                                                          G
                              SCHOOL PACKING LIST                                    DISTRICT ADDRESS
                              (PLEASE KEEP A COPY FOR YOUR RECORDS)                  ATTN: TEST COORDINATOR




                                                       D
                                                                                     April 2, 2004

                                                                                                  PAGE 1




                                                     8
                                             PACKING LIST # 627684757-1




                                      <O
                                      UNIT                                                      COMMOD     SEQ#     SEQ#
                              QUANT   SIZE   DESCRIPTION OF MATERIALS                           CODE       BEGIN    END      RECEIVED
                              6       15     Grade 4 Student Book                               45257      000101   000190
                              6       15     Grade 7 Student Book                               45258      001001   001090
                              6       1      Grade 10 Student Book                              45259      000011   000016
                              6       1      Grades 4-11 Test Directions                        42537      001101   001106
                              6       1      Grades 4, 7, and 10 Test Coordinator's Manual      42535-04
                              3       30     TN Grades 14-15 Practice Test/Directions           53758
                              3       30     TN Levels 16-18 Practice Test/Direction            53760
                              6       1      Answer Sheet Return Envelopes                      67317
                              3       32     Grades 4-12 Math Manipulative                      53494




              • Be sure to save the Packing List since it needs to be returned to CTB with any unused books.




12   District of Columbia Comprehensive Assessment System                                                                     2009 Test Chairperson’s Manual
Step 3        SCHEDULE THE TEST
              • Review the Test Chairperson’s Manual and Test Directions in advance.

              • Refer to Pages 3, 4, and 5 for approximate length of each session time. Schedule testing to allow
                sufﬁcient time to complete each test session.

              • Establish a testing plan that shows how the school will accommodate students who need
                additional time.

              • Tests and Makeup Tests must be administered Monday, April 20, through Thursday, April 30, 2009.

              • Avoid testing just after students have had strenuous physical or mental activity.


Step 4        NOTIFY STUDENTS AND PARENTS OF TESTING
              Students and parents must be notiﬁed when testing will take place and should be informed as to the
              purpose of the test. While undue emphasis on the importance of the test should be avoided so that
              students will not become overly anxious, it is important that students are motivated to do their best in
              order to obtain the best results.


Step 5        CONDUCT TRAINING SESSIONS FOR TEST ADMINSTRATORS AND PROCTORS
              Anyone who will handle test materials must attend a training session prior to the test
              administration.


              Test Administrators
              Test Administrators must be employees of the district (i.e., teachers, paraprofessionals, counselors,
              administrators, and librarians). All Test Administrators (including possible substitutes) must have received
              training in the administration of the test in Spring 2009. It is recommended that Test Chairpersons train
              more certiﬁed employees than are actually necessary for administering the test to cover unforeseen
              absences. Do not allow untrained employees, teachers, or substitutes to administer tests. Test
              Administrators must not administer tests to close relatives (e.g., children or grandchildren).



              OUTLINE OF INSTRUCTIONS FOR TEST ADMINISTRATORS

              Prior to testing:

              • Review test administration procedures and test materials thoroughly.

              • Review school procedures to accommodate students who need additional time.

              Prepare to Schedule Testing

              • Review the scheduling guidelines provided by the Test Chairperson for the administration of the
                different content areas.




2009 Test Chairperson’s Manual                        District of Columbia Comprehensive Assessment System               13
              • Allow sufﬁcient time to complete the student-identifying information. (See the section on using the
                 precoded student labels and completing the student-identifying information.)

              • Avoid testing on days just before or after vacations, important school functions, or holidays.

              • Testing should occur at the beginning of the morning when students are most alert. Do not
                 administer the test immediately after students have been involved in any strenuous physical or
                 mental activity.

              • Schedule testing to allow sufﬁcient time to complete a testing session. (See the tables on Pages 3, 4,
                 and 5 for testing times.)

              Prepare the Testing Environment

              • Review the Test Site Observation Report.

              • Testing in a familiar classroom setting reduces test anxiety for students and should simplify test
                 security. Students should be tested in classrooms that have good lighting, adequate ventilation, and
                 sufﬁcient space. Schools are strongly encouraged to avoid large group administrations in settings
                 such as the library or the cafeteria.

              • The testing room should be as quiet as possible, without interruptions.

              • Remove charts or reference materials from the walls of the testing room.

              Receive Materials from Test Chairperson

              • Test Administrators must sign out and sign in test materials each day, using the School Security
                 Checklist. Copies of the form are provided in the Test Chairperson’s Packet for each school.

              During testing:
              • In order to ensure that test results for the District of Columbia Comprehensive Assessment System are
                 valid, reliable, and equitable, the test administration must be standardized with the same directions
                 and time limits and similar testing conditions across the District of Columbia. In order to provide
                 standardized test administration, Test Administrators must carefully follow the instructions provided in
                 the Test Directions.

              • Observe timing guidelines.

              • Read oral directions at a moderate, steady pace.

              • Schedule breaks to maintain an unhurried pace and a relaxed atmosphere.

              • Follow the recommended schedules, to the degree possible, and schedule tests so that students do
                 not become overly tired.




14   District of Columbia Comprehensive Assessment System                             2009 Test Chairperson’s Manual
              After testing:
              Assemble Materials for Return

              Test Administrators (with help from proctors, if requested) will review all assessment materials for the
              following:

              • to ensure that no foreign materials, such as scratch paper, paper rulers, tape, paper clips, have been
                 left inside test books or answer booklets

              • to identify any damaged materials

              • to mark a test for invalidation, if necessary (see below)

              • to complete accommodation and special education ﬁelds on the bottom half of the student data grid

              Each Test Administrator will organize the scorable materials by class and content area—test books for
              grade 3 or answer booklets for grades 4–8 and 10—and complete a Group Information Sheet for those
              test materials. The materials will be placed in envelopes labeled “For Test Booklets,” accompanied by
              the completed Group Information Sheets placed on the top. These envelopes will be returned to the Test
              Chairperson.

              Test Administrators should also return to the Test Chairperson all unused test books (grade 3) or all test
              books (grades 4–8 and 10), and the Test Directions.

              Test Invalidation

              Tests should be invalidated only in speciﬁc cases. A content-area section should be invalidated if a student
              becomes ill during the content-area section and is not able to complete the test. Tests should also be
              invalidated if there is clear evidence that a student received inappropriate assistance (i.e., cheating).
              Follow the directions below when invalidating a content-area section.

              Grade 3

              Mark the invalid content-area section by 1) ﬁlling in the small diamond that appears on the bottom of
              the ﬁrst page of the content-area section in the test book, and 2) ﬁlling in all the circles of the ﬁrst ﬁve
              multiple-choice questions in that content area.

              Grades 4–8 and 10
              Reading, Mathematics, and Science Only

              To mark a student’s test as invalid: 1) In the student’s answer booklet, ﬁll in the small diamond that
              appears next to the heading for Session 1 of the content-area section to be invalidated. 2) Then ﬁll in all
              the circles of the ﬁrst ﬁve multiple-choice questions in that content-area section.

              Composition (Grades 4, 7, and 10 Only)

              To indicate that a test booklet is invalid, the Test Administrator should ﬁll in the whole row of zeros in
              the ﬁeld titled “Special Use Only” on the back cover.

              Note: Invalidating a section of a content area invalidates the entire content area.




2009 Test Chairperson’s Manual                         District of Columbia Comprehensive Assessment System                15
              OUTLINE OF INSTRUCTIONS FOR PROCTORS
              Proctors
              It is recommended that, in addition to the Test Administrator, one person be present in the classroom
              to serve as a proctor during testing. A proctor can be a teacher’s aide, a parent, or other district/school
              personnel (e.g., music teachers, P.E. teachers, and counselors). Parents must not be proctors in the
              rooms where their children are being tested. Prior to the week of testing, proctors should be notiﬁed
              and informed of their duties.

              The information below shows a list of possible duties for proctors.

              Include in your training session a review of the Test Site Observation Report (see Appendix B).


              Prior to testing:
              1. Assist Test Administrator with completing student-identifying information on the back of test books
                 (grade 3) or answer booklets (grades 4–8 and 10), as necessary.

              2. Punch out mathematics manipulatives (punch-out tools) for the Mathematics content-area section of
                 the assessment.

              During testing:
              1. Check to ensure that students receive a test book (grade 3 and Composition) or a test book and
                 the corresponding answer booklet (grades 4–8 and 10). For the Mathematics content-area section
                 of the assessment, check to ensure that students receive punch-out tools and scratch paper. For the
                 Composition tests (grades 4, 7, and 10), ensure that each student has two sheets of Planning and
                 Draft paper.

              2. Walk around the room quietly and frequently to ensure that students
                 a. receive additional sharpened pencils when needed
                 b. follow instructions
                 c. are working on the appropriate content-area section of the assessment
                 d. mark their responses in the appropriate area of the test books (grade 3 and Composition) or
                   answer booklets (grades 4–8 and 10)
                 e. use only allowable materials
                 f. do not give help to or receive help from other students
                 g. are not using a calculator except on approved sections of the Mathematics test

              3. Refer all students’ questions to the Test Administrator.




16   District of Columbia Comprehensive Assessment System                              2009 Test Chairperson’s Manual
              After testing:
              1. For grades 4–8 and 10, check to make sure students have not left answer booklets inside test books.

              2. For all grades, check test books (grade 3) or answer booklets (grades 4–8 and 10) to make sure there
                are no sticky notes, staples, pins, paper clips, and no tape of any kind on any pages. Remove any of
                these extraneous materials.

              3. For the Mathematics content-area section of the assessment, check to be sure no punch-out tools or
                scratch paper were left inside the test books (grade 3) or answer booklets (grades 4–8 and 10).

              4. For the Composition tests, check to be sure no Planning and Draft pages have been left in the test
                books.

Step 6        DISTRIBUTE TEST MATERIALS
              The Test Chairperson should distribute the test materials on the morning of testing.

              • Test books and answer booklets—See Pages 6, 7, and 8 of this manual for list of assessment materials
                for each grade.

              • Punch-out tools—See Pages 6, 7, and 8 of this manual for punch-out tool needed for each grade.

              • Test Directions—one copy of the test directions for the grades they are administrating (grade 3 or
                grades 4–8 and 10)

              • Group Information Sheets (GISs)—one for each group of students and content area tested

                   grade 3—one GIS for Reading and Mathematics Test Books for each group of students tested

                   grades 4-8 and 10—one GIS for Reading and Mathematics Answer Booklets for each group of
                   students tested

                   grades 4, 7, 10—one GIS for Composition Test Booklets for each group of students tested

                   grades 5, 8, and Biology students—one GIS for Science or Biology Answer Booklets for each group
                   of students tested

              • Envelopes for Reading and Mathematics Test Books (grade 3), Reading, Mathematics, Science, and
                Biology Answer Booklets (grades 4–8 and 10), or Composition Test Booklets (grades 4, 7, and 10)—
                one for each group or class of students tested

              There must be separate Group Information Sheets and envelopes for test books and answer booklets for
              each class or group and content area (see above) to be tested. If you need additional Group Information
              Sheets or envelopes, please call 800-994-8579. Do not photocopy these documents.

              The Test Chairperson must complete a School Security Checklist for each Test Administrator receiving
              test materials. The Chairperson must write the quantity for bar-coded materials signed out and in with
              the Test Administrators. The Chairperson and the Test Administrator must initial the materials out and in
              each day.



2009 Test Chairperson’s Manual                       District of Columbia Comprehensive Assessment System             17
Step 7        FULFILL SCHOOL MATERIALS REQUESTS
              The Test Chairperson should ﬁll requests for additional materials within the school by using the overage
              material received and the School Security Checklist. The Chairperson must complete the School Security
              Checklist by identifying the school name and the Test Administrator receiving the materials. The Test
              Chairperson should write in the quantity of all test materials provided.


Step 8        USING THE PRECODED STUDENT LABEL AND COMPLETING
              THE STUDENT-IDENTIFYING INFORMATION
              Precoded student labels will be distributed by the Test Chairperson. The precoded student label will
              identify the student’s name, student ID number, birth date, ethnicity, gender, and grade. Each student’s
              label must be placed on the front cover of the test book or answer booklet in the space indicated in
              order for scores to be reported correctly.

              If a precoded student label is not provided for a student, or the information on the label is inaccurate,
              the student data grid on the back of the test book or answer booklet must be completed. An overage
              of answer booklets is provided to use for students who do not have a precoded student label or whose
              label shows inaccurate information.

              Check the precoded student label for accuracy:

              •   If the information on the precoded student label is correct, place the label on the front cover of
                  the test book or answer booklet in the space indicated. After testing, refer to Appendix A.1 for
                  instructions on completing test accommodation information for each student.

              •   If a precoded student label has been afﬁxed to the front cover of the test book or answer booklet
                  and some information on the label is subsequently determined to be inaccurate, the test book or
                  answer booklet can still be used by doing the following: Place two blank labels over the inaccurate
                  label. Then, bubble all information on the student data grid. Blank labels are sent speciﬁcally for
                  this use.




18   District of Columbia Comprehensive Assessment System                                2009 Test Chairperson’s Manual
COMPLETING STUDENT-IDENTIFYING INFORMATION PRIOR TO TEST ADMINISTRATION
Use the instructions in this section to complete the top section of the student data grid on the back of the answer
booklets (or test books for grade 3). This information should be completed prior to the administration of the ﬁrst testing
session of the assessment.


                                                      DISTRICT OF COLUMBIA
                                               COMPREHENSIVE ASSESSMENT SYSTEM 2009
                                                                                                                     Grade 3
                                  Student Name

                                  Teacher                                                                                 School

                             Last          STUDENT’S NAME                          First                                    M.I.            BIRTH DATE                      ETHNICITY
                                                                                                                                     Month      Day      Year                 (mark one)
                                                                                                                                                                        1   Asian/
                                                                                                                                      Jan       0   0    0   0              Paciﬁc Islander
                             A     A   A   A   A    A   A     A   A    A   A       A     A   A   A   A   A   A   A    A       A       Feb       1   1        1          2   Black
                             B     B   B   B   B    B   B     B   B    B   B       B     B   B   B   B   B   B   B    B       B       Mar       2   2        2              (non-Hispanic)
                             C     C   C   C   C    C   C     C   C    C   C       C     C   C   C   C   C   C   C    C       C       Apr       3   3        3          3   Hispanic
                             D     D   D   D   D    D   D     D   D    D   D       D     D   D   D   D   D   D   D    D       D       May           4        4
                             E     E   E   E   E    E   E     E   E    E   E       E     E   E   E   E   E   E   E    E       E       Jun           5        5          4   American Indian/
                             F     F   F   F   F    F   F     F   F    F   F       F     F   F   F   F   F   F   F    F       F       Jul           6        6              Alaska Native
                             G     G   G   G   G    G   G     G   G    G   G       G     G   G   G   G   G   G   G    G      G        Aug           7        7          5   White
                             H     H   H   H   H    H   H     H   H    H   H       H     H   H   H   H   H   H   H    H       H       Sep           8    8   8              (non-Hispanic)
                              I    I   I   I   I    I   I     I   I    I   I       I     I   I   I   I   I   I   I    I       I       Oct           9    9   9
                             J     J   J   J   J    J   J     J   J    J   J       J     J   J   J   J   J   J   J    J       J
                                                                                                                                                                             GENDER
                                                                                                                                      Nov
                             K     K   K   K   K    K   K     K   K    K   K       K     K   K   K   K   K   K   K    K       K       Dec                                   Female             Male
                             L     L   L   L   L    L   L     L   L    L   L       L     L   L   L   L   L   L   L    L       L
                                                                                                                                                     Place precoded STUDENT
                             M     M   M   M   M    M   M    M    M    M   M       M    M    M   M   M   M   M   M    M      M
                                                                                                                                   STUDENT ID NUMBER LABEL on front cover. If a
                             N     N   N   N   N    N   N     N   N    N   N       N     N   N   N   N   N   N   N    N       N                      precoded student label is used,
                             O     O   O   O   O    O   O     O   O    O   O       O     O   O   O   O   O   O   O    O      O                       the following data cannot be
                             P     P   P   P   P    P   P     P   P    P   P       P     P   P   P   P   P   P   P    P       P      0 0 0 0 0 0 0   modiﬁed: student name,
                             Q     Q   Q   Q   Q    Q   Q     Q   Q    Q   Q       Q     Q   Q   Q   Q   Q   Q   Q    Q      Q       1 1 1 1 1 1 1   birth date, ethnicity, gender,
                             R     R   R   R   R    R   R     R   R    R   R       R     R   R   R   R   R   R   R    R       R      2 2 2 2 2 2 2   and student ID number. If any
                             S     S   S   S   S    S   S     S   S    S   S       S     S   S   S   S   S   S   S    S       S      3 3 3 3 3 3 3   of that information is incorrect,
                             T     T   T   T   T    T   T     T   T    T   T       T     T   T   T   T   T   T   T    T       T      4 4 4 4 4 4 4   do not use the precoded
                             U     U   U   U   U    U   U     U   U    U   U       U     U   U   U   U   U   U   U    U       U      5 5 5 5 5 5 5
                                                                                                                                                     STUDENT LABEL. Instead,
                                                                                                                                                     ﬁll in all sections of this page.
                             V     V   V   V   V    V   V     V   V    V   V       V     V   V   V   V   V   V   V    V       V      6 6 6 6 6 6 6
                                                                                                                                                     For further instructions on
                             W     W   W   W   W    W   W    W    W    W   W       W    W    W   W   W   W   W   W   W       W       7 7 7 7 7 7 7
                                                                                                                                                     ﬁlling in information on this
                             X     X   X   X   X    X   X     X   X    X   X       X     X   X   X   X   X   X   X    X       X      8 8 8 8 8 8 8
                                                                                                                                                     page, please refer to the Test
                             Y     Y   Y   Y   Y    Y   Y     Y   Y    Y   Y       Y     Y   Y   Y   Y   Y   Y   Y    Y       Y      9 9 9 9 9 9 9
                                                                                                                                                     Directions or Test Chairperson’s
                             Z     Z   Z   Z   Z    Z   Z     Z   Z    Z   Z       Z     Z   Z   Z   Z   Z   Z   Z    Z       Z                      Manual.

                                                   ENGLISH LANGUAGE LEARNER                                                         PROGRAM PARTICIPATION (mark all that apply)
                                                   ACCESS FOR ELL PROFICIENCY LEVEL                                                Special Education
                                                                      (mark one)                                                   English Language Learner
                                                                                                                                                                                  SPECIAL
                                                                                                                                   Section 504
                                                                                                                                                                                  USE ONLY
                                                    1       Level 1            3       Level 3                                     Title I Targeted Assisted
                                                    2       Level 2            4       Level 4                                     Home Schooling (not enrolled in a
                                                                                                                                   public school)                                 0    0   0   0

                                                                                                                                   Retake (select option if student
                                                                                                                                   has participated in the assessment
                                                                                                                                   previously)




For all students:

On the back of the answer booklets (or test books for grade 3 and Composition), in the top section, print the student’s
name, the teacher’s name, and the name of the school.

For only those students who do not have a precoded student label or whose label shows inaccurate information:

All the following ﬁelds must be completed according to the information on the next page.

   * Student Name                              * Gender
   * Birth Date                                * Student ID Number
   * Ethnicity




2009 Test Chairperson’s Manual                                                                               District of Columbia Comprehensive Assessment System                                     19
               INSTRUCTIONS FOR COMPLETING STUDENT-IDENTIFYING INFORMATION
                 Turn to the back cover of your answer booklet (or test book for grade 3 and Composition). In
                 the top section, print your name, the teacher’s name, and the name of the school. I have put
                 the teacher name and school name on the board to show you exactly how they should be
                 printed.

                   Pause while students complete the information in the header space.

                   If all students have an answer booklet (or test book for grade 3 and Composition) with a precoded
                   student label afﬁxed on the front cover, proceed to the test administration directions on Page 14 of
                   the Test Directions Manual for Grade 3, and Page 20 of the Test Directions for Grades 4–8 and 10
                   (Reading and Mathematics), Page 44 (Composition), or Page 49 (Science or Biology).

Completing the Student Data Grid with Students

                   If the answer booklets (or test books for grade 3 and Composition) do not have a precoded student
                   label on the front cover—and the student-identifying information on the student data grid has not
                   been completed—proceed with these directions for students to complete the top half of the student
                   data grid.


                 Below the top section, ﬁnd the heading “STUDENT’S NAME.” For “Last,” start at the left and
                 print one letter in each box. Print as many letters of your last name as will ﬁt in the boxes
                 provided. If you do not need all the boxes, leave those boxes blank. Repeat this procedure
                 for “First,” and then print the ﬁrst letter of your middle name under “M.I.” Do not print a
                 nickname or shortened name.

                 Below each box that shows a letter of your name, ﬁll in the appropriate circle for that letter.
                 If you left some boxes blank, ﬁll in the empty circles for those boxes.

                 Are there any questions?

                   Pause to answer any questions and to allow students time to complete this ﬁeld.

                 In the section to the right of your name, ﬁnd the heading “BIRTH DATE.” Under “Month,” ﬁll
                 in the circle that corresponds to the month of your birth date. Then under “Day,” ﬁll in two
                 circles. If you were born on the ﬁrst through the ninth of the month, ﬁll in a circle for zero
                 and then the number that corresponds to the correct day. For “Year,” ﬁll in the two circles
                 that indicate the last two digits of the year you were born.

                   Pause while students complete this ﬁeld.

                 To the right of “BIRTH DATE,” ﬁnd the heading “ETHNICITY.” Fill in the one circle that best
                 identiﬁes your ethnic origins.

                 Are there any questions?

                   Pause to answer any questions and to allow students time to complete this ﬁeld.




20   District of Columbia Comprehensive Assessment System                            2009 Test Chairperson’s Manual
               Below “ETHNICITY,” ﬁnd the heading “GENDER” and ﬁll in the appropriate circle to identify
               your gender.

                  Pause.

               Below “BIRTH DATE,” ﬁnd the heading “STUDENT ID NUMBER.” In the boxes above the
               circles, print the seven-digit number that is your ID number. Then ﬁll in the appropriate circle
               below each number.

                  Pause while students complete this ﬁeld. Then turn to Page 14 of the Test Directions Manual
                  for Grade 3 (Reading and Mathematics), Page 20 of the Test Directions for Grades 4–8 and 10
                  (Reading and Mathematics), Page 44 (Composition), or Page 49 (Science or Biology) for directions to
                  continue the administration.
                 The remaining information ﬁelds on the grid should not be ﬁlled in until after the test
                 administration. See below for ﬁlling in the lower part of the grid after the test.

              COMPLETING ADDITIONAL STUDENT INFORMATION AFTER THE TEST
              The following codes could not be precoded and must be completed for all students.

              ENGLISH LANGUAGE LEARNER–See Appendix A.2 on Page 31.

              Complete the appropriate codes in the following ﬁelds for English Language Learners:

              o ACCESS FOR ELL PROFICIENCY LEVEL (mark one)

                   1       Level 1       3     Level 3
                   2       Level 2       4     Level 4


              PROGRAM PARTICIPATION (mark all that apply)


                           Special Education
                           English Language Learner
                           Section 504
                           Title I Targeted Assisted
                           Home Schooling (not enrolled in a public school)
                           Retake (select option if student has participated
                           in the assessment previously)


              SPECIAL USE ONLY–DO NOT MARK. The Special Use Only ﬁeld is to be used by CTB only.




2009 Test Chairperson’s Manual                           District of Columbia Comprehensive Assessment System 21
                  SPECIAL EDUCATION ACCOMMODATIONS
                  For more information regarding permissible test accommodations for special education accommodation
                  levels, see the Appendix at the end of this manual.


                                                                                     District of Columbia

                                                        Comprehensive Assessment System 2009


             Student Name



                                                                                                Accommodations
                                                                                                  (mark all that apply)


                    Timing/Scheduling Accommodations                                        Equipment Accommodations                                           Setting Accommodations
                   01 Flexible scheduling (SWD)                                        01   Computers                                                  01   Preferential seating (SWD)
                   02 Test administered over several days (SWD)                        02   Calculators                                                02   Small group testing (SWD)
                   03 Test administered at best time of day for student                03   Pencil grip                                                03   Individual testing
                      (SWD)                                                            04   Student responses to constructed-response                  04   Special lighting
                   04 Breaks allowed between subtests (SWD)                                 items may be taped for transcription                       05   Location with minimal distractions
                   05 Extended time on subtests (SWD)                                                                                                  06   Adaptive or special furniture
                   06 Breaks allowed during a subtest (SWD, ELP Level 1)                                                                               07   Noise buffer
                                                                                                                                                       08   Person familiar with student administers the test



                        Presentation Accommodations                                         Response Accommodations                                             Other Accommodations
                   01   Repetition of directions (SWD)                                 01   Use of large print test materials                          01 Assisted reading of comprehension passages on
                   02   Simplification of oral directions (SWD)                        02   Use of Braille test materials                                 reading test (nonstandard)
                   03   Use of masks or markers to maintain place (SWD)                03   Oral response to tests                                     02 Assisted reading of entire reading
                   04   Use of magnifying glass                                        04   Write in test books                                           comprehension test (nonstandard)
                   05   Amplification equipment                                        05   Students indicate answers to multiple-                     03 Oral reading of test in English limited to test
                   06   Interpretation of oral directions                                   choice questions by pointing or other                         questions and answers choices (ELP Level 1)
                                                                                            method
                   07   Reading of test questions (Math only)                                                                                          04 Oral reading of test in English, including test
                   08   On-the-spot translation of words or phrases                    06 Student dictates to examiner responses                          passages, questions, and answer choices (on
                        (Math only)                                                       to constructed-response items                                   Math and Science portions only)

                   09   Assistance with interpretation of directions                                                                                   05 Other (approved by OSSE)
                   10   Oral reading of directions
                   11   Simplification of writing prompt (on writing test)
                   12   Use of English dictionaries and bilingual
                        dictionaries




            Developed and published under contract with District of Columbia Schools by CTB/McGraw-Hill LLC, a subsidiary of The McGraw-Hill Companies, Inc., 20 Ryan Ranch Road, Monterey, California
            93940–5703. Copyright © 2009 by District of Columbia Public Schools. All rights reserved. No part of this publication may be reproduced or distributed in any form or by any means, or stored in a
            database or retrieval system, without the prior written permission of the District of Columbia Public Schools.




22   District of Columbia Comprehensive Assessment System                                                                                                      2009 Test Chairperson’s Manual
                  ;li`e^K\jk`e^Ç@ejkilZk`fej]fiK\jk:_X`ig\ijfej



              During testing, the Test Chairperson should do the following:

              • Sign out and sign in secure materials on a daily basis. You may pre-assign materials to help facilitate
                the process.

              • Be available to answer questions that might arise.

              • Make sure that directions are not read over the Public Address System.

              • Oversee the test administration. Make sure that materials for each test are available and all
                administration procedures are being followed. Make sure that unspeciﬁed supplemental materials are
                not being used.

              • Ensure that all school personnel involved in the test administration adhere to the security guidelines.
                Any breach of test security must be reported.

              • Make sure that the circumstances surrounding signiﬁcant disruptions in normal testing are
                documented and kept on ﬁle in the school ofﬁce (e.g., a student is suspected of cheating). Copies of
                the documentation related to disruptions must be sent to the OSSE Division of Assessment and Data
                Reporting.

              • On each testing day, sign out and sign in all test books and any answer booklets that contain student
                responses. These secure materials must be returned at the end of testing. The test book (grade 3 and
                Composition) or answer booklet (grades 4–8 and 10) of any student who attempted any test must be
                sent in for scoring.

              • If there are missing secure materials (i.e., test materials initially received by the Test Administrator but
                not returned), alert CTB and document this with as many details as are known.




2009 Test Chairperson’s Manual                         District of Columbia Comprehensive Assessment System 23
                  8]k\iK\jk`e^Ç@ejkilZk`fej]fiK\jk:_X`ig\ijfej



Step 1        RECEIVING AND CHECKING TEST MATERIALS
              Following test administrations, the Test Chairperson should conﬁrm receipt of all materials from each
              Test Administrator. Immediately contact your district Testing Director or Coordinator if materials are
              missing.


              Review School Security Checklist
              The School Security Checklist for each Test Administrator should be reviewed to ensure that the quantity
              and the beginning and ending serial numbers for bar-coded materials were signed out and signed in
              with the Test Administrators. The Chairperson and the Test Administrator should have initialed the
              materials out and in each day.

              Check Group Information Sheet
              The Group Information Sheet is shown on the next page. Instructions for checking each section for
              completeness and accuracy follow.

              The appropriate Group Information Sheet for all grades is purple. CTB Group Information Sheets
              used for other testing must not be used for the District of Columbia Comprehensive
              Assessment System.

              The Group Information Sheet contains information precoded for a speciﬁc school. Therefore, Group
              Information Sheets may not be exchanged between schools.

              There is a Group Information Sheet for the Reading/Mathematics Test Books (Grade 3), Reading/
              Mathematics Answer Booklets, one for Composition Test Booklets, one for Science Answer Booklets,
              and one for the Biology Answer Booklets. Be sure to use the correct sheet. The identifying content area
              information is in small black text in the lower right-hand corner of the Group Information Sheet.

              It is essential that a complete and accurate Group Information Sheet be placed on top of each stack of
              Reading/Mathematics Test Books (grade 3), Reading/Mathematics Answer Booklets (grades 4–8 and 10),
              Composition Test Booklets (grades 4, 7, and 10), Science Answer Booklets (grades 5 and 8), or Biology
              Answer Booklets (grades 8–12) for which scores will be reported together.




24   District of Columbia Comprehensive Assessment System                             2009 Test Chairperson’s Manual
                                 1                                   2         3




WHEN YOU CHECK THIS…             LOOK FOR THESE:
 1    Teacher Name               The Test Administrator’s last name should be printed in the boxes, and then the
                                 ﬁrst name or initial if needed. Under each box, the circle with the same letter
                                 should be ﬁlled in.


 2    Number Students Testing    The number of students whose completed test books (grade 3) or completed
                                 answer booklets (grades 4–8 and 10) are being returned under this Group
                                 Information Sheet should be printed in the boxes and the corresponding circles
                                 ﬁlled in. Fill in a circle for each column, using leading zeros if necessary. This
                                 number should not include the answer booklets of any students not tested.


 3    Grade                      The circle that shows the grade of the students being tested should be ﬁlled in.




2009 Test Chairperson’s Manual                  District of Columbia Comprehensive Assessment System 25
Step 2        ORGANIZING AND PREPARING TEST MATERIALS

              Complete the School/Group List
              The School/Group List is shown below. One School/Group List needs to be ﬁlled out for Reading/
              Mathematics (R/M), one for Science and Biology, and one for Composition (COMP). Instructions for
              checking each section for completeness and accuracy appear on the next page.




26   District of Columbia Comprehensive Assessment System                          2009 Test Chairperson’s Manual
              The appropriate School/Group List is speciﬁc to the District of Columbia Comprehensive Assessment
              System. Any other CTB School/Group Lists used for testing other students must not be used for the
              District of Columbia Comprehensive Assessment System.

              The School/Group List contains information precoded for a speciﬁc school. Therefore, School/Group Lists
              must not be exchanged between schools.




WHEN YOU CHECK THIS…                      LOOK FOR THIS:
 1    District/Element Name, School        This information should be precoded.



 2    Area or Region, School Number        This information should be precoded.



 3    Contact Person, Phone Number         Please provide the name of a school site contact person, either the Test
                                           Chairperson or another person, and provide the contact person’s phone
                                           number.



 4    Teacher, Grade                       In order of grade, list each group by the name shown on the Group
                                           Information Sheet (GIS) —typically the classroom teacher’s name. Then in
                                           the “Grade” column, list the grade for each teacher.



 5    Number Tested                        For each group, write the number of students tested. This should be the
                                           same as the “Number Students Testing” on the corresponding GIS. This
                                           number should not include non-tested students.




2009 Test Chairperson’s Manual                       District of Columbia Comprehensive Assessment System 27
Step 3        PREPARING TEST MATERIALS FOR SHIPMENT

              Reuse Pink Shipping Cartons
              The pink boxes in which test materials were delivered to you
              are the only boxes permissible for return shipping. Ensure that
              former labels and other markings have been removed or covered.


              Preparing Scorable Test Materials
              • Reading and Mathematics Test Books (Grade 3)
              • Reading and Mathematics Answer Booklets                  SCORABLE

                 (Grades 4–8 and 10)
              • Composition Test Booklets (Grades 4, 7, and 10)
              • Science (Grades 5 and 8) and Biology (Grades                        ADAMS ES
                                                                                                    1 of 2
                 8–12) Answer Booklets

              Stack the envelopes containing completed Group Information Sheets and completed test books or
              answer booklets ﬂat in the cartons. If testing more than one grade, number the envelopes “1 of 4,”
              “2 of 4,” and so on. Example: If grade 3 scorable materials ﬁt in four envelopes and grade 4 scorable
              materials ﬁt in two envelopes, then number them so CTB will know where each grade’s materials begin.
              Place the School/Group List on top of the stacks of envelopes for each associated group of materials.

              Write the School Name on the outside of each “scorable” carton and number the cartons “1 of 2,”
              “2 of 2,” etc.


              Preparing Nonscorable Test Materials
              Although the students in grades 4–8 and 10
              do not mark the Reading and Mathematics,                                                       SOUTH CAROLINA STATE ED DEPT
                                                                                                             TERRANOVA SPRING 2000 ADMIN
                                                                                                             GRADES 5,8,AND 11
                                                                                                                                                                      SHIP TO:

                                                                                                                                                                      SCHOOL NUMBER
                                                                                                                                                                      SCHOOL NAME

                                                                                                                                                                      C/O DISTRICT NUMBER
                                                                                                                                                                      DISTRICT NAME
                                                                                                             SCHOOL PACKING LIST                                      DISTRICT ADDRESS




              Science, and Biology test books with their
                                                                                                             (PLEASE KEEP A COPY FOR YOUR RECORDS)                    ATTN: TEST COORDINATOR

                                                                                                                                                                      MARCH 25, 2000

                                                                                                                                                                                   PAGE 1

                                                                                                                            PACKING LIST # 627684757-1

                                                                                                                     UNIT                                                        COMMOD     SEQ#     SEQ#
                                                                                                             QUANT   SIZE                                                        CODE       BEGIN    END



              responses, the test books remain secure
                                                                                                             6              Grade 5 Student Book                                            000101
                                                                                                             6              Grade 8 Student Book                                            001001

                                                                      NONSCORABLE                            6
                                                                                                             6
                                                                                                             6
                                                                                                                            Grade 11 Student Book
                                                                                                                            Grades 4-11 Test Directions
                                                                                                                            Grades 4-11 Test Administrator's Manual
                                                                                                                                                                                            000011
                                                                                                                                                                                            001101

                                                                                                             3              TN Level 13 Practice Test/Directions
                                                                                                             3              TN Levels 16-18 Practice Test/Direction
                                                                                                             6              Booklet Return Envelopes




              documents and must be returned to CTB. Test
                                                                                                             6              Answer Sheet Return Envelopes
                                                                                                             3              Grade 4-11 Math Manipulative




              Chairpersons should not return Test Directions,
              math manipulatives (punch-out tools), or unused
                                                                                ADAMS ES
              answer booklets to CTB.                                                      1 of 2



              Arrange all unused test books by serial number (this includes any that may have been provided to
              make up for shortages). Use the School Packing List and the School Security Checklist that came with
              your materials to verify that all test books delivered to your school are being returned. Place all unused
              grade 3 test books and all grades 4–8 and 10 unused test books in cartons for returning test materials,
              with the original copy of the School Packing List and the School Security Checklist on top. Retain a
              copy of each for your ﬁles. Write your School Name on the outside of each “nonscorable” carton and
              number the cartons “1 of 3,” “2 of 3,” and “3 of 3.”




28   District of Columbia Comprehensive Assessment System                              2009 Test Chairperson’s Manual
              Add Packing Material to Cartons
              Add enough packing material to hold the documents securely in place during transit. Then seal each box
              tightly with packing tape. As each box is sealed, be sure to maintain separation between “nonscorable”
              materials and “scorable” materials.


Step 4        SHIPPING TEST MATERIALS
                                                                                                Return Shipping
              Attach the Appropriate (“Scorable” or “Nonscorable”)                       The return shipping window will
              Shipping Label to Each Carton                                              be open from 5/4/09–5/7/09.
              Attach or afﬁx the appropriate shipping label to each carton of
              materials. These labels are included in your Test Chairperson’s Packet.

              Mark the Cartons
              Use the yellow labels for the scorable materials.

              On the return shipping label, ﬁll in the number of scorable boxes
              you’re returning, and mark each label on each carton with a unique
                                                                                         YELLOW–Scorable Materials
              number, such as “1 of 3,” “2 of 3,” “3 of 3.”

              Use the blue labels for the cartons of nonscorable materials: unused
              test books for grade 3 and/or all test books for grades 4–8 and 10.

              On the return shipping label, ﬁll in the number of nonscorable boxes
              you’re returning, and mark each label on each carton with a unique
              number, such as “1 of 3,” “2 of 3,” “3 of 3.”


              Ship Cartons to CTB/McGraw-Hill                                            BLUE–Nonscorable Materials

              After you have ﬁnished packaging, sealing, labeling, and numbering
              your boxes, you will be ready to register online for return
              shipping. Please note that the scheduled retrieval takes place
              several days after you make your retrieval arrangements. You
                                                                                                          ADAMS ES
              or your principal’s designee must plan to be present at your              ADAMS ES                    2 of 2

              site for at least three days after you register for test materials                 1 of 2
              retrieval to ensure that test materials are picked up before the
              deadline. Test materials retrieval will not occur on the same
              day that you register for it. The deadline to register for test
              materials retrieval is May 4, 2009, to ensure that all materials
              are picked up by May 11, 2009. You may access CTB’s online
              registration for return shipping as follows:

               1. In your web browser’s address line, enter www.ctb.com/dc-cas.

               2. Click on “CTB Navigator” on the left side menu under Quick Links.




2009 Test Chairperson’s Manual                          District of Columbia Comprehensive Assessment System 29
               3. Enter your User ID and Password (same User ID and Password as for your Spring 2009 Online
                  Enrollments).

               4. Click the LOG IN button. You will be directed to the CTB Navigator™ “My Programs Overview”
                  page.

               5. On the CTB Navigator™ “My Programs Overview” page, click on the “ONLINE TRANSPORTATION”
                  link located under the Materials Tracking section.

               6. Select DC GR. 3-8 & 10 Spring 2009 Administration. Then click the SELECT button. This will direct
                  you to the Site Summary page for your school.

               7. Click on the “GO TO PICKUPS” link in the upper left hand corner of the page.

               8. Verify all information on the registration page is correct. Be sure the e-mail address listed is correct.
                  This will be the address that the scheduled pickup conﬁrmation information will be sent to.

               9. In the appropriate ﬁeld, enter the number of boxes to be picked up by label color (yellow for
                  scorable materials, blue for nonscorable materials). You must enter a “zero” if you have no boxes
                  of a particular label color. It is important that you enter the exact number of boxes that you have
                  packaged, sealed, labeled, numbered, and separated by color label.

              10. When you have ﬁnished entering your information, click on the SUBMIT button.

              You will receive an initial e-mail conﬁrming receipt of the registration and a second e-mail
              informing you of the exact pickup arrangements and procedures.

              If you have any questions or have difﬁculty accessing the return-shipping registration page, please call
              the CTB DCPS Customer Service line at 1-800-994-8579.

              All materials must be picked up by close of business, May 11, 2009. The school contact person
              will need to designate the school’s hours of operation and have school personnel on site to ensure UPS
              pickup by 4:30 P.M.




30   District of Columbia Comprehensive Assessment System                               2009 Test Chairperson’s Manual
8gg\e[`o8%(1Jg\Z`Xc<[lZXk`feK\jk8ZZfddf[Xk`feC\m\cj
Timing/Scheduling Accommodations
 1. Flexible scheduling (SWD)
 2. Test administered over several days (SWD)
 3. Test administered at best time of day for student (SWD)
 4. Breaks allowed between subtests (SWD)
 5. Extended time on subtests (SWD)
 6. Breaks allowed during a subtest (SWD, ELP Level 1)

Equipment Accommodations
1. Computers
2. Calculators
3. Pencil grip
4. Student responses to constructed response items may be taped for transcription

Setting Accommodations
 1. Preferential seating (SWD)
 2. Small group testing (SWD)
 3. Individual testing
 4. Special lighting
 5. Location with minimal distractions
 6. Adaptive or special furniture
 7. Noise buffer
 8. Person familiar with student administers the test

Presentation Accommodations
 1. Repetition of directions (SWD)
 2. Simpliﬁcation of oral directions (SWD)
 3. Use of masks or markers to maintain place (SWD)
 4. Use of magnifying glass
 5. Ampliﬁcation equipment
 6. Interpretation of oral directions
 7. Reading of test questions (Math only)
 8. On-the-spot translation of words or phrases (Math only)
 9. Assistance with interpretation of directions
10. Oral reading of directions
11. Simpliﬁcation of writing prompt (on writing test)
12. Use of English dictionaries and bilingual dictionaries




2009 Test Chairperson’s Manual                           District of Columbia Comprehensive Assessment System   31
Response Accommodations
 1. Use of large print test materials
 2. Use of Braille test materials
 3. Oral response to tests
 4. Write in test books
 5. Students indicate answers to multiple-choice questions by pointing or other method
 6. Student dictates to examiner responses to constructed-response items

Other Accommodations
1. Assisted reading of comprehension passages on reading test (nonstandard)
2. Assisted reading of entire reading comprehension test (nonstandard)
3. Oral reading of test in English limited to test questions and answers choices (ELP Level 1)
4. Oral reading of test in English including test passages, questions and answer choices (on Math and Science
     portions only)
5. Other (approved by OSSE)




32     District of Columbia Comprehensive Assessment System                              2009 Test Chairperson’s Manual
8gg\e[`o8%)18ggifm\[8ZZfddf[Xk`fej]fiC`e^l`jk`ZXccpXe[
              :lckliXccp;`m\ij\C:; Jkl[\ekjfeJkXk\K\jk`e^
The Ofﬁce of Bilingual Education (OBE) will provide DCPS schools with a report indicating the Category of Participation
for each LCD student in the school. Schools are to comply with the indicated categories of participation, and do not have
the option of altering categories. Schools do, however, have the option to choose accommodations appropriate for their
students within the categories, and will be asked to document the accommodations within the prescribed categories that
the students actually received.
ELP Level 1: Approved accommodations: All of the accommodations listed in Roman numerals I and II, plus all
                of the accommodations listed under Roman numerals III and IV
             I. Direct Linguistic Support Accommodations
                a. Oral reading of test in English (including test passages, questions and answer choices—Math and
                   Science Assessment Only)
                b. Oral reading of test in English (test questions and answer choices—for the Reading Assessment)
            II. Indirect Linguistic Support Accommodations
                Test Scheduling Accommodations
                c. Breaks during a subtest (lasting no longer than 3-5 minutes)
ELP Levels 2-4: Approved accommodations: All of the accommodations listed under Roman numerals III and IV
           III. Direct Linguistic Support Accommodations
                d. Oral reading of directions
                e. Repetition of directions
                f. Simpliﬁcation of directions
                g. Simpliﬁcation of writing prompt (on Writing test)
                h. Use of English dictionaries and bilingual dictionaries (Math & Science only)
                i. Use of place markers to maintain place
           IV. Indirect Linguistic Support Accommodations
               Test Scheduling Accommodations
               j. Extended testing time
               k. Time of day most beneﬁcial to student (morning or afternoon)
               l. Extra or longer breaks allowed between subtests
               m.Flexible scheduling (order of subtests is altered)
               n. Test administered over several days (one or two subtests per day)
               Test Environment Accommodations
               o. Person familiar with student administers test
               p. Preferential seating
               q. Small group testing
English Proﬁcient (EP), EP Monitored: No accommodations. Students participate fully in testing without
accommodations.
Important Notes:
1. Students receiving the use of dictionaries accommodation must also receive the extended testing time
   accommodation.
2. Students receiving the oral reading, breaks during subtest, use of dictionaries, or extended time
   accommodation must be tested in a separate setting.
3. The use of unfamiliar or inappropriate accommodations may have a negative impact on testing. Only those
   accommodations familiar to students and believed to facilitate a student’s content knowledge and skills
   should be used.


2009 Test Chairperson’s Manual                          District of Columbia Comprehensive Assessment System        33
8gg\e[`o91K\jkJ`k\FYj\imXk`feI\gfik




                          3.


                          4. Procedures were in place to distribute and retrieve secure test
                             materials used in make up sessions.




                                            (special populations DC CAS-ALT).




                                                     -1-



34   District of Columbia Comprehensive Assessment System                          2009 Test Chairperson’s Manual
         Provisions for Students Who Require Additional Time to Complete the Test Session(s)

         Yes    No

                       1. Adequate provisions were made for students who needed additional
                          time to complete the test session.

                       2. Provisions for students who needed additional time were implemented
                          without disturbance to students who completed the test within the
                          scheduled time frames.

                       3. Students who required additional time completed the session during the
                          period scheduled for the day. That is, no student in general education
                          began a test session and completed it on another day, after lunch, etc.




                                                   -2-



2009 Test Chairperson’s Manual                   District of Columbia Comprehensive Assessment System   35
                            TEST SITE OBSERVATION REPORT
        PART B
        ADMINISTRATIVE PROCEDURES                                             Yes No Not
                                                                                     Observed
        1. Proctors monitor assigned stations
        2. Manual available and in use by test supervisor
        3. Sufficient supply of tests for administration
        4. Extra pencils, erasers, scratch paper supplied and available
           to students
        5. Test materials handed to each examinee individually by a
           member of the test administration team
        6. Test materials checked to ensure that answer booklets (grades
           4-8 and 10) correspond to the correct test book forms and grades
        7. Students are informed of the procedures that will be used to
           accommodate students who need extra time to complete the
           test sessions?
        8. Adherence to test directions as stated in the manual
        9. Test administration process starts on time and in keeping with
           school’s testing schedule
        10. No students admitted after the start of testing
        11. Adherence to suggested limits; use of functional timepiece
        12. Students checked as to their correct use of answer booklet
        13. Students periodically informed as to the amount of time
             remaining for testing
        14. Materials collected promptly, systematically, completely
             from each student
        15. Test material checked and counted before dismissal of
             examinees

        SEATING ARRANGEMENTS                                                  Yes No Not
                                                                                     Observed
        1. Adequate spacing between seats and rows for self-reliance by
           students
        2. Provisions for left-handed examinees
        3. All examinees facing forward and in the same direction (unless
           tables were used)

        TEST ENVIRONMENT                                                             Not
                                                                              Yes No Observed
        1. Desks/tabletops clear
        2. Good heat, light, ventilation
        3. Limitation of unnecessary interruptions
        4. Good atmosphere for quiet work
        5. Administration free of disturbances or irregularities
        6. Students cooperating with test administration directives

        DELIVERY OF TEST DIRECTIONS                                                  Not
                                                                              Yes No Observed
        1. Provisions for microphone for large groups
        2. Clear, loud voice heard all over room
        3. Instructions read clearly and verbatim from manual
                                                   -3-


36   District of Columbia Comprehensive Assessment System                     2009 Test Chairperson’s Manual
                                  -4-




2009 Test Chairperson’s Manual   District of Columbia Comprehensive Assessment System   37
                                 TEST SITE OBSERVATION REPORT

                 PART C (Summary)

                 School Summary Findings

                 After completing Parts A and B, please evaluate the total school program using the rating
                 scale below:

                 Percent of students tested: _________________

                                               Poor   Fair      Good        Excellent      Outstanding
                                                 1     2          3            4               5

           1.    Test Security                  ( )     ( )       ( )          ( )              ( )

           2.    Provisions for Students
                 Who Do Not Take the Tests      ( )     ( )       ( )          ( )              ( )

           3.    Administrative Procedures      ( )     ( )       ( )          ( )              ( )

           4.    Seating Arrangements           ( )     ( )       ( )          ( )              ( )

           5.    Accommodations for
                 Special Populations            ( )     ( )       ( )          ( )              ( )

           6.    Test Environment               ( )     ( )       ( )          ( )              ( )

           7.    Delivery of Test Directions    ( )     ( )       ( )          ( )              ( )

           8.    Facilities                     ( )     ( )       ( )          ( )              ( )

           9.    Provisions for Students Who
                 Require Additional Time to
                 Complete the Test Sessions     ( )     ( )       ( )          ( )              ( )


                 Overall Rating of Program      ( )     ( )       ( )          ( )              ( )

                                                1-9   10-18     19-27         28-36           37-45

                 Overall Comments:
                 _______________________________________________________________________

                 _______________________________________________________________________

                 _______________________________________________________________________



                 Monitor’s Signature:________________________________________ Date:__________
                                                       -5-




38   District of Columbia Comprehensive Assessment System                             2009 Test Chairperson’s Manual
8gg\e[`o:1:fdd\ek=Xo=fid




2009 Test Chairperson’s Manual   District of Columbia Comprehensive Assessment System   39
8gg\e[`o;1J_fik&8[[=Xo=fidÇI\X[`e^Xe[DXk_

                                                           D ISTRICT of C OLUMBIA
                                                          C o m prehensive A sses s men t Sy s te m
                                                                  Shor t /A d d Fax F or m
                                                                    Reading and Math
           This form is to be completed by the School Test Chairperson only. Use this form if you have any discrepancies between your
           packing list and the materials received. Fill in the quantity for each piece that is needed. Fax your request to the attention of
           CTB DC-CAS Customer Service at 866-282-2251 or if you have any questions, please call 800-994-8579. Thank you.

           All information requested below must be completed in order to process your request.

           Contact Person/Test Chairperson:                ____________________________________________________________________
           Phone Number:            (      )______________________                    Fax Number:            (      )_________________________________
           (Requests will be shipped to this address—NO P.O. Boxes)
           School Name:           _________________________________________                               School Number:           ________________________
           School Address:          __________________________________________________________________________________
           City/State:      _____________________________________________                                 Zip Code:        _____________________________

           Test Materials – The test books and answer booklets are secure materials and must not be copied (Fill in the
           quantity for each item that is needed:

           Title                                                                                                                                Code
           _____ Grade 3 Tes t Book Form 1 and Form 2                                                                                     21326- 01 and 02
           _____ Grade 4 Tes t Book Form 1 and Form 2                                                                                     21327- 01 and 02
           _____ Grade 5 Tes t Book Form 1 and Form 2                                                                                     21328- 01 and 02
           _____ Grade 6 Tes t Book Form 1 and Form 2                                                                                     21329- 01 and 02
           _____ Grade 7 Tes t Book Form 1 and Form 2                                                                                     21330- 01 and 02
           _____ Grade 8 Tes t Book Form 1 and Form 2                                                                                     21331- 01 and 02
           _____ Grade 10 Test Book Form 1 and Form 2                                                                                     21332- 01 and 02

           _____ Grade 4 Answer Book Form 1 and Form 2                                                                                    21333-01 and 02
           _____ Grade 5 Ans wer Book Form 1 and Form 2                                                                                   21334- 01 and 02
           _____ Grade 6 Ans wer Book Form 1 and Form 2                                                                                   21335- 01 and 02
           _____ Grade 7 Ans wer Book Form 1 and Form 2                                                                                   21336- 01 and 02
           _____ Grade 8 Ans wer Book Form 1 and Form 2                                                                                   21337- 01 and 02
           _____ Grade 10 Answer Book Form 1 and Form 2                                                                                   21338- 01 and 02

           _____ Grade 3 Test Directions                                                                                                         21339
           _____ Grade 4- 8 & 10 Test Direc tions                                                                                                21340
           _____ Grade 3 Ma t h Ma nipulativ es                                                                                                  53493
           _____ Grades 7, 8 & 10 Ma t h Ma nipulativ es                                                                                         53494
           _____ Grade 10 Ma t h Re f ere n c e She e t                                                                                          48553


           Test Chairperson Kit (Please encourage photocopying whenever possible):

           _____         Test Chairperson Manual – Code 21341
           _____         School/Group List (SGL) – may be photocopied
           _____         Group Information Sheet (GIS) – DO NOT photocopy
           _____         Return envelopes for Test Books and Answer Books – Code 67316
           _____         Yellow Return Label - SCORABLE (indicate number of sheets needed: 4 labels per sheet)
           _____         Blue Return Label - NON-SCORABLE (indicate number of sheets needed: 4 labels per sheet)

                                                              Fax this form to: 866-282-2251
                                                        Attention: CTB DC-CAS Customer Service

           Thank you for providing us with your contact information. We will use this information only to fulfill your order. We store this information in a secure database at
           CTB/McGraw-Hill in the U.S. For more information on our privacy practices, send an email to the privacy official at privacyofficer@ctb.com or call 831.393.6207. If
           you would like more information on The McGraw-Hill Companies Customer Privacy Policy, please visit http://www.mcgraw-hill.com/privacy.html.




2009 Test Chairperson’s Manual                                                       District of Columbia Comprehensive Assessment System 41
8gg\e[`o<1J_fik&8[[=Xo=fidÇ:fdgfj`k`fe




2009 Test Chairperson’s Manual   District of Columbia Comprehensive Assessment System   43
8gg\e[`o=1J_fik&8[[=Xo=fidÇJZ`\eZ\




2009 Test Chairperson’s Manual   District of Columbia Comprehensive Assessment System   45
8gg\e[`o>1CfZXcJZ_ffcI\jgfej`Y`c`k`\j@e@dgc\d\ek`e^K_\JkXk\
            8jj\jjd\ekGif^iXdj
Public schools in the District of Columbia and private/residential schools that receive tuition payments for DC students
are required to implement the state assessment programs according to the guidelines established by the Ofﬁce of
the State Superintendent. Therefore, school administrators, test chairpersons, test administrators, proctors and other
identiﬁed personnel who assist with the local school testing programs are expected to review and adhere to State
guidelines in executing their professional responsibilities to their local programs.

The primary responsibilities of the principal, test chairperson, local school testing committee, and proctor in
implementing the state assessments are as follows:

The Principal is responsible for:

   U  Ensuring that the test coordinator is trained in establishing and coordinating the local school testing program

   U  Monitoring the local school testing program

   U  Ensuring that the state assessment guidelines are followed as outlined in the coordinator’s and administrators’
      manuals

   U  Ensuring that parents are notiﬁed of the testing program in the school

   U  Ensuring that all building personnel are informed of test security and test integrity guidelines

   U  Ensuring that students who require accommodations receive the appropriate accommodations

   U  Identifying a secured area for keeping all test materials

   U  Ensuring test security at all times

   U  Ensuring that all persons responsible for handling, administering, or proctoring the tests are trained in accordance
      with the professional test administration procedures

   U  Ensuring that all secured materials are packaged and returned as mandated

   U  Ensuring that any test impropriety is documented and reported to the Ofﬁce of the State Superintendent, Division
      of Assessment and Data Reporting in a timely manner

   U  Monitoring school procedures to ensure that students are provided the opportunity to complete all test sessions
      within the guidelines established by the OSSE, Division of Assessment and Data Reporting

   U  Ensuring that all persons responsible for handling, administering, or proctoring the tests sign the Conﬁdentiality
      Agreement Form




2009 Test Chairperson’s Manual                            District of Columbia Comprehensive Assessment System             47
The Test Chairperson is responsible for:

     U  Attending the DC CAS training sessions

     U  Organizing and monitoring the school testing program to ensure that the state assessment guidelines are followed
       as mandated

     U  Ensuring that seamless procedures are established and disseminated that allow students to complete the test
       sessions within the guidelines established by the OSSE, Division of Assessment and Data Reporting

     U  Conducting the test administration training for school personnel involved in the implementation of the program

     U  Checking and distributing the test materials

     U  Ensuring that appropriate quantities of materials are requested

     U  Collaborating with the Principal to establish school testing schedule and sufﬁcient number of proctors

     U  Identifying appropriate test sites

     U  Ensuring that appropriate conditions and accommodations are established for students who require
       accommodations

     U  Maintaining the security of the test materials

     U  Supervising testing

     U  Completing documentation as required in the test manuals

     U  Preparing test materials for return shipment to mandated site

     U  Reporting, as directed by the Principal, any testing irregularity (See Security Guidelines in Test Chairperson’s
       Manual)

The Testing Committee is responsible for:

     U  Assisting the Test Chairperson in organizing and monitoring the school testing program

     U  Understanding state testing irregularities and policy breaches

     U  Assisting (if needed) the Test Chairperson in conducting training on the administration of the state assessment

     U  Ensuring test security

     U  Assisting the Test Chairperson with checking and distributing test materials

     U  Assisting the Test Chairperson in returning test materials to the secure area in the school

     U  Assisting the Test Chairperson in packaging test materials for return to the appropriate site

     U  Other responsibilities as required




48     District of Columbia Comprehensive Assessment System                                 2009 Test Chairperson’s Manual
The Test Administrator is responsible for:

  U  Conducting the testing sessions as outlined in the Test Directions, Test Chairperson’s Manual, and Test Site
     Observation Checklist

  U  Clarifying all questions regarding testing policy or procedures with the Principal or Test Chairperson

  U  Understanding state testing irregularities and policy breaches

  U  Establishing the testing climate within the test site

  U  Coordinating the distribution and return of test booklets and answer sheets to students

  U  Ensuring that students who require accommodations receive the appropriate accommodations

  U  Ensuring that students have the correct test form and answer booklets

  U  Ensuring that students are given the procedures to be followed in ﬁnishing a testing session early or for requesting
     additional time

  U  Monitoring

  U  Accounting for and maintaining the security of all test materials

  U  Checking and completing all required documentation

  U  Adhering to test directions and administration guidelines

  U  Apprising the Test Chairperson of all testing irregularities

The Proctor is responsible for:

  U  Understanding state testing irregularities and policy breaches

  U  Assisting the Test Administrator with receipt and maintenance of test materials

  U  Assisting the Test Administrator with the distribution and return of test materials

  U  Ensuring that students are completing the test as required in the test guidelines

  U  Assisting in maintaining the integrity of the testing process

  U  Assisting the Test Administrator with the required test accommodations for students in the special populations

  U  Ensuring test security

  U  Other responsibilities as needed




2009 Test Chairperson’s Manual                           District of Columbia Comprehensive Assessment System         49
8gg\e[`o?1:feÔ[\ek`Xc`kp8^i\\d\ek



                 CONFIDENTIALITY AGREEMENT FOR THE DISTRICT OF COLUMBIA
                        COMPREHENSIVE ASSESSMENT SYSTEM (DC CAS)


      This form is required for all personnel who work with tests administered by or through the District of
      Columbia State Office of Education. Schools must retain completed forms for at least three years
      following the last contact of the named person with any State Office of Education assessment material.

      It is my understanding that the District of Columbia Comprehensive Assessment System materials are
      secure documents. I agree to abide by all of the regulations governing test administration and data
      reporting policies and procedures. As a part of these regulations, I know that I am:

          •   *Not to provide any support with information or answers to students during the examination
              period.
          •   Not to duplicate secure test materials for any reason except as authorized by the State Office of
              Education Division of Assessment and Data Reporting.
          •   Not to make written notes about the topics or content of the test materials unless requested to do so
              by the State office.
          •   Not to provide any part of the test materials for examination or other use by any other party unless
              authorized by the State office.
          •   Not to disseminate any of the test materials to any other party unless authorized by the State office.
          •   Not to discuss, coach, or teach test specific items of the test at any time.
          •   Not to discuss or review with students information related to specific test items at any time.
          •   To maintain under secured conditions all test booklets in my possession.
          •   To return all test materials to the representative authorized by the State by the agreed-upon date.
          •   Not to modify or change answers on any test books or student answer booklets.


      * Special education accommodations must be provided as outlined in the IEP.



      Name_____________________________                                School/Office_______________________



      Signature __________________________                              Date ______________________________




                                 51 N Street, NE – 3rd Floor Washington, DC 20002
                          Phone: 202-741-0792       Fax: 202-741-8868     www.osse.dc.gov



2009 Test Chairperson’s Manual                         District of Columbia Comprehensive Assessment System            51
Website: www.osse.dc.gov
            Test Chairperson’s
            Manual
            District of Columbia
            Comprehensive Assessment System




            Reading and
            Mathematics,
            Composition,
            Science, and Biology
            2010



                                         2700952-W




a2700952_TCM_FC-IFC.indd 1                           12/4/09 11:19:08 AM
         ✓	

          Event	
                                Important Testing Events

                                                                                                Date
          Test Administration
          Training Sessions (CTB-led) ..................................................... March 2010

          Receipt of Test Chairperson’s Materials.................................. March 19, 2010

          Receipt of Secure Test Materials.............................................. april	6	through	april	8,	2010

          Short/Add Window................................................................... April 9 through April 15, 2010

          Chairperson Conducts Teacher Training Sessions
          (in schools)................................................................................. Prior to test administration

          Test Dates for Grades 3–8 and 10
          (includes Makeup Testing)........................................................ Monday, April 19, through Friday, April 30, 2010

          Ship (Return) All Scorable and Nonscorable
          Materials to CTB . ..................................................................... by May 3 and May 4, 2010

          Last Day for CTB to Receive Test Materials
          for Scoring................................................................................. May 6, 2010




                                                                                                                                                                 Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                               Important Telephone Numbers
                               for Shortages, Errors, and General
                               Information
        District of Columbia 	                                                  For information concerning District of Columbia
        Office of the State Superintendent                                      statutes, as well as policy and procedures for the District
                                                                                of Columbia Comprehensive Assessment System, contact
        of Education (OSSE)	                                                    the Office of the State Superintendent of Education,
        Division of Assessment and 	                                            Division of Assessment and Accountability at
        Accountability                                                          202-741-0256.

        CTB DC CAS Customer Service Contact Numbers:
        DC Only Toll Free: 800-994-8579
        Customer Service Fax: 866-282-2251
        Hours of Business: 8:30 a.m.–5:00 p.m. (EST)
        E-mail to: DC-CAS_helpdesk@ctb.com

        Developed and published by CTB/McGraw-Hill LLC, a subsidiary of The McGraw-Hill Companies, Inc., 20 Ryan Ranch Road, Monterey, California 93940-
        5703. Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education. All rights reserved. Only authorized customers may
        copy, download and/or print the document, located online at www.ctb.com/dc-cas. Any other use or reproduction of this document, in whole or in part,
        requires written permission of the District of Columbia Office of the State Superintendent of Education.




a2700952_TCM_FC-IFC.indd 2                                                                                                                              1/15/10 10:04:28 AM
       Dear Test Chairperson,

       Thank you for agreeing to serve as the Test Chairperson for your school. This is an important function,
       not only for your school, but for the entire school system, as we seek to improve the instructional program
       in the District of Columbia.

       This manual is designed to assist you in preparing for and conducting the upcoming testing program in
       your school. Please read it carefully and follow the procedures described. Doing so will ensure that the test
       administration is conducted under optimal conditions and that students are given an opportunity to do their best.

       We hope that the manual will also assist you in providing in-service training to your school faculty. Feel free to
       duplicate salient portions for handouts or overheads.

       Schools in the District of Columbia will administer the District of Columbia Comprehensive Assessment System
       (DC CAS) to students in grades 3 through 8 and 10 in Spring 2010. The results of the test will provide useful
       information about instructional strengths and weaknesses relative to the District of Columbia content standards.
       The information gained through testing is used by
       •	 teachers to develop lesson plans that support effective instruction for all students
       •	 schools and districts to evaluate whether the goals of the content standards are being met
       •	 parents to monitor children’s educational progress




                                                                                                                                      Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
       The Comprehensive Assessment System combines selected-response items with constructed-response items that
       allow students to produce their own responses. The content areas consist of Reading, Mathematics, Composition,
       and Science.

       Students with significant cognitive disabilities are not required to participate in this test. However, they must
       participate in the DC CAS alternate assessment (Portfolio).

       This Test Chairperson’s Manual has been designed to help the Chairperson organize and oversee test
       administrative procedures for Reading, Mathematics, Composition, Science, and Biology. A series of easy-to-follow
       steps provides guidelines for receiving and checking testing materials, scheduling testing times, overseeing the
       administration, and returning the materials to CTB/McGraw-Hill.

       As you read through this manual and prepare for the test administration, should any questions arise, please
       contact CTB/McGraw-Hill’s Customer Service Center at 800-994-8579 or the OSSE Division of Assessment and
       Accountability at 202-741-0256.

       Thank you for your expertise and commitment.

       Office of the State Superintendent of Education
       Division of Assessment and Accountability
       CTB/McGraw-Hill




b2700952_TCM_TOC.indd 1                                                                                                12/23/09 5:05:20 PM
b2700952_TCM_TOC.indd 2
                          Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education




12/23/09 5:05:20 PM
                                                                             Contents
                Letter to Chairperson
                Section 1	 General Information..................................................................................................................1
                	          Testing Steps...............................................................................................................................1
                	          Important Dates and Times.......................................................................................................2
                	             Administrative Date..............................................................................................................2
                	             Testing Dates..........................................................................................................................2
                	             Approximate Testing Times...................................................................................................2
                	          Overview of Assessment Materials...........................................................................................6

                Section 2	       Security Procedures...................................................................................................................9
                	                Secure Materials.........................................................................................................................9
                	                Instructions on How to Complete the Daily Security Checklist...............................................9
                	                General School Security Guidelines........................................................................................10
                	                Security During Testing............................................................................................................11

                Section 3	       Before Testing—Instructions for Test Chairpersons..............................................................12
                	                Step 1—Receive Test Materials................................................................................................12
                	                Step 2—Inventory Test Materials............................................................................................12
                	                Step 3—Schedule the Test.......................................................................................................13
                	                Step 4—Notify Students and Parents of Testing (Principal)..................................................13




                                                                                                                                                                                                Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                	                Step 5—Conduct Training Sessions for Test Administrators and Proctors
                	                   Test Administrators..............................................................................................................13
                	                   Proctors................................................................................................................................16
                	                Step 6—Distribute Test Materials............................................................................................17
                	                Step 7—Fulfill School Materials Requests...............................................................................18
                	                Step 8—Using the Precoded Student Label and
                	                         Completing the Student-Identifying Information...................................................18

                Section 4	 During Testing—Instructions for Test Chairpersons..............................................................23

                Section 5	       After Testing—Instructions for Test Chairpersons.................................................................24
                	                Step 1—Receiving and Checking Test Materials....................................................................24
                	                Step 2—Organizing and Preparing Test Materials.................................................................26
                	                Step 3—Preparing Test Materials for Shipment.....................................................................28
                	                Step 4—Shipping Test Materials.............................................................................................29

                Appendix A.1: Special Education Test Accommodations........................................................................31
                Appendix A.2: Approved Accommodations for English Language Learner (ELL)
                  Students.................................................................................................................................................33
                Appendix B: Test Site Observation Report...............................................................................................34
                Appendix C: Comment Fax Form..............................................................................................................39
                Appendix D: Short/Add Fax Form—Reading and Math..........................................................................41
                Appendix E: Short/Add Fax Form—Composition....................................................................................43
                Appendix F: Short/Add Fax Form—Science..............................................................................................45
                Appendix G: Local School Responsibilities In Implementing The State Assessment Programs...........47
                Appendix H: Test Security and Non-Disclosure Agreement....................................................................51




b2700952_TCM_TOC.indd 3                                                                                                                                                          12/23/09 5:05:20 PM
b2700952_TCM_TOC.indd 4
                          Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education




12/23/09 5:05:20 PM
                                     General Information

                                     Testing Steps




             1    	    REVIEW MANUAL


                      2  	       COMPLETE 	
                                 SECURITY PROCEDURES
                                 and PAPERWORK


                             3   	   INVENTORY MATERIALS


                                     4
                                     	   SCHEDULE THE TEST




                                                                                                                              Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                                         5
                                         	   NOTIFY STUDENTS AND
                                             PARENTS OF TESTING


                                             6
                                             	   CONDUCT TRAINING


                                                 7
                                                 	   DISTRIBUTE TEST
                                                     MATERIALS


                                                     8
                                                     	   MAINTAIN SECURITY
                                                         DURING TESTING


                                                         9
                                                         	   CHECK-IN MATERIALS


                                                             10  	 SHIP MATERIALS




           2010 Test Chairperson’s Manual	                    District of Columbia Comprehensive Assessment System 




c2700952_TCM_Body_s10DC.indd 1                                                                                12/24/09 10:43:20 AM
        IMPORTANT DATES AND TIMES

        Administrative Date
        If you need additional test materials, you may order them during the Short /Add Window from April 9–April 15, 2010.
        To access the system for test materials adjustments, go to www.ctb.com and enter the User ID and Password that you
        received from CTB in a separate mailing. If you have any additional questions, contact the CTB DCPS Customer Service line
        at 1-800-994-8579.

        Note: Any shipment of materials after the Ship (Return) All Scorable and Nonscorable Materials to CTB date (see Important
        Testing Events page) that causes CTB to pay for shipping, other than ground, will incur additional charges to the school.


        Testing Dates
        Testing dates have already been determined by the District of Columbia Office of the State Superintendent of Education.
        The testing dates are as follows:

                  Grades 3–8 and 10
                  (includes Makeup Testing)	       Monday, April 19, through Friday, April 30, 2010

        Testing of all content areas—Reading and Mathematics, Composition, Science, and Biology—must be
        completed during this testing window.




                                                                                                                                                   Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
        Approximate Testing Times

        The times shown in the charts on the following pages are suggested times. While most students should be able to complete
        the testing within these times, all students must be given the opportunity to complete the test at an unhurried pace.
        Schools should organize the test schedule and test sites to provide extra testing time to those students who need it.

        Note that each testing session must be completed at the time of administration. This must be observed in the following
        ways:

        •	 A student cannot go back to a testing session on a subsequent day or after a break to complete the items in a testing
           session.

        •	 A student cannot go back to a testing session on a subsequent day or after a break to change answers in a previous
           session.

        •	 A student cannot look ahead to items in a subsequent testing session.

        If there are students who are not finished at the session’s end, the school must either relocate students who need
        additional time, relocate students who finish before the testing session’s end, or ensure that students who finish early
        remain quiet.




          District of Columbia Comprehensive Assessment System	2010 Test Chairperson’s Manual




c2700952_TCM_Body_s10DC.indd 2                                                                                                      1/15/10 10:08:05 AM
           Reading

           The Reading Assessment has four sessions. Each Test Administrator will follow the schedule provided by the Test
           Chairperson. The schedule will include testing sessions for students in special populations and makeup sessions.
           For information regarding students who need additional testing time, see “Approximate Testing Times” on page 2
           of this manual.


                                     Reading—Grade 3

                                     Subtest                            Approximate Testing Time*

                                     Testing Session 1
                                     Reading                                               45 minutes


                                     Testing Session 2
                                     Reading                                               45 minutes


                                     Testing Session 3
                                     Reading                                               45 minutes


                                     Testing Session 4
                                     Reading                                               45 minutes




                                                                                                                                              Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                                    * Times shown refer to the approximate administration of items.
                                    Allow for an additional 15 minutes for completing student biographical
                                    information, administering the sample questions, and reading directions.


                                     Reading—Grades 4 through 8 and 10

                                      Subtest                            Approximate Testing Time*

                                     Testing Session 1
                                     Reading                                               45 minutes


                                     Testing Session 2
                                     Reading                                               45 minutes


                                     Testing Session 3
                                     Reading                                               45 minutes


                                     Testing Session 4
                                     Reading                                               45 minutes


                                    *Times shown refer to the approximate administration of items.
                                    Allow for an additional 15 minutes for completing student biographical
                                    information, administering the sample questions, and reading directions.




           2010 Test Chairperson’s Manual	                         District of Columbia Comprehensive Assessment System  




c2700952_TCM_Body_s10DC.indd 3                                                                                                12/24/09 10:43:21 AM
        Mathematics
        The Mathematics Assessment has four sessions. Each Test Administrator will follow the schedule provided by the Test
        Chairperson. The schedule will include testing sessions for students in special populations and makeup sessions. For
        information regarding students who need additional testing time, see “Approximate Testing Times” on page 2 of this manual.


                                   Mathematics—Grades 3 through 6

                                   Subtest                             Approximate Testing Time*

                                   Testing Session 1
                                   Mathematics                                            40 minutes


                                   Testing Session 2
                                   Mathematics                                             40 minutes


                                   Testing Session 3
                                   Mathematics                                             40 minutes


                                   Testing Session 4
                                   Mathematics                                             40 minutes




                                                                                                                                             Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                                   Mathematics—Grades 7, 8, and 10

                                   Subtest                             Approximate Testing Time*

                                   Testing Session 1**
                                   Mathematics                                            50 minutes



                                   Testing Session 2
                                   Mathematics                                             40 minutes


                                   Testing Session 3
                                   Mathematics                                            50 minutes



                                   Testing Session 4
                                   Mathematics                                             40 minutes



                                  *Times shown refer to the approximate administration of items.
                                  An additional 5 to 10 minutes will be required for administering the
                                  sample items and reading introductions and directions.
                                  **For grades 7, 8, and 10, the use of calculators is permitted for
                                  Session 1 ONLY. At the end of Session 1, instruct students to put their
                                  calculators away.




          District of Columbia Comprehensive Assessment System	                                 2010 Test Chairperson’s Manual




c2700952_TCM_Body_s10DC.indd 4                                                                                                 1/6/10 12:47:54 PM
           Composition
           The Composition Assessment has two sessions. Each Test Administrator will follow the schedule provided by the Test
           Chairperson. The schedule will include testing sessions for students in special populations and makeup sessions. For
           information regarding students who need additional testing time, see “Approximate Testing Times” on page 2 of
           this manual.


                                      Composition—Grades 4, 7, and 10

                                      Subtest                            Approximate Testing Time*

                                      Testing Session 1
                                      Composition: Phase 1 Planning/Draft                   60 minutes

                                      Testing Session 2
                                      Composition: Phase 2 Final Composition                60 minutes


                                     *Times shown refer to the approximate time allowed to complete
                                     the composition.
                                     An additional 5 to 10 minutes will be required for reading
                                     introductions and directions.
                                     Note that additional time should be granted as needed to
                                     students who continue to work on their compositions.

           Science




                                                                                                                                              Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
           The Science and Biology Assessments have three sessions. Each Test Administrator will follow the schedule provided by
           the Test Chairperson. The schedule will include testing sessions for students in special populations and makeup sessions.
           For information regarding students who need additional testing time, see “Approximate Testing Times” on page 2 of
           this manual.


                                      Science—Grades 5, 8, and Biology

                                      Subtest                            Approximate Testing Time*

                                      Testing Session 1
                                      Science                                               35 minutes

                                      Testing Session 2
                                      Science                                               35 minutes

                                      Testing Session 3
                                      Science                                               30 minutes

                                     *Times shown refer to the approximate administration of items.
                                     An additional 5 to 10 minutes will be required for administering the
                                     sample items and/or reading introductions and directions.




           2010 Test Chairperson’s Manual	                          District of Columbia Comprehensive Assessment System  




c2700952_TCM_Body_s10DC.indd 5                                                                                                12/24/09 10:43:23 AM
        OVERVIEW OF Assessment Materials
        The following assessment materials are provided at grades 3–8 and 10:

          Grade 3
                  Test book—grade 3*

                  	          One for each student and one for the Test Administrator

                  Test Directions—one book for grade 3

                  Punch-out tool*—ruler (yellow/purple with inches and half-inch markings on one side and centimeters on
                             other side, commodity code 53493)

          Grades 4–8 and 10
                  Test Directions—one book for grades 4–8 and 10, all content areas included

                  Note: For Reading and Mathematics and for Science and Biology, there are four versions of the test for each
                  grade—Forms 1, 2, 3, and 4. Teachers should check that students in grades 4–8 and 10 are using the correct
                  test book and answer booklet combination.

          Grade 4
                  Reading and Mathematics Test Book*

                  	          One for each student and one for the Test Administrator




                                                                                                                                               Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                  Reading and Mathematics Answer Booklet*

                  	          One for each student and one for the Test Administrator

                  Punch-out tool*—ruler (yellow/purple with inches and half-inch markings on one side and centimeters on other
                             side, commodity code 53493)

                  Composition Test Booklet*

                  	          One for each student and one for the Test Administrator

                  Planning and Draft paper

                  	          Two pages for each student

          Grade 5
                  Reading and Mathematics Test Book*

                  	          One for each student and one for the Test Administrator

                  	          Note: No punch-out tool is needed for this grade.

                  Reading and Mathematics Answer Booklet*

                  	          One for each student and one for the Test Administrator




          District of Columbia Comprehensive Assessment System	                               2010 Test Chairperson’s Manual




c2700952_TCM_Body_s10DC.indd 6                                                                                                  12/24/09 10:43:23 AM
                     Science Test Book*

                     	           One for each student and one for the Test Administrator

                     Science Answer Booklet*

                     	           One for each student and one for the Test Administrator	

            Grade 6
                     Reading and Mathematics Test Book*

                     	           One for each student and one for the Test Administrator

                     Reading and Mathematics Answer Booklet*

                     	           One for each student and one for the Test Administrator

                     Punch-out tool*—ruler (orange fading into yellow with 1/8th-inch markings on the orange side and centimeter
                                 with millimeter markings on the other side, commodity code 53494)

            Grade 7
                     Reading and Mathematics Test Book*

                     	           One for each student and one for the Test Administrator

                     Reading and Mathematics Answer Booklet*




                                                                                                                                                   Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                     	           One for each student and one for the Test Administrator

                     Punch out tool*—ruler (orange fading into yellow with 1/8th-inch markings on the orange side and centimeter
                                 with millimeter markings on the other side, commodity code 53494)

                                 Note: Students in this grade will be allowed to use calculators in Session 1 of the Mathematics test.

                     Composition Test Booklet*

                     	           One for each student and one for the Test Administrator

                     Planning and Draft paper

                     	           Two pages for each student

            Grade 8
                     Reading and Mathematics Test Book*

                     	           One for each student and one for the Test Administrator

                     Reading and Mathematics Answer Booklet*

                     	           One for each student and one for the Test Administrator




           2010 Test Chairperson’s Manual	                               District of Columbia Comprehensive Assessment System  




c2700952_TCM_Body_s10DC.indd 7                                                                                                       1/6/10 12:47:56 PM
                  Punch out tool*—ruler (orange fading into yellow with 1/8th-inch markings on the orange side and centimeter
                             with millimeter markings on the other side, commodity code 53494)

                             Note: Students in this grade will be allowed to use calculators in Session 1 of the Mathematics test.

                  Science Test Book*

                  	          One for each student and one for the Test Administrator

                  Science Answer Booklet*

                  	          One for each student and one for the Test Administrator

          Grade 10
                  Reading and Mathematics Test Book*

                  	          One for each student and one for the Test Administrator

                  Reading and Mathematics Answer Booklet*

                  	          One for each student and one for the Test Administrator

                  Punch out tool*—ruler (orange fading into yellow with 1/8th-inch markings on the orange side and centimeter
                             with millimeter markings on the other side, commodity code 53494)

                             Note: Students in this grade will be allowed to use calculators in Session 1 of the Mathematics test.




                                                                                                                                                                           Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                  Composition Test Booklet*

                  	          One for each student and one for the Test Administrator

                  Planning and Draft paper

                  	          Two pages for each student

          Students Enrolled in a Biology Course
                  Biology Test Book*

                  	          One for each student and one for the Test Administrator

                  Biology Answer Booklet*

                  	          One for each student and one for the Test Administrator
            *	Test Books and punch-out tools are available in large print and Braille editions for those students with special needs. Answer Booklets are
              available in large print editions only. Composition Test Booklets are available in Braille editions only.




          District of Columbia Comprehensive Assessment System	                                                     2010 Test Chairperson’s Manual




c2700952_TCM_Body_s10DC.indd 8                                                                                                                              12/24/09 10:43:24 AM
                                 Security Procedures
                                 As Test Chairperson, you will need to work closely with the principal to ensure the security of the
                                 Comprehensive Assessment System. To prevent the loss or copying of any test book, test items, or
                                 completed answer booklet, you will need to establish strict security guidelines within your school,
                                 and keep a detailed inventory of all test books before, during, and after test administration until the
                                 time they are returned to CTB.
                                 If after reading these instructions, you have any questions about the materials or the instructions on how
                                 to inventory the materials, please call 800-994-8579, between 8:30 a.m. and 5:00 p.m. Eastern
                                 Standard Time.

           SECURE MATERIALS
           Each school must develop an organized test material distribution process so that all secure test materials, used and
           unused, are accounted for and returned to CTB. Under no circumstances should anyone destroy or throw away any test
           book or any answer booklet considered to be invalid unless permission to do so is obtained from the Assessment and
           Accountability Branch of the Office of the State Superintendent of Education. All invalidated test books and answer
           booklets must be returned to CTB.

           Contaminated test books and answer booklets should not be returned to CTB. A test book or answer booklet is
           considered contaminated if it cannot be returned for scanning due to: a) a student health issue that affects the test book
           or answer booklet itself (blood, fluids, etc.), or b) contact with any potentially hazardous material.




                                                                                                                                                    Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
           Any student responses in contaminated test books or answer booklets must be transcribed into clean test books or
           answer booklets (when transcribing, ensure that the correct test form is used). The contaminated test books and
           answer booklets must be securely destroyed at the test site, with notification provided to CTB and the Assessment and
           Accountability Branch of the Office of the State Superintendent of Education.

           All test books and answer booklets are secure materials and must be kept in locked storage when not
           in use. Test books and answer booklets must be returned to a locked storage area immediately following each test
           administration. Secure test books have been assigned a security number. These security numbers correspond to the
           numbers listed on the School Packing List. If the numbers do not correspond, call the OSSE Division of Assessment and
           Accountability at 202-741-0256 and CTB DC CAS Customer Service at 800-994-8579.

           INSTRUCTIONS ON HOW TO COMPLETE THE DAILY SECURITY CHECKLIST
           1.	 Please make copies of the Security Checklists for each grade level and content area prior to testing. Use
               only one Security Checklist for each grade level and content area on each testing day. Denote the testing date on
               each Security Checklist.
           2.	The Test Chairperson should write the names of the students in the Security Checklists under Column 3 (STUDENT
               NAME) prior to testing.
           3.	 Please note that there are separate Security Checklists for each content area: Reading/Mathematics, Science, and
                Composition.
           4.	 The Test Administrators/Proctors must sign, date, and indicate the time the test materials (test books and answer
                booklets) were checked out in Column 4 (RECEIVED: TA SIGNATURE).
           5.	 The Test Chairperson must sign, date, and indicate the time the test materials (test books and answer booklets) were
                checked in/returned in Column 5 (RETURNED: SC SIGNATURE).
           6.	 The Test Chairperson should collect all completed and signed daily Security Checklists.


           2010 Test Chairperson’s Manual	                            District of Columbia Comprehensive Assessment System  




c2700952_TCM_Body_s10DC.indd 9                                                                                                      12/24/09 10:43:24 AM
                                                                              Note: Failure to account for all test books
                                                                              constitutes a serious test security violation.
                                                                              Any missing test books should be reported
                                                                              to the LEA Assessment Coordinator and the
                                                                              OSSE Division of Elementary and Secondary
                                                                              Education immediately.




        GENERAL SCHOOL SECURITY GUIDELINES
        The following guidelines apply to all tests administered in the statewide system of assessment. Failure to
        perform the following activities shall constitute a state test security violation. When administering tests in
        the statewide system of assessment, schools must:

        •	 Administer state tests as prescribed in the administrative procedures provided in the Test Chairperson’s Manual and
           the Test Directions;

        •	 Secure all state test materials prior to, during, and following each test administration and prohibit unauthorized access
           to secure test questions at all times;

        •	 Prohibit the copying or reproducing of all or any portion of any secure test book or writing prompt;




                                                                                                                                               Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
        •	 Prohibit the creation, sharing, and/or distribution of answer keys to secure tests;

        •	 Prohibit any form of cheating;

        •	 Supervise students at all times during testing sessions;

        •	 Return all secure test materials to the publishing company following procedures outlined in the Test Chairperson’s
           Manual;

        •	 Remove or cover displays related to the content area being tested prior to the administration of the state tests;

        •	 Prohibit the prompting or assistance of students in any manner with their answers;

        •	 Prohibit the use of electronic devices by students while taking the state test;

        •	 Follow testing guidelines on use of calculators;

        •	 Return scratch paper (identified with the student’s name and grade) used during the Mathematics test;

        •	 Return to the testing company planning and draft pages (identified with the student’s name and grade) used during
           the Composition test;

        •	 Report any observed test violation to the OSSE Office of Elementary and Secondary Education and the LEA
           Assessment Coordinator; and,

        •	 Uphold the integrity and accuracy of the testing by preventing any dishonest or fraudulent behavior and promoting a
           fair and equitable testing environment.



        10  District of Columbia Comprehensive Assessment System	                                2010 Test Chairperson’s Manual




c2700952_TCM_Body_s10DC.indd 10                                                                                                 12/24/09 10:43:25 AM
           Security During Testing
           The School Test Chairperson must be available to respond to questions from Test Administrators and school personnel. If
           the answer is not available in this manual or the Test Directions, call the OSSE Division of Assessment and Accountability
           or CTB, using the contact information provided on the inside front cover of this manual.

           During testing the School Test Chairperson must:

           1.	Monitor the test administration to ensure that all school personnel involved in the test administration adhere to test
              security and test administration guidelines;

           2.	Complete the School Security Checklist each day for each Test Administrator receiving materials;

           3.	Ensure that all secured materials are signed in and signed out daily;

           4.	Document and report any missing secured materials to the principal;

           5.	Document and report any breach of state test security to the principal; and

           6.	Create a school security file. This file should contain the following items:

           	 •	 Documentation of any testing disruptions

           	 •	 Copies of the School Security Checklists




                                                                                                                                                   Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
           	 •	 Detailed explanations as to who failed to return secure materials and why materials were not returned after testing
                  or any other test irregularities.

           	 You will need this file

           		 º	 in the event that CTB reports secure documents missing from your school

           		 º	if the district decides to invalidate a student’s score. If you invalidate a test score, this should be noted in writing
                 and attached to the student’s score reports in the student’s permanent file.

           Note: CTB will maintain a record of serial numbers of all test books shipped to the schools and
           districts, including overage shipments and any additional materials request shipments. When
           testing is completed, all test books, used and unused, must be returned. CTB will use a scanner to
           account for all test books by serial number and provide a record of missing test books to the OSSE
           Division of Assessment and Accountability. If any test books shipped to a school or district are
           determined to be missing, the school principal will be required by the OSSE Division of Assessment
           and Accountability to account for the missing materials. Failure to account for all test books
           constitutes a serious violation of test security.

           The Test Chairperson is expected to maintain test security by using the serial numbers to account
           for all test books before, during, and after test administration until the time they are returned to
           CTB. The Chairperson must record all pertinent information regarding the replacement of missing
           test books for a school on the School Security Checklist.




           2010 Test Chairperson’s Manual	                           District of Columbia Comprehensive Assessment System  11




c2700952_TCM_Body_s10DC.indd 11                                                                                                    12/24/09 10:43:25 AM
                                    Before Testing—Instructions for Test Chairpersons
                                    Please take the time to review and inventory all test
                                    materials when they arrive at your school.



        Step 1	             Receive TEST Materials
                            •	 Confirm that you have received the total number of school boxes listed on the shipping invoice. Notify
                                  CTB immediately and no later than noon, April 8, 2010, at 800-994-8579 if any boxes are missing,
                                  or contain damaged materials, or if you received boxes that should have been delivered to another school.

                            •	 The Test Chairperson should open boxes within 24 hours to allow plenty of time to resolve shortages.

                            •	 Verify the contents of the school box(es) with overage materials. Keep all boxes for returning test
                                  materials.


        Step 2	             Inventory TEST Materials
                            •	 Check the materials specified on the School Packing List against materials received.




                                                                                                                                                                                       Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                            •	 Compare the security numbers on the shrink-wrapped packages of test books with those listed on
                                  the School Packing List (example shown below).

                            •	 Check quantities of materials against current enrollment.

                            •	 Report any discrepancies or materials shortages to CTB. Note any discrepancies on the School Packing
                                  List.


                                                                                     School Packing List




                                                                                             e
                                             SOUTH CAROLINA STATE ED DEPT                           SHIP TO:
                                             TERRANOVA SPRING 2004 ADMIN




                                                                                           l
                                             GRADES 4, 7, AND 10                                    SCHOOL NUMBER
                                                                                                    SCHOOL NAME




                                                                                         p
                                                                                                    C/O DISTRICT NUMBER
                                                                                                    DISTRICT NAME
                                             SCHOOL PACKING LIST                                    DISTRICT ADDRESS




                                                                m
                                             (PLEASE KEEP A COPY FOR YOUR RECORDS)                  ATTN: TEST COORDINATOR

                                                                                                    April 2, 2004




                                                              a
                                                                                                                 PAGE 1




                                                            x
                                                            PACKING LIST # 627684757-1




                                                     E
                                                     UNIT                                                      COMMOD     SEQ#     SEQ#
                                             QUANT   SIZE   DESCRIPTION OF MATERIALS                           CODE       BEGIN    END      RECEIVED
                                             6       15     Grade 4 Student Book                               45257      000101   000190
                                             6       15     Grade 7 Student Book                               45258      001001   001090
                                             6       1      Grade 10 Student Book                              45259      000011   000016
                                             6       1      Grades 4-11 Test Directions                        42537      001101   001106
                                             6       1      Grades 4, 7, and 10 Test Coordinator's Manual      42535-04
                                             3       30     TN Grades 14-15 Practice Test/Directions           53758
                                             3       30     TN Levels 16-18 Practice Test/Direction            53760
                                             6       1      Answer Sheet Return Envelopes                      67317
                                             3       32     Grades 4-12 Math Manipulative                      53494




                            •	 Be sure to save the Packing List since it needs to be returned to CTB with any unused books.




        12  District of Columbia Comprehensive Assessment System	                                                                            2010 Test Chairperson’s Manual




c2700952_TCM_Body_s10DC.indd 12                                                                                                                                         1/15/10 10:08:43 AM
           Step 3	                Schedule the Test
                                  • 	 Review the Test Chairperson’s Manual and Test Directions in advance.

                                  • 	 Refer to Pages 3, 4, and 5 for approximate length of each session time. Schedule testing to allow
                                    sufficient time to complete each test session.

                                  •	 Establish a testing plan that shows how the school will provide for students who need
                                    additional time.

                                  • 	 Tests and Makeup Tests must be administered Monday, April 19, through Friday, April 30, 2010.

                                  • 	 Avoid testing just after students have had strenuous physical or mental activity.


           Step 4	                Notify Students AND PARENTS of Testing (PRINCIPAL)
                                  Students and parents must be notified when testing will take place and should be informed as to the
                                  purpose of the test. While undue emphasis on the importance of the test should be avoided so that
                                  students will not become overly anxious, it is important that students are motivated to do their best in
                                  order to obtain the best results.


           Step 5	                CONDUCT TRAINING SESSIONS FOR TEST ADMINSTRATORS AND PROCTORS
                                  Anyone who will handle test materials must attend a training session prior to the test




                                                                                                                                                          Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                                  administration.


                                  Test Administrators
                                  Test Administrators must be employees of the district (i.e., teachers, paraprofessionals, counselors,
                                  administrators, and librarians). All Test Administrators (including possible substitutes) must have received
                                  training in the administration of the test in Spring 2010. It is recommended that Test Chairpersons train
                                  more certified employees than are actually necessary for administering the test to cover unforeseen
                                  absences. Do not allow untrained employees, teachers, or substitutes to administer tests. Test
                                  Administrators must not administer tests to close relatives (e.g., children or grandchildren).



                                  OUTLINE OF INSTRUCTIONS FOR TEST ADMINISTRATORS

           	                      Prior to testing:

                                  •	 Review test administration procedures and test materials thoroughly.

                                  •	 Review school procedures to provide for students who need additional time.

                                  •	 Read, sign, and return to the Principal or TC the State Test Security and Non-Disclosure Agreement.

                                  Prepare to Schedule Testing

                                  •	 Review the scheduling guidelines provided by the Test Chairperson for the administration of the
                                    different content areas.



           2010 Test Chairperson’s Manual	                                District of Columbia Comprehensive Assessment System  13




c2700952_TCM_Body_s10DC.indd 13                                                                                                           12/24/09 10:43:27 AM
                            •	 Allow sufficient time to complete the student-identifying information. (See the section on using the
                                  precoded student labels and completing the student-identifying information.)

                            •	 Avoid testing on days just before or after vacations, important school functions, or holidays.

                            •	 Testing should occur at the beginning of the morning when students are most alert. Do not
                                  administer the test immediately after students have been involved in any strenuous physical or
                                  mental activity.

                            •	 Schedule testing to allow sufficient time to complete a testing session. (See the tables on Pages 3, 4,
                                  and 5 for testing times.)

                            Prepare the Testing Environment

                            •	 Review the Test Site Observation Report.

                            •	 Testing in a familiar classroom setting reduces test anxiety for students and should simplify test
                                  security. Students should be tested in classrooms that have good lighting, adequate ventilation, and
                                  sufficient space. Schools are strongly encouraged to avoid large group administrations in settings
                                  such as the library or the cafeteria.

                            •	 The testing room should be as quiet as possible, without interruptions.

                            •	 Remove charts or reference materials from the walls of the testing room.




                                                                                                                                                        Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                            Receive Materials from Test Chairperson

                            •	 Test Administrators must sign out and sign in test materials each day, using the School Security
                                  Checklist. Copies of the form are provided in the Test Chairperson’s Packet for each school.

        	                   During testing:
                            •	 In order to ensure that test results for the District of Columbia Comprehensive Assessment System are
                                  valid, reliable, and equitable, the test administration must be standardized with the same directions
                                  and similar testing conditions across the District of Columbia. In order to provide standardized
                                  test administration, Test Administrators must carefully follow the instructions provided in the Test
                                  Directions.

                            •	 Read oral directions at a moderate, steady pace.

                            •	 Schedule breaks between test sessions to maintain an unhurried pace and a relaxed atmosphere.

                            •	 Follow the recommended schedules, to the degree possible, and schedule tests so that students do
                                  not become overly tired.

                            Note: To ensure test security and equity, students should work until they finish the test session. Students
                            are not permitted to leave the testing room for a break or lunch and then return to complete an
                            unfinished test session.




        14  District of Columbia Comprehensive Assessment System	                                      2010 Test Chairperson’s Manual




c2700952_TCM_Body_s10DC.indd 14                                                                                                          12/24/09 10:43:27 AM
           	                      After testing:
           	                      Assemble Materials for Return

                                  Test Administrators (with help from proctors, if requested) will review all assessment materials for the
                                  following:

                                  • 	 to ensure that no foreign materials, such as scratch paper, paper rulers, tape, paper clips, have been
                                     left inside test books or answer booklets

                                  • 	 to identify any damaged materials

                                  •	 to mark a test for invalidation, if necessary (see below)

                                  •	 to complete the additional student information on the lower part of the student data grids and the
                                     testing accommodations on the inside front cover of the test books or answer booklets

                                  Each Test Administrator will organize the scorable materials by class and content area and complete a
                                  Group Information Sheet for those test materials. Scorable materials include

                                     •	 Grade 3 Reading and Mathematics Test Books

                                     •	 Grades 4–8 and 10 Reading and Mathematics Answer Booklets

                                     •	 Grades 4, 7, and 10 Composition Test Booklets




                                                                                                                                                            Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                                     •	 Grades 5 and 8 Science Answer Booklets

                                     •	 Biology Answer Booklets

                                  The scorable materials will be placed in envelopes labeled “For Test Booklets,” accompanied by the
                                  completed Group Information Sheets placed on the top. These envelopes will be returned to the Test
                                  Chairperson.

                                  Test Administrators should also return to the Test Chairperson all unused test books (for grade 3 and
                                  Composition; all test books for grades 4–8 and 10 Reading, Mathematics, Science, and Biology; and the
                                  Test Directions.

           	                      Test Invalidation

                                  Tests should be invalidated only in specific cases. A content-area section should be invalidated if a student
                                  becomes ill during the content-area section and is not able to complete the test. Tests should also be
                                  invalidated if there is clear evidence that a student received inappropriate assistance (i.e., cheating).
                                  Follow the directions below when invalidating a content-area section.

                                  Grade 3

                                  Mark the invalid content-area section by 1) filling in the small diamond that appears on the bottom of
                                  the first page of the content-area section in the test book, and 2) filling in all the circles of the first five
                                  multiple-choice questions in that content area.




           2010 Test Chairperson’s Manual	                                  District of Columbia Comprehensive Assessment System  15




c2700952_TCM_Body_s10DC.indd 15                                                                                                               1/6/10 12:48:03 PM
                            Grades 4–8 and 10
                            Reading, Mathematics, and Science Only

                            To mark a student’s test as invalid: 1) In the student’s answer booklet, fill in the small diamond that
                            appears next to the heading for Session 1 of the content-area section to be invalidated. 2) Then fill in all
                            the circles of the first five multiple-choice questions in that content-area section.

                            Composition (Grades 4, 7, and 10 Only)

                            To indicate that a test booklet is invalid, the Test Administrator should fill in the whole row of zeros in
                            the field titled “Special Use Only” on the back cover.

                            Note: Invalidating a section of a content area invalidates the entire content area.

        	Proctors
                            It is recommended that, in addition to the Test Administrator, one person be present in the classroom
                            to serve as a proctor during testing. A proctor can be a teacher’s aide, a parent, or other district/school
                            personnel (e.g., music teachers, P.E. teachers, and counselors). Parents must not be proctors in the
                            rooms where their children are being tested. Prior to the week of testing, proctors should be notified
                            and informed of their duties.

                            The information below shows a list of possible duties for proctors.




                                                                                                                                                     Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                            Include in your training session a review of the Test Site Observation Report (see Appendix B).



                            OUTLINE OF INSTRUCTIONS FOR PROCTORS

                            Prior to testing:
                            1.	Assist Test Administrator with completing student-identifying information on the back of test books
                                  (grade 3 and Composition) or answer booklets (grades 4–8 and 10), as necessary.

                            2.	Punch out mathematics manipulatives (punch-out tools) for the Mathematics content-area section of
                                  the assessment.

                            During testing:
                            1.	Check to ensure that students receive a test book (grade 3 and Composition) or a test book and
                                  the corresponding answer booklet (grades 4–8 and 10). For the Mathematics content-area section
                                  of the assessment, check to ensure that students receive punch-out tools and scratch paper. For the
                                  Composition tests (grades 4, 7, and 10), ensure that each student has two sheets of Planning and
                                  Draft paper.

                            2.	Walk around the room quietly and frequently to ensure that students
                                  a.	 receive additional sharpened pencils when needed
                                  b.	follow instructions
                                  c.	 are working on the appropriate content-area section of the assessment




        16  District of Columbia Comprehensive Assessment System	                                     2010 Test Chairperson’s Manual




c2700952_TCM_Body_s10DC.indd 16                                                                                                       12/24/09 10:43:27 AM
                                    d.	mark their responses in the appropriate area of the test books (grade 3 and Composition) or
                                       answer booklets (grades 4–8 and 10)
                                    e.	 use only allowable materials
                                    f.	 do not give help to or receive help from other students
                                    g.	are not using a calculator except on approved sections of the Mathematics test

                                  3.	Refer all students’ questions to the Test Administrator.

                                  After testing:
                                  1.	For grades 4–8 and 10, check to make sure students have not left answer booklets inside test books.

                                  2.	For all grades, check test books (grade 3 and Composition) or answer booklets (grades 4–8 and 10)
                                    to make sure there are no sticky notes, staples, pins, paper clips, and no tape of any kind on any
                                    pages. Remove any of these extraneous materials.

                                  3.	For the Mathematics content-area section of the assessment, check to be sure no punch-out tools or
                                    scratch paper were left inside the test books (grade 3) or answer booklets (grades 4–8 and 10).

                                  4.	For the Composition tests, check to be sure no Planning and Draft pages have been left in the test
                                    booklets.

           Step 6	                Distribute Test Materials




                                                                                                                                                      Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                                  The Test Chairperson should distribute the test materials on the morning of testing.

                                  •	 Test books and answer booklets—See Pages 6, 7, and 8 of this manual for list of assessment materials
                                     for each grade.

                                  •	 Punch-out tools—See Pages 6, 7, and 8 of this manual for punch-out tool needed for each grade.

                                  •	 Test Directions—one copy of the test directions for the grades they are administrating (grade 3 or
                                     grades 4–8 and 10)

                                  •	 Group Information Sheets (GISs)—one for each group of students and content area tested

                                     	 grade 3—one GIS for Reading and Mathematics Test Books for each group/grade of students
                                       tested

                                     	grades 4–8 and 10—one GIS for Reading and Mathematics Answer Booklets for each group/grade
                                       of students tested

                                     	 grades 4, 7, 10—one GIS for Composition Test Booklets for each group/grade of students tested

                                     	 grades 5, 8, and Biology students—one GIS for Science or Biology Answer Booklets for each
                                       group/grade of students tested

                                  •	 Envelopes for Reading and Mathematics Test Books (grade 3), Reading, Mathematics, Science, and
                                     Biology Answer Booklets (grades 4–8 and 10), or Composition Test Booklets (grades 4, 7, and 10)—
                                     one for each group/grade or class of students tested




           2010 Test Chairperson’s Manual	                                District of Columbia Comprehensive Assessment System  17




c2700952_TCM_Body_s10DC.indd 17                                                                                                       12/24/09 10:43:27 AM
                            There must be separate Group Information Sheets and envelopes for test books and answer booklets
                            for each class or group and content area (see previous page) to be tested. If you need additional Group
                            Information Sheets or envelopes, please call 800-994-8579. Do not photocopy these documents.

                            The Test Chairperson must complete a School Security Checklist for each Test Administrator receiving
                            test materials. The Chairperson must write the quantity for bar-coded materials signed out and in with
                            the Test Administrators. The Chairperson and the Test Administrator must initial the materials out and in
                            each day.


        Step 7	             Fulfill School Materials Requests
                            The Test Chairperson should fill requests for additional materials within the school by using the overage
                            material received and the School Security Checklist. The Chairperson must complete the School Security
                            Checklist by identifying the school name and the Test Administrator receiving the materials. The Test
                            Chairperson should write in the quantity of all test materials provided.


        Step 8	             Using the Precoded Student Label and Completing
                            the Student-Identifying Information
                            Precoded student labels will be distributed by the Test Chairperson. The precoded student label will
                            identify the student’s name, student ID number, birth date, ethnicity, gender, and grade. Each student’s
                            label must be placed on the front cover of the test book or answer booklet in the space indicated in




                                                                                                                                                        Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                            order for scores to be reported correctly.

                            If a precoded student label is not provided for a student, or the information on the label is inaccurate,
                            the student data grid on the back of the test book or answer booklet must be completed. An overage
                            of answer booklets is provided to use for students who do not have a precoded student label or whose
                            label shows inaccurate information.

                            Check the precoded student label for accuracy:

                            •	    If the information on the precoded student label is correct, place the label on the front cover of
                                  the test book or answer booklet in the space indicated. After testing, refer to Appendix A.1 for
                                  instructions on completing test accommodation information for each student.

                            • 	 If a precoded student label has been affixed to the front cover of the test book or answer booklet
                                  and some information on the label is subsequently determined to be inaccurate, the test book or
                                  answer booklet can still be used by doing the following: Place two blank labels over the inaccurate
                                  label. Then, bubble all information on the student data grid. Blank labels are sent specifically for
                                  this use.




        18  District of Columbia Comprehensive Assessment System	                                      2010 Test Chairperson’s Manual




c2700952_TCM_Body_s10DC.indd 18                                                                                                          12/24/09 10:43:27 AM
           Completing Student-Identifying Information PRIOR TO TEST ADMINISTRATION
           Use the instructions in this section to complete the top section of the student data grid on the back of the answer
           booklets (or test books for grade 3 and Composition). This information should be completed prior to the administration
           of the first testing session of the assessment.


                                                                 DISTRICT OF COLUMBIA
                                                          COMPREHENSIVE ASSESSMENT SYSTEM 2010
                                                                                                                                Grade 3
                                             Student Name

                                             Teacher                                                                                 School

                                        Last          STUDENT’S NAME                          First                                    M.I.            BIRTH DATE                      ETHNICITY
                                                                                                                                                Month      Day      Year                 (mark one)
                                                                                                                                                                                   1   Asian/
                                                                                                                                                 Jan       0   0    0   0              Pacific Islander
                                        A     A   A   A   A    A   A     A   A    A   A       A     A   A   A   A   A   A   A    A       A       Feb       1   1        1          2   Black
                                        B     B   B   B   B    B   B     B   B    B   B       B     B   B   B   B   B   B   B    B       B       Mar       2   2        2              (non-Hispanic)
                                        C     C   C   C   C    C   C     C   C    C   C       C     C   C   C   C   C   C   C    C       C       Apr       3   3        3          3   Hispanic
                                        D     D   D   D   D    D   D     D   D    D   D       D     D   D   D   D   D   D   D    D       D       May           4        4

                                        E     E   E   E   E    E   E     E   E    E   E       E     E   E   E   E   E   E   E    E       E       Jun           5        5          4   American Indian/
                                        F     F   F   F   F    F   F     F   F    F   F       F     F   F   F   F   F   F   F    F       F       Jul           6        6              Alaska Native
                                        G     G   G   G   G    G   G     G   G    G   G       G     G   G   G   G   G   G   G    G      G        Aug           7        7          5   White
                                        H     H   H   H   H    H   H     H   H    H   H       H     H   H   H   H   H   H   H    H       H       Sep           8    8   8              (non-Hispanic)
                                         I    I   I   I   I    I   I     I   I    I   I       I     I   I   I   I   I   I   I    I       I       Oct           9    9   9
                                                                                                                                                                                        GENDER
                                        J     J   J   J   J    J   J     J   J    J   J       J     J   J   J   J   J   J   J    J       J       Nov
                                        K     K   K   K   K    K   K     K   K    K   K       K     K   K   K   K   K   K   K    K       K       Dec                                   Female             Male
                                        L     L   L   L   L    L   L     L   L    L   L       L     L   L   L   L   L   L   L    L       L
                                                                                                                                                                Place precoded STUDENT
                                                                                                                                              STUDENT ID NUMBER LABEL on front cover. If a
                                        M     M   M   M   M    M   M    M    M    M   M       M    M    M   M   M   M   M   M    M      M

                                        N     N   N   N   N    N   N     N   N    N   N       N     N   N   N   N   N   N   N    N       N                      precoded student label is used,
                                        O     O   O   O   O    O   O     O   O    O   O       O     O   O   O   O   O   O   O    O      O                       the following data cannot be
                                        P     P   P   P   P    P   P     P   P    P   P       P     P   P   P   P   P   P   P    P       P      0 0 0 0 0 0 0   modified: student name,
                                        Q     Q   Q   Q   Q    Q   Q     Q   Q    Q   Q       Q     Q   Q   Q   Q   Q   Q   Q    Q      Q       1 1 1 1 1 1 1   birth date, ethnicity, gender,
                                        R     R   R   R   R    R   R     R   R    R   R       R     R   R   R   R   R   R   R    R       R      2 2 2 2 2 2 2   and student ID number. If any
                                        S     S   S   S   S    S   S     S   S    S   S       S     S   S   S   S   S   S   S    S       S      3 3 3 3 3 3 3   of that information is incorrect,




                                                                                                                                                                                                                                 Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                                        T     T   T   T   T    T   T     T   T    T   T       T     T   T   T   T   T   T   T    T       T      4 4 4 4 4 4 4   do not use the precoded
                                        U     U   U   U   U    U   U     U   U    U   U       U     U   U   U   U   U   U   U    U       U      5 5 5 5 5 5 5
                                                                                                                                                                STUDENT LABEL. Instead,
                                        V     V   V   V   V    V   V     V   V    V   V       V     V   V   V   V   V   V   V    V       V      6 6 6 6 6 6 6
                                                                                                                                                                fill in all sections of this page.
                                                                                                                                                                For further instructions on
                                        W     W   W   W   W    W   W    W    W    W   W       W    W    W   W   W   W   W   W   W       W       7 7 7 7 7 7 7
                                                                                                                                                                filling in information on this
                                        X     X   X   X   X    X   X     X   X    X   X       X     X   X   X   X   X   X   X    X       X      8 8 8 8 8 8 8
                                                                                                                                                                page, please refer to the Test
                                        Y     Y   Y   Y   Y    Y   Y     Y   Y    Y   Y       Y     Y   Y   Y   Y   Y   Y   Y    Y       Y      9 9 9 9 9 9 9
                                                                                                                                                                Directions or Test Chairperson’s
                                        Z     Z   Z   Z   Z    Z   Z     Z   Z    Z   Z       Z     Z   Z   Z   Z   Z   Z   Z    Z       Z                      Manual.

                                                              ENGLISH LANGUAGE LEARNER                                                         PROGRAM PARTICIPATION (mark all that apply)
                                                              ACCESS FOR ELL PROFICIENCY LEVEL                                                Special Education
                                                                                 (mark one)                                                   English Language Learner
                                                                                                                                                                                             SPECIAL
                                                                                                                                              Section 504
                                                                                                                                                                                             USE ONLY
                                                               1       Level 1            3       Level 3                                     Title I Targeted Assisted
                                                               2       Level 2            4       Level 4                                     Home Schooling (not enrolled in a
                                                                                                                                              public school)                                 0    0   0   0

                                                                                                                                              Retake (select option if student
                                                                                                                                              has participated in the assessment
                                                                                                                                              previously)




           For all students:

           On the back of the answer booklets (or test books for grade 3 and Composition), in the top section, print the student’s
           name, the teacher’s name, and the name of the school.

           For only those students who do not have a precoded student label or whose label shows inaccurate information:

           All the following fields must be completed according to the information on the next page.

               * Student Name		                           * Gender
               * Birth Date			                            * Student ID Number
               * Ethnicity




           2010 Test Chairperson’s Manual	                                                                              District of Columbia Comprehensive Assessment System  19




c2700952_TCM_Body_s10DC.indd 19                                                                                                                                                                                  12/24/09 10:43:29 AM
                             INSTRUCTIONS FOR COMPLETING STUDENT-IDENTIFYING INFORMATION
                         	        Turn to the back cover of your answer booklet (or test book for grade 3 and Composition). In
                                  the top section, print your name, the teacher’s name, and the name of the school. I have put
                                  the teacher name and school name on the board to show you exactly how they should be
                                  printed.

                                  	 Pause while students complete the information in the header space.

                                  	 If all students have an answer booklet (or test book for grade 3 and Composition) with a precoded
                                    student label affixed on the front cover, proceed to the test administration directions on Page 16 of
                                    the Test Directions Manual for Grade 3, and Page 22 of the Test Directions for Grades 4–8 and 10
                                    (Reading and Mathematics), Page 42 (Composition), or Page 47 (Science or Biology).

        Completing the Student Data Grid with Students

                                  	 If the answer booklets (or test books for grade 3 and Composition) do not have a precoded student
                                    label on the front cover—and the student-identifying information on the student data grid has not
                                    been completed—proceed with these directions for students to complete the top half of the student
                                    data grid.


                        	         Below the top section, find the heading “STUDENT’S NAME.” For “Last,” start at the left and
                                  print one letter in each box. Print as many letters of your last name as will fit in the boxes
                                  provided. If you do not need all the boxes, leave those boxes blank. Repeat this procedure




                                                                                                                                                     Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                                  for “First,” and then print the first letter of your middle name under “M.I.” Do not print a
                                  nickname or shortened name.

                    	             Below each box that shows a letter of your name, fill in the appropriate circle for that letter.
                                  If you left some boxes blank, fill in the empty circles for those boxes.

                                  Are there any questions?

                                  	 Pause to answer any questions and to allow students time to complete this field.

                        	In the section to the right of your name, find the heading “BIRTH DATE.” Under “Month,” fill
                                  in the circle that corresponds to the month of your birth date. Then under “Day,” fill in two
                                  circles. If you were born on the first through the ninth of the month, fill in a circle for zero
                                  and then the number that corresponds to the correct day. For “Year,” fill in the two circles
                                  that indicate the last two digits of the year you were born.

                                  	 Pause while students complete this field.

                        	         To the right of “BIRTH DATE,” find the heading “ETHNICITY.” Fill in the one circle that best
                                  identifies your ethnic origins.

                    	             Are there any questions?

                                  	 Pause to answer any questions and to allow students time to complete this field.




        20  District of Columbia Comprehensive Assessment System	                                      2010 Test Chairperson’s Manual




c2700952_TCM_Body_s10DC.indd 20                                                                                                       12/24/09 10:43:30 AM
                          	        Below “ETHNICITY,” find the heading “GENDER” and fill in the appropriate circle to identify
                                   your gender.

                                    	 Pause.

                          	        Below “BIRTH DATE,” find the heading “STUDENT ID NUMBER.” In the boxes above the
                                   circles, print the seven‑digit number that is your ID number. Then fill in the appropriate circle
                                   below each number.

                                    	 Pause while students complete this field. Then turn to Page 16 of the Test Directions Manual
                                      for Grade 3 (Reading and Mathematics), Page 22 of the Test Directions for Grades 4–8 and 10
                                      (Reading and Mathematics), Page 42 (Composition), or Page 47 (Science or Biology) for directions to
                                      continue the administration.
                                     The remaining information fields on the grid should not be filled in until after the test
                                     administration. See below for filling in the lower part of the grid after the test.

                                  Completing additional Student Information AFTER THE TEST
                                  The following codes could not be precoded and must be completed for all students.

                                  ENGLISH LANGUAGE LEARNER–See Appendix A.2 on Page 33.




                                                                                                                                                   Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                                  Complete the appropriate codes in the following fields for English Language Learners:

                                  ENGLISH LANGUAGE PROFICIENCY LEVEL (mark one)

                                       1	       Level 1	      3	    Level 3
                                       2	       Level 2	      4	    Level 4


                                  PROGRAM PARTICIPATION (mark all that apply)


                                            	   Special Education
                                            	   English Language Learner
                                            	   Section 504
                                            	   Title I Targeted Assisted
                                            	   Home Schooling (not enrolled in a public school)
                                            	Retake (select option if student has participated
                                              in the assessment previously)


                                  SPECIAL USE ONLY

                                  For the Reading/Mathematics and Science tests, the Special Use Only field is to be used by
                                  CTB only. DO NOT MARK in this field.

                                  For the Composition tests, use this field to indicate that a test booklet is invalid.




           2010 Test Chairperson’s Manual	                                    District of Columbia Comprehensive Assessment System  21




c2700952_TCM_Body_s10DC.indd 21                                                                                                    12/24/09 10:43:30 AM
                               STUDENTS WITH DISABILITIES (SWD) AND ENGLISH LANGUAGE
                               LEARNERS (ELL) ACCOMMODATIONS
                               For more information regarding permissible test accommodations for SWD and ELL accommodation
                               levels, see Appendices A.1 and A.2.


                                          District of Columbia Comprehensive Assessment System 2010


                          Student Name

                                                                            Testing Accommodations Provided to This Student

                           STUDENTS WITH DISABILITIES (SWD)                                                                                  ENGLISH LANGUAGE LEARNERS (ELL)

                                Timing/Scheduling Accommodations                                                                                  Direct Linguistic Support—Oral
                                01	   Extended Time on Subtests                                                                                   01	   Repetition of Directions
                                02	   Breaks Allowed between Subtests                                                                             02	   Simplification of Oral Directions
                                03	   Test Administered over Several Days                                                                         03	   Oral Reading of Directions
                                04	   Flexible Scheduling                                                                                         04	   Simplification of Writing Prompt
                                05	   Breaks Allowed during Subtest                                                                               05	   Oral Reading of Test in English (Math, Science,
                                06	   Test Administered at Best Time of the Day                                                                         or Composition Only)

                                Setting Accommodations
                                01	   Small Group Testing                                                                                         Direct Linguistic Support—Written
                                02	   Preferential Seating                                                                                         01 English Dictionary
                                03	   Location with Minimal Distractions                                                                           02	 Bilingual Word to Word Dictionary
                                04	   Individual Testing
                                05	   Noise Buffer




                                                                                                                                                                                                                                              Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                                06	   Special Lighting                                                                                             Indirect Linguistic Support
                                07	   Adaptive or Special Furniture                                                                               01	   Extended Time on Subtests
                                                                                                                                                  02	   Breaks Allowed Between Subtests
                                Response Accommodations                                                                                           03	   Test Administered over Several Days
                                01	   Calculator                                                                                                  04	   Flexible Scheduling
                                02	   Write in Test Books                                                                                         05	   Breaks Allowed during Subtest
                                03	   Dictated Response to Examiner                                                                               06	   Test Administered at Best Time of the Day
                                04    Oral Response to Test                                                                                       07	   Small Group Testing
                                05    Pencil Grip Accommodation                                                                                   08	   Preferential Seating
                                06	   Pointing Response                                                                                           09	   Familiar Person Administers Test
                                07	   Signed and/or Taped Response                                                                                10	   Use of Markers to Maintain Place

                                Presentation Accommodations
                                01	 Repetition of Directions                                                                                       Other
                                02	 Simplification of Oral Directions                                                                                   Please specify.
                                03 Reading of Test Questions (Math, Science,
                                    or Composition Only)
                                04	 Interpretation of Oral Directions
                                05	 Translation of Words and Phrases (Math,
                                    Science, or Composition Only)
                                06	   Use of Markers to Maintain Place
                                07	   Amplification Equipment
                                08	   Magnifying Glass
                                09	   Large Print Test Materials
                                10	 Braille Test Materials

                                Other
                                      Please specify.




                         Developed and published by CTB/McGraw-Hill LLC, a subsidiary of The McGraw-Hill Companies, Inc., 20 Ryan Ranch Road, Monterey, California 93940-5703. Copyright © 2010 by District of
                         Columbia Office of the State Superintendent of Education. All rights reserved. No part of this publication may be reproduced or distributed in any form or by any means, or stored in a database or
                         retrieval system, without the prior written permission of the District of Columbia Office of the State Superintendent of Education.

                         Printed in U.S.A.
                         1 2 3 4 5 6 7 8 9 SCN 12 11 10




        22  District of Columbia Comprehensive Assessment System	                                                                                                            2010 Test Chairperson’s Manual




c2700952_TCM_Body_s10DC.indd 22                                                                                                                                                                                                1/15/10 10:18:02 AM
                                       During Testing—Instructions for Test Chairpersons



                                  During testing, the Test Chairperson should do the following:

                                  •	 Sign out and sign in secure materials on a daily basis. You may pre-assign materials to help facilitate
                                     the process.

                                  •	 Be available to answer questions that might arise.

                                  •	 Make sure that directions are not read over the Public Address System.

                                  •	 Oversee the test administration. Make sure that materials for each test are available and all
                                     administration procedures are being followed. Make sure that unspecified supplemental materials are
                                     not being used.

                                  •	 Ensure that all school personnel involved in the test administration adhere to the security guidelines.
                                     Any breach of test security must be reported.




                                                                                                                                                           Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                                  •	 Make sure that the circumstances surrounding significant disruptions in normal testing are
                                     documented and kept on file in the school office (e.g., a student is suspected of cheating). Copies
                                     of the documentation related to disruptions must be sent to the OSSE Division of Assessment and
                                     Accountability.

                                  •	 Make sure that students requiring extra testing time have the opportunity to complete each test
                                     session.

                                  •	 On each testing day, sign out and sign in all test books and any answer booklets that contain student
                                     responses. These secure materials must be returned at the end of testing. The test book (grade 3 and
                                     Composition) or answer booklet (grades 4–8 and 10) of any student who attempted any test must be
                                     sent in for scoring.

                                  •	 If there are missing secure materials (i.e., test materials initially received by the Test Administrator but
                                     not returned), alert the Principal, LEA Assessment Coordinator, the OSSE Division of Elementary and
                                     Secondary Education (email: OSSE.DCCAS@dc.gov), and CTB and document this with as many details
                                     as are known.




           2010 Test Chairperson’s Manual	                                 District of Columbia Comprehensive Assessment System  23




c2700952_TCM_Body_s10DC.indd 23                                                                                                            12/24/09 10:43:31 AM
                                  After Testing—Instructions for Test Chairpersons



        Step 1	             Receiving and Checking TEST Materials
                            Following test administrations, the Test Chairperson should confirm receipt of all materials from each
                            Test Administrator. Immediately contact your LEA Assessment Coordinator and the OSSE Division of
                            Elementary and Secondary Education (email: OSSE.DCCAS@dc.gov) if materials are missing.


        	                   Review School Security Checklist
                            The School Security Checklist for each Test Administrator should be reviewed to ensure that the quantity
                            and the beginning and ending serial numbers for bar-coded materials were signed out and signed in
                            with the Test Administrators. The Chairperson and the Test Administrator should have initialed the
                            materials out and in each day.

        	                   Check Group Information Sheet




                                                                                                                                                Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                            The Group Information Sheet is shown on the next page. Instructions for checking each section for
                            completeness and accuracy follow.

                            The appropriate Group Information Sheet for all grades is purple. CTB Group Information Sheets
                            used for other testing must not be used for the District of Columbia Comprehensive
                            Assessment System.

                            The Group Information Sheet contains information precoded for a specific school. Therefore, Group
                            Information Sheets may not be exchanged between schools.

                            Group Information Sheets are no longer precoded by content area. Any Group Information Sheet may
                            be used for any single grade/content area combination. However, the test materials under a single
                            Group Information Sheet must belong to only one content area and one grade.

                            It is essential that a complete and accurate Group Information Sheet be placed on top of each stack of
                            Reading/Mathematics Test Books (grade 3), Reading/Mathematics Answer Booklets (grades 4–8 and 10),
                            Composition Test Booklets (grades 4, 7, and 10), Science Answer Booklets (grades 5 and 8), or Biology
                            Answer Booklets (grades 8–12) for which scores will be reported together.




        24  District of Columbia Comprehensive Assessment System	                                 2010 Test Chairperson’s Manual




c2700952_TCM_Body_s10DC.indd 24                                                                                                  12/24/09 10:43:32 AM
                                              1                                    2         3




                                                                                                                                               Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
           WHEN YOU CHECK THIS…	LOOK FOR THESE:
             1	     Teacher Name              The Test Administrator’s last name should be printed in the boxes, and then the
                                              first name or initial if needed. Under each box, the circle with the same letter
                                              should be filled in.


             2	     Number Students Testing   The number of students whose completed test books (grade 3 or Composition) or
                                              completed answer booklets (grades 4–8 and 10) are being returned under this
                                              Group Information Sheet should be printed in the boxes and the corresponding
                                              circles filled in. Fill in a circle for each column, using leading zeros if necessary.
                                              This number should not include the answer booklets of any students not tested.


             3	     Grade                     The circle that shows the grade of the students being tested should be filled in.
                                              Do not use the “Ungraded” bubble or mix grades under a single Group
                                              Information Sheet. Each Group Information Sheet must reflect one grade only.




           2010 Test Chairperson’s Manual	                   District of Columbia Comprehensive Assessment System  25




c2700952_TCM_Body_s10DC.indd 25                                                                                                12/24/09 10:43:33 AM
        Step 2	             Organizing and Preparing TEST Materials

        	                   Complete the School/Group List
                            The School/Group List is shown below. One School/Group List needs to be filled out for Reading/
                            Mathematics (R/M), one for Science and Biology, and one for Composition (COMP). Instructions for
                            checking each section for completeness and accuracy appear on the next page.




                                                                        District of Columbia
                                                                Comprehensive Assessment System 2010
                                                                                     SCHOOL/GROUP LIST
                                                                             READING/ MATH
                                                   1           District Name:                    SAMPLE DISTRICT                               District Code:                                99
                                                   2           School Name:                      SAMPLE SCHOOL                                 School Code:                             9999

                                  PLEASE READ INSTRUCTIONS BELOW COMPLETELY BEFORE BEGINNING:
                                        1.     Use a separate School/Group List for each school and content area.
                                        2.     Create an entry below for every Group Information Sheet (GIS) completed for your school.
                                        3.     Sign and date the form at the bottom of the page.
                                        4.     If you have too many groups to fit on one page, you may photocopy this form.




                                                                                                                                                                                                                            Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                                                                                                                                               3                                4
                                                   CTB                                     Teacher Name                                             Grade              Number of                  CTB Use
                                                   Use              (MUST BE IDENTICAL TO “TEACHER NAME”                                            (3 – 10             Scorable                  (Did Not
                                                                                 FIELD ON GIS)                                                       only)               Answer                   Receive)
                                                                                                                                                                       Documents




                                  I certify that the information above is complete and correct.

                              5    Contact Name:                                                                                  Contact Title:

                              6    Signature:                                                                                                    Date:


                                  Organization Number: M012463                                                   Testing Program: 001                           SO Number: 67351S01

                                  Organization Name: DC CAS 2010                                                 Element Name: 0200000xx

                                  Thank you for providing us with your contact information. We will use this information only to fulfill your order. We store this information in a secure
                                  database at CTB/McGraw-Hill in the U.S. If you would like more information on The McGraw-Hill Companies Customer Privacy Policy, please visit
                                  http://www.mcgraw-hill.com/privacy.html




        26  District of Columbia Comprehensive Assessment System	                                                                                                      2010 Test Chairperson’s Manual




c2700952_TCM_Body_s10DC.indd 26                                                                                                                                                                              12/24/09 10:43:33 AM
                                  The appropriate School/Group List is specific to the District of Columbia Comprehensive Assessment
                                  System. Any other CTB School/Group Lists used for testing other students must not be used for the
                                  District of Columbia Comprehensive Assessment System.

                                  The School/Group List contains information precoded for a specific school. Therefore, School/Group Lists
                                  must not be exchanged between schools.




           When you check this…	Look for This:
             1	     District Name, District Code                This information should be precoded.



             2	     School Name, School Code                    This information should be precoded.



             3	     Teacher Name, Grade                         In order of grade, list each group by the name shown on the Group
                                                                Information Sheet (GIS) —typically the classroom teacher’s name. Then in
                                                                the “Grade” column, list the grade for each teacher.



             4	     Number of Scorable Answer                   For each group, write the number of scorable answer documents.




                                                                                                                                                     Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                    Documents                                   This should be the same as the “Number Students Testing” on the
                                                                corresponding GIS. This number should not include non-tested students.



             5	     Contact Name, Contact Title                 Please provide the name of a school site contact person, either the Test
                                                                Chairperson or another person, and provide the contact person’s title.



             6	     Signature, Date                             The contact person must sign and date the School/Group List on the lines
                                                                provided.




           2010 Test Chairperson’s Manual	                               District of Columbia Comprehensive Assessment System  27




c2700952_TCM_Body_s10DC.indd 27                                                                                                      12/24/09 10:43:33 AM
        Step 3	             PREPARing TEST Materials for Shipment

         	                  Reuse Pink Shipping Cartons
                            The pink boxes in which test materials were delivered to you
                            are the only boxes permissible for return shipping. Ensure that
                            former labels and other markings have been removed or covered.

                            When preparing the test materials for shipment, make sure to keep the boxes containing scorable
                            materials separate from the boxes containing nonscorable materials.


        	                   Preparing Scorable Test Materials                                                                                                                      District of Columbia
                                                                                                                                                                           Comprehensive Assessment System 2010
                                                                                                                                                                                                SCHOOL/GROUP LIST
                                                                                                                                                                                        READING/ MATH
                            •  Used Reading and Mathematics Test Books (Grade 3)                                                                                          District Name:
                                                                                                                                                                          School Name:

                                                                                                                                             PLEASE READ INSTRUCTIONS BELOW COMPLETELY BEFORE BEGINNING:
                                                                                                                                                                                                            SAMPLE DISTRICT
                                                                                                                                                                                                            SAMPLE SCHOOL
                                                                                                                                                                                                                                                          District Code:
                                                                                                                                                                                                                                                          School Code:                             9999
                                                                                                                                                                                                                                                                                                        99




                                                                                                                                                   1. Use a separate School/Group List for each school and content area.




                            •  Used Reading and Mathematics Answer Booklets
                                                                                                                                                   2. Create an entry below for every Group Information Sheet (GIS) completed for your school.
                                                                                                                                                   3. Sign and date the form at the bottom of the page.
                                                                                                                                                   4. If you have too many groups to fit on one page, you may photocopy this form.


                                                                                         SCORABLE                                                             CTB
                                                                                                                                                              Use
                                                                                                                                                                                                      Teacher Name
                                                                                                                                                                               (MUST BE IDENTICAL TO “TEACHER NAME”
                                                                                                                                                                                                                                                               Grade
                                                                                                                                                                                                                                                               (3 – 10
                                                                                                                                                                                                                                                                                  Number of
                                                                                                                                                                                                                                                                                   Scorable
                                                                                                                                                                                                                                                                                    Answer
                                                                                                                                                                                                                                                                                                             CTB Use
                                                                                                                                                                                                                                                                                                             (Did Not
                                                                                                                                                                                            FIELD ON GIS)                                                       only)                                        Receive)
                                                                                                                                                                                                                                                                                  Documents




                                  (Grades 4–8 and 10)
                            •  Used Composition Test Booklets (Grades 4, 7, and 10)
                            •  Used Science (Grades 5 and 8) and Biology (Grades                    CTB
                                                                                                                                             I certify that the information above is complete and correct.

                                                                                                                                              Contact Name:
                                                                                                                                              Signature:
                                                                                                                                                                                                                                             Contact Title:
                                                                                                                                                                                                                                                            Date:


                                                                                                    McGraw-Hill
                                  8–12) Answer Booklets
                                                                                                                                             Organization Number: M012463                                                   Testing Program: 001                           SO Number: 67351S01

                                                                                                                                             Organization Name: DC CAS 2010                                                 Element Name: 0200000xx

                                                                                                                                             Thank you for providing us with your contact information. We will use this information only to fulfill your order. We store this information in a secure
                                                                                                                                             database at CTB/McGraw-Hill in the U.S. If you would like more information on The McGraw-Hill Companies Customer Privacy Policy, please visit
                                                                                                                                             http://www.mcgraw-hill.com/privacy.html




                            Make sure that responses for students taking the large print version and the Braille version
                            of the test have been transferred to standard answer booklets (or test books for grade 3 and
                            Composition). Important: Be sure to transfer responses into an answer booklet or a test book




                                                                                                                                                                                                                                                                                                                        Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                            with the same form number as the large print or Braille version. The standard answer booklets (or
                            test books for grade 3 and Composition) must be packaged with the scorable test materials. All other
                            large print and Braille test materials must be packaged with the nonscorable test materials.

                            Stack the envelopes containing completed Group Information Sheets and completed test books or
                            answer booklets flat in the cartons. If testing more than one grade, number the envelopes “1 of 4,”
                            “2 of 4,” and so on. Example: If grade 3 scorable materials fit in four envelopes and grade 4 scorable
                            materials fit in two envelopes, then number them so CTB will know where each grade’s materials begin.
                            Place the School/Group List on top of the stacks of envelopes for each associated group of materials.

                            Write the School Name on the outside of each “scorable” carton and number the cartons “1 of 2,” “2
                            of 2,” etc.


        	                   Preparing Nonscorable Test Materials
                            Although the students in grades 4–8 and 10 do
                            not mark the Reading and Mathematics, Science,
                                                                                                                  SOUTH CAROLINA STATE ED DEPT                                                     SHIP TO:
                                                                                                                  TERRANOVA SPRING 2000 ADMIN
                                                                                                                  GRADES 5,8,AND 11                                                                SCHOOL NUMBER
                                                                                                                                                                                                   SCHOOL NAME

                                                                                                                                                                                                   C/O DISTRICT NUMBER
                                                                                                                                                                                                   DISTRICT NAME
                                                                                                                  SCHOOL PACKING LIST                                                              DISTRICT ADDRESS




                            and Biology test books with their responses, the
                                                                                                                  (PLEASE KEEP A COPY FOR YOUR RECORDS)                                            ATTN: TEST COORDINATOR

                                                                                                                                                                                                   MARCH 25, 2000

                                                                                                                                                                                                                       PAGE 1

                                                                                                                                 PACKING LIST # 627684757-1

                                                                                                                          UNIT                                                                                     COMMOD              SEQ#                   SEQ#




                            test books remain secure documents and
                                                                                                                  QUANT   SIZE                                                                                     CODE                BEGIN                  END
                                                                                                                  6              Grade 5 Student Book                                                                                  000101
                                                                                                                  6              Grade 8 Student Book                                                                                  001001



                                                                                      NONSCORABLE
                                                                                                                  6              Grade 11 Student Book                                                                                 000011
                                                                                                                  6              Grades 4-11 Test Directions                                                                           001101
                                                                                                                  6              Grades 4-11 Test Administrator's Manual
                                                                                                                  3              TN Level 13 Practice Test/Directions
                                                                                                                  3              TN Levels 16-18 Practice Test/Direction
                                                                                                                  6              Booklet Return Envelopes




                            must be returned to CTB. Test Chairpersons
                                                                                                                  6              Answer Sheet Return Envelopes
                                                                                                                  3              Grade 4-11 Math Manipulative




                            must also return all Test Directions and unused
                            answer booklets to CTB. Do not return math
                                                                                              CTB
                            manipulatives (punch-out rulers).                                 McGraw-Hill




        28  District of Columbia Comprehensive Assessment System	                                       2010 Test Chairperson’s Manual




c2700952_TCM_Body_s10DC.indd 28                                                                                                                                                                                                                                                                          12/24/09 10:43:35 AM
                                  Arrange all unused test books by serial number (this includes any that may have been provided to
                                  make up for shortages). Use the School Packing List and the School Security Checklist that came with
                                  your materials to verify that all test books delivered to your school are being returned. Place all unused
                                  grade 3 and Composition test books and all grades 4–8 and 10 Reading, Mathematics, Science, and
                                  Biology test books in cartons for returning test materials, with the original copy of the School Packing
                                  List and the School Security Checklist on top. Retain a copy of each for your files. Write your School
                                  Name on the outside of each “nonscorable” carton and number the cartons “1 of 3,” “2 of 3,” and
                                  “3 of 3.”


           	                      Add Packing Material to Cartons
                                  Add enough packing material to hold the documents securely in place during transit. Then seal each box
                                  tightly with packing tape.


           Step 4	                Shipping TEST Materials
                                                                                                                        Return Shipping
           	                      Attach the Appropriate (“Scorable” or “Nonscorable”)
                                                                                                               The return shipping window will
                                  Shipping Label to Each Carton
                                                                                                               be open from 5/3/10–5/4/10.
                                  Attach or affix the appropriate shipping label to each carton of
                                  materials. These labels are included in your Test Chairperson’s Packet.
                                  Labels should be placed on the side of the box, in the white space




                                                                                                                                                          Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                                  marked “PLACE CTB/MCGRAW-HILL BARCODE RETURN LABEL HERE.”
                                  Do not place the label on the top of the box.

                                  Use the yellow labels for the scorable materials. Use the blue labels for
                                  the cartons of nonscorable materials: unused test books for grade 3
                                  and Composition, and/or all test books for grades 4–8 and 10 Reading, YELLOW–Scorable Materials
                                  Mathematics, Science, and Biology.


           	                      Mark the Cartons
                                  On the yellow return shipping label, fill in the number of scorable
                                  boxes you are returning, and mark each label on each carton with a
                                  unique number, such as “1 of 3,” “2 of 3,” “3 of 3.”

                                  On the blue return shipping label, fill in the number of nonscorable
                                  boxes you are returning, and mark each label on each carton with a           BLUE–Nonscorable Materials

                                  unique number, such as “1 of 3,” “2 of 3,” “3 of 3.”

                                  Return shipping labels are scannable and cannot be photocopied. Yellow labels and blue labels are
                                  not interchangeable. If more return shipping labels of either color are needed, contact CTB Customer Service.


           	                      Ship Cartons to CTB/McGraw-Hill
                                                                                                                                CTB
                                  After you have finished packaging, sealing,                                                   McGraw-Hill
                                                                                                              CTB
                                  labeling, and numbering your boxes, you will be                             McGraw-Hill
                                  ready to schedule the retrieval of materials with


           2010 Test Chairperson’s Manual	                                District of Columbia Comprehensive Assessment System  29




c2700952_TCM_Body_s10DC.indd 29                                                                                                           12/24/09 10:43:35 AM
                            Assessment Distribution Services (ADS). Please note that the scheduled
                            retrieval takes place several days after you make your arrangements
                            with ADS and will not occur on the same day. You or your principal’s
                            designee must plan to be present at your site during the confirmed
                            retrieval date to ensure that test materials are picked up. The retrieval
                            window for the Spring 2010 DC CAS will be May 3–May 4, 2010,
                            to ensure that all materials are processed within the allotted time.

                            Assessment Distribution Services (ADS) Retrieval Process

                              1.  ADS will contact all sites (except those out-of-state) three days prior to pickup to confirm
                                  retrieval date.

                              2.  Sites will need to provide ADS with box counts of both nonscorable and scorable materials
                                  during call.

                              3.  Sites will receive confirmation email from ADS within 24 hours of scheduling with retrieval
                                  information.

                              4.  ADS drivers will arrive at site on confirmed date to pick up materials and provide a bill of lading
                                  for record.

                              Note: Two attempts to schedule material retrieval will be made by ADS. If no answer on first attempt,




                                                                                                                                                       Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                              a voice message will be left with callback instructions. If no answer on second attempt, sites will
                              automatically be assigned a retrieval date and email notification sent out to designated contact.

                            Sites that have completed testing and packaged all materials for pickup may also contact ADS directly at
                            800-840-9965 to schedule retrieval. These sites should plan to store their materials in a secured location
                            as they will not be retrieved by ADS prior to the designated retrieval window (May 3–4, 2010). When
                            contacting ADS for scheduling pickup, sites should state they are calling from “(name of school) in
                            Washington DC for pickup of DC CAS testing materials.” Email confirmation will be provided to these
                            sites detailing pickup information.

                            If you have any questions or have difficulty scheduling your material retrieval, please call Assessment
                            Distribution Services (ADS) at 800-840-9965 or the CTB Customer Services line at 800-994-8579.

                            All materials must be picked up by close of business, May 4, 2010.




        30  District of Columbia Comprehensive Assessment System	                                     2010 Test Chairperson’s Manual




c2700952_TCM_Body_s10DC.indd 30                                                                                                         12/24/09 10:43:36 AM
           Appendix A.1: Special Education Test Accommodations
           Timing/Scheduling Accommodations
           	 1.	Extended time on subtests
           	 2.	Breaks allowed between subtests
           	 3.	Test administered over several days
           	 4.	Flexible scheduling
           	 5.	Breaks allowed during subtest
           	 6.	Test administered at best time of day

           Setting Accommodations
           	 1.	Small group testing
           	 2.	Preferential seating
           	 3.	Location with minimal distractions
           	 4.	Individual testing
           	 5.	Noise buffer
           	 6.	Special lighting
           	 7.	Adaptive or special furniture

           Response Accommodations




                                                                                                                                   Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
           	 1.	Calculator
           	 2.	Write in test books
           	 3.	Dictated response to examiner
           	 4.	Oral response to test
           	 5.	Pencil Grip Accommodation
           	 6.	Pointing response
           	 7.	Signed and/or taped response

           Presentation Accommodations
           	 1.	Repetition of directions
           	 2.	Simplification of oral directions
           	 3.	Reading of test questions (Math, Science, or Composition only)
           	 4.	Interpretation of oral directions
           	 5.	Translation of words and phrases (Math, Science, or Composition only)
           	 6.	Use of markers to maintain place
           	 7.	Amplification equipment
           	 8.	Magnifying glass
           	 9.	Large print test materials
           	10.	Braille test materials




           2010 Test Chairperson’s Manual	                        District of Columbia Comprehensive Assessment System 31




c2700952_TCM_Body_s10DC.indd 31                                                                                    12/24/09 10:43:36 AM
c2700952_TCM_Body_s10DC.indd 32
                                  Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education




12/24/09 10:43:36 AM
           Appendix A.2: Approved Accommodations for English Language
                          Learner (ELL) Students
           The English Language Proficiency (ELP) level for each student is determined by the student’s ACCESS for ELLs or W-APT
           test score. Schools have the option to choose accommodations appropriate for their students from among those permitted
           for their ELP level.

           Note: All of the accommodations listed below are permitted for ELL students in ELP levels 1–4 on all assessments except
           “Oral Reading of Test in English” and “Breaks Allowed During Subtest.” These two accommodations are only permitted
           for ELP Level 1 students, and “Oral Reading of Test in English” is only permitted on the math, science and composition tests.
           Direct Linguistic Support—Oral
           -	 Repetition of Directions
           -	 Simplification of Oral Directions
           -	 Oral Reading of Directions
           -	 Simplification of Writing Prompt
           -	 Oral Reading of Test in English (Math, Science, or Composition Only) (ELP Level 1 Only)

           Direct Linguistic Support—Written
           -	 English Dictionary (Math, Science, or Composition Only)
           -	 Bilingual Word to Word Dictionary (Math, Science, or Composition Only)




                                                                                                                                               Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
           Indirect Linguistic Support
           -	 Extended Time on Subtests
           -	 Breaks Allowed Between Subtests (ELP Level 1 Only)
           -	 Test Administered Over Several Days
           -	 Flexible Scheduling
           -	 Breaks Allowed During Subtest (3–5 minutes)
           -	 Test Administered at Best Time of the Day
           -	 Small Group Testing
           -	 Preferential Seating
           -	 Familiar Person Administers Test
           -	 Use of Markers to Maintain Place

           Important Notes:
           1.  Students receiving a dictionary accommodation must also be provided with extended time.
           2.  Students receiving oral reading, breaks during subtests, use of dictionaries, or extended time
               accommodations must be tested in a separate setting.
           3.  The use of unfamiliar accommodations may have a negative impact on student’s performance. Only those
               accommodations familiar to students which facilitate measurement of their content knowledge and skills
               should be used.




           2010 Test Chairperson’s Manual	                         District of Columbia Comprehensive Assessment System  33




c2700952_TCM_Body_s10DC.indd 33                                                                                                12/24/09 10:53:17 AM
        Appendix B: Test Site Observation Report


                     Test Location                              Number of Students Tested in Location
                     Classroom #___                             Number of Adults in the Test Location
                     Cafeteria___
                     Gym___
                     Other (specify)___________



                     School:

                     Test Chairperson’s Name:

                     Date:                               Observer:

                     Please complete the following information by placing a check in the appropriate column.

                                                                                                    Not
                       TEST SECURITY                                                     Yes No     Observed




                                                                                                                                    Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                       1. Tests were stored in a secure area.
                       2. There was an observable plan for the distribution of test
                          materials to test examiners and proctors each day that
                          required them to sign materials in and out.
                       3. Tests were returned promptly upon the completion of the
                          testing session each day.
                       4. Procedures were in place to distribute and retrieve secure
                          test materials used in make up sessions.
                       5. Adequate provisions were made for students who arrived
                          late to school.
                       6. Adequate provisions were made for students in grades that
                          were not tested.
                       7. Adequate provisions were made for students who needed
                          accommodations to complete the test without disrupting
                          testing for other students.
                       8. Students who required additional time completed the
                          session during the period scheduled for the day. That is,
                          no student in general education began a test session and
                          completed it on another day, after lunch, etc.
                       9. School adhered to required testing schedule.
                      10. Copies of letters to parents of students who are in Special
                          Populations are on file.




                                                                   -1-



        34  District of Columbia Comprehensive Assessment System	                          2010 Test Chairperson’s Manual




c2700952_TCM_Body_s10DC.indd 34                                                                                      12/24/09 10:43:37 AM
                                          TEST SITE OBSERVATION REPORT
                     PART B
                                                                                                  Not
                     ADMINISTRATIVE PROCEDURES                                             Yes No Observed
                     1. Proctors monitor assigned stations

                     2. Examiner's Manual available and used by test administrator

                     3. Sufficient supply of tests were available for administration

                     4. Extra pencils, erasers, scratch paper supplied and available
                        to students

                     5. Test materials handed to each examinee individually by a
                        member of the test administration team

                     6. Test materials checked to ensure that answer booklets (grades
                        4–8 and 10) correspond to the correct test book forms and grades




                                                                                                                                  Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                     7. Students are informed of the procedures that will be used to
                        accommodate students who need extra time to complete the
                        test sessions?

                     8. Adherence to test directions as stated in the manual

                     9. Test administration process started on time as scheduled

                     10. No students admitted after the start of testing

                     11. Test administrator adhered to suggested time limits

                     12. Students checked as to their correct use of answer booklet

                     13. Students periodically informed as to the amount of time
                         remaining for testing

                     14. Materials collected promptly, systematically, completely
                         from each student

                     15. Test material checked and counted before dismissal of
                         examinees




                                                                    -2-



           2010 Test Chairperson’s Manual	                       District of Columbia Comprehensive Assessment System 35




c2700952_TCM_Body_s10DC.indd 35                                                                                   12/24/09 10:43:37 AM
                                                                                                   Not
                    SEATING ARRANGEMENTS                                                Yes No     Observed
                    1. Adequate spacing was provided between seats and rows for
                       self-reliance by students
                    2. Provisions for left-handed examinees
                    3. All examinees facing forward and in the same direction (unless
                       tables were used)

                                                                                               Not
                    TEST ENVIRONMENT                                                    Yes No Observed
                    1. Desks/tabletops clear
                    2. Good heat, light, ventilation
                    3. Limitation of unnecessary interruptions
                    4. Good atmosphere for quiet work
                    5. Administration free of disturbances or irregularities
                    6. Students cooperating with test administration directives
                    7. Bulletin boards were appropriate for test security

                                                                                               Not
                    DELIVERY OF TEST DIRECTIONS                                         Yes No Observed
                    1. Provisions for microphone for large groups
                    2. Clear, loud voice heard all over room
                    3. Instructions read clearly and verbatim from manual




                                                                                                                                 Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education




                                                               -3-



        36  District of Columbia Comprehensive Assessment System	                       2010 Test Chairperson’s Manual




c2700952_TCM_Body_s10DC.indd 36                                                                                   12/24/09 10:43:38 AM
                                                  TEST SITE OBSERVATION REPORT

                                  PART C: School Summary Findings


                                  After completing Parts A and B, please evaluate the total school program using the rating
                                  scale below:
                                                                Extremely
                                                                  Poor       Poor Fair    Good    Excellent Not Observed
                                                                    1         2    3       4         5           6

                          1.      Test Security                    ( )        ( )   ( )   ( )        ( )          ( )

                          2.      Administrative Procedures        ( )        ( )   ( )   ( )        ( )          ( )

                          3.      Seating Arrangements             ( )        ( )   ( )   ( )        ( )          ( )

                          4.      Accommodations for
                                  Special Populations              ( )        ( )   ( )   ( )        ( )          ( )

                          5.      Test Environment                 ( )        ( )   ( )   ( )        ( )          ( )

                          6.      Delivery of Test Directions      ( )        ( )   ( )   ( )        ( )          ( )




                                                                                                                                              Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                          7.      Overall Rating of Program        ( )        ( )   ( )   ( )        ( )          ( )



                                  Overall Comments:
                                  _______________________________________________________________________

                                  _______________________________________________________________________

                                  _______________________________________________________________________



                                  Monitor’s Signature:________________________________________ Date:__________




                                                                            -4-




           2010 Test Chairperson’s Manual	                               District of Columbia Comprehensive Assessment System 37




c2700952_TCM_Body_s10DC.indd 37                                                                                               12/24/09 10:43:38 AM
c2700952_TCM_Body_s10DC.indd 38
                                  Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education




12/24/09 10:43:38 AM
           Appendix C: Comment Fax Form




                                                                                                              Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education




           2010 Test Chairperson’s Manual	   District of Columbia Comprehensive Assessment System 39




c2700952_TCM_Body_s10DC.indd 39                                                               12/24/09 10:43:39 AM
c2700952_TCM_Body_s10DC.indd 40
                                  Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education




12/24/09 10:43:39 AM
           Appendix D: Short/Add Fax Form—Reading and Math
                                                                          DISTRICT of COLUMBIA
                                                                            Comprehensive Assessment System
                                                                                  Short/Add Fax Form
                                                                                   Reading and Math
                         This form is to be completed by the School Test Chairperson only. Use this form if you have any discrepancies between your
                         packing list and the materials received. Fill in the quantity for each piece that is needed.Fax your request to the attention of
                         CTB DC-CAS Customer Service at 866-282-2251 or if you have any questions, please call 800-994-8579. Thank you.

                         All information requested below must be completed in order to process your request.

                         Contact Person/Test Chairperson:                ____________________________________________________________________
                         Phone Number:            (      )______________________                    Fax Number:            (      )_________________________________
                         (Requests will be shipped to this address—NO P.O. Boxes)
                         School Name:           _________________________________________                               School Number:           ________________________
                         School Address:          __________________________________________________________________________________
                         City/State:      _____________________________________________                                 Zip Code:        _____________________________

                         Test Materials – The test books and answer booklets are secure materials and must not be copied. (Fill in the
                         quantity for each item that is needed.)

                         Title                                                                                                                                Code
                                  Grade 3 Test Book Form 1, Form 2, Form 3, Form 4                                                                  21696-01 and 02, 03, 04
                                  Grade 4 Test Book Form 1, Form 2, Form 3, Form 4                                                                  21697-01 and 02, 03, 04
                                  Grade 5 Test Book Form 1, Form 2, Form 3, Form 4                                                                  21698-01 and 02, 03, 04
                                  Grade 6 Test Book Form 1, Form 2, Form 3, Form 4                                                                  21699-01 and 02, 03, 04
                                  Grade 7 Test Book Form 1, Form 2, Form 3, Form 4                                                                  21700-01 and 02, 03, 04




                                                                                                                                                                                                             Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                                  Grade 8 Test Book Form 1, Form 2, Form 3, Form 4                                                                  21701-01 and 02, 03, 04
                                  Grade 10 Test Book Form 1, Form 2, Form 3, Form 4                                                                 21702-01 and 02, 03, 04

                                  Grade 4 Answer Book Form 1, Form 2, Form 3, Form 4                                                                21727-01 and 02, 03, 04
                                  Grade 5 Answer Book Form 1, Form 2, Form 3, Form 4                                                                21728-01 and 02, 03, 04
                                  Grade 6 Answer Book Form 1, Form 2, Form 3, Form 4                                                                21729-01 and 02, 03, 04
                                  Grade 7 Answer Book Form 1, Form 2, Form 3, Form 4                                                                21730-01 and 02, 03, 04
                                  Grade 8 Answer Book Form 1, Form 2, Form 3, Form 4                                                                21731-01 and 02, 03, 04
                                  Grade 10 Answer Book Form 1, Form 2, Form 3, Form 4                                                               21732-01 and 02, 03, 04

                                  Grade 3 Test Directions                                                                                                     2700950
                                  Grade 4-8 & 10 Test Directions                                                                                              2700951
                                  Grades 3 & 4 Math Manipulatives                                                                                              53493
                                  Grades 6, 7, 8 & 10 Math Manipulatives                                                                                       53494
                                  Grade 10 Math Reference Sheet                                                                                                48553


                         Test Chairperson Kit (Please encourage photocopying whenever possible.)
                                       School/Group List (SGL) – may be photocopied
                                       Group Information Sheet (GIS) – DO NOT photocopy
                                       Return envelopes for Test Books and Answer Books – Code 67316
                                       Yellow Return Label - SCORABLE (indicate number of sheets needed: 4 labels per sheet)
                                       Blue Return Label - NON-SCORABLE (indicate number of sheets needed: 4 labels per sheet)

                                                                            Fax this form to: 866-282-2251
                                                                      Attention: CTB DC-CAS Customer Service

                         Thank you for providing us with your contact information. We will use this information only to fulfill your order. We store this information in a secure database at
                         CTB/McGraw-Hill in the U.S. For more information on our privacy practices, send an email to the privacy official at privacyofficer@ctb.com or call 831.393.6207. If
                         you would like more information on The McGraw-Hill Companies Customer Privacy Policy, please visit http://www.mcgraw-hill.com/privacy.html.




           2010 Test Chairperson’s Manual	                                                         District of Columbia Comprehensive Assessment System  41




c2700952_TCM_Body_s10DC.indd 41                                                                                                                                                                 1/7/10 2:58:25 PM
c2700952_TCM_Body_s10DC.indd 42
                                  Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education




12/24/09 10:43:40 AM
           Appendix E: Short/Add Fax Form—Composition
                                                              DISTRICT of COLUMBIA
                                                                Comprehensive Assessment System
                                                                      Short/Add Fax Form
                                                                         Composition
                          This form is to be completed by the School Test Chairperson only. Use this form if you have any
                          discrepancies between your packing list and the materials received. Fill in the quantity for each
                          piece that is needed. Fax your request to the attention of CTB DC-CAS Customer Service at
                          866-282-2251 or if you have any questions, please call 800-994-8579. Thank you.

                          All information requested below must be completed in order to process your request.

                          Contact Person/Test Chairperson:               ________________________________________________
                          Phone Number:           (      )__________          Fax Number:          (     )___________________________
                          (Requests will be shipped to this address—NO P. O. Boxes)
                          School Name:          _________________________                   School Number:         ______________________
                          School Address:         _______________________________________________________________
                          City/State:     _____________________________                     Zip Code:        _________________________

                          Test Materials – The test books are secure materials and must not be copied. (Fill in
                          the quantity for each item that is needed.)
                          Title                                                                                             Code
                          _____ Grade 4 Test Book                                                                          2700947
                          _____ Grade 7 Test Book                                                                          2700948




                                                                                                                                                                      Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                          _____ Grade 10 Test Book                                                                         2700949

                          Title                                                                                             Code
                          Grade 4, 7, & 10 Test Directions                                                                 2700951
                          Grade 4, 7, & 10 Student Scratch Paper                                                           2701149

                          Test Chairperson Kit (Please encourage photocopying whenever possible.)

                          _____     School/Group List (SGL) – may be photocopied
                          _____     Group Information Sheet (GIS) – DO NOT photocopy
                          _____     Return envelopes for Test Books – Code 67316
                          _____     Yellow Return Label - SCORABLE (indicate number of sheets needed: 4 labels per sheet)
                             _
                          _____     Blue Return Label - NON-SCORABLE (indicate number of sheets needed: 4 labels per sheet)




                                                              Fax this form to: 866-282-2251
                                                        Attention: CTB DC-CAS Customer Service

                          Thank you for providing us with your contact information. We will use this information only to fulfill your order. We store
                          this information in a secure database at CTB/McGraw-Hill in the U.S. For more information on our privacy practices, send an
                          email to the privacy official at privacyofficer@ctb.com or call 831.393.6207. If you would like more information on The
                          McGraw-Hill Companies Customer Privacy Policy, please visit http://www.mcgraw-hill.com/privacy.html.




           2010 Test Chairperson’s Manual	                                        District of Columbia Comprehensive Assessment System 43




c2700952_TCM_Body_s10DC.indd 43                                                                                                                         1/6/10 12:53:10 PM
c2700952_TCM_Body_s10DC.indd 44
                                  Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education




12/24/09 10:43:42 AM
           Appendix F: Short/Add Fax Form—Science
                                                                           DISTRICT of COLUMBIA
                                                                             Comprehensive Assessment System
                                                                                   Short/Add Fax Form
                                                                                     Science/Biology
                          This form is to be completed by the School Test Chairperson only. Use this form if you have any
                          discrepancies between your packing list and the materials received. Fill in the quantity for each
                          piece that is needed. Fax your request to the attention of CTB DC-CAS Customer Service at
                          866-282-2251 or if you have any questions, please call 800-994-8579. Thank you.
                          All information requested below must be completed in order to process your request.

                          Contact Person/Test Chairperson:                                ________________________________________________
                          Phone Number:                    (        )__________                  Fax Number:                (        )___________________________
                          (Requests will be shipped to this address—NO P. O. Boxes)
                          School Name:                 _________________________                                  School Number:                  ______________________
                          School Address:                  _______________________________________________________________
                          City/State:           _____________________________                                     Zip Code:               _________________________

                          Test Materials – The test books are secure materials and must not be copied. (Fill in the
                          quantity for each item that is needed.)
                                                 Title                                                                                                   Code
                          _ Grade 5 Science Test Book Form 1, 2, 3, 4                                                                             21703–01, 02, 03, 04
                          _ Grade 8 Science Test Book Form 1, 2, 3, 4                                                                             21704– 01, 02, 03, 04




                                                                                                                                                                                                              Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                          _ High School Biology Test Book Form 1, 2, 3, 4                                                                         21726– 01, 02, 03, 04

                          _ Grade 5 Science Answer Book Form 1, 2, 3, 4                                                                           21733– 01, 02, 03, 04
                          _ Grade 8 Science Answer Book Form 1, 2, 3, 4                                                                           21734– 01, 02, 03, 04
                          _ High School Biology Answer Book Form 1, 2, 3, 4                                                                       21735– 01, 02, 03, 04
                                                Title                                                                                                         Code
                          _Grade 5, 8 & High School Test Directions                                                                                          2700951

                          Test Chairperson Kit (Please encourage photocopying whenever possible.)


                          _             School/Group List (SGL) – may be photocopied
                          _             Group Information Sheet (GIS) – DO NOT photocopy
                          _             Return envelopes for Test Books and Answer Books – Code 67316
                          _             Yellow Return Label - SCORABLE (indicate number of sheets needed: 4 labels per sheet)
                          _             Blue Return Label - NON-SCORABLE (indicate number of sheets needed: 4 labels per sheet)



                                                                         Fax this form to: 866-282-2251
                                                                   Attention: CTB DC-CAS Customer Service



                          Thank you for providing us with your contact information. We will use this information only to fulfill your order. We store this information in a secure database at
                          CTB/McGraw-Hill in the U.S. For more information on our privacy practices, send an email to the privacy official at privacyofficer@ctb.com or call 831.393.6207. If
                          you would like more information on The McGraw-Hill Companies Customer Privacy Policy, please visit http://www.mcgraw-hill.com/privacy.html.




           2010 Test Chairperson’s Manual	                                                           District of Columbia Comprehensive Assessment System  45




c2700952_TCM_Body_s10DC.indd 45                                                                                                                                                                  1/6/10 2:45:55 PM
c2700952_TCM_Body_s10DC.indd 46
                                  Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education




12/24/09 10:43:43 AM
           Appendix G: Local School Responsibilities In Implementing The State
                       Assessment Programs
           Public schools in the District of Columbia and private/residential schools that receive tuition payments for DC students
           are required to implement the state assessment programs according to the guidelines established by the Office of
           the State Superintendent. Therefore, school administrators, test chairpersons, test administrators, proctors and other
           identified personnel who assist with the local school testing programs are expected to review and adhere to State
           guidelines in executing their professional responsibilities to their local programs.

           The primary responsibilities of the principal, test chairperson, local school testing committee, and proctor in
           implementing the state assessments are as follows:

           The Principal is responsible for:

             Ensuring that the test coordinator is trained in establishing and coordinating the local school testing program

             Monitoring the local school testing program

             Ensuring that the state assessment guidelines are followed as outlined in the coordinator’s and administrators’
               manuals




                                                                                                                                                     Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
             Ensuring that parents are notified of the testing program in the school

             Ensuring that all building personnel are informed of test security and test integrity guidelines

             Ensuring that students who require accommodations receive the appropriate accommodations

             Identifying a secured area for keeping all test materials

             Ensuring test security at all times

             Ensuring that all persons responsible for handling, administering, or proctoring the tests are trained in accordance
               with the professional test administration procedures

             Ensuring that all secured materials are packaged and returned as mandated

             Ensuring that any test impropriety is documented and reported to the Office of the State Superintendent, Division of
               Assessment and Accountability in a timely manner

             Monitoring school procedures to ensure that students are provided the opportunity to complete all test sessions
               within the guidelines established by the OSSE, Division of Assessment and Accountability

             Ensuring that all persons responsible for handling, administering, or proctoring the tests sign the Confidentiality
               Agreement Form




           2010 Test Chairperson’s Manual	                            District of Columbia Comprehensive Assessment System 47




c2700952_TCM_Body_s10DC.indd 47                                                                                                      12/24/09 10:43:43 AM
        The Test Chairperson is responsible for:

          Attending the DC CAS training sessions

          Organizing and monitoring the school testing program to ensure that the state assessment guidelines are followed as
            mandated

          Ensuring that seamless procedures are established and disseminated that allow students to complete the test sessions
            within the guidelines established by the OSSE, Division of Assessment and Accountability

          Conducting the test administration training for school personnel involved in the implementation of the program

          Checking and distributing the test materials

          Ensuring that appropriate quantities of materials are requested

          Collaborating with the Principal to establish school testing schedule and sufficient number of proctors

          Identifying appropriate test sites

          Ensuring that appropriate conditions and accommodations are established for students who require accommodations

          Maintaining the security of the test materials




                                                                                                                                               Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
          Supervising testing

          Completing documentation as required in the test manuals

          Preparing test materials for return shipment to mandated site

          Reporting, as directed by the Principal, any testing irregularity (See Security Guidelines in Test Chairperson’s Manual)

        The Testing Committee is responsible for:

          Assisting the Test Chairperson in organizing and monitoring the school testing program

          Understanding state testing irregularities and policy breaches

          Assisting (if needed) the Test Chairperson in conducting training on the administration of the state assessment

          Ensuring test security

          Assisting the Test Chairperson with checking and distributing test materials

          Assisting the Test Chairperson in returning test materials to the secure area in the school

          Assisting the Test Chairperson in packaging test materials for return to the appropriate site

          Other responsibilities as required




        48  District of Columbia Comprehensive Assessment System	                                2010 Test Chairperson’s Manual




c2700952_TCM_Body_s10DC.indd 48                                                                                                 12/24/09 10:43:43 AM
           The Test Administrator is responsible for:

             Conducting the testing sessions as outlined in the Test Directions, Test Chairperson’s Manual, and Test Site
               Observation Checklist

             Clarifying all questions regarding testing policy or procedures with the Principal or Test Chairperson

             Understanding state testing irregularities and policy breaches

             Establishing the testing climate within the test site

             Coordinating the distribution and return of test booklets and answer sheets to students

             Ensuring that students who require accommodations receive the appropriate accommodations

             Ensuring that each student has the correct test form and answer booklet

             Ensuring that students are given the procedures to be followed in finishing a testing session early or for requesting
               additional time

             Monitoring

             Accounting for and maintaining the security of all test materials




                                                                                                                                                 Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
             Checking and completing all required documentation

             Adhering to test directions and administration guidelines

             Apprising the Test Chairperson of all testing irregularities

           The Proctor is responsible for:

             Understanding state testing irregularities and policy breaches

             Assisting the Test Administrator with receipt and maintenance of test materials

             Assisting the Test Administrator with the distribution and return of test materials

             Ensuring that students are completing the test as required in the test guidelines

             Assisting in maintaining the integrity of the testing process

             Assisting the Test Administrator with the required test accommodations for students in the special populations

             Ensuring test security

             Other responsibilities as needed




           2010 Test Chairperson’s Manual	                            District of Columbia Comprehensive Assessment System 49




c2700952_TCM_Body_s10DC.indd 49                                                                                                  12/24/09 10:43:43 AM
c2700952_TCM_Body_s10DC.indd 50
                                  Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education




12/24/09 10:43:44 AM
           Appendix H: Test Security and Non—Disclosure Agreement



                                  CONFIDENTIALITY AGREEMENT FOR THE DISTRICT OF COLUMBIA
                                         COMPREHENSIVE ASSESSMENT SYSTEM (DC CAS)


                     This form is required for all personnel who work with tests administered by or through the District of
                     Columbia State Office of Education. Schools must retain completed forms for at least three years
                     following the last contact of the named person with any State Office of Education assessment material.

                     It is my understanding that the District of Columbia Comprehensive Assessment System materials are
                     secure documents. I agree to abide by all of the regulations governing test administration and data
                     reporting policies and procedures. As a part of these regulations, I know that I am:

                          • *Not to provide any support with information or answers to students during the examination
                              period.
                          • Not to duplicate secure test materials for any reason except as authorized by the State Office of
                              Education Division of Assessment and Accountability.
                          • Not to make written notes about the topics or content of the test materials unless requested to do so




                                                                                                                                                      Copyright © 2010 by the District of Columbia Office of the State Superintendent of Education
                              by the State office.
                          • Not to provide any part of the test materials for examination or other use by any other party unless
                              authorized by the State office.
                          •   Not to disseminate any of the test materials to any other party unless authorized by the State office.
                          •   Not to discuss, coach, or teach test specific items of the test at any time.
                          •   Not to discuss or review with students information related to specific test items at any time.
                          •   To maintain under secured conditions all test booklets in my possession.
                          •   To return all test materials to the representative authorized by the State by the agreed-upon date.
                          •   Not to modify or change answers on any test books or student answer booklets.


                     * Special education accommodations must be provided as outlined in the IEP.



                     Name_____________________________                                 School/Office_______________________



                     Signature __________________________                               Date ______________________________




                                                 810 First Street, NE, Washington, DC 20002
                                          Phone: 202-741-0256       Fax: 202-724-7656     www.osse.dc.gov



           2010 Test Chairperson’s Manual	                             District of Columbia Comprehensive Assessment System  51




c2700952_TCM_Body_s10DC.indd 51                                                                                                        1/15/10 10:37:33 AM
                               Website: www.osse.dc.gov




d2700952_TCM_BC_s10DC.indd 1                              11/19/09 11:42:36 AM
(b) (6), (b) (7)(C)




                      (b) (6), (b) (7)(C)

                      (b) (6), (b) (7)(C)
                                   UNITED STATES DEPARTMENT OF EDUCATION
                                           OFFICE OF INSPECTOR GENERAL 

                                                     INVESTIGA T1VE SERVICES 

                                                           Mid-Atlantic Region 

                                                    550 12'h Street SW, Suite 8025 

                                                     Washi ngton , DC 20202-1500 

                                                        Phone (202) 245-6918 

                                                         Fax (202) 245-70 87 


                                                              AUG 24: 2011

(b) (6), (b) (7)(C)




Attention: Custodian of Records

Pursuant to 5 U.S .c. app. 3, sections 4, 6(a)(4), the enclosed subpoena duces tec um has been
issued by the Office of Inspector General of the United States Depal1ment of Education. The
material s identified should be produced as indicated on the subpoena.

This subpoena may be satisfied by mailing the requested documents and a signed copy of the
attached Declaration of Compliance to the address listed below on or before the specified date:

                                Special Agent (b) (6), (b) (7)(C)
                                U.S. Department of Education
                                Office of Inspector General
                                550 1ih Street, SW , 8 th Floor
                                Washington, DC 20024

If for any reason any of the required materials are not furnished, list and indicate the location of
such materials and the reason for nonproduction. In addition, if any document called for is
withheld because of a claim of attorney-client privilege, identify: (a) the attorney and client
involved :. (b) all persons or entities who were involved in the preparation of the document; (c) all
persons or entities who received the document; (d) all persons or entities known to have been
furnished the document or informed of its substance: (e) the date of the document; and (f) the
subject matter of the document.
                                                                                        (b) (6), (b) (7)(C)                                     (b) (6), (b) (7)(C)
lf you have any questions , you may contact Special Agent                                                     at (b) (6), (b) (7)(C) or me at
         .


                                                                             Sincerely,




                                                                          //~~-
                                                                              '
                                                                             Steven D. Anderson
                                                                             Special Agent in Charge



 The Department of Education's mission is to promote srudcnt achi cvemcnt and preparation for global compe titiveness b) fostcring educational
                                                   ~\cellence and ensuri ng equal access
                                     UNITED STATES DEPARTMENT OF EDUCATION
                                              OFFICE OF INSPECTOR GENERAL 

                                                        INVESTIGA T1VE SERVICES 

                                                            \1id-Atlantic Region 

                                                       550 12th Street SW, Suite S025 

                                                        Washington, DC 20202-1500 

                                                           Phone (202) 245-691S 

                                                            Fax (202) 245-70S7 





                                              SUBPOENA DUCES TECUM

TO : 	 (b) (6), (b) (7)(C)

                               

                                          


        Attention: Custodian of Records

YOU ARE HEREBY COMMANDED TO APPEAR BEFORE Special Agent (b) (6), (b) (7)(C) , a duly
authorized representative of the Office of Inspector General at 550 12tll Street S.W., 8th Floor, in the
city of Washington in the District of Columbia, on the 6 th Day of September, 2011 , at 9 o'clock a.m.,
and produce certain documentary evidence specified below (or in an attachment hereto) which is
necessary in the performance of the responsi bility of the Inspector General to cond uct and supervise
investigations, audits, and perform such other functions as are necessary to promote economy,
efficiency, and effectiveness in the administration of, and to prevent and detect fraud, waste, and
abuse in and relating to, the programs and operations of the L .S. Department of Education .

YOU ARE FURTHER COMMANDED to bring with you and produce and provide at said time and
place the following: SEE A IT ACHMENT A.

                                                                          (b) (6), (b) (7)(C)
Please direct all inquires about this subpoena to Special Agent (b) (6), (b)    (7)(C) at (b) (6), (b) (7)(C)
and fax: (b) (6), (b) (7)(C) .

ISSU ED UN DER THE AUTHORITY OF THE INSPECTOR GENERAL ACT, TITLE 5 U .S.c.
APP. 3, SECTIONS 4, 6(a)(4).
                                           OFFICE OF I~ SP~CT~NERA~


                                                                                  BY:          d/.~
                                                                                            ~Steven D. Anderson
                                                                                             Special Agent in Charge

                                                                                  DATE: _____AU_G_2_4_20_11______                                   





 T he Departm ent of Edu cati on' s mi ss ion IS to promote srudent achievement and preparation for global competitiven ess by fosterin g edu ca ti onal
                                                          excellence and ensuring equal acces:;
EdlUleering, Inc.
Subpoena Attachment A


Produce copies of all the following records :

    1. 	 Any and all documents and information associated with the opinion,
         recommendations or other services provided by you to District of Columbia
         Public Schools CDCPS) concerning potential cheating on standardized tests within
         the District of Columbia School System , including but not limited to:

           a. 	 audio/video recordings, memorandums of interviews, notes, internal
                memorandums, analyses, statements and investigative materials;
           b. 	 correspondence between the District of Columbia and Eduneering,
                including electronic correspondence.

   2. 	 Any and all documents and information related to DCPS standardized test
        procedures, potential cheating or other improper test related procedures within
        DCPS.
                               United States Department of Education
                                         OFFICE OF INSPECTOR GENERAL



                              PRIVACY ACT NOTIFICATION
    The Privacy Act of 1974, 5 U.s.c. § 552a(e), requires the Office of Inspector General (O IG), U.S .
Department of Education (Department). to provide yo u with thi s notice when requesting information from
you.

Authority for the Solicitation of Information

     This infonnation request is in connection with an official inquiry under the authority of the Inspector
General Act of 1978, 5 U.S .c. app. 3, as amended. and the regulations governing the programs and acti vi ties
of the Department contained in Title 34 of the Code of Federal Regulations. Department employees are
required by paragraph V I.A.3 of ACS Directive OIG: 1-102, "Cooperation with the Office of Inspector
General'-' to respond to al.l official requests of representatives of the O[G unless providing informatio n may
tend to incriminate the employee. [ndividuals and entities that have contract- or grant-based relationships
with the Federal government may be required. by the tenns of such relationship, to provide infonnation .
Infonnation req uested by administrative subpoena is required to be provided to O[G . [n all other
circumstances. providing infonnation to the OIG is voluntary.

Principal Purpose for Solicitation of Information

     The Office of Inspector General will use the inforn1ation you provide to evaluate Department programs
and operations and to detect fraud, waste, abuse, or mismanagement in such programs and operations.

Routine Uses of the Solicited Information

      The information you provide will be incorporated into a system of records known as the Investigative
Files of the Inspector General ED/O IG . It may be disseminated outside of the Department in accordance with
publi shed routine uses set forth on the reverse of this fonn.

Consequences of Failure to Furnish Information

         The failure ofa Department employee to supply the requested information when disclosure of
such information is mandatory may result in administrative sanctions against the employee including
removal from the Federal service. The failure of a contractor or grantee to provide infonnation required
under the provisions of the contract, granc or Department regulations may result in administrative
sanctions. The failure of a subpoena recipient to su pply requested documents and infonnation may cause
the OIG to seekjudicia l enforcement of the subpoena in an appropriate United States District Court. If
the court enforces the subpoena and yo u thereafter fail to provide the infonnation. you may be subject to
civil and /or crimina l sanctions for contempt of court.




EO/OIG Manual Chapter J 220                  Appendix B.I                              August 10.2011
                                                ROUTINE USES OF THE INFORMATION 

lnl"onmllion may be diss 'minaK-d oU15ldc 01" the DqJartme11l 01' Lducation ill                   6. l () //ll'{l clOl'S 'ConsultanlS. Inl o nnalion mav bc disclosed to the employecs of
aC'eurdance \\llh the 1"0110"'l ng rouUn~ uses                                                    any emi ty I'r individual wilh whom or \\·ith which th e Departm ent con lracts lor
                                                                                                  the purpose of perfon111 11 g anv funcllons or anal yses Ihal facilitale or arc
I I.£N En(orcenrenl. Into rt1mtllJn rna\' t-.c J isclos.:d to anc· f ede ra l. Slal~ IclCdi. or   rel evant to an O IG investi gation, audit. inspection. or olh er InqUlr,', 8efore
fore l ~ agenc\ or other public aUlhoruy responsible for c·nforcing. in vcslIgali ng. or          enterin!! Into such a contract. the Department sha ll req uire the cont raclor to
prose..:utin g \'Iobtlons of law or regulation If that in foll nallon IS r<:levant to any         1l1ainta lll Pn v ~c y Ac t safeguards, as req uired under 5 U SC 552a(m) \\'1th
en lo rcement, regulato" , mvesttgatlve or prost'c ulonal re;;pon,i111lity 01" thc                respeC! to Ihe rec011ls 111 the system.
rece lvmg em ity
                                                                                                  7. Dehurntent S uspension. Infonnation may be di sclosed t(1 another Federal
2. lnl"omlallon mav be dISc losed to public or pri\·ate sou rces to thc exten t ncn"S:;ar,'       ;J~cncy conSideri ng suspe nsion or debamlenl act ion whe re IhL' tnfonna tion is
to ohtai n I11tonnation from those sources relevant II' an Ole; invesligation, au dil             relevanl 10 the susrensron or debannent action lnfonnalron may also be
IIl sl eetion, or othcr inquiry'.                                                                 dISclo sed to anoth er agency to ga m infomlation in su pport of the Department's
      '
                                                                                                  0"" ueball'nent and suspe nsion aClions
3 Elllploymel7l, Enrplo)ee lienefil. Clearance. Con lracting Decisions.
 (a) Infom1all on may be di sclosed to it Federal, State, local or forei gn agene\'               8. Oeportnrenl oj )usllce. Infonnation rnav he disclosed to Ihe Dcpanment of
maintaining civ il , cnminal, or other relev'an l cnllllccmcm or other pertin ent rocorJ, .       JuSllce, to the e\lent neccssarv for (1blainins ils advice on any rnaller relevanl to
or to anol her public authority or pro les,; ional org;lJ1 i7.3lion. if necessary 10 Ob13111      Depanm ent " I' fdueallon progTams or operalions.
mfonnall on relevanl to a Department decision conceming the hiri ng or retenllon of
an cmr loyee or other personnel action. Ule ISsu:).n e or retention 01' a secur'it)'              9 Congr..n. Inlo rlnati(ln may hc disclosed to a member of (ong r~ss from the
c1c~ranc e ule Icllmg of a contracl or Ule Issuance or retenllon of a 11(;C11SC grant or          record 0f an Ind iVidual in respon se to an inquiry from the mcmhcr made dl the
othcr benciit. (b) Inf(1r1113tion may be disc losed 10 a Federal, State, loca l. or loreign       \\Titlen request or tha t indi Vidual. The mem ber s n gh l 10 Ihe informalion IS nu
agenc\', other public authority , or profeSSional organ1l3tlon m connc'C \J{)n \\lth thc          greatcr than the ngh t of the individual who requested il.
hirmg or ret~n ll on of an employee or other pcrsonnd actron. the ISSUilllCc or
retenllon of a sec uri ty clearance. the let1mg or a contrdc or the I",uanee or rl:lenlion        10 Benefit Program, Intonnati on may be diScioSE'd to am' Fede ral., State, loca l
or a Iiccnse, granl or olher benefit.                                                             or fore ign agcne\' , or other public <tuthonty, ir relevant to Ihe prewnlion or
                                                                                                  deleClr On (11' rraud and abuse rn henefr t programs admi nistered b\' ~f1\ U!!cnc" or
4 Disclosure      10 Public and Prirale So urces in COflflecllofl l.-jlh Ihe IIlg her             publiC authorit y,
[duca llon ,-Ie l o( 1')65. lIS Amended (HF.Aj. 'The OIG may dr selose informat ion
J'r om Ihl s ~ Slem of records as a rouline use to lacilitate compli ance \\i th                  11 Orell'll) melli. In fortllat ion may be di sclosed 10 an y Federa l. Stale, loca l or
r rognlm requirements to anv accrediling agen cy Ihal is or \\ ~" recngnfl..cd by Ihe             foreign agt'ncy, or oth er publiC aUlhonty, If reb·ant to the colleclion of dehls
Scer~\.a ,,' of Education pursuant 10 the Ht: A, to an.. cducallon al inslit ull nn or            and ovcrpayments o\\ed to any agency or publiC duthonty.
sc hool Ihal is or was a part) to an agreemc11l with the Secretary of Euuc'at lon
r ursuant 10 Ih e II I:         tel any guaranty agene) th ai is or was a parrv 10 an             12 Disc!osun' 10 Ihe Co unc" of Ihe Inspeclors General on Inlegrir)' and
agreement ",th th e Sec retary' of Lducallon pursuant to the HEA: or to anv                       EffiCiency (lIG /ri . The OIG ma\' disclose records as a roulin e use 10 members
agen cy Ihal IS or was charged ",th licen Sin g or legallv aUlhoriZing Ihc operallon              and cmr lo\'ees 01' Ihe ( IGIL for the rreraratlon lie reports to th e PreS id en t and
of' an )' ed ucallona l in slI tU110n or school Ihat \\,,"s eligible, is cun'cm l\ drgr h1e. or   Con gress on the acti\ ilies oJ' Ihe InspeclOrs General.
may I->ecome eli gible to participate in any program of Fed~ra l st udent ass istance
aUlhomed by the 1-1 FA                                                                            13 . Disclosure f or QualilOlil'e Assessmenl RerieH's. The OIG may disc lose
                                                                                                  records as a lOut me use to membe rs of Ihe (IGIF . Ihe DOJ. the U 5 Marshals
(5)   Liligalloll Disclosure.                                                                     Service or anv Federa l agency lo r the purpose of conduc ti ng qualltallve
(a) Disclosu re to the Depan mcnt of Justice If the disclosure of cenain rec ords                 assessment re\'iews of the in ve5ligauve operations of the Department of
to the Depan mcm of Justice (DOJ) IS rd e"ant and necessa1'} to li tigalion and 1' 5              Ed ucat ion . Office of In spector General 10 ensure thai adeq uale intemal
compatible with the purpose for which the record s \\·ere Cc lIec ted. those recurds              sa feguards and management procedures are maintained
ma)' be di scl osed. Suc h a disclosu re may be made in Ihe event that one of the
part i ~ s listed below is involved m the litigall on. or has an interesl in Ihe                   14 Disclosure 10 Ihe Recoref')' Accountabiliry and Transparency Board rRA rB).
li tr gat io n: (i) I'he Department or any component of Ihe Depa rtment: (Ii) ny                  l n e O IG ma)' dr sclose records ,os a roulme use to the RA 1"8 for purpose- of
cmp loyee o/ th e Department In hi s or her ol'ticla l capacity, (iii) IIn\ em pl uvee            coordinal in g and conductin g oversight of American Recovery an d Rei nveslment
of the Departmem 111 hi s or her individua l capac ity " liere the Department of                  Act fund s to pre vent fraud, was te , and ,ti)use.
Ju sti ce has agreed to represent the empl oyee nr in connccli(1n With a requesl ror
such rep resenta ti on: or (iv) The lJnlled States. where th e Department detenn ines             15. Disclosure in Ih e Course of Resp()nding 10 Breach of Data. 'Ih e O IG may
Ihatthc litigati on is likelv to affeclthe Departm ent or any ul liS componenls                   d isclose record s from Ih ls sys tem to appropflate agencies , entitic's, and re rsoll s
                                                                                                  when (a) Ih t OIG sus eclS (1r has confirmed thai the secun[\ or confide ntiality
(b) Ot her Llligation Disc losure If discl osure of certain records 10 a court,                   of inl'onn alion in Ihe svslem of records has been com promi sed; (b) the OIG has
adJud icative bod y be fore which the Departm e11! is authorized 10 appear.                       detcrrnmcd that as a rcsllit or the Slis peeled or confirmed compromise there IS a
indr\ idual or en lltv des ignateJ hv the Depanmenl or olhc,,\ise empo\\ ercd to                  ri sk of harm 10 (;eonom ic or propertv interests, identit\' theft or fraud, or harm to
resolv· c J', putes, Counsel or other representative, or potenll al " ,tness I:; relevant         the secunry or 1I1tcgrity of Ihis sv'stem or other s) stems or programs (whether
and neccssa,,' to li tigation and is eom patl hJc \\~th Iho! purpose lor wh ich the               ma ln talncd by the Depanment or another age nC\ or enllt\") that rely upon the
records we re collected, those rccnrJ s ma\' be di sc losed a, a routine usc 10 the               comrromi sed ini onnation: and (c) the disclosure made to such agencies,
court, adjudicati ve hod \ . indi\ IJual or entll v, Counse l or ot her rerresentati vc, or       enlltr es, and persons rs reasonably necessary \(1 assist in connection with the
poten tial \\1 tness Such a disclosure may be m ~d<! rn the event thai one of the                 O IG's e f~ rts 10 resrond to the suspec led or confinned compromi:;e and prevent ,
parties li sted belo\\' is involved in the litigalion , or has an Interest 111 the                minrmi le , or remedy such ha nn,
IlI igauon (I) cil1e Depa rtment. or any comronenl of the Dcpanm cnl, (ir) Any
employee of the Department in his or her official capacity: ( I'll) An) emplovee                  Cillesc routi ne uses are published in rull at fi8 Fed. Reg 38154,58 (Jlme 26, 2003)
of the Department in hiS or her individual capac ity wherc' the Depanment has                     and 75 Fed , Reg. 331iO ~, 1 0 (June 14, 2() 10)
agreed to represent the e:nplo\~e: or (iv) Th e United States, where Ihe
Departme nt dctennines that the li tigation IS likely 10 arrcc t the Department or
any <.,J liS com ponents




            ED/OIG Manual Chapter 1220                                          Appendix B. I                                              August 10 , 20 II
                                           United States Department of Education
                                                     OFFICE OF INSPECTOR GENERAL



                                         NOTIFICATION TO SUBMITTERS OF 

                                                 CONFIDENTIAL 

                                           COMMERCIAL INFORMATION 


          You have or may be asked to submit to the Office of Inspector General (OIG), U.S . Department of Education , information in
connection with an investigation , audit, inspection. or other inquiry pursuant to the Inspector General Act of 1978, as amended,S
U.S.c. app. 3. This is to notify you that if you deem any of this information to be "confidential commercial information ," you may
take steps to so designate that information to protect its confidentiality if at a future point in time a request is made for disclosure of
this information under the Freedom of Information Act (FOIA).

         "Confidential commercial infornlation" means records that ma y contain material exempt from release under Exemption 4 of
the FOIA (pertaining to trade secrets and commercial or financial information that is privileged or confidential), because disclosure
could reasonably be expected to cause substantial competitive harm.

          You may use any reasonable method you believe appropriate and which is acceptable to the OIG to indicate which
documents and information you deem to fall into the category of confidential commercial information. Please be as specific as
possible in segregating the infonnation that you consider to be "confidential commercial information" fTom any other information you
are providing to the OIG . This may be done before such information is provided to the OIG if feasible, but only ifit will not delay or
interfere with production of the information or delay or interfere with the OIG's investigation, audit , inspection , or other inquiry.
Otherwi se, you may so designate this in formation within a reasonable period of time after the information is provided to the OIG.

         If a FOIA request is received by the OIG for information you have designated as confidential commercial information , the
OIG is nevertheless required by law to make its own independent determination of whether the FOIA requires disclosure of the
information or whether it should be withheld pursuant to Exe mption (b)(4) or any other exemption of the FOIA. If the OIG
determines that it may be required to disclo se pursuant to the FOIA that information you have designated or other information that the
OIG has reason to believe could reasonably be expected to cause substantial competitive harm. to the extent permitted by law, we will
make a good faith effort to notify you and provide yo u with a reasonable opportunity to object to such disclo sure and to state all
grounds upon which you oppose disclosure. We will give careful consideration to all specified grounds for nondisclosure prior to
making our final decision.

         If we nonetheless believe that disclosure is required, we will provide you with a statement explaining why your objections
were not sustained and specifying a disclosure date . To the extent pennitted by law, this statement will be provided to you in a
reasonable number of days prior to the speci fied disclosure date. Furthermore, if disclosure of the designated information is denied
pursuant to an exemption under the FOIA and an administrative or judicial appeal is taken by the FOIA requester, we will make a
good faith effort to notify you promptly.

          The procedures outlined in this notice are intended only to improve the internal management of the OIG and are not intended
to create any right or benefit, substantive or procedural , enforceable at law by a party against the United States, its agencies, its
officers, or any person.




         ED/OIG Manual Chapter 1220                      Appendix B.2                                  August 10,2011
FD-302 (Rev. 10-6-95)



                                                                                       -1-
                                                     FEDERAL BUREAU OF INVESTIGATION



                                                                                                          Deofrancription          07/29/2011

                                 Adell Cothorne   residing at i    nCothornp)      bL
                                                 was interviewed at the U.S.
            Attorney's Utfice, Civil Division, located at 501 Thrd Strpt, NW,
            Washinaton, DC.   Cathornp was  nrPmne     hN,                fa n d
                                                           Also present during
            Lne incervIew were Assistant U.S. Attorney
            Department of Justice Trial Attorney                 Assistant
            Counsel to the Inspector General of the U.S. Department of
            Education (DOED)r                   I and DOED Special Agentl        I
          I          I Cothorne was advised of the identity of the interviewing
            agent and the nature of the interview. Cothorne provided the
            following information following a presentation by her attorneys:

                      Cothorne attended Baltimore City Schools. Cothorne
            graduated from Morgan State in 1994.  Cothorne received a Masters
            in Education from John Hopkins University in 2006. Cothorne began
            an on-line doctorate program with Waldon in 2008. At this time,
            Cothorne does not plan to complete the doctorate program.

                      Cothorne worked for Howard County Public Schools as a
            first and second grade teacher in 1994.  In 1998, Cothorne wrote
            math curriculum for John Hopkins. In 2000, Cothorne began working
            for Baltimore County Public Schools teaching third and forth grade.
            In 2002, Cothorne was chosen to be a facilitator in charge of the
            Special Education Program in Baltimore County. From 2002-2006,
            Cothorne was the Assistant Principal of Wellwood International
            School. The following year Cothorne became an assistant principal
            in Montgomery County. Between 2007 and 2010, Cothorne was in a
            principal internship program in Montgomery County. During this
            time Cothorne worked at Maryvale, Waterslanding and Thurgood
            Marshall schools. Cothorne was the principal of Noyes Elementary
            School (Noyes) in DC from 08/02/2010 to 07/15/2011. Cothorne has    b6
            plans to open a cupcake boutiaue in Ocntnhr in Flirntt                                                                  Cit              b7C
            Maryland.
            Cothorne does nor nave a criminal record.

                      All DC schools take the District of Columbia
            Comprehensive Assessment System (DC CAS) test on an annual basis.
            The DC CAS is unique to DC. A contractor is hired by the district
            to develop the test. A new test is given each year to each grade.
            Copies of prior year's tests may be available for teachers to

    Investigationon     - 07/28/2011                 at   Washington, DC

    File # ASSESS-0                                                                                Date dictated                                      b6

    by      SA I                                   (b)
                                                   (7)
    This document contains neither reconmendations (C),nor concluions    of the FBI,   It is the property of the FBI and is loaned to your agency;
    it and its contents are not to be distributed outside your agency.
                                                   (b)
                                                   (6)
FD-302a (Rev. 10-6-95)




              ASSESS-0


ContinuatioofFD-302of    Adell Cothorne                           On 07/28/2011   .Page   2


             review.                                    I                    at Nov
             who is also tne individuil in    hyrgeP   of the                                 bC
                                                  |was very rin     with the
                                                                    was part of

                         The district does not have a set curriculum for DC
             schools.    DC Schools use a standardized lesson plan.

                       (b) (7)(C), Engineering is the unnamed organization in the
             Qui Tam Complaint
                       (b) (6)     that performed an audit on the DC CAS scores.
             Cothorne has been in touch with someone in their division of
             Professional Development.




                       When Cothorne was recruited to work at Noyes, she
             conducted her own research on the school. Cothorne reviewed
             information from the Office of the State Superintendent of
             Education (OSSE) database. It was from OSSE that Cothorne became                 be
             aware that test scores in 2006 wer  in  h   wntv-f       percentile              bic
             at Noyes.

                       DC uses contractors to develop and score the standardized
             tests. The DC CAS is administered by CTB/McGraw-Hill. The
             District of Columbia Benchmark Assessment System (DC BAS) test is
             administered by Discovery Education. Three phases of the DC BAS
             test are the BAS-P, BAS-A and BAS-C. The BAS-P tests the student's
             knowledge of retaining information from the prior school year. It
             is administered at the beginning of the school year. The BAS-A is
             administered mid-year to test for improvement. The BAS-C is the
             final phase of the BAS series, administered near the end of the
             school year. Together the three scores create a pattern to track a
             student's progress. As a principal, Cothorne was encouraged to
             create a data wall at Noyes to track results. The data wall
             covered the walls in a room used by all of the teachers at Noyes.
             Each student, in each grade tested, had test score information and
             results on the wall.
FD-302a(Rv. 106-95)




             ASSESS-0


ContinuationofFD-302 of   Adell Cothorne                      ,O   07/28/2011   ,rage   3

                        Cothorne sawl      land                          looking 66
             at the data wall. They were involved in a discussion and seemed to bXc
             be taking notes. Cothorne's only explanation for what they were
             doing was strategizing. The only reason to cheat on the BAS-A and
             BAS-C tests were to create a pattern of improvement for the
             student. The BAS test scores are used for t cher evaluations so
             they are important. WhatI         land i     Imay have been doing
             was recording student's scores from the previous BAS test to make
             sure they only improved their next score within a certain marin
             Cothorne did not have direct conversations with         lor
             to confirm this is in fact what they were doing while reviewing the
             data wall.

                       The teacher is responsible for picking up the test
            booklets from the test administrator, signing them out, and
            bringing them to the classroom when testing is ready to begin. The
            teacher distributes the sealed booklets to the students.   The
            teacher reads the directions out loud to the classroom. While the
            students take the test, the teach circulates the room. The teacher
            is not allowed to leave the classroom for any reason. A proctor is
            supposed to be in the room with the teacher. The teacher does not
            write anything on the booklet or the score sheet. At the end of
            the test, the teacher collects the booklets and score sheets and
            puts them in a bin. The bin is returned to the test A inistrator                6
            in the testin location.                                                             c
            appointed byI
          I           I Once testing is complete,                    DC CAS exam
            booklets and score sheets to CTB/McGraw-Hill in specialized testing
            boxes that cannot be tampered with. Th      s
            for only nine days.   Cothorne removed
            which will not be effective until the 2011-2012 school year.

                      The incident mentioned in the Qui Tam Complaint involved
            Cothorne walking in on                  and
            who appeared to have erasers and students' BAS test sheets in front
            of them.      Cothorne did not confront the men, she immedia        Jft
            the room. Cothorne telephonically contacted                                     I
            in the Office of the Chief Academic Office o DCPS. Cothorne
            expl          situation. That was the last time she had contact
            with           After the call with          Cothorne called
                    to   Cothorne not to worry abou    e BAS test, rather she
            should worry about the CAS test.         Itold Cothorne to make
            sure monitors were in place during CAS testing. The monitors would
            be two individuals from the DCPS front office. These outside
FD-302a (R   . 10-6-95)




             ASSESS-0


ContinuatianofFD-302of         Adell Cothorne                       .on   07/28/2011    Page   4

             monitors were responsible for watching the opening of the test
             booklets when they arrived at the school. They also walked around
             the school while the tests were administered and they watched the
             test booklets get boxed up at the end of the testing schedule. The
             teachers and the proctors were the only ones in the classroom, the
             monitors walked the halls.

                       The testing days are scheduled with make up days built in
             for students that may be absent. A student uses the same test
             booklet throughout the test. When a student needs to make up a
             section of the test, a teacher may need to look through all of the
             booklets to find a particular booklet for a particular student.
             Cothorne observed five teachers looking through bins at once for
             booklets. To Cothorne this was a lot of people accessing the
             secure exam location at one time. Cothorne recommended to keep
             booklets for students that needed a make up session in one
             location, separate from the other tests.

                               Cothorne heard from|         |that there may have been test
                                                            rst Elementary School.
                                                   contact telephone number is                     be
                            Cothorne also heard of 2008 CAS erasure issues at                      bc
             C.W. Harris Elementary School from

             irregularities may be                                Cothorne does not have
             specific details about what               ay know.

                       Eduneering was contracted to look into the allegations of
             test irre ularities in 2008. Cothorne has been in contact with
                           Lfrom Eduneering. I           Icontact telephone number ]n c
             is                 In 2009, Caveon Consulting Services, LLC (Caveon)
             was hire to investigate the test irregularities from 2008.
             Cothorne has been in contact with
             I            I
                              As principal at Noyes, Cothorne heard other teachers
             express concerns about the testig at Noyes.

                 as                                                                    that was    bTe
                                                 expresse   concern.                   is still
             em 1o e          in the
                   expressed her concerns to Cothorne.              a l so
             expressed her concern.
             Cothorne took a different approac an the staff con fided in her.
FD-302a (Rev. 10-6-95)




             ASSESS-0


continuatiun ofFO-302of   Adell   Cothorne                             On 07/28/2011      ,Page        5


                       It is a far fetched argument to say that teachers taught
             to the test and that is why scores improved. There are no clear
             blue prints for what will be on the test so a teacher has no way of
             knowing what areas to specifically cover in lesson plans.  Teachers                           b
             had access to the prior year's test, and could   ach from that,                               bLe
             however the tests were changed every year.l o     old Cothorne not
             to collect teacher lesson plans at Noyes.  It may be a union issue
             that does not allow principals to collect the lesson plans.
             Cothorne asked the teachers at Noyes to turn in a list of
             objectives to review. Two weeks before the DC CAS is administered,
             it was crunch time at Noyes. Teachers conducted test preparation
             sessions for the students.
                              OSSE assigns each school ten power standards to achieve
              for the current year's test. Each school that had short comings on
              the test the previous year, were given the goals. Cothorne met
             with (b) (7)(C),                       on two occasions. On 07/13/2010,
              Cothorne
                     (b) (6) met with (b)      (b) (7)(C), (b) (6)                                 . b6
                   was present during   (7)      the (b) (7)(C), (b) . Noves' test scores were       b7c
              aiscussed, as well (C),     as how Cothorne
                                                       (6)         met              had recommended
              Cothorne for the position.(b)            (b)       wante to know i Cothorne was
              going to continue (6)     Noyes' history (7)       of success. (b)    and      told
              the story how (b)           promised (C), dinner at Ruth's Chris
                                                                             (7)    Steakhouse for
             the teachers at      (7) Noyes if test    (b) scores improved (C),
                                                                             two years in a row.
             (b)     made good(C),  on the promise(6) when the teachers      (b) met the goal.
             Cothorne met with
             (7)                  (b)   (b)    in August 2010, to set (6)    target goals for
             Noyes. (b)
             (C),                set
                                  (6)  a(7)goal for Noyes to increase five percentage
             points
             (b) (6)      (7) math and (C),
                         in               seven percentage points in reading.
                     (C),         (b)
                     (b) Cothorne (6)
                                    was initially hired to work at Tyler Elementary
             School. (6)After she accepted the position, she was told about the
             position at Noyes. During the goal setting meeting, Cothorne was
             told her job depended on test scores at Noyes. Fifty percent of
             her evaluation was tied to test scores of grades three through
             eight, in math or language arts. Fifty percent of a teacher's
             evaluation was also tied to the test scores. Noyes had to do well
             in order for Cothorne to keep her job.
                          The 20091                                                      is the
                                                        oworks with all orades.         In


                                     also acted as the                                            at
             Noes while Cothorne was there. I                                                          I
FD-302a(Rev.    0-6-95)




               ASSESS-0


Continuaionof FD-302of      Adell   Cothorne                   ,an   07/28/2011 -Pa e     6


                         After Cothorne walked in on the group in November 2010,
               her management team uit. The management team was a group of
               teachers selected by      to assist the principal. Up to this
               point, the management team was areat. The manamant tem
               consisted of
                               land                                        is the              be
                                                         was inl          classroom
               Wnen sne receivea a call trom the union representative. The union
               representative said the principal at Noyes had called concerning
               three teachers who had been caught          an swe      the BAS test.
               The management team, not including         and          met with
               Cothorne to discuss the situation.            told Cothorne during
               this meeting that Noyes had been accused o cheating before and
               they would survive again. I        |wanted Cothorne to call an all
               staff meeting to tell everyone about her accusations. Cothorne did
               not call an all staff meeting and she never again discussed the
               accusations with anyone, including          I
                         Cothorne strategized with the manaement team during
               their weekly meetings. Once the team quit,         was the only
               teacher that showed up at the next weekly meeting.  Cd
               not take any action against any of the teachers as             I
                                                              Cothorne does not                    ,
               Know it her allegations of cheating were ever investigated.
               Cothorne does know there was no reason for those teachers to have
               the test booklets or scan tron answer sheets in their possession
               when she walked in on them. Cothorne does not know why she did not
               say anything to them when she walked in on the situation        I        is
               Icurrentlyon                   I

                         Cothorne spoke with                         about the
               situation.  Cothorne told             she was being harassed by                be
                           Issured Cqthorne that he heard whAt she wa teiling                 bT
               him.  In January 2011.|                                      was
               assigned as the|                     at Noyes. In the 2011-2012
               school year               will be a teacher at Noyes.
                            Cothorne initially felt very welcome at Noves.     Cathorne
               was new to DC.                                                     be
                              ounorne told the start at Noyes that she would not  t7C
                r     a    anges in her first year. Cothorne let the staff know
               that she had an open door policy. Cothorne also planned to spend a
               lot of time observing in the classroom. Cothorne heard negative
               feedback from the staff in regards to IMPACT. Cothorne worked
FD-302a (Rev. 10-6-95)




              ASSESS-0


coninationofrD-02of       Adell   Cothorne                              ,on 07/28/2011     .Page   7


              successfully with her management team at Noyes for two or three
              months.

                        Cheating aside, Cothorne was concerned with the level of
              the student's written work at Noyes. It was very concerning to
              Cothorne that a seventh grader was writing at a third grade level.
              The students were definitely not performing at Blue Ribbon School
              levels. Teacher instruction was lackadaisical at best. Cothorne
              spoke to the instructional coach about her concerns. Cothorne
              later found out the content of these conversations were all relayed
              tol      IAlthough Cothorne was new to DC, she was not new to
              teaching. Maryland has the MSA test which is similar to the DC BAS
              test. Cothorne did not see any improprieties in Maryland.

                                                  -land Cothorne
                                                                         I
                                                                         Cothorne brought
                                                             eme pt      of Cothorne's
             management team. Within tree weeks I                      told Cothorne that
             something was not right at Noyes.                        id not think the
              students were at the proper grade levels.        told ohorn that
              Noyes was not what they told her it was        LNU and       also
                m
              confirmed it for Cothorne that something was not right.
                     are very close. Both of them will vouch for Cothorne.
                                                                           land

                          ---- was never directly involved in testin                     Noyes.        be
                                                       reported to                       that          brc
              teacners were alvina           S the answers      th      tet


              cheating.            named                     as one of the teachers
             accused of cheating on the BAS-A test.        said to Cothorne, "I
             think they out cheated themselves this t~me, in reference to the
                  vement from the BAS-P test scores to the BAS-A test scores.
            Salso       told Cothorne about corporal punishment accusations that
             were swept under the rug at Noyes. Cothorne now had to deal with
             the individuals that      should have dealt with while he was
           I              I

                                                                         III
                                           Stook this opportunity to have a
             closed door meeting with the members of the management team that
             had recently quit. Cothorne did not appreciatel        actions.
             Even if there was a complaint against Cothorne,      would not have
FD-302a (Rev. 10.6-95)




              ASSESS-0


contiualonofwFD-302 of            Adell Cothorne                         .on 07/28/2011    .Page   8


              been the one to handle it and the meeting with her staff was
              inappropriate.  Cothorne did not have any contact with       after
              this meeting.                                                      a        -ter
                                                                                          this
              incident.

                                  I         Iled the investigation into the BAS cheating           b6
              allegations. There is not a written report into the findings.                        b7c
              Cothorne never spoke tol       labout the cheating allegations
              after their first discussion.
                        While     was                        they never had
             instructional development meetings. All ot the meetings were about brT
             data.     b elittled and berated Cothorne during these meetings.
             The mee ings were once a week over the telephone. The usual time
             for the meeting was Monday at 1:00 P.M                            I

                                                               othorne because she was new to
              DCPS.      I            Imav have thouaht   Cntrn ul I h mr        lPi    who
              she wa         -I                                                                          b
                                     I
                                     otorne held monthly staff meetings with                            6b7
             the Noyes' teachers. The meetings focused on professional
             development. Cothorne implemented a Principal's Newsletter at
             Noyes as well as email messages that were sent to parents.
             Cothorne used a robo call to contact parents and remind them about
             the BAS tests. The BAS schedule was set b9          IA test
             security meeting was held before the CAS test. The security for
             the CAS test is much stricter. Monitors are in the building that
             are not associated with the school.
                       Cothorne walked into          classroom during a BAS test
             and observed the BAS test booklets open on the student's desks.
             The reading test was being administered. mwas        giving the
             students instruction and Cothorne heard him say, "You're going to   bLc
             see this later." Cothorne was in the room less than a minute. In
             her over fifteen years in teaching, Cothorne never observed a
             teacher giving instruction to a class during a standardized test.
             Cothorne did not report the incident to anyone nor did she confront
                   Son what was observed.
                                  During the March 2011 BAS testing, Cothorne stoeed by
                     |classroom. No proctor was in the r       dl       was                            te
             going over test content with the students.        stopped her
             instruction when she saw Cothorne. Cothorne stayed in the
FD-302a (Rev. 10-6-95)




             ASSESS-0


ContinutionofFnD-02of    Adell Cothorne                                 on 07/28/2011   .Pow   9
                                                                                                    b6
             classroom for five minutes, then walked out.               Cothorne did not say        ]bc
             anything to|       about what she observed.
                      I       I andl       I are the only ones that said anything
             directly to Cothorne about test scores and the possibility of
             cheating at other DC schools. The 2011 results for DC are dismal.
             DCPS and OSSE both should have been aware of cheating in DC
             schools. The both had access to the report that was prepared by                        ba
             Caveon.         also told Cothorne that she said something directly                    b7o
             to                                        when she saw I        Iat
             a          I      I               that she needed t        re of
             things that were going on at Noyes. I          itold       the
             issues would be addressed. DC administrators should also have paid
             closer attention to the score increases between the BAS-P and the
             BAS-A tests. The increases were significant enough to cause
             someone to take a second look at such an unusually large gain.

                            -- and --- are very ti ht.                They see each other
             socially outside of work. I      |and                    have vacationed
             together. There is a group from oves                     oes out to happy hour          Ac
             together.    Cothorne heard from                 that




                       Fifty percent of teacher bonuses, for grades three
             through ten, in DC are based on test scores. The other fifty
             percent is based on the Teaching and Learning Framework that has
             been established in DC. Cothorne received a bonus of $2,500.00
             because her staff was pulled for Effective Practice Incentive
             Community (EPIC) meetings during the school year. EPIC recognizes
             schools for helping students achieve dramatic academic gains.
                                                                                                   b6
                         The contact   te l e n h ane number fnol                                  b7c
                             was the                                at Noyes.
                       The DC Office of the Inspector General (OIG) has sent
             agents to Noyes to interview teachers. On 06/21/2011, eleven
             agents conducted interviews of over twenty teachers. Cothorne does
             not know if the interviews were completed, or whether the teachers
             consented to the interview. The teachers were aware the interviews
             had been scheduled. Six teachers did not show up for work that
             day.
FD-302a(Re.   10-6.95)




              ASSESS-0


colia tionofFD-302of     Adell Cothorne                    .on 07/28/2011   .Pa e   10


                        J.O. Wilson Elementary School had a higher erasure rate
              than Noyes. (b) (7)(C), (b) (6)                               .

                        A copy of the presentation made by attorney         will be
              maintained in an FD-340 with the main case file.
